<html>
<title> - THE GROWING PROBLEM OF INVASIVE SPECIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                THE GROWING PROBLEM OF INVASIVE SPECIES

=======================================================================

                        JOINT OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                             joint with the

              SUBCOMMITTEE ON NATIONAL PARKS, RECREATION,
                            AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, April 29, 2003

                               __________

                           Serial No. 108-17

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

86-708              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Madeleine Z. Bordallo, Guam
    Carolina                         Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 29, 2003...................................     1

Statement of Members:
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................    13
        Prepared statement of....................................    14
    Ortiz, Hon. Solomon P., a Representative in Congress from the 
      State of Texas, Statement submitted for the record.........   126
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     3
        Prepared statement of....................................     4
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................    11
        Prepared statement of....................................    12
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Arnett, G. Ray, Former Assistant Secretary for Fish and 
      Wildlife and Parks, U.S. Department of the Interior........    55
        Prepared statement of....................................    57
    Baughman, John, Executive Vice-President, International 
      Association of Fish and Wildlife Agencies..................    44
        Prepared statement of....................................    46
    Beers, James M., Science Advisor, American Land Rights 
      Association................................................   114
        Prepared statement of....................................   116
    Brandt, Dr. Stephen, Director of Great Lakes Environmental 
      Research Lab, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................    29
        Prepared statement of....................................    31
    Carlton, Dr. James T., Professor of Marine Sciences, Williams 
      College....................................................   112
        Prepared statement of....................................   113
    Connelly, John P., President, National Fisheries Institute...    71
        Prepared statement of....................................    72
    Grau, Fred V., Jr., President, Grasslyn, Inc.................    96
        Prepared statement of....................................    97
    Hyde, Myra Bradford, National Cattlemen's Beef Association...    67
        Prepared statement of....................................    69
    Kraus, Dr. Fred, Department of Natural Science, Bishop 
      Museum, Hawaii.............................................   117
        Prepared statement of....................................   119
    Lambert, Dr. Chuck, Deputy Under Secretary for Marketing and 
      Regulatory Programs, U.S. Department of Agriculture........    22
        Prepared statement of....................................    24
    Mann, Dr. Roger L., Acting Director for Research and Advisory 
      Services, Virginia Institute of Marine Science.............   108
        Prepared statement of....................................   110
    Pauli, Bill, President, California Farm Bureau Federation....    60
        Prepared statement of....................................    62
    Ruiz, Dr. Gregory M., Marine Ecologist, Smithsonian 
      Environmental Research Center..............................    98
        Prepared statement of....................................   100
    Shannon, John T., State Forester of Arkansas, on behalf of 
      the National Association of State Foresters................    75
        Prepared statement of....................................    80
    Tate, Dr. James, Jr., Science Advisor, U.S. Department of the 
      Interior...................................................    16
        Prepared statement of....................................    17
    Theriot, Dr. Edwin, Director of Management, Mississippi 
      Valley Division, U.S. Army Corps of Engineers..............    40
        Prepared statement of....................................    41
    Windle, Dr. Phyllis N., Senior Scientist, Union of Concerned 
      Scientists.................................................    84
        Prepared statement of....................................    85

Additional materials supplied:
    Pacific Ballast Water Group, Letter submitted for the record.   130
    Simberloff, Dr. Daniel, Professor, University of Tennessee, 
      Knoxville, Tennessee, Statement submitted for the record...     4
    Sledge, James L., Jr., President, National Association of 
      State Foresters, Statement submitted for the record........    76


   JOINT OVERSIGHT HEARING ON THE GROWING PROBLEM OF INVASIVE SPECIES

                              ----------                              


                        Tuesday, April 29, 2003

                     U.S. House of Representatives

Subcommittee on Fisheries Conservation, Wildlife and Oceans, joint with 
                                  the

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 1 p.m., in room 
1324, Longworth House Office Building, Hon. Jim Saxton [Vice 
Chairman of the Subcommittee on Fisheries Conservation, 
Wildlife and Oceans] presiding.

  STATEMENT OF THE HONORABLE JIM SAXTON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Saxton. The Subcommittees on Fisheries Conservation, 
Wildlife and Oceans and Parks, Recreation and Public Lands will 
conduct this joint oversight hearing on the growing problem of 
nonnative exotic and invasive species. And before I go on, I 
just need to ask unanimous consent that Mr. Hefley be permitted 
to participate in the joint hearing for the purpose of an 
opening statement and questions. And if you, Mr. Hefley, would 
like to come on over and join up with us, that will make us 
look unified as we always are.
    Mr. Faleomavaega. Chairman yield?
    Mr. Saxton. Be happy to yield.
    Mr. Faleomavaega. I thank the Chairman and I want to extend 
my personal welcome to the distinguished gentleman from 
Colorado whom I have had the personal privilege of knowing, and 
being an outstanding member of this Subcommittee that I want to 
join the Chairman in welcoming my good friend from Colorado to 
join us and to participate in our hearing this afternoon.
    Mr. Saxton. Thank you, Mr. Faleomavaega.
    It has been estimated that there are more than 5,000 
nonnative species in the country. Many of these species, like 
food crops and domestic livestock, have made invaluable 
contributions to our society. However, a growing number of 
foreign species which are referred to as invasive are 
destroying thousands of acres of critical habitat and 
endangering the long-term survival of dozens of indigenous 
plants and animals and undermining our entire ecosystems.
    Invasive plants have infested some 100 million acres in the 
United States and $14.4 billion is spent each year to offset 
crop losses and for increased pesticide use because of invasive 
species. According to a Cornell University study, economic 
losses and associated control costs exceed some $137 billion 
per year. That is a staggering figure and there can be no 
denying that invasive species are a growing problem that is 
adversely affecting our National Wildlife Refuges, National 
Forests and National Parks.
    I have another page and-a-half which I ask unanimous 
consent be included in the record. With that, it gives us a 
sense for the general topic today. And at this time, I will be 
happy to yield to the Ranking Member also from New Jersey, Mr. 
Pallone.
    [The prepared statement of Mr. Saxton follows:]

  Statement of The Honorable Jim Saxton, a Representative in Congress 
                      from the State of New Jersey

    Good afternoon. Today, the Subcommittees on Fisheries Conservation, 
Wildlife and Oceans and National Parks, Recreation and Public Lands 
will conduct this joint oversight hearing on the growing problem of 
non-native, exotic or invasive species.
    It has been estimated that there are more than 5,000 non-native 
species in this country. Many of these species, like food crops and 
domestic livestock, have made invaluable contributions to our society. 
However, a growing number of foreign species, which are referred to as 
invasives, are destroying thousands of acres of critical habitat, 
endangering the long term survival of dozens of indigenous plants and 
animals, and undermining entire ecosystems.
    Invasive plants have infested some 100 million acres in the United 
States and $14.4 billion is spent each year to offset crop losses and 
for increased pesticide use because of invasive insects. According to 
Cornell University, economic losses and associated control costs exceed 
some $137 billion per year.
    This is a staggering figure and there can be no denying that 
invasive species are a growing problem that is adversely affecting our 
National Wildlife Refuges, National Forests and National Parks.
    As someone who has witnessed the destruction of hundreds of acres 
of wetlands from non-native species, I am sadly aware that we are 
losing the battle against these unwanted invaders. The list of horror 
stories including species like the brown tree snake, mitten crab, 
purple loosestrife, coqui frog and zebra mussels is growing each day.
    It is for this reason that we have seen a host of new legislation 
introduced to address invasive species. These include: the Harmful 
Invasive Weed Control Act, the National Invasive Species Control Act, 
the National Aquatic Invasive Species Act, the Aquatic Invasive Species 
Research Act and the recently enacted Nutria Eradication and Control 
Act. While the focus of this hearing is not on these legislative 
measures, I am interested in hearing the extent of the invasives 
problem, the amount of money being spent to eliminate these species, 
whether the National Invasive Species Council has become the 
clearinghouse on invasives and what are the gaps in our existing laws.
    Unless an effective invasive species strategy is developed in the 
near future, we will continue to see the destruction of vital habitat 
and an increase in the number of species that must seek protection 
under our Endangered Species Act.
    I look forward to hearing from our distinguished witnesses and I am 
pleased to join with my friend and Colleague, the Chairman of the Parks 
Subcommittee, George Radanovich as we begin this hearing process.
                                 ______
                                 
    Mr. Pallone. Thank you, Mr. Chairman. This is the all New 
Jersey day, I guess.
    Mr. Saxton. And Colorado and California.
    Mr. Pallone. I was near your district over the weekend.
    Mr. Saxton. He should have warned you.

 STATEMENT OF THE HONORABLE FRANK PALLONE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. I wanted to say that I look forward to the 
hearing today and I know it is a joint hearing with our 
colleagues on the Parks Subcommittee.
    From aquatic invaders like zebra mussels to terrestrial 
culprits such as the brown tree snakes in Guam, which we heard 
from our colleague in previous hearings, to plants like purple 
loosestrife, invasive species leave no habitat in the United 
States untouched. After habitat loss, invasive species are the 
greatest threat to natural biodiversity that we face today. 
Invasive species, which include plants, fish, insects and other 
organisms, cost the United States more than $100 billion each 
year. Annual losses associated with some of the most expensive 
invasive species are in excess of $100 million per species.
    Aquatic and coastal habitats have suffered serious 
ecological consequences due to invasive species, and as a 
representative of a largely coastal district, I am concerned 
about the threats to native habitats in my home State. In New 
Jersey the invasive European green crab could become a serious 
threat to local clam fisheries, although New Jersey scientist 
Paul Jivoff has shown that blue crabs may act as a barrier to 
the spread of the green crab. We are obviously hopeful that 
this biological barrier will hold.
    The rapa whelk, an invasive snail that drills through 
oyster shells, has begun to spread into the Delaware Bay from 
the Chesapeake Bay. Additionally, invasive species of the marsh 
grass Phragmites is out-competing native marsh grasses and 
altering coastal and estuarine habitats. This last invader has 
become a symbol of the difficulties of balancing the negative 
impacts of an invasive species with the cost of eradication.
    The scale of the existing invasive species problem is 
striking. There are pressing needs in all States and 
territories for controlling ongoing invasions. But effective 
preventive measures combined with early intervention could 
reduce some of the economic costs and loss of habitat 
associated with establishing invasive species. I am interested 
in hearing from today's witnesses how best to identify 
potential threats and to prevent future introductions and hope 
that today's witnesses can shed some light on whether existing 
statutory authorities are adequate or whether they should be 
strengthened to directly address this threat.
    For example, could the scope of the Lacey Act, which 
prohibits the introduction of injurious wildlife, be expanded 
to include more species? Furthermore, could the Act be used 
more aggressively as it was by Secretary Norton in last year's 
high profile case of the northern snakehead fish in Maryland?
    We have been regrettably slow in addressing invasive 
species introductions and establishment in the United States, 
and I look forward to this hearing as a way to gain practical 
guidance in how to initiate or how to mitigate I should say the 
current problems and how to most efficiently head off future 
invasions.
    Thank you, Mr. Chairman and my colleagues.
    [The prepared statement of Mr. Pallone follows:]

Statement of The Honorable Frank Pallone, a Representative in Congress 
                      from the State of New Jersey

    Thank you Mr. Chairman. I look forward to this afternoon's joint 
hearing with our colleagues on the Parks Subcommittee to hear expert 
testimony from such a diverse group of witnesses.
    From aquatic invaders like zebra mussels, to terrestrial culprits 
such as brown tree snakes in Guam, to plants like purple loosestrife, 
invasive species leave no habitat in the United States untouched. After 
habitat loss, invasive species are the greatest threat to natural 
biodiversity faced today.
    Invasive species, which include plants, fish, insects, and other 
organisms, cost the United States more than $100 billion each year. 
Annual losses associated with some of the most expensive invasive 
species are in excess of $100 million per species.
    Aquatic and coastal habitats have suffered serious ecological 
consequences due to invasive species, and as a Representative of a 
largely coastal district, I am concerned about the threats to native 
habitats in my home state. For example, the invasive European green 
crab could become a serious threat to local clam fisheries, although a 
New Jersey scientist, Dr. Paul Jivoff, has shown that blue crabs may 
act as a barrier to the spread of the green crab. We're obviously 
hopeful that this biological barrier will hold. The rapa whelk, an 
invasive snail that drills through oyster shells, has begun to spread 
into the Delaware Bay from the Chesapeake Bay. Additionally, an 
invasive species of the marsh grass Phragmites is out-competing native 
marsh grasses and altering coastal and estuarine habitats. This last 
invader has become a symbol of the difficulties of balancing the 
negative impacts of an invasive species with the costs of eradication.
    The scale of the existing invasive species problem is striking. 
There are pressing needs in all States and territories for controlling 
ongoing invasions. But effective preventative measures, combined with 
early intervention, could surely reduce some of the economic costs and 
loss of habitat associated with established invasive species. I am 
interested in hearing from today's witnesses how best to identify 
potential threats and to prevent future introductions.
    I hope that today's witnesses can shed some light on whether 
existing statutory authorities are adequate or whether they should be 
strengthened to directly address this threat. For example, could the 
scope of the Lacey Act, which prohibits the introduction of ``injurious 
wildlife,'' be expanded to include more species? Furthermore, could the 
Act be used more aggressively, as it was by Secretary Norton in last 
year's high profile case of the Northern Snakehead fish in Maryland?
    We have been regrettably slow in addressing invasive species 
introductions and establishment in the United States. I look forward to 
this hearing as a way to gain practical guidance on how to mitigate the 
current problems, and how to most efficiently head off future 
invasions. Thank you.
                                 ______
                                 
    Mr. Saxton. Mr. Radanovich?
    Mr. Radanovich. Thanks, Mr. Chairman, for holding this 
meeting. A brief statement to read if I may and also want to 
submit for the record and ask unanimous consent to submit a 
statement on behalf of Jimmy Duncan.
    Mr. Saxton. Without objection.
    [The statement submitted for the record by The Honorable 
John J. Duncan, Jr., from Dr. Daniel Simberloff, Professor, 
University of Tennessee, Knoxville, Tennessee, follows:]

     Statement submitted for the record by Dr. Daniel Simberloff, 
             Professor, University of Tennessee, Knoxville

    I am Daniel Simberloff, and I am very grateful to the Committee 
members and particularly to Congressman Duncan for permitting me to 
submit this testimony for inclusion in the written record about a 
matter of great concern to me, invasive introduced species. As a 
faculty member at the University of Tennessee, Knoxville (the Nancy 
Gore Hunger Professor of Environmental Studies), I direct the Institute 
for Biological Invasions. I have conducted extensive research in 
environmental areas (and have published some 400 technical papers), and 
much of my research program for many years has been focused on impacts 
of invasive introduced species.

WHAT INVASIVE INTRODUCED SPECIES DO
    Invasive introduced species have many economic and environmental 
impacts. Some are obvious; others are subtler but no less important. An 
estimate of their cost to the U.S. economy is US$137 billion annually. 
Worldwide, introduced species are second only to habitat conversion as 
a cause of species endangerment and extinction; in this matter, they 
outrank harvest, pollution, disease, and global warming combined. 
Impacts of introduced species such as the chestnut blight in the 
eastern U.S., the sea lamprey in the Great Lakes, and the gypsy moth in 
eastern North America have long been known. Other more recent invaders, 
such as the zebra mussel and the Asian longhorned beetle, have burst 
onto the scene with much publicity and (in the case of the mussel) 
rapid ecological and economic damage. However, because these impacts 
are so multifarious and often subtle, many people are unaware of the 
full scope and depth of this problem. Further, introduced species 
sometimes remain innocuous for decades, then suddenly explode to become 
serious pests. Thus, some fraction of currently harmless introduced 
species will become plagues. In sum, species introductions are a global 
change of the first order, and their ecological and economic impacts 
over the last century surely exceed those caused by global warming. 
However, they have received insufficient public attention.
    Impacts of the majority fall into several well-defined categories.

Habitat Change and Ecosystem-Wide Impacts
    Because so many species are tied to particular habitats, an 
introduced species that greatly changes habitat can transform an entire 
community. The zebra mussel (from southern Russia) has greatly modified 
many ecosystems. By 2000 it ranged over much of the eastern United 
States and Canada. Most public attention has been focused on its 
economic impacts through fouling and clogging water pipes, with costs 
of billions of dollars. Ecological impacts are equally drastic. Its 
dense aggregations smother native mussels, many of which are 
endangered, and it has converted substrate in some areas into a jagged 
mass of mussel shells. In addition, it decreases phytoplankton 
densities, thus affecting fish, zooplankton, and other invertebrates. 
The very existence of many native molluscs is threatened, and there are 
many impacts on other species. Worse, this mussel interacts with other 
invaders to increase the impact of both the mussel and those species, 
as I will describe below.
    Introduced plants more frequently cause ecosystem-wide impacts via 
habitat change, because plants often constitute the habitat for an 
entire community, and because terrestrial, aquatic, and marine plants 
can overgrow large areas. The Japanese green alga Codium fragile (dead 
man's fingers or oyster thief) has profound effects in North America. 
It arrived in Long Island Sound by 1957 and has since spread south to 
North Carolina and north to Canada. It attaches to molluscs and 
destroys them, and it displaces native algae. In the Gulf of Maine, it 
is the main species in a group of invaders that has completely 
transformed native communities.
    Plants can change entire ecosystems even without overgrowing native 
species by modifying ecosystem traits and processes. For example, in 
Florida, Australian paperbark trees, with spongy outer bark, and highly 
flammable leaves and litter, have led to increased fire intensity and 
frequency. These changes, in turn, have helped paperbark replace native 
plants on ca. 400,000 acres, with been many subsequent changes to the 
regional community. This is one of many cases in which introduced 
plants, by modifying natural disturbance regimes, affect entire 
ecosystems. In the arid U.S. Southwest, Mediterranean salt cedars cause 
severe water loss because of their deep roots and rapid transpiration. 
On the volcanic island of Hawaii, the Atlantic nitrogen-fixing shrub 
Myrica faya (firebush) has invaded young, nitrogen-poor areas. As there 
are no native nitrogen-fixers, native plants have adapted to the 
nitrogen-poor soil, while introduced species cannot tolerate it. Now a 
wave of plant invaders aided by the firebush is establishing over large 
areas.
    An introduced species, such as a pathogen or herbivore, that 
removes a dominant plant or plants can affect a whole community. For 
example, the Asian chestnut blight fungus reached New York on nursery 
stock in the late nineteenth century, spread over 250 million acres of 
eastern North America from Ontario to Georgia in less than 50 years, 
and killed almost all mature chestnuts. Because chestnut had been a 
dominant tree in many areas, impacts on the native community were 
enormous. For example, several species that depended on chestnut went 
extinct, and nutrient cycling was heavily effected.

Species Effects
    There is a gradient between ecosystem-wide impact, as is caused by 
drastic habitat change, and impact on single species. I will describe 
various forces in terms of how one species affects another. There may 
be little further impact on the community, or the impact may spread to 
many species. Often, as in the chestnut blight case, an invasion must 
have had drastic impacts on a wide swath of the community, but data do 
not exist to detail the impact. For instance, all the earthworms of 
much of Canada and the northern United States are Eurasian immigrants. 
It is difficult to believe that the immigrant nature of animals as 
crucial to ecosystem function as earthworms cannot have had major 
impacts on whole ecosystems, but there has been no published research 
on the problem.

Competition
    Individuals of one species can prevent individuals of another from 
garnering resources, by fighting, for example. Or two species can 
affect one another's populations when both use the same resource. Some 
of the best-known cases of competition concern impacts of introduced 
species on natives. For example, the alewife, an Atlantic coastal fish, 
spread through the Great Lakes by the Welland Canal. The alewife 
reduced zooplankton populations, and competition for this resource 
contributed to the disappearance of native salmonid fishes. Alewives 
now dominate Lake Michigan and account for 70-90% of fish weight.
    European brown trout interfere with feeding by brook trout by 
displacing them from their favored feeding habitats, by increasing 
their periods of inactivity, and by reducing feeding activity. 
Introduced plants can poison the environment. For example, the African 
crystalline ice plant accumulates salt, which remains in the soil when 
the plant decomposes. In California, this plant excludes native plants 
that cannot tolerate salt.

Predation
    Many introduced species prey on native species, sometimes driving 
them to local or global extinction. The sea lamprey first arrived in 
Lake Ontario in the 1830s either by migrating through the Erie Canal or 
by hitchhiking on ships moving through the Erie and St. Lawrence canal 
systems; it then moved to Lake Erie through the Welland Canal. In 
combination with other factors, lamprey predation led directly to 
extinction of three Great Lakes fishes, the longjaw cisco, the 
deepwater cisco, and the blackfin cisco. Along with overfishing, 
watershed deforestation, and pollution, lampreys devastated populations 
of all large native fish. Economic impacts were dramatic; catches of 
many species declined 90% or more. Declines of these large fish rippled 
through the food web, and populations of several smaller fish species 
increased. As lampreys switched to these species in the absence of 
larger prey, many of them declined.
    There are even more dramatic impacts of introduced predators. For 
example, the rosy wolf snail of Florida and Central America was 
introduced to many islands around the world in a failed attempt to 
control the previously introduced giant African snail. The rosy wolf 
snail attacks native terrestrial, arboreal, and even aquatic snails on 
these islands and has already caused the extinction of at least thirty 
species, including many in Hawaii. The brown tree snake, introduced in 
cargo, has eliminated ten of the eleven native forest bird species on 
Guam.

Herbivory
    The best known impact of herbivores is economic damage by various 
insect pests of agricultural crops and forests. In 1869, the gypsy moth 
came to North America from Europe in a futile effort to generate a silk 
industry. It escaped in Massachusetts and occupied much of eastern 
North America. The moth feeds on many woody plants. Defoliation by this 
moth weakens trees and thereby increases their susceptibility to other 
insects and diseases. In some areas, repeated defoliation has caused up 
to 90% mortality of preferred host trees, thus greatly changing forest 
composition. There are many subsequent impacts on other species after a 
major infestation of woody plants. Litter amounts and decomposition 
increase, thus increasing nitrogen loss in stream flow, while both 
defoliation and reduction of oak mast production affect bird 
populations.
    The Russian wheat aphid, from southeastern Europe and southwestern 
Asia, spread to Mexico in the 1980s, arrived in the United States, and 
quickly spread through the western part of the United States and 
Canada. It attacks not only wheat but also barley and other plants. It 
has cost ca. $1 billion so far in yield losses and control costs, and 
it has led to the near elimination of wheat and barley crops in some 
regions. It has ecological as well as crop impacts. For example, it 
infests crested wheatgrass, planted for soil conservation, and the 
Eurasian seven-spot lady beetle, introduced to combat the aphid, has 
displaced native ladybeetles in many areas.

Disease
    In addition to major ecosystem-wide impacts as for chestnut blight, 
an introduced pathogen can have huge impacts on one species. Whirling 
disease is a European parasite that penetrates the head of juvenile 
trout, where it causes the fish to swim erratically, impeding their 
feeding and predator avoidance, and most young fish die. Spores reach 
the substrate when an infected fish dies or is eaten by a predator (in 
which case the spores are expelled in feces). There they withstand 
freezing and drying, remaining viable for 30 years. They are eaten by 
an aquatic worm, in whose gut the spore is converted to a mature form 
that infects trout.
    Rainbow trout are highly susceptible to whirling disease, which 
reached North America in 1955 and has since spread widely in the U.S. 
West. It arrived in North America by a tortuous route. North American 
rainbow trout were transplanted to Europe, where they acquired whirling 
disease from brown trout, a European native that harbors the parasite 
but resists the disease. Frozen rainbow trout from Scandinavia were 
then exported to Pennsylvania supermarkets. A stream flowing through a 
residential area carried the parasite to a fish hatchery. Fish spread 
the parasite from there to many other states, where it has been an 
economic disaster. In many streams in Montana and Colorado, whirling 
disease afflicts over 95% of the rainbow trout.

Hybridization
    Introduced species can gradually change a native species, even to 
the point of extinguishing it, by mating with it. Introduced rainbow 
trout, for example, hybridize with five native trout species listed 
under the Endangered Species Act. Gene pools of these species are 
gradually coming to resemble that of rainbow trout. In addition to game 
fish, fish introduced for biological control and released for bait have 
caused hybridization and even extinction, and there are many similar 
examples among mammals, birds, and plants.
    Even if hybrids are sterile, hybridization can cause extinction. 
The bull trout, a candidate for threatened status under the Endangered 
Species Act, hybridizes with introduced brook trout. Because of 
sterility, poor mating success, and low progeny survival, there is 
almost no backcrossing into parental populations. However, the bull 
trout are at a disadvantage because much of their reproductive effort 
is wasted in these hybrid matings, and they are declining.
    Hybridization between a native and an introduced species can even 
produce a new invasive scourge. For example, cordgrass of coastal 
eastern North America was introduced to England in the mid-19th 
century, but it was a harmless, uncommon exotic there. Occasionally it 
hybridized with the native Spartina maritima, but these hybrids were 
sterile. Then, ca. 1890, one such hybrid individual underwent a 
spontaneous chromosomal mutation (doubling its number of chromosomes) 
to become a fertile new invasive weed, S. anglica. It has more recently 
invaded northern Puget Sound, where it is the target of a so far futile 
control effort because it is destroying the habitat of large intertidal 
areas.

Combinations of Effects
    Introduced species often interact with other factors to generate an 
impact, and these interactions can be complex. Habitat loss is the most 
common cause of species endangerment (85% of all imperilled species), 
followed by introduced species (49%), which exceeds the sum of the next 
three most common factors (pollution [24%], overexploitation [17%], and 
disease [3%]). However, most species are threatened by more than one 
factor, as evidenced by the fact that these percentages sum to more 
than 100%. For example, the impact of sea lampreys combined with those 
of overexploitation, habitat destruction, and pollution in the Great 
Lakes to reduce many populations of large fishes dramatically. Recall 
that one important impact of defoliation by gypsy moths is to weaken 
trees, thereby rendering them more liable to death by a host of other 
causes, including impacts of other insects and diseases, both native 
and introduced.
    One way in which an introduced species interacts with another 
factor to the detriment of native species, communities, and ecosystems 
is by synergism with other introduced species. Often an introduced 
species remains innocuous in its new home until another species 
invades, when the prior species becomes a huge problem. In south 
Florida, for example, fig trees were common for at least a century, 
restricted to residential settings because they could not reproduce 
without specific fig wasps. Recently, the fig wasp of one fig species 
invaded, and that fig is now spreading rapidly, including into natural 
areas. The impact of an exotic plant species is often exacerbated by 
introduced animals dispersing its seeds. For example, seeds of the 
nitrogen-fixing Myrica faya in Hawaii are primarily dispersed by an 
introduced bird, the Japanese white-eye.
    One introduced species can also modify the habitat to favor a 
second invader. Such interactions can even aid both. Zebra mussel 
filtration increases water clarity, which in turn promotes growth of 
Eurasian watermilfoil. In its own right, Eurasian watermilfoil is one 
of the most troublesome aquatic invaders of North America, but it also 
aids zebra mussel populations by providing additional settling 
substrates and helping to disperse zebra mussels between water bodies. 
Thus a mutualism between two damaging invaders worsens the impact of 
both.

HOW WE DEAL WITH INVASIVE INTRODUCED SPECIES
    We can manage introduced species in three ways. (1) We can keep 
them out. (2) If they get in, we can find them quickly and try to 
eradicate them. (3) If they establish widely and are harmful and 
ineradicable, we can keep them at levels low enough that impacts are 
acceptable.

Keeping them out
    Keeping out invaders is less costly than trying to reduce or 
eliminate them. Interdiction must target two categories of 
introductions, planned and inadvertent ones, that call for somewhat 
different procedures. Planned introductions typically account for about 
half of all introductions, and detrimental effects arise from planned 
introductions at least as frequently as from inadvertent ones. 
Deliberately introduced horticultural plants are often especially 
problematic.
    The fact that many introduced species are deliberately introduced 
suggests that keeping out many invaders should be straightforward--
simply decide which planned introductions carry substantial risk and 
forbid them. This effort has not been very successful for several 
reasons. First, there is often dispute about whether an introduction is 
likely to be harmful, or whether the harm is likely to outweigh the 
benefit. Second, impacts of introduced species are notoriously hard to 
predict, though a well established principle is that species 
problematic in one place have a high probability of being problematic 
elsewhere. This unpredictability means that formal quantitative risk 
assessment procedures for introduced species are at a very early stage 
of development and cannot yield accurate probabilities and cost 
estimates. Nevertheless, the rapid expansion of global trade and the 
associated multilateral trade treaties such as those of the World Trade 
Organization have led to a situation in which introductions are assumed 
``innocent until proven guilty,'' and ``proof of guilt'' must be 
established by formal risk assessment procedures. The upshot is that, 
at the international level, it is difficult for a nation to exclude a 
specific introduced species or a product that might carry one without 
being charged with economic protectionism. The recent rejection by the 
World Trade Organization of Australia's attempt to exclude frozen 
imported salmon from Canada is partly due to the Australians' inability 
to provide a quantitative assessment of the risk that the salmon would 
carry disease organisms that might harm native fishes. This rejection 
is in spite of the fact that whirling disease that arrived in frozen 
trout from Sweden has already devastated many North American rainbow 
trout fisheries.
    The only way to solve this problem is to accept the principle that 
potential introductions are guilty until proven innocent and subject to 
expert scrutiny before they can be imported. New Zealand's 1993 
Biosecurity Act enshrines this notion and has led to substantial 
success in curbing harmful introductions while permitting normal levels 
of trade and commerce.
    Inadvertent introductions are hard to stop; these species hitchhike 
on products (such as insects in plant material) or exploit pathways 
that might carry many invaders, such as ballast water or untreated 
wooden packing. For large ports with much shipping and passenger 
activity, interdiction of such invaders is laborious, though sufficient 
effort can be very effective.

Eradication
    Many people believe eradication is nearly impossible, particularly 
if a species is widely established. However, there have been many 
successful eradications, not only from islands but from continental 
regions. Unfortunately, many good eradication projects have not been 
well publicized. Smallpox has been eradicated from the entire earth 
(except for vials in Atlanta, Moscow, and perhaps a few terrorist 
redoubts), and Anopheles gambiae, the African mosquito vector of 
malaria, was eradicated from 31,000 km2 of northeastern Brazil. There 
are many successful eradications of mammals from islands. It is worth 
noting that, although eradication of plants is often more difficult 
than that of animals, some plants have been eradicated. Two noteworthy 
successful projects are the eradication of Kochia scoparia from 10,000 
acres spread out over 600 miles in Western Australia and the 
eradication from Laysan Island of the sandbur.
    Several features typify eradication successes:
    (a) A can-do attitude
    In almost every instance, from the global eradication of smallpox 
down to the elimination of rats from small islands, someone had to be 
willing to make a wholehearted effort to eradicate in spite of 
naysayers claiming it was impossible.
    (b) Sufficient economic resources to complete the project
    Public agencies have sometimes moved to reduce funding for a 
project when it is so near to completion that the invader has ceased to 
be a problem.
    (c) Clear lines of authority, and enforcement powers
    Because individuals can subvert an eradication campaign (for 
instance, by importing and/or releasing individuals of the target 
species), because some eradications must be undertaken on private 
property, and because some target areas fall under several governmental 
jurisdictions, it is important that someone be clearly in charge and 
able to compel cooperation. For many eradications, a promised economic 
or health benefit has helped to get public support, but often a few 
dissenters remain, and someone has to be able to force people to 
cooperate.
    (d) Appropriate biology of the target organism
    Although sufficient effort can probably eliminate any species over 
a small area, some species are easier to eradicate than others. The 
feasibility of eradicating some widespread invaders requires their 
having appropriate biology. There has to be some weak link in the 
species' life cycle.

Maintenance Management
    If eradication fails, there are four main approaches to maintaining 
low populations of a species to minimize its impact: mechanical 
control, chemical control, biological control, and ecosystem 
management. None is a silver bullet, but each has been effective in 
particular cases.
    (a) Mechanical control
    Mechanical control encompasses many techniques, such as hand-
pulling plants and shooting or trapping animals. Although complex 
machinery can be used, such as various gadgets to remove invasive 
plants, mechanical control often involves simple methods but massive 
amounts of labor. Organized volunteer labor can be effective. For 
instance, the State Nature Preserves Commission of the State of 
Kentucky has had good success controlling musk thistle by using 
volunteers convicted of drunk driving to pull it up.
    Hunting and trapping can be effective controls against some 
animals, if pursued at high enough levels and with unwavering 
consistency. The Alberta Rat Patrol has kept Alberta largely free of 
Norway rats at low cost. First discovered at the eastern border of 
Alberta in 1950, rats are primarily controlled in the province by 
rigorous inspection, with food source elimination, anticoagulant baits, 
and hunting by seven provincial rat patrol officers playing key roles. 
The population has been reduced to a point where every year ca. 50 
infestations are discovered and destroyed, and discovery of a single 
rat in Calgary or Edmonton is a major news story.
    (b) Chemical control
    The well-known human health and other non-target impacts of early-
generation pesticides, such as DDT and other chlorinated hydrocarbons, 
are legendary and have led to a type of chemophobia among many 
environmental advocates. Many modern pesticides, however, have far 
fewer (if any) nontarget impacts and, if used judiciously, can be 
useful in managing invaders. Many plants and animals have been 
successfully controlled partly or wholly by chemicals.
    Chemicals have two frequent disadvantages as parts of maintenance 
management rather than eradication programs. First, they are often 
expensive, particularly if used over large areas. Second, species 
evolve resistance to pesticides, so that increasing amounts are 
required, and eventually the pesticide is ineffective against its 
target.
    (c) Biological control
    Biological control entails deliberately introducing a new species--
a natural enemy of some invasive introduced pest. In agriculture and 
silviculture, some striking successes have been recorded by biological 
control. These successes have led some managers to advocate biological 
control as a ``green'' alternative to chemical control.
    However, most biological control projects do not work. Also, just 
as with some pesticides, some biological control agents have non-target 
impacts. Another potential problem is that biological control agents, 
much more easily than chemicals, can disperse from areas of 
introduction to other regions where they may cause harm. Finally, 
biological control introductions are usually irreversible, as typical 
biological control agents (e.g., small insects) are among the most 
difficult species to eradicate. With chemical control, if the method 
does not work or has unexpected side effects, one can simply stop using 
it. With biological control, if the initial introduction has 
established a population, active means are required to remove it, and 
the probability of success is not high. Thus, although biological 
control is a useful part of the arsenal in the battle against 
introduced species, it must be used judiciously and is often unlikely 
to succeed.
    (d) Ecosystem management
    It is sometimes possible to manage an entire ecosystem so as to 
favor native species as a group over most invaders. For example, good 
pasture management keeps musk thistle from becoming a major weed, as 
native grasses outcompete it. Similarly, maintenance of a natural fire 
regime in pine forests of the southeastern United States has stemmed 
the invasion of introduced species. Resource management agencies have 
lately become great enthusiasts of ecosystem management. However, 
ecosystem management has been more a theoretical concept than a set of 
management techniques, and it has rarely been tested rigorously for an 
extended period.
    Thus, there are many technologies for maintenance management, and 
for each there are successes and also failures. No one technique is 
best for managing all introductions, but each has a role to play in 
particular projects, depending on the target pest, the setting, and 
experience in similar situations.

HOW ARE WE DOING? CAN WE DO BETTER?
    The establishment of the Federal Invasive Species Council in 1999, 
pursuant to Executive Order 13112, is a promising step in bringing the 
attention it deserves to the problem of introduced species. However, 
progress has been painfully slow in developing policies and methods 
commensurate with the scope and impact of the problem, and we are a 
long way from being effective. This fact is demonstrated by Fig. 1, 
which shows how, for four groups taken as examples (insects, molluscs, 
plant pathogens, and terrestrial vertebrates), the number of introduced 
species establishing in the United States has continued to grow at an 
unabated pace for a century (data from unpublished study at the 
National Center for Ecological Analysis and Synthesis, Santa Barbara).

[GRAPHIC] [TIFF OMITTED] T6708.004


    There are three key reasons why the problem is out of control. Two 
have been signaled by the United States General Accounting Office in 
reports to Congress.
    First, funding to deal with the problem is woefully small relative 
to the size of the problem, and it is disproportionately aimed at a 
very few invaders (cf. GAO Report GAO/RCED- 00-219, ``Invasive Species: 
Federal and Selected State Funding to Address Harmful, Nonnative 
Species'').
    Second, lack of coordination and integrated response to invaders 
greatly hinders the process of eradicating or restricting them (cf. GAO 
Report GAO-01-724, ``Invasive Species: Obstacles Hinder Federal Rapid 
Response to Growing Threat''). The Invasive Species Council is 
attempting to address part of the latter problem by improved early 
warning/rapid response systems.
    Third, the introduced species community, led by the Federal 
Government, has failed to develop existing technologies adequately and 
especially to seek totally new approaches. The existing approaches have 
become institutionalized and are typically well-established in 
particular agencies. As in any institution, there is resistance to new 
approaches and difficulty in recognizing that what has been done in the 
past is not working well enough. The Invasive Species Council, formed 
from existing Federal agencies, has constituted a major advance, but 
the constituent agencies (and therefore the Council as a whole) have 
tended to support approaches they are already invested in and sought 
primarily to do more of the same, but better. As an example, the 
management plan produced by the Council focuses management efforts for 
established introduced species very heavily on biological control and 
much less on the other three technologies.
    It is striking that a leading component of the revolution in 
biotechnology, genetic manipulation, has been largely absent from 
academic and agency discussions about how to deal with introduced 
species. One can easily imagine a variety of ways in which genetic 
manipulation techniques could be marshaled to make introduced species 
less prone to become invasive or various management procedures more 
effective, but such efforts have not advanced beyond the academic 
discussion stage. For example, the possibility of applying the seedless 
technology patented at the University of Connecticut to neutralize the 
spread of invasive ornamental woody plants is being studied at the 
University of Connecticut and the University of Tennessee. Congress 
should take the lead in encouraging such efforts.
                                 ______
                                 

    STATEMENT OF THE HONORABLE GEORGE RADANOVICH, CHAIRMAN, 
  SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

    Mr. Radanovich. Thank you, Mr. Chairman. As Chairman of the 
National Parks, Recreation and Public Lands Subcommittee, I too 
am aware of the serious nature of invasive species in our 
Nation's public lands, particularly in central California where 
the yellow starthistle has and continues to infest the 
productive ag lands of the Central Valley. This single invasive 
weed is causing serious ecological damage in the valley because 
it forms dense thickets and rapidly depletes soil moisture, 
preventing the establishment of other species and displacing 
nutritious forage and native California grasslands.
    The yellow starthistle is but one example of 94 types of 
nonnative weeds, not to mention thousands of other invasive 
nonnative plants, animals and insects both on our land and on 
our Nation's waterways that continue to attack our native flora 
and fauna and costs this Nation billions annually in economic 
losses. Collectively these unwelcome invaders introduce new 
diseases, turn productive and dynamic rangelands, forests and 
refuges into monolithic ecosystems unable to support cattle, 
native wildlife and migratory birds.
    While the introduction of invasive species in America 
occurred almost immediately with the arrival of many of our 
ancestors, it was not until international trade and 
international travel made the world smaller and many of these 
invading species made our work in our country.
    Finally, in 1999, an executive order was issued and brought 
much needed national attention to the invasive situation. The 
executive order required the entire Federal bureaucracy to 
develop and coordinate a national effort not only to eradicate 
and control existing exotic species, but more importantly to 
prevent new invaders from becoming established or even entering 
the country.
    Prior to 1999 while each department worked to control 
invasive species under its jurisdiction, there was no national 
leadership or oversight on such issues as wholesale 
eradication, prevention, early detection and rapid response. It 
is now 2003 and our country remains under continued attack on 
all fronts from these elusive and determined unwelcomed 
travelers. While we seem to be effective at keeping the brown 
tree snake from becoming established in Hawaii, other exotic 
species continue to take hold in our country.
    I want to thank the Chairman for holding this hearing and 
look forward to the testimony from all the witnesses, 
especially our administrative witnesses who I hope will update 
members on the improved Federal coordination, what statutes if 
any could be amended to grant the government greater authority 
to prevent invasive species from entering the country and how 
nongovernmental partners might help at the local level to 
control the spread of exotic species.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
      Subcommittee on National Parks, Recreation, and Public Lands

    Thank you, Mr. Saxton.
    As Chairman of the National Parks, Recreation, and Public Lands 
Subcommittee, I, too, am aware of the serious nature of invasive 
species on our Nation's public lands, particularly in Central 
California, where Yellow Starthistle has and continues to infest the 
productive agricultural lands of the central valley day by day and acre 
by acre. This single invasive weed is causing serious ecological damage 
in the valley because it forms dense thickets and rapidly depletes soil 
moisture, preventing the establishment of other species, and displacing 
nutritious forage and native California grasslands.
    The Yellow Starthistle is but one example of the 94 types of 
nonnative weeds, not to mention thousands of other invasive, non-native 
plants, animals, and insects--both on our land and in our Nation's 
waterways--that continue to attack our native flora and fauna and cost 
this Nation billions--not millions--annually in economic losses. 
Collectively, these unwelcome invaders introduce new diseases, turn 
productive and dynamic rangelands, forests and refuges into monolithic 
ecosystems unable to support cattle, native wildlife, or migratory 
birds.
    While the introduction of invasive species in America occurred 
almost immediately with the arrival of many of our ancestors, it was 
not until international trade and international travel made the world 
smaller that many of these invading species made their mark in our 
country. Finally, in 1999 an executive order was issued that brought 
much needed national attention to the invasive situation. The executive 
order required the entire Federal bureaucracy to develop a coordinated 
national effort to not only eradicate and control existing exotic 
species, but more importantly, to prevent new invaders from becoming 
established or even entering our country. Prior to 1999, while each 
department worked to control invasive species under its jurisdiction, 
there was no national leadership and oversight on such issues as 
wholesale eradication, prevention, early detection and rapid response. 
It is now 2003 and our country remains under continued attack on all 
fronts from these elusive and determined unwelcome invaders. While we 
seem to be effective at keeping the brown tree snake from becoming 
established in Hawaii, other exotic species continue to take hold in 
our country.
    I look forward to the testimony from all our witnesses, especially 
our Administrative witnesses, who I hope will update Members on the 
improved Federal coordination, what statutes, if any, should be amended 
to grant the government greater authority to prevent invasive species 
from entering the country, and how non-governmental partners are 
helping at the local level to control the spread of exotic species.
                                 ______
                                 
    Mr. Saxton. Thank you very much. Our normal procedure is to 
have an opening statement from the Ranking Members but inasmuch 
as this is a joint hearing and inasmuch as the Congress is not 
in session this afternoon, we are going to go on to others. But 
if the members would kind of take their statements and we will 
include your entire statement in the record, if you just get 
your basic message across, because we have three panels, 
including 17 witnesses, and we need to move along.
    Mr. Faleomavaega.
    Mr. Faleomavaega. I, too, would like to thank Chairman 
Pombo and our senior Ranking Member, Mr. Rahall, for their 
leadership in putting this joint hearing together and you also, 
Mr. Chairman, and our Ranking Member, Mr. Pallone, in bringing 
this hearing to the forefront. I notice also we have such an 
excellent mixture of experts from all over the country in 
addressing these very serious issues from the brown tree 
snakes. We have got a bunch of snails and toads that were 
unheard of in my islands and I don't know what we are going to 
do with them.
    I would like to offer my personal welcome on behalf of my 
colleague Mr. Abercrombie to Dr. Fred Kraus from the Department 
of Natural Resources and the Bishop Museum in the State of 
Hawaii. I look forward to hearing from him and his insight to 
the problems we are faced with in the Pacific area, and I look 
forward to hearing from our witnesses.
    Mr. Saxton. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. I will make mine 
very short. I am here to listen to the experts that are going 
to be witnesses today and to get an update on the brown tree 
snake problem that has been affecting Guam for a number of 
years as well as the State of Hawaii. And if my colleague from 
American Samoa has a problem with snails, we will send you our 
brown tree snakes because they will take care of that.
    Thank you, Mr. Chairman.
    Mr. Saxton. Thank you. Mr. Hefley.

  STATEMENT OF THE HONORABLE JOEL HEFLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Hefley. Thank you very much, Mr. Chairman. You know I 
appreciate your kind words and the kind words from my friend 
from American Samoa. It is good to be back here in this room 
and I got to tell you I miss it, but I still have interest in 
many of these issues and want to be helpful wherever I can. I 
really appreciate your having this hearing today and you have 
some outstanding witnesses. And from the number of people in 
the room there is obviously a strong interest. And I appreciate 
that as well because oftentimes when you start talking about 
the problem of weeds, people think that is a gardening issue.
    And I introduced H.R. 119 a year or so ago, which is the 
Invasive Weed Control Act, went through the process, was ready 
to go to the floor, got caught up in the last days of the 
session and actually didn't make it to the floor, but we were 
ready to put it out of this Committee. I don't think it was 
controversial and I think it would have done some good. If I 
could speak to that very quickly.
    You know invasives often are trivialized as a national 
policy issue, but it is a very serious subject that affects 
thousands of Americans. I believe invasives to be one of the 
most serious environmental problems that we really have facing 
us today. It has been estimated that some of these weeds 
increase their populations by 14 percent each year and if left 
unchecked can render land useless for ranching and farming.
    George and I certainly from the West can see this where 
they spread across the prairies and just destroy the land for 
any good useful purpose, and those of you who live in coastal 
areas know that the aquatics do the same thing or if you travel 
through the South where you see a vine that actually takes over 
everything and covers it up, houses, barns, telephone lines, we 
see how serious invasives can be.
    Some species--we had a lot of fires in the West last year 
and some of these weeds increased the fire risk twentyfold. So 
in terms of just Federal land, the Bureau of Land Management 
estimates invasive weeds infest over 100 million acres across 
the United States. That is just Federal land, not private.
    In developing my bill, I came to believe that the National 
Invasives Program lacked focus. Much was spent on study or 
devoted to a specific pest, but there was no coherent plan for 
dealing with this ongoing problem. What my bill seeks to change 
by authorizing $100 million a year for 5 years to fund local 
on-the-ground weed management entities to eradicate, not to 
study--you know, study is good, but we put so much time into 
study while these things continue to progress--not to study but 
to eradicate invasive weeds.
    Groups receiving these funds would have 1 year to carry out 
their projects and then report to the National Invasive Species 
Council about their success or failures. This program would 
operate under the auspices of policymakers at the Interior 
Department as part of a comprehensive interagency effort on 
invasives. H.R. 119 does not try to be all things to all 
people, but through such a focused approach I believe we can 
begin making headway on this problem very soon.
    Two other comments: H.R. 119 contains some provisions which 
were aimed at getting it to the floor last year, provisions to 
include aquatic invasives and placing control of the program 
under the existing Federal Interagency Committee for Management 
of Noxious and Exotic Weeds. I am happy to have those stay in 
the bill.
    There is some talk that Mr. Gilchrest may introduce an 
aquatics bill. If he does so that may want to be stripped out 
of here, but I am perfectly agreeable to have it in here if 
not. And there is some question about the oversight of the 
program, but I believe overall policies should be set at a high 
enough level to ensure the effort does not become lost in some 
bureaucratic turf battles.
    Over the past 3 years I think we have seen a heightened 
awareness of the invasives problem. It is my hope this 
heightened awareness will translate into adoption of a national 
invasives program in this Congress. And with that, I will close 
and again thank you very much.
    [The prepared statement of Mr. Hefley follows:]

 Statement of The Honorable Joel Hefley, a Representative in Congress 
                       from the State of Colorado

    Thank you, Mr. Chairman. Mr. Speaker, every spring for the past 17 
years, a man named George Beck has visited my office from Colorado 
State University to talk about weeds.
    George would talk about bills to combat weeds, sponsored by Senator 
Akaka, then by Senator Craig. And every year, these bills never seemed 
to pass. And George would return the next year and start all over 
again.
    This is the bill George and weed managers across the country have 
been pushing for all these years. Hopefully, this is the year, we can 
enact it into law.
    While funding has existed to combat weeds and other invasive 
species since the 1980's, invasive weeds have for the most taken a back 
seat to agriculture and hardwood pests. Unfortunately, it has been 
during this period that these once benign pests have permanently rooted 
themselves in our landscape, and in certain areas displaced native 
vegetation altogether.
    While the subject of weeds may seem to some unsuitable for the 
House of Representatives to be debating, it is indeed a very serious 
subject affecting thousands of Americans. Harmful, invasive weeds cost 
this economy billions annually and affect millions of acres of private 
and public land. In fact, some of these insidious invasive, non-native 
weeds increase their populations about 14 percent per year, and left 
unchecked, can easily overtake the land and displace native plant 
populations rendering the land and water useless for ranching and 
farming.
    In addition, some of these weeds have proven themselves far more 
devastating than once thought--there are examples where some species of 
weeds have changed the ecology of the land increasing its fire risk 
twenty fold. In terms of just Federal land, the Bureau of Land 
Management estimates that invasive weeds infest over 100 million acres 
across the United States. In many areas of the West, invasive weeds 
have created dangerous monoculture ecosystems.
    What my bill seeks to do is to authorize a substantial sum of 
money--$100 million a year for five years--for a focused effort to 
eradicate invasive terrestrial weeds. It would do this by directing 
these funds to state and local weed management entities, though the 
National Invasive Species Council and the states. Those groups 
receiving funds would have a year to carry out their projects, then 
report back to the Council on their successes and failures. The aim is 
eradication, not study.
    H.R. 119 includes a number of changes from its predecessor, H.R. 
1462, in the 107th Congress. First, it eliminates the role of the 
Advisory Council on Invasive Species and instead directs the Secretary 
of the Interior to develop the weed program and in evaluating state 
grant requests.
    It requires the governor of a state to consult with the secretary 
prior to allocating 100 percent of the Federal share for a project.
    It clarifies that a weed management entity involving more than one 
state may use the funds under this Act so long as it meets the 
requirements of each state.
    And it clarifies that funds from this Act are not intended to 
replace assistance available under such programs as the Pulling 
Together Initiative of the National Fish and Wildlife Foundation.
    There are two other portions of H.R. 119 which deserve comment--the 
role of the Federal Interagency Committee for the Management of Noxious 
and Exotic Weeds, or FICMNEW. After the Resources Committee passed H.R. 
1462 last year, some, including the Agriculture Committee, suggested 
that many of the functions we assigned to the National Invasive Species 
Council could be and were already being carried out by FICMNEW. In 
order to get the bill to the floor before recess, we proposed to amend 
the bill with a manager's amendment designating FICMNEW as the lead 
body. That is the language in H.R. 119.
    However, after a year's consideration of this subject, I would 
favor amending H.R. 119 to restore the bill's previous intent to place 
leadership in the Advisory Council on Invasive Species. In fact, many 
of the people who serve on the Council are the same people who serve on 
FICMNEW. My view is that the terrestrial species program should be 
guided by a policy-making body--such as the council--as part of a 
comprehensive national invasives eradication campaign. FICMNEW seems, 
to me, to focus more on relations between various Federal agencies with 
a stake in fighting invasives. While I would not rule out a role for 
FICMNEW in the eradication effort, I fear placing the terrestrial 
program's leadership at too low a level in the bureaucracy would result 
in great deal of internal debate and little accomplished on the ground.
    Second, H.R. 119 contains provisions involving aquatic weeds, a 
concession to my friend from Maryland (Mr. GILCHREST). But it is my 
understanding that Mr. Gilchrest plans to move an aquatics bill through 
his Subcommittee this year. If this is the case, I will leave it up to 
Mr. Gilchrest and the Resource Committee as a whole to determine 
whether my aquatics language is needed in H.R. 119.
    During the drafting of H.R. 119, we made a conscious effort NOT to 
be all things to all people. Billions are spent on invasives each year 
with little apparent success, I believe, because of a lack of focus. 
Instead, we drafted H.R. 119 with the thought it could dovetail nicely 
with other existing programs combating aquatics and animals. You are 
aware of several pieces of legislation dealing with invasives in this 
Congress--Mr. Gilchrest's aquatics bill and the proposal offered by the 
gentleman from Michigan (Mr. Ehlers) to codify the Advisory Council on 
Invasive Species. I believe these bills, together, would comprise a 
focused, comprehensive national invasives policy.
    As I stated at the beginning of this statement, I have heard about 
the problem of invasive species practically since the day I arrived in 
Washington 1987. And every Congress, people have agreed it was a 
serious problem and, every Congress, adjournment has come with no 
action. But over the past few years, there seems to be a growing 
awareness in both Houses and in the Administration that something must 
be done. I would hope this is the year we pass this legislation and get 
on with the business of reclaiming our land.
    Thank you.
                                 ______
                                 
    Mr. Saxton. Thank you, Mr. Hefley. We would like to move 
right along to our first panel of witnesses. Our first panel 
consists of Dr. James Tate, Science Advisor to the Secretary of 
the Department of Interior; Dr. Chuck Lambert, Deputy Under 
Secretary of Marketing and Regulatory Programs, USDA; Dr. 
Stephen Brandt, Director of Great Lakes Environmental Research 
Lab of NOAA; Dr. Edwin Theriot, Mississippi Valley Division, 
Army Corps of Engineers; and Mr. John Baughman, Executive Vice 
President, International Association of Fish and Wildlife 
Agencies.
    Gentlemen, welcome aboard and how about if we start over on 
our left, your right, and lead off with Dr. Tate.

   STATEMENT OF DR. JAMES TATE, JR., SCIENCE ADVISOR TO THE 
           SECRETARY, U.S. DEPARTMENT OF THE INTERIOR

    Dr. Tate. Thank you, Mr. Chairman and members of the joint 
Committees.
    Mr. Saxton. And by the way, let me just say if you would 
make your statements as concise as possible and your entire 
written testimony will be placed in the record.
    Dr. Tate. Thank you, Mr. Chairman. I welcome you all and 
thank you for having us, Mr. Hefley in particular. I am Jim 
Tate, Science Advisor to Secretary Norton. I would like to make 
three points, many of which you have already made, but clarify 
for you, and the rest will be in my written testimony.
    First of all, this is a very costly problem we are dealing 
with and we do not yet have the correct legislative answer to 
the invasives species problem, but I know we are all working on 
it very hard. Second, Interior is very deeply involved in these 
issues, and the third thing is we need a lot more information 
before we understand thoroughly what invasive species are about 
and how they work.
    I use the term that America is under siege. At this time I 
think it is our own doing. The United States is experiencing a 
tide of organisms coming into this country and only a small 
percentage of those that come in multiply and become invasive. 
I need to stress that the word ``invasive'' does not 
necessarily mean it is a nonnative species. Some of the things 
we do cause native species to become invasive as well.
    You have already mentioned the $100 billion or more that 
invasive species cost us. I think personally that is probably 
less than really is the cost. When we start looking at cost of 
invasive species, including pathogens, West Nile virus, these 
are all things that are extremely costly to us and to our plant 
and animal communities and things that probably cost more than 
the $100 billion that was estimated 3 years ago.
    At Interior we attempt to combat invasive species across 
all species and across all habitats on public and private lands 
through cooperative programs, also in interjurisdictional 
waters. But invasive species affect us all. Their impacts can't 
be parsed out. In a sense, we are all global gardeners. And our 
gardening is part of the problem here. Interior is a steward of 
438 million acres of public lands, 18 percent of all the lands 
in the United States. Our eight bureaus manage one out of every 
five acres of land in the United States, most of these of 
course in the American West.
    In Fiscal Year 2001, we spent approximately $38 million at 
the Department of Interior. In keeping with one of our great 
responsibilities at Interior as a co-chair of the National 
Invasive Species Council and with the advice of the Invasive 
Species Advisory Committee, we are running a program to bring 
new staffing to the Invasive Species Council and to seek OMB 
support for performance based budgets at the Invasive Species 
Council.
    Along with the 10 Federal departments that are members of 
the Invasive Species Council, we are implementing the National 
Invasive Species Management Plan and we are managing a crosscut 
budget effort. It began in Fiscal Year 2004 where we focused on 
prevention, early detection, rapid response and control. And 
the White House, the OMB have seen the progress that we made in 
Fiscal Year 2004. And in the current fiscal year, they have 
moved into seven new areas where they are looking to ask us for 
performance based budgetary activities in the Invasive Species 
Council.
    Last thing I want to mention is the need for additional 
research. I have taken the liberty of bringing along many 
copies of last week's Science News, which has a very 
interesting article in it. Among the things revealed in that 
article is one of our invasive species. In the Southwest we 
deal with a thing called salt cedar, or tamarisk, and curiously 
enough it demonstrates how little we know about some invasive 
species. According to research mentioned in this Science News, 
the tamarisk we have in the Southwest actually comes from two 
different parts of Eurasia, two different species in Eurasia 
that did there meet each other. But in the United States, those 
two species have hybridized and are now creating an organism 
with hybrid vigor, with additional ability to become invasive 
and to deal with our native plants and our native animals.
    With that, I would thank you for your time and we would be 
willing to answer questions at your convenience.
    [The prepared statement of Dr. Tate follows:]

          Statement of Dr. James Tate, Jr., Science Advisor, 
                    U.S. Department of the Interior

    Mr. Chairman, and Members of the Committee, I am Jim Tate, Science 
Advisor to Secretary of the Interior Gale Norton. I am pleased to be 
here today to provide you with an overview of invasive species issues 
that the Department of the Interior (Department) and its bureaus face 
while carrying out their varied missions.
    As steward of some 438 million acres of public lands, the 
Department and its eight bureaus manage more than one out of every five 
acres of land in the United States. The Bureau of Land Management 
(BLM), with some 262 million acres, is the largest Federal landholder, 
and energy and mineral operations on its lands generate over $2 billion 
in revenue. The National Park Service (NPS) manages more than 84 
million acres in 388 parks, and the U.S. Fish and Wildlife Service 
(FWS) manages 93 million acres in the National Wildlife Refuge System 
for wildlife conservation and recreational uses. The Bureau of 
Reclamation (BOR) operates a system that creates 40 billion kilowatt 
hours of power and carries water to more than 31 million people in the 
West.
    Unfortunately, the large amount of land and infrastructure under 
the Department's jurisdiction brings with it an array of invasive 
species problems impacting nearly every aspect of our work.

Scope of the Problem
    As an initial matter, resource management agencies have a tendency 
to focus most on what we can do or are doing to address this problem. 
But we are also here to discuss the scope of the problem generally. 
With this in mind, it is appropriate to first highlight an important 
aspect of this problem that is not always the focus of our attention: 
the majority of invasive species problems can be traced directly to 
everyday legitimate human activities. In this regard, our actions can 
have unintended and, in some cases, far-reaching, consequences. I 
highlight this point not to be critical of any particular industries or 
activities but to raise awareness of an issue that can frequently be 
overlooked during discussion of the technical aspects of this problem. 
Perhaps we, as resource managers, should keep this issue in mind as we 
work to become more proficient in forming partnerships with other 
agencies, states, private landowners, and others to prevent, detect, 
respond to, and control invasive species.
    In plain terms, invasive species are a costly economic problem. 
Invasive plants alone are estimated to cause more than $20 billion per 
year in economic damage. Other estimates that include invasive animals 
and pathogens push the total cost to the U.S. economy to more than $100 
billion each year.
    In addition to damage to the economy, our nation is losing precious 
wildlife habitat and suffering mounting natural resource productivity 
losses to the encroachment of invasive plants and animals. As an 
estimate of ecological harm, up to 46 percent of threatened and 
endangered species owe their listing in whole or in part to the 
uncontrolled spread of invasive species. In fact, invasive species 
threaten many fish and wildlife populations, and have the potential to 
degrade entire plant and animal communities.
    As noted above, each of the Department's land management bureaus 
now routinely addresses invasive species issues during the course of 
their day-to-day management duties.
    Let me provide you with a few examples.

    <bullet> Invasive species affect National Wildlife Refuges from 
the State of Alaska to the Caribbean Sea. As previously noted, invasive 
species have caused significant declines of protected species and 
degrade millions of acres of refuge lands, waters, and wetlands. These 
invaders have become the single greatest biological threat to refuges 
and to FWS's wildlife conservation mission. Management actions by the 
FWS to control invasive species have been taken on over 300 separate 
refuges. Among the most insidious plant invaders on refuges are salt 
cedar, leafy spurge, perennial pepperweed, Canada thistle, Brazilian 
pepper tree, purple loosestrife, Australian pine, Chinese tallow trees, 
old world climbing fern, phragmites, and melaleuca. Non-indigenous 
invasive animals such as brown tree snakes, nutria, and feral pigs 
degrade habitat and reduce populations of native fish and wildlife.
    <bullet> In addition, the Lacey Act, which is administered by the 
FWS, restricts the importation and interstate transportation of 
wildlife deemed ``injurious''--those wildlife for which the importation 
or interstate transportation could have negative impacts on the 
interests of agriculture, horticulture, forestry, human beings, and the 
welfare of wildlife and wildlife resources in the United States. There 
are currently 12 genera of mammals, four species of birds, three 
families of fishes, one species of crustacean, one molluscan species, 
and one reptile species listed as ``injurious'' under the Lacey Act. 
FWS has received petitions for listing the black carp, bighead carp, 
and silver carp as injurious species.
    <bullet> Our national park units have not been spared from this 
burden. Exotic plants currently infest approximately 2.6 million acres 
in the National Park System, reducing the natural diversity of these 
places. For example, Badlands National Park in South Dakota is the 
largest mixed grass prairie protected by the NPS, yet over 10,200 acres 
are occupied by non-native invasive plants, including 2,000 acres by 
non-native grass species. Moreover, critical habitat for bighorn sheep 
and elk are being invaded by and, in some localities, completely 
replaced by, exotic plant species. This can result in a reduction of 
carrying capacity for the habitat. Similarly, Gulf coast national parks 
provide critical stopover and nesting habitats for neo-tropical birds 
on their way to and from nesting and wintering habitats. Invasive 
species like Chinese tallow and Cogan grass are displacing native 
bottomland hardwood and other native habitat needed by these imperiled 
bird species.
    <bullet> The Bureau of Land Management currently estimates that up 
to 35 million acres--nearly 15 percent of the lands it manages--are 
infested with invasive and noxious weeds which can impact the economies 
of those states in which they are found. For example, spotted knapweed 
alone costs the State of Montana an estimated $42 million annually; 
tansy ragwort invasion has caused losses of $6 million per year to the 
state of Oregon. Approximately 25 million acres of BLM lands are 
infested with annual grass species such as cheatgrass or downey brome, 
red brome and other Mediterranean species. These grass species 
frequently are the first plants to appear after wildfire and are 
rapidly invading sagebrush and desert ecoregions. It is also estimated 
that over 300,000 acres of BLM lands are infested with salt cedar. 
Control of salt cedar on BLM lands is especially important. I will more 
to say about salt cedar later.
    <bullet> With responsibility for maintaining water delivery to 
much of the West, the Bureau of Reclamation is also engaged in the 
battle against invasive species. For example, the BOR estimates that 
salt cedar consumes as much as 2.5 million acre-feet of water annually 
in the arid Southwest; sometimes more than the annual rainfall. 
Invasive weeds such as salt cedar and purple loosestrife overtake 
habitat along rivers. Noxious weeds, like leafy spurge and yellow 
starthistle, devour about 4,600 acres of western Federal lands daily. 
Leafy spurge is now estimated to infest about 5 million acres in about 
23 states and to cost about $140 million in damages annually in the 
United States. The whole upper Rio Grande is choked with salt cedar, 
which crowds out native vegetation and habitat.
    <bullet> Burrowing mammals can weaken canal levees and earth 
embankments to cause seepage and flooding. Mitten crabs and other 
exotic species multiply quickly and can overwhelm entire ecosystems. 
Bacteria in wells plug screens and sand within aquifers with slime and 
biomass, causing severe production losses in wells. Other threats loom 
on the horizon. For example, zebra mussels, which spread to the eastern 
United States from Europe in the late 1980s, attach to structures and 
can clog intakes and water treatment systems. Control can cost an 
average of $250,000 per facility per year.
    <bullet> The factors contributing to plant invasions are complex. 
The number of invasive plants affecting the Department's trust 
responsibilities is increasing rapidly, and the biology of most of the 
invaders is inadequately understood.
    In short, this is a widespread and highly complex problem.
What can be done?
    In general, the Department believes that the most effective and 
least costly method of reducing the impact of invasive species is to 
prevent their initial introduction. In the case of unintentional 
introductions, effective preventive measures involve identification of 
pathways and reducing the risk associated with those pathways. Indeed, 
Congress recognized this principle in the Nonindigenous Aquatic 
Nuisance Prevention and Control Act (Act), which recognizes, for 
example, that ballast water is a major pathway for the introduction of 
aquatic species. As such, the Act requires mandatory regulations on 
ballast water management for vessels entering the Great Lakes, and 
voluntary guidelines for other parts of the country.
    Similarly, a number of methods have been used to prevent the 
introduction of pathogens and parasites associated with commercial 
species, including raw timber, horticultural plants, and pets, to name 
a few. The International Council for Exploration of the Seas has taken 
another approach by developing a protocol for use with aquatic species. 
In each case, the major emphasis is on preventing release of first 
generation imports.
    As noted above, major pathways of introduction should be identified 
in order to prevent the unintentional establishment of invasive 
species. After major pathways have been identified, methods of 
interdiction should be developed with an eye toward causing minimal 
disruption to international commerce.
    After prevention, the early detection of and rapid response to new 
invasions is paramount. For example, veterinarians, wildlife 
rehabilitators, and epidemiologists began to share information 
immediately upon discovery of West Nile virus and its impact on wild 
birds and humans here in the United States. In this case, mechanisms do 
exist for the Centers for Disease Control to act promptly with local 
health and wildlife officials. While fighting invasive species must 
necessarily compete with other budget priorities, we are continuing to 
work toward development of similar systems that we hope will allow us 
to work with states and private citizens to rapidly respond to invasive 
species outbreaks.
    Rapid response is essential to stop a newly arrived invasive 
species. Control of a well-established invasive species is many times 
more difficult. After establishment, a single control strategy seldom 
is sufficient and an integrated management strategy is usually needed. 
Integrated pest management (IPM) is a strategy that focuses on long-
term control of pests and the damage caused by them through a 
combination of biological control, habitat manipulation, creative 
agricultural practices, and sequence and timing of actions. Pesticides 
can be used, but under guidelines established to minimize risks to 
human health, beneficial, and non-target organisms.

Department of the Interior Program Highlights
    Given the amount of land and diversity of resources under its 
jurisdiction, the Department necessarily must be one of the leaders in 
working toward the control of invasive species. With this in mind, the 
Department is using existing authorities to combat invasive species on 
public and private lands and in inter-jurisdictional waters. The key to 
controlling invasive species is to work in partnership with a broad 
spectrum of states, non-governmental organizations, and private 
interests. Some brief examples of what we are currently doing on the 
ground at the Department follows.

National Invasive Species Council
    The Department provides administrative support for the National 
Invasive Species Council (Council) and the Invasive Species Advisory 
Committee to build direct stakeholder involvement and collaboration 
between Federal agencies and non-federal partners. Interior bureaus 
work closely with Council staff to implement the invasive species 
activities called for in the first National Invasive Species Management 
Plan (Plan): leadership and coordination, prevention, early detection 
and rapid response, control and management, restoration, international 
cooperation, research, information management, and education and public 
awareness.
    In keeping with that Plan, a ``cross-cut'' budget proposal for 
Federal agency expenditures concerning invasive species was prepared, 
for the first time, for the Fiscal Year 2004 budget. Based on the 
leadership provided by the National Invasive Species Council, the 
President's Budget for Fiscal Year 2004 focuses on seven areas for 
collaboration: ballast water management technologies, all-taxa early 
detection/monitoring system, sudden oak death in the southern 
Appalachian mountains, Maui early warning pilot project, Asian carp in 
the Chicago Ship and Sanitary Canal, tamarisk (salt cedar) control in 
the southwest, and nutria control in Louisiana and Maryland. The 
Department strongly supports the Council's efforts to identify areas of 
cooperation, to define common strategic goals, and to determine 
measurable performance standards. While the crosscut includes only a 
subset of total invasive species activities, it is a starting point for 
more comprehensive cooperative efforts that the Office of Management 
and Budget has encouraged for the Fiscal Year 2005 budget cycle.

National Park Service
    The principles of coordination, targeted funding, and 
accountability are fundamental aspects of the nonnative invasive 
species management strategy pursued under the National Park Service's 
five-year Natural Resource Challenge program. As part of this program, 
a new management strategy, called the Exotic Plant Management Team 
(EPMT), was implemented to control harmful nonnative invasive plants. 
By Fiscal Year 2002, nine teams have been fielded to identify, treat, 
control, restore, and monitor areas of parks that were infested with 
harmful exotic plants. The nine teams serve 95 parks, in the Chihuahuan 
Desert-Shortgrass Prairie, Florida, Hawaii, the National Capitol 
Region, Lake Mead, the Northern Great Plans, California, the Gulf 
Coast, and the North Cascades.
    The success of each EPMT derives from its ability to adapt to local 
conditions and needs. Each team sets work priorities based on a number 
of factors including: the severity of threat to high-quality natural 
areas and rare species; the extent of targeted infestation; the 
probability of successful control and potential for restoration; and 
opportunities for public involvement. The EPMTs have treated more than 
68,000 acres and eradicated 9 species of harmful weeds from park lands. 
The Fiscal Year 2003 budget provides funding for seven additional 
EPMTs. Funding of these teams will raise our capacity to control 
invasive plants at 152 parks or approximately 40% of the parks in the 
lower forty-eight states. These new teams are in the process of 
mobilizing and will be controlling harmful weeds in the summer of 2003.

Fish and Wildlife Service
    The Invasive Species program implements the Non-indigenous Aquatic 
Nuisance Prevention and Control Act of 1990, as amended by the National 
Invasive Species Act (NISA), and provides funding for Aquatic Nuisance 
Species (ANS) Task Force personnel, Task Force regional panels and 
their activities, and Aquatic Nuisance Species grants to states and 
Tribes to implement state or interstate ANS management plans. It also 
funds seven FWS regional coordinators and their respective invasive 
species activities. These coordinators work closely with the public and 
private sector to develop and implement invasive species activities.
    The Program has also worked closely with the National Oceanic and 
Atmospheric Administration (NOAA) in the Department of Commerce, the 
Environmental Protection Agency, and the U.S. Coast Guard to develop 
measures to control the introduction of aquatic nuisance species 
through ballast water. Additionally, working with the ANS Task Force 
Communication, Education and Outreach Committee, FWS has led the 
development of a national public awareness and partnership campaign, 
Stop Aquatic Hitchhikers! Designed for the entire conservation 
community, the campaign targets aquatic recreation users about actions 
they can take to stop the spread of aquatic invasive species. The 
primary resource is a national web site: www.ProtectYourWaters.net. 
Currently, this campaign has leveraged $2.3 million of Federal and non-
federal funding to support aquatic invasive species outreach 
activities.
    Additionally, through the Partners for Fish and Wildlife Program, 
which provides financial and technical assistance to private 
landowners, FWS helps landowners improve productivity of their lands by 
minimizing the spread of invasive species and improving habitat for a 
variety of fish and wildlife species. FWS has funded a number of 
different types of invasive species projects through the program, 
including prescribed burning, physical removal, fence construction, and 
restoration of native plant communities.
    Over 470,000 acres were treated in Fiscal Year 2002. Further, a 
National Strategy for Management of Invasive Species is being developed 
that will include assessment information, monitoring recommendations, 
and best management practices, and will guide invasive species 
management on refuges nationwide. Preventive efforts, including an 
emergency rapid response program for the Refuge System, are key to 
preventing newly discovered infestations from gaining a foothold on 
refuges. Plans to initiate ``strike teams,'' similar to those used by 
the NPS, are proposed for funding in Fiscal Year 2004. In conjunction 
with the National Wildlife Refuge Association, the Nature Conservancy, 
and the U.S. Geological Survey (USGS), a new program is being initiated 
this year that will use trained refuge professionals and volunteers to 
create a strong network for the early detection of invasive species.

Bureau of Land Management
    The BLM is a partner in over 40 weed management areas in the 
Western United States, and conducts weed treatments on over 300,000 
acres of range and forestlands annually. In addition, BLM is working on 
implementing the National Fire Plan to reduce invasive weeds by 
managing and reducing fuels and working with partners to enhance native 
plant restoration. One example is BLM's work through the Great Basin 
Restoration Initiative (GBRI) to restore degraded rangelands that are 
now dominated by flammable exotic grasses, like cheatgrass, and restore 
these areas to perennial vegetation before they convert to noxious 
weeds.

Bureau of Reclamation
    The BOR is working with many partners to monitor and counter 
threats from invasive species that impact the management and delivery 
of water resources in the West. BOR's integrated pest management 
program uses a combination of mechanical, chemical, biological, and 
cultural methods to control invasive species. This program also 
provides technical assistance and special studies and demonstration 
projects to promote IPM concepts and solve specific pest problems. BOR 
also works on coordinated programs involving research, monitoring, 
education, and control to develop an effective management program.

U.S. Geological Survey
    Finally, USGS provides client bureaus with research on all 
significant groups of invasive organisms in both terrestrial and 
aquatic ecosystems--from microbes to mammals.
    USGS research provides the fundamental understanding of invader 
biology and factors in the vulnerability of habitats needed for 
developing effective responses. USGS also provides information and 
useful tools for early detection and assessment of newly established 
species, monitoring invading populations, predicting their spread and 
impacts, and for prevention, management and control. Through the 
National Biological Information Infrastructure, USGS also has an 
important role developing information networks to make reliable 
information on invasive species available to stakeholders. Recognizing 
the importance of expanding scientific cooperation, USGS has 
established the USGS' National Institute of Invasive Species Science. 
The Institute is helping to facilitate cooperation between USGS 
programs and other agencies and organizations with complementary 
scientific capabilities in addressing invasive species threats to our 
ecosystems and natural heritage.
    I hope that this brief overview makes clear that our goal is to 
maximize use of not only our bureaus' expertise but also that of our 
partners in state and tribal governments, as well as private 
landowners, in the fight to control invasive species. In this same 
vein, many of the Department's bureaus contribute to other initiatives, 
like the National Fish and Wildlife Foundation's (NFWF) ``Pulling 
Together Initiative,'' the BLM's ``Partners Against Weeds'' (PAWS), and 
the FWS's Partners for Fish and Wildlife,'' with the goal of building 
partnerships with private landowners to eliminate harmful weeds and 
restore native plants and animal communities. Six of the seventeen 
member agencies on the Federal Interagency Committee for the Management 
of Noxious and Exotic Weeds (FICMNEW), which works to coordinate 
invasive weed management policy and information sharing, are from the 
Department of the Interior.

Adequacy of existing statutory authorities
    We believe that existing statutory authorities are generally 
adequate to carry out effective prevention, early detection, rapid 
response, and control for most invasive species. However, one of the 
action items listed in the National Invasive Species Management Plan is 
for the National Invasive Species Council to conduct an evaluation of 
current legal authorities relevant to invasive species. This evaluation 
is to include an analysis of whether and how existing authorities may 
be better utilized. Once this review is finished, and if warranted, 
recommendations will be made for changes in legal authority.

Conclusion
    I want to thank you for providing the Department the opportunity to 
offer this very general picture of the problem of invasive species and 
our programs and efforts to address them. Our goal is to ensure that 
our invasive species actions emphasize coordination of existing Federal 
efforts and local programs in order to strengthen ongoing invasive 
species programs and support new partnerships and initiatives. We look 
forward to working with the Committee and our partners--states, Tribes, 
and private individuals--to develop prevention, control, and management 
initiatives that recognize and strengthen these existing partnerships.
    Mr. Chairman, this concludes my prepared remarks. I am happy to 
answer any questions you or other Committee members might have.
                                 ______
                                 
    Mr. Saxton. Thank you very much. Dr. Lambert.

  STATEMENT OF DR. CHUCK LAMBERT, DEPUTY UNDER SECRETARY FOR 
     MARKETING AND REGULATORY PROGRAMS, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Dr. Lambert. Thank you, Mr. Chairman. I am pleased to be 
here on behalf of USDA to discuss invasive species. As a farm 
boy growing up in western Kansas I learned at an early age the 
necessity of identifying and controlling invasive species. And 
even today as I drive across the countryside, it is kind of 
second nature for me to be on the outlook for Canadian thistle, 
bind weed and other species that I learned about in my 
childhood.
    In today's mobile globalized world, invasive species have 
the means to move quickly from one habitat to another, and USDA 
does have extensive authority under the law to address these 
and other invasive species. The Plant Protection Act and Animal 
Health Protection Act give USDA the authority to set import 
regulations that help keep exotic pests and diseases out of the 
U.S. USDA officials also have authority to respond swiftly to 
detections that potentially threaten U.S. agriculture, natural 
resources and the environment.
    Six agencies within USDA have leadership roles in 
preventing and dealing with the introductions and spread of 
nonnative invasive species in the U.S. APHIS, or the Animal and 
Plant Health Inspection Service, provides an integrated 
safeguarding system to protect America's agricultural and 
natural resources. The Forest Service addresses invasive 
species that have been recently detected or have become 
entrenched on Federal lands under the agency's purview. The 
Natural Resources Conservation Service works with private land 
owners to use funds available through the Environmental Quality 
Incentives Program, the Wildlife Habitat Incentives Program and 
the Wetlands Reserve Program.
    Secretary Veneman recently announced the opening of a new 
sign up for Conservation Reserve Program and released $1.8 
billion for conservation assistance on working lands and to 
protect environmentally sensitive lands. Funds from within 
these programs can be used to eradicate, control and/or replace 
invasive species to achieve conservation goals.
    Other USDA agencies closely coordinating with managing 
invasive species include Agricultural Research Service, CSREES 
and Economic Research Service. These agencies provide vital 
research and communications functions to invasive species 
management.
    As my longer statement describes, USDA specialized agencies 
have distinct missions but they also work toward one primary 
goal with protecting the Nation's agriculture and natural 
resources and food supply. One of the most important 
initiatives we have undertaken is to participate in the 
National Invasive Species Council in the development of the 
interagency crosscut budget that Jim has already discussed. 
This budget helps agency personnel share information and 
provides a comprehensive view of the resources that each 
department and agency brings to the table for preventing and 
controlling invasive species.
    USDA agencies are also members of several interagency, 
interdepartmental coordination groups that address invasive 
species. These groups help bring coordination and focus across 
the various program areas. The National Invasive Species 
Council is co-chaired by Department of Interior and Department 
of Commerce, and USDA brings a coordinated effort to work and 
involve the Federal agencies and ensures the resources are used 
widely and in a cooperative coordinated manner.
    Besides the Departments represented on this panel, 
Department of Defense, Homeland Security, State, Transportation 
and the Environmental Protection Agency are members of the 
Council. The Council helps Federal agencies communicate not 
only with each other, but with State and local officials. 
Coordination of State, Federal, tribal, county and local 
governments and individuals are critical in the prevention and 
early detection and control of invasive species.
    USDA is working to fill any gaps in contingency planning 
for detections of invasive species in natural or remote areas 
of the country. Situations involving invasive species can be 
extraordinarily complex. They cut across not only geographic 
but also agency boundaries. In some cases we lack the knowledge 
to properly look for and eradicate new invasive species.
    I will conclude my remarks with a couple of examples that 
are in addition to the brown tree snake and the coqui frog and 
nutria and exotic Newcastle glassy-winged sharpshooter, citrus 
canker and a whole host of other diseases that we work to 
prevent and eradicate. The emerald ash borer is an exotic 
forest pest recently discovered in Michigan, Ohio and portions 
of Canada. Officials of the Forest Service and APHIS are 
working closely with State and local representatives in 
Michigan and Ohio to determine just how widespread the emerald 
ash borer is and what we need to do to stop its spread. Removal 
of infested trees has already begun.
    Finally ARS, APHIS, the Forest Service and Department of 
Interior have coordinated with State officials and local land 
owners to control leafy spurge on grazing lands in the West. 
Private landowners have welcomed control of this pest on 
neighboring public lands that often were viewed as a source of 
reseeding after controls were implemented by private property 
owners.
    USDA appreciates the Committee's interest not only on the 
Invasive Species Program but also on the challenges we 
regularly face in responding to new situations working with new 
partners and taking into consideration different interests and 
viewpoints. Thank you for the opportunity. I look forward to 
responding to your questions.
    [The prepared statement of Dr. Lambert follows:]

 Statement of Dr. Chuck Lambert, Deputy Under Secretary for Marketing 
        and Regulatory Programs, U.S. Department of Agriculture

    Thank you. I am pleased to be here on behalf of the U.S. Department 
of Agriculture to discuss invasive species in the United States.
    We do not need to spend a lot of time discussing the dangers 
inherent in invasive species, those injurious animals, micro-organisms, 
and plants that have the ability not only to survive, but to thrive in 
new environments. That many of these species are already here in the 
United States, or are being kept at bay nearby, highlights the fact 
that, in today's world, invasive species have the means to move quickly 
from one habitat to another. To understand how this is possible, we 
simply need to trace the routes that international and domestic 
travelers and cargo follow on a daily basis. As one of USDA's posters 
on this subject reminds us, ``Not All Alien Invaders Are From Outer 
Space.'' We know that these dangerous invaders may try to hitch a ride 
in travelers' suitcases or agriculture produce bound for U.S. markets.
    USDA has extensive authority under the law to address invasive 
species in the United States. The Plant Protection Act and Animal 
Health Protection Act, for example, give USDA the authority to set 
import regulations that help keep exotic pests and diseases out of the 
United States. When necessary, USDA officials can also respond swiftly 
to detections of invasive species that potentially threaten U.S. 
agriculture or the environment. USDA officials can quarantine affected 
areas, remove affected or exposed plants or animals, and, in serious 
cases, pay compensation to growers and producers in an effort to 
prevent the further spread of the pest or disease.
    To help prevent invasive species from making their way to the 
United States, USDA enters into animal and plant health agreements with 
other countries to either prohibit imports from areas in which a pest 
or disease may be prevalent or to require treatments to mitigate the 
potential of an infestation. USDA also may implement preclearance 
inspections of imports at foreign ports, before they even arrive in the 
United States. In addition, about 2,700 inspectors recently moved from 
USDA to the new Department of Homeland Security. These personnel 
prevent the entry of articles that can endanger U.S. agriculture 
through inspections of people, cargo, and modes of transport at U.S. 
borders. While these inspectors now report to the Department of 
Homeland Security, they remain closely linked to the agriculture 
mission and will be available to assist us should an emergency 
situation arise.
    Despite these efforts, the increased number of pathways available 
to invasive species can jeopardize our country in numerous ways, from 
public health, to the economy, to our native ecosystems. The estimated 
economic harm to the United States from biological invaders runs in the 
tens of billions of dollars and may exceed $120 billion annually. The 
reported number of cases of West Nile virus in birds, horses, and 
humans has risen dramatically each year since the disease was first 
confirmed in the Northeastern United States in 1999. The Asian 
longhorned beetle remains a problem in the New York City and Chicago 
areas. Various introduced weeds, such as giant hogweed, yellow 
starthistle, and kudzu, consume some 3 million acres of U.S. land every 
year. Nutria are responsible for the loss of marsh grasses in the 
Chesapeake Bay. And plant pests and diseases, such as citrus canker, 
sudden oak death disease, and the glassy-winged sharpshooter, threaten 
important domestic industries that employ thousands and are vital to 
State economies.
    The Federal Government must deal with the problem of invasive 
species in a strategic manner. For this reason, the National Invasive 
Species Council was created through an Executive Order in 1999 to help 
plan for future challenges and coordinate prevention and response 
efforts across the country.
    The Council, co-chaired by USDA and the Departments of Commerce and 
the Interior, coordinates the work of involved Federal agencies, 
ensuring that resources are used wisely and that our experts are 
consulted regularly. It helps Federal agencies communicate not only 
with each other, but with members of the public, industry groups, and 
State and local officials.
    Of recent note, for example, the Council is working to provide 
State officials with expanded roles in the planning and coordination of 
efforts to address invasive species in the United States. In addition, 
the Council appoints members to the Invasive Species Advisory Committee 
(ISAC). The ISAC is comprised of an array of scientific and policy 
experts who provide information and advice for consideration by the 
Council and recommend plans and action against invasive species at the 
tribal, State, and regional levels.
    The most important tool at the Council's disposal is its invasive 
species management plan. Developed and regularly fine-tuned by 
participating Federal agencies, the plan keeps involved officials on 
the same page and in contact with one another. National in scope, it is 
a blueprint that not only steers Federal efforts, but also helps us 
remain flexible and responsive to new situations.
    For its part in the coordinated effort against invasive species, 
USDA provides its partners and cooperators with expertise in the areas 
of invasive species prevention, emergency response, control, and 
scientific research. These are some of the things that we do best, and 
we have refined our efforts in these areas over many years. The 
following points offer a brief overview of USDA's primary 
responsibilities with regard to invasive species, followed by more 
specific examples of some of the work being done by each of USDA's 
participating agencies:
    <bullet> Prevention of new harmful introductions: USDA provides an 
integrated safeguarding system to protect America's agricultural and 
natural resources against invasive species. USDA's safeguarding system 
includes port inspections, quarantine treatments, detection surveys, 
and eradication efforts. Domestic programs also prevent the spread and 
establishment of invasive species within the United States.
    <bullet> Management of Federal lands: USDA works to address 
invasive species that have been recently detected, or have become 
entrenched over the years, on Federal lands under our purview. This 
work includes controlling outbreaks and restoring impacted areas.
    <bullet> Providing technical advice and assistance: Working 
directly with State officials and private landowners, USDA officials 
can often utilize and disseminate the latest information and technology 
developed by our researchers in the fight against invasive species. In 
many instances, new techniques and tools developed by USDA researchers 
and methods development specialists have made real differences during 
emergency outbreak situations and as part of our longer, sustained 
campaigns to control and eradicate invasive species.
    <bullet> Research and technology development: USDA actively 
supports and carries out the empirical research necessary to establish 
basic knowledge of invasive species already present in the United 
States or located outside our borders. USDA also conducts research at 
the ecosystem level. With this knowledge base, USDA and its partners 
can take the appropriate steps to exclude invasive species and respond 
effectively to the ones already here in our country.
    <bullet> Regulation: USDA works to develop science-based 
regulations that protect U.S. agriculture and the environment from 
invasive species and balance the needs and interests of producers, 
growers, shippers, and a host of other businesses and individuals 
across the country.
    Within USDA there are six agencies that have leadership roles in 
preventing and dealing with the introduction and spread of nonnative 
invasive species into the United States. These agencies are involved in 
research, regulation, operations, partnerships, technical and financial 
assistance, and education.
    The primary focus of our Animal and Plant Health Inspection Service 
(APHIS) is to protect American agriculture. In combination, APHIS 
activities are commonly referred to as our safeguarding system and 
encompass a broad range of efforts, including inspections, surveys, and 
pest and disease eradication programs. APHIS' new strategic plan 
emphasizes the protection of ecosystems against the establishment of 
harmful and costly invasive species. To meet this goal, APHIS 
officials, among other things, conduct in-depth analyses of the major 
pathways invasive species can follow into the United States. With this 
information, APHIS can adjust and tighten components of its 
safeguarding system to close down these pathways and maintain its high 
level of vigilance against the introduction and spread of harmful 
invasive species.
    In other areas, the Agricultural Research Service (ARS) provides 
USDA with the latest innovations and technological breakthroughs in the 
field of invasive species management. ARS cooperates extensively with 
university and private partners to conduct research on a wide variety 
of pests, invasive plants, and animal diseases. These efforts are 
focused on detection technology for ports of entry, systematic research 
to rapidly identify exotic species, and pesticide application 
technology. ARS also conducts research on biologically based pest 
management, remote surveillance of pests targeted by integrated pest 
management programs, and restoration of grazing lands. ARS scientists 
and the Agency's stakeholders and partners can develop large scale, 
multi-disciplinary research teams, as well as targeted species-specific 
projects.
    Agencies like the Forest Service and the Natural Resources 
Conservation Service are focused on taking care of our Nation's 
environmental resources. Coordination and consultation is important 
between Federal and private landowners who work together to manage 
nonnative weeds that grow across boundaries. The coordination and 
priority setting that occurs between Federal, State, and private 
partners becomes more critical as State and Federal funds that affect 
multi-jurisdictional boundaries are allocated. In locations where a 
national forest is adjacent to private land and invasive species have 
become a serious problem, the Forest Service can allocate funding to 
that location in a coordinated effort by combining resources from the 
National Forest System and State and Private Forestry Deputy Areas.
    The Natural Resources Conservation Service can work with private 
landowners to use funds available through the Environmental Quality 
Incentives Program, the Wildlife Habitat Incentives Program, and the 
Wetlands Reserve Program. Secretary Veneman recently announced the 
opening of a new sign-up for the Conservation Reserve Program and 
released $1.8 billion for conservation assistance on working lands and 
to protect environmentally sensitive lands. Within this program, funds 
can be used to eradicate, control, and/or replace invasive plants to 
achieve conservation goals.
    Invasive species can substantially increase the threat of 
catastrophic wildfires by increasing the amount of dead and dying 
vegetation on the landscape. In the aftermath of wildland fires, timely 
rehabilitation and stabilization projects also are critical to 
preventing additional threats to ecosystems posed by invasive species. 
As part of the President's Healthy Forest Initiative, USDA and the 
Department of the Interior have proposed two proposed categorical 
exclusions to the National Environmental Policy Act (NEPA) that will 
increase the ability of the agencies to expeditiously reduce hazardous 
fuels and engage in restoration projects.
    The Cooperative State Research, Education, and Extension Service 
(CSREES) supports USDA agencies at the local level with outreach 
efforts and research programs at Universities and land grant colleges 
as well. In addition, CSREES is working along with APHIS right now to 
bolster our Nation's diagnostic laboratory infrastructure--a critical 
initiative with regard to homeland security and our ongoing vigilance 
against foot-and-mouth disease and other exotic pests and diseases of 
concern.
    And, finally, USDA's Economic Research Service (ERS) conducts 
research and analysis of economic issues connected to agriculture and 
the environment, including invasive species, integrated pest management 
programs, biodiversity, and agricultural and environmental 
sustainability. ERS is also developing a new research program that will 
concentrate on examining the economics involved in managing invasive 
species in the United States. Research generated by this program will 
assist USDA officials in making policy and program decisions and 
directing resources to needed areas.
    These specialized agencies have distinct missions, but they all 
work toward one primary goal of protecting the Nation's agriculture, 
environment, and food supply. Addressing invasive species is a large 
and multifaceted part of this task, but USDA works to coordinate 
efforts and present a unified front. One of the most important 
initiatives we have undertaken is to participate in the development of 
an invasive species interagency ``cross cut'' budget, led by the 
National Invasive Species Council. The Fiscal Year 2004 crosscut 
contained only a subset of USDA activities, in the Fiscal Year 2005 
effort we plan to include all USDA programs and other efforts related 
to invasive species. This initiative is helping agency personnel share 
information and resources and reduce repetitive activities. We are also 
better able to support research that gives us new tools to improve our 
prevention and response programs. And we can consider and develop new 
approaches to longstanding problems.
    USDA agencies are also members of several interagency/
interdepartmental coordination groups that are working to address 
invasive species in the United States. These groups include the Federal 
Interagency Committee for the Management of Noxious and Exotic Weeds 
(FICMNEW); a new interagency group called Managing Invasive Insects, 
Animals and Diseases; and the Aquatic Nuisance Species Task Force. 
Participation in these groups, in addition to ongoing interaction with 
professional societies and academia, helps our officials stay in close 
contact with other Federal agencies, scientific and industry experts, 
and a host of other groups all working in different areas of the 
invasive species effort.
    In the fight against invasive pests, USDA realizes that community 
groups and residents are some of our strongest allies. USDA and our 
cooperators can't be in every neighborhood, every forest, every park 
simultaneously looking for exotic pests. Each extra pair of eyes, then, 
that we can rely on to look for signs of plant disease, strange-looking 
insects, or exotic weeds are an invaluable asset to our surveillance 
programs.
    In last year's homeland security supplemental funding package, USDA 
received additional funding to support pest detection activities. We 
have distributed this money to the States so they can help us improve 
the infrastructure needed to organize, coordinate, manage, and 
facilitate pest detection surveys at the State level. The objective of 
this pest detective initiative is to educate and enlist the cooperation 
of appropriate nongovernmental groups--gardeners, tree wardens, 
university diagnostic laboratories, and nature conservancies--to be on 
the lookout for exotic and indigenous plant pests and diseases. Because 
these groups are on the front lines, they will likely prove most 
efficient and effective in detecting signs of pests and diseases at the 
field level.
    In conjunction with expanded surveillance for invasive pests, we 
acknowledge the absolute necessity of being able to respond to serious 
pest and disease detections in a swift and coordinated manner. USDA has 
specific emergency response guidelines for many of the invasive plant 
and animal pests or diseases that pose a significant threat to the 
United States, including foot-and-mouth disease, bovine spongiform 
encephalopathy, and some exotic fruit flies. We've developed these 
response plans in conjunction with our Federal, State, and local 
partners and even conducted exercises to test our preparedness. To 
ensure maximum speed and effectiveness, we have rapid response teams 
stationed around the country ready to travel to detection sites to 
coordinate Federal, State, and industry containment and eradication 
efforts.
    APHIS, based on the model developed by the Forest Service to manage 
fire response efforts, has moved to the incident command approach to 
emergency response. Incident command places teams of emergency 
personnel and managers directly in the field to coordinate response 
efforts. These teams, in turn, report to incident commanders on the 
scene, in addition to a national incident commander and other involved 
officials across the country. By virtue of their placement and size, 
the teams and their commanders have a high level of autonomy, are able 
to respond quickly to new or evolving situations, and can provide 
extremely timely information to decisionmakers. In addition, teams from 
various local, State, and Federal agencies all speak the same language 
when working an emergency and can tap into a wider network of 
resources.
    APHIS also has a new Emergency Operations Center located within the 
Agency's headquarters outside Washington, D.C. The Center is an 8,800-
square-foot, state-of-the-art facility that serves as the national 
command center for management of APHIS emergency programs. During an 
emergency, it can support 65 personnel and operate 24 hours a day, 7 
days a week. The Center's communication capabilities include video 
teleconferencing, advanced computer interfaces, and Geographical 
Information System mapping. The Center, in combination with quick-
response incident command teams, gives APHIS the tools and resources 
necessary to effectively coordinate and manage the comprehensive 
response to emergency situations that have the potential to seriously 
affect U.S. agriculture or the environment.
    USDA is also working right now to fill the gaps in contingency 
planning for detections of invasive species that may occur in natural 
or remote areas of the country, places that are difficult to access or 
located away from our routine monitoring and surveillance efforts. 
USDA, for instance, is participating with FICMNEW in developing an 
early warning plan for invasive plants. To protect the environment, the 
public health, and agricultural industries, it is essential that we 
monitor for and respond swiftly to all invasive species introductions. 
As we've learned, the risk of spread and damage to our resources is too 
great for us not to be prepared.
    Now, while USDA has worked hard to ensure that we have the 
infrastructure, tools, and support necessary to address invasive 
species in today's world, there are some instances when we find 
ourselves challenged by an unforeseen problem. Situations involving 
invasive species can be, at times, extraordinarily complex, cutting 
across not only geographic but agency boundaries. Another complication 
is that in some cases we lack the knowledge to properly look for and 
eradicate new invasive species. In these situations, Federal officials 
must oftentimes balance quick response with patience and planning. 
Emergency research also needs to be made a priority and incorporated 
into response plans to give officials the information and tools 
necessary to do their jobs. And, most importantly, the interests and 
needs of those most affected must always remain in focus.
    One example is the emerald ash borer, an exotic forest pest 
recently discovered in Michigan, Ohio, and portions of Canada. This 
pest, a relative of the Asian longhorned beetle, demonstrates the 
frustration that can be brought about by invasive species. Many years 
ago, after the exotic Dutch elm disease wiped out trees across the 
country, ash trees were planted in backyards, forests, and parks. Many 
of these trees have reached the size of the elms they replaced, and now 
another invasive species threatens them. Officials with the Forest 
Service and APHIS are working closely right now with State and local 
representatives in Michigan and Ohio to determine just how widespread 
emerald ash borer is and what we can do to stop its spread. Removal of 
infested trees has already begun in parts of Michigan and Ohio.
    Another example is that of sudden oak death disease, a newly 
identified forest disease. The disease, which has killed thousands of 
tanoaks and oaks in coastal areas of central California, was introduced 
into the United States a few years ago. At that time, APHIS and the 
Forest Service developed a National Sudden Oak Death Detection Survey 
of forests through the Forest Service's Forest Health Monitoring 
Program. Since the establishment of the survey, small infestations were 
recently found in southern Oregon and eradication efforts have begun. 
Laboratory investigations indicate that other oak species, including 
northern red and pin oak, are susceptible to the pathogen. The Forest 
Service and APHIS are working closely with other Federal, State, 
county, and local government agencies, as well as nonprofit 
organizations to ensure a coordinated sudden oak death detection survey 
is implemented in high-risk areas nationwide.
    In Florida's Everglades, Old World climbing fern, a plant native to 
Africa, Asia, and Australia, has become well-established in many areas, 
smothering shrubby and herbaceous plants on the ground and climbing 
into the tree canopy. In some places, the fern has engulfed entire 
Everglade tree islands, pinelands, and cypress swamps. It has even 
spread across open wetland marshes. As a result, native plants have not 
been able to regenerate, as thick mats of old fern material have 
accumulated on the ground. And, should a fire occur, the fern can help 
to spread the conflagration along the ground, up and on top of trees, 
and even through wet areas. Because of these serious threats, for the 
last several years, USDA and its partners in Florida have been working 
to stop the spread of Old World climbing fern. While herbicides and 
hand-cutting have registered some success in specific areas, these 
techniques cannot be used across the entire Everglades, and herbicides 
cannot be used in certain sensitive areas. USDA researchers, therefore, 
are also examining the potential of employing biological control 
organisms against this plant. With further research and the appropriate 
approval, it may soon be possible that tiny moths, mites, or perhaps 
some other organism may be deployed in the Everglades to check Old 
World climbing fern.
    A final example of a challenging situation involving an invasive 
species is the coqui frog in Hawaii. This small, invasive frog has 
become established in areas of the State, much to the displeasure of 
many residents, tourists, biologists, and agricultural producers. 
However, at the same time, the frog is beloved in its natural home of 
Puerto Rico, and animal rights groups have objected to efforts to 
address its presence in Hawaii. USDA scientists have been working to 
develop suitable control techniques that may help to reduce coqui 
populations in Hawaii. While USDA is currently conducting more study in 
this area, our officials in Hawaii have also taken the lead in drafting 
a management plan for Caribbean tree frogs in the State.
    USDA appreciates the Committee's interest in not only our programs 
to address invasive species, but also the problems we regularly face in 
responding to new situations, working with new partners, and taking 
into consideration different interests and viewpoints. As USDA's point 
person for invasive species, I am learning much in these areas as well, 
and I look forward to working with the Committee in the future. Thank 
you for the opportunity to be here today.
                                 ______
                                 
    Mr. Saxton. Thank you very much, Dr. Lambert. Dr. Brandt?

   STATEMENT OF DR. STEPHEN BRANDT, DIRECTOR OF GREAT LAKES 
                ENVIRONMENTAL RESEARCH LAB, NOAA

    Dr. Brandt. Thank you, Mr. Chairman.
    Having major responsibilities for the Nation's coasts, NOAA 
is keenly concerned about aquatic invasions. Aquatic invasions 
cause significant ecological disruptions and economic costs to 
the Nation estimated in the billions of dollars. You are 
threatened by coastal invasions if you fish, swim, eat fish or 
seafood, are a recreational boater, if you drink Great Lakes 
water, if your power company uses water for cooling or if your 
State depends on tourist dollars.
    Invasive species are identified as a leading cause of the 
loss of biodiversity in aquatic environments worldwide, perhaps 
second only to habitat destruction. Invasive species can 
replace or eliminate native species, alter habitats, change 
contaminant cycling and interfere with human use of natural 
resources.
    New Zealand regards the problem as a national marine 
biosecurity issue. Over the past few decades the rates of 
invasions have accelerated. Large aquatic environments are most 
vulnerable, and once established in an ecosystem an invader 
changes that ecosystem. Each new invader is unique and thus 
specific impacts vary from region to region.
    Hundreds of invasive species have entered each of our major 
coastal waterways. The large size and complexity of these 
ecosystems make it difficult to initially detect a new invader 
under the surface of the water and nearly impossible to 
eliminate it.
    As an example, the invasion of zebra mussels in the Great 
Lakes has gained the attention of the Nation. The Great Lakes 
are unique because they provide the gateway to America's 
heartland. Zebra mussels currently threaten all freshwater 
systems in the U.S., including those on the West Coast. Just 
the cost of chemically treating industrial and municipal water 
intakes is $100 to $400 million per year in the Great Lakes 
alone. Zebra mussels also cause toxic algae blooms which can 
cause taste and odor problems in drinking water, and research 
has indicated that the zebra mussel is now responsible for the 
loss of a bottom dwelling organism that has been in the Great 
Lakes since their formation. This is harmful to the whitefish 
commercial fishery and is threatening a $4 billion sports 
fishery.
    Similar stories could be told in San Francisco Bay, 
Chesapeake Bay, Hawaii and other large ecosystems. Prevention 
is critical, but we must first identify how these species are 
being introduced. In our coastal systems ballast water 
transport and discharge from ships is the major invasive 
pathway. Over two-thirds of recent introduction are likely due 
to ship borne vectors. Nine of the last 12 species that entered 
the Great Lakes in the last 10 years have come from ballast 
water. The rate of introductions is increasing because of the 
expansion of trade and the speed of transportation. Ballast 
carries organisms ranging from human pathogens to fish, and 
recent research by NOAA and its partners has shown that ships 
without ballast water carry enough residual material and live 
organisms to pose a significant threat as well.
    The NOAA Ballast Water Technology Demonstration Program has 
funded a variety of projects to evaluate technologies and 
practices to prevent further introductions from ballast tanks. 
This work has been fruitful, but none of the technologies are 
yet ready for widespread use. There are other significant 
pathways as well such as inadvertent aquarium releases, hull 
fouling, live bait introductions, inadvertent transfer by 
boaters and canals that link different water systems. Changes 
in coastal water quality and habitats can also alter their 
vulnerability to invasions.
    For example, the Great Lakes are currently being threatened 
by the Asian carp that was an escapee from aquaculture sites, 
which is moving up the Mississippi River and can enter the 
Great Lakes via the Chicago Sanitary and Ship Canal. An 
electronic barrier has been set up to try to prevent entry into 
the Great Lakes.
    NOAA's National Sea Grant Program has also been 
instrumental in helping States to develop statewide invasive 
species management plans and have been leaders in working with 
the bait and aquaculture industries to mitigate inadvertent 
introductions.
    Control activities are very costly. Educating user groups 
can also be an effective way to reduce the inadvertent transfer 
of species from one body of water to another. Eradication is 
rare, expensive and requires true partnerships. Early 
detection, rapid scientific assessment and response may help 
managers to maximize successful control and also minimize 
impacts.
    NOAA has established a pilot project with the Bishop Museum 
in Hawaii to conduct early detection monitoring for new 
invaders. If successful, this program will be expanded to other 
coastal regions as resources permit. To minimize ecological and 
economic impacts we need to understand the basic biology of the 
invader, how the ecosystem will change and what will be the 
extent of the impact and can we adapt our management strategies 
to accommodate its presence.
    NOAA recognizes the importance of this issue and will 
continue in our efforts to deal with aquatic invaders. To this 
end NOAA has recently incorporated aquatic invasive species as 
a major theme in its new strategic plan in consultation with 
our partners and consistent with the national management plan.
    Finally, research underlies all of these activities. In 
order to maximize use and coordination of NOAA scientific 
resources, NOAA is in the process of creating a NOAA-wide 
National Center for Aquatic Invasive Species Research.
    I hope this brief summary of my more extensive written 
comments will be useful. Thanks for the opportunity to be here 
today, and I am happy to answer any questions.
    [The prepared statement of Dr. Brandt follows:]

  Statement of Stephen B. Brandt, Director, Great Lakes Environmental 
 Research Laboratory, National Oceanic and Atmospheric Administration, 
                      U.S. Department of Commerce

    Good afternoon, Chairman Gilchrest and Chairman Radanovich. My name 
is Stephen Brandt. I am Director of the Great Lakes Environmental 
Research Laboratory, a research component of the National Oceanic and 
Atmospheric Administration (NOAA) within the Office of Oceanic and 
Atmospheric Research.
    NOAA is the Nation's premier Federal agency, with responsibilities 
for enhancing the value of and protecting the vital resources in both 
marine and Great Lakes ecosystems. The Great Lakes Environmental 
Research Laboratory (GLERL) is NOAA's leading institution for aquatic 
invasive species research and has authorization to carry-out such 
research. Therefore, I am grateful for the opportunity to discuss the 
scope of the invasive species problem, although I will restrict my 
comments to aquatic invasive species, given the nature and mission of 
my agency.

Scope of the Problem
    Invasive species now constitute one of the largest present, and 
future, threats to our coastal ecosystems, our coastal economies, and 
human health in our coastal regions. Our coastal ecosystems are not 
just inconsequential bodies of water that happen to be adjacent to the 
lands we live on--rather, they support and nurture our society and our 
economy, they harbor and provide valuable natural resources for human 
use that both feed us (fisheries, water supply) and entertain us 
(recreational boating, fishing, and swimming), and they protect our 
shoreline (coral reefs, wetlands and marshes) from the extremes of 
nature.
    Species invasions are now a major global concern, with serious 
implications and consequences for the United States at National, 
regional, and local scales. Aquatic species invasions are threatening 
and impacting coastal ecosystems worldwide and many coastal states are 
taking or planning some form of protective action. The natural barriers 
that have limited the range of aquatic organisms are being rapidly 
overcome by anthropogenic activities. Let me say here that the majority 
of invasive species vectors are the result of perfectly legitimate 
activities, which have unintended consequences. I do not wish to be 
critical of private individuals, or any particular industry, I simply 
want to highlight that innocent activities can have major, cumulative, 
long-term affects on our environment.
    Ship-borne ballast water is the most significant vector of 
introductions for aquatic invasive species worldwide (NRC, 1996). Other 
significant vectors include inadvertent aquarium releases, live-bait 
introductions, recreational boating and semi-submersible oil platforms. 
Changes in coastal water quality and coastal habitats can alter the 
vulnerability of some of the nations coasts to invasions (Carlton, 
2001). Invasive aquatic species have caused significant economic losses 
and ecological disruptions in the U.S. and elsewhere. Invasive species 
are identified as a leading cause of species extinction and loss of 
biodiversity in aquatic environments worldwide, perhaps second only to 
habitat loss (Vitovsek, P. M., H. A. Mooney, J. Lubchenco and J. M. 
Melillo. 1997. Human domination of Earths Ecosystems. Science 277:494-
499). Invasive species can replace or eliminate native species, change 
nutrient and contaminant cycling, affect ecosystem productivity, and 
can cause losses of economically valuable fisheries. Some invasive 
species, such as the zebra mussel, can change the structure of entire 
ecosystems and cause direct economic harm by clogging water intakes for 
municipal or industrial uses. The resulting economic damages are shared 
by all natural resource beneficiaries, including industrial and 
municipal water users, recreational boaters, the fishing public, 
riparians, vessel operators, and beach users. New Zealand, an island 
nation particularly vulnerable to aquatic invasions, regards the 
problem as such a major threat that at the Federal level they refer to 
it as a National ``marine biosecurity'' issue.
    Scientists have been quick to identify the major species invasion 
``vectors,'' these ``vectors'' being the means by which species are 
able to move between ecosystems. Increases and changes in ballast water 
transport, hull fouling, recreational boating, semi-submersible oil 
platforms, inadvertent aquarium releases, live-bait introductions, 
canals, and aquaculture are the major ones (Ruiz, G. M., J. T. Carlton, 
E. D. Grosholz, and A. H. Hines. 1997. Global invasions of marine and 
estuarine habitats by non-indigenous species: mechanisms, extent, and 
consequences. American Zoologist 37:621-632.; Ruiz, G. M., P. W. 
Fofonoff, J. T. Carlton, M. J. Wonham, and A. H. Hines. 2000. Invasion 
of coastal marine communities in North America: apparent patterns, 
processes, and biases. Annual Review of Ecology and Systematics 31:481-
531.; Carlton, 2001). To be certain, some natural processes, such as 
storms, have been responsible for transporting species between 
separated ecosystems, but human activity has surpassed and overwhelmed 
both the scope and speed at which nonindigenous species are being 
delivered to new ecosystems. For example, unwanted alien pests are 
entering Hawaii at a rate estimated by the U.S.G.S. to be about 2 
million times more rapid than the natural rate (http://www.hear.org/); 
a Canadian study based on DNA and genetics calculated that human-
mediated dispersal of crustacean zooplankton now exceeds natural 
dispersal by up to 50,000 times (Hebert, P. D. N. and M. Cristescu. 
2002. Crustaceans, invasions and genes. Can. J. Fish. Aquat. Sci. 
59:1229-1234).
    Ballast water transport and discharge is, by far, the most 
universal and ubiquitous of the major aquatic invasion vectors and 
represents the greatest immediate threat to most coastal state 
ecosystems. Over two-thirds of recent, non-native species introductions 
in marine and coastal areas are likely due to ship-borne vectors (Ruiz, 
G. M., P. W. Fofonoff, J. T. Carlton, M. J. Wonham, and A. H. Hines. 
2000. Invasion of coastal marine communities in North America: apparent 
patterns, processes, and biases. Annual Review of Ecology and 
Systematics 31:481-531). The rate of introductions in various coastal 
ecosystems continues to increase with expansion of trade and the speed 
of transportation. There are an estimated 35,000 ships plying the 
oceans today. James Carlton, a noted scientist, once estimated that at 
any time of day there are several thousand aquatic species being 
carried in the ballast tanks of ships moving between coastal states 
(Carlton, J. T. 1999. The scale and ecological consequences of 
biological invasions in the world's oceans. In Invasive Species and 
Biodiversity Management. O. T. Sandlund, P. J. Schei, and A. Viken, 
eds. Kluwer Academic Publishers, Dordrecht, Netherlands. 195-212; 
Carlton, J. T. 2001. Introduced Species in U.S. Coastal Waters: 
Environmental Impacts and Management Priorities).
    Ballast water is not only ubiquitous, but carries organisms ranging 
from human pathogens to fish. The port states of Brazil and Argentina 
require some ships to chemically disinfect their ballast tanks before 
being allowed entry rights, because of the fear of human pathogens such 
as cholera. A November 2000 report in the science journal Nature 
documented the presence of both types (``serotypes'' O1 and O139) of 
cholera bacteria that are associated with human epidemics in the 
ballast tanks of 93% of ships sampled in Chesapeake Bay.
    However, ballast water is not the only vector of importance in some 
regions. There are 24 species of non-native algae in Hawaiian waters at 
present, some of which have taken over whole areas of coral reef. Some 
of these algae have been introduced via hull fouling. Inappropriate 
release of aquarium species is a major source of nonindigenous species 
in Hawaii's inland freshwater streams and ponds (ANS Task Force 
Meeting, November 2002).
    In the Great Lakes region, ballast water, escape from aquaculture 
sites, and the aquarium and bait trades appear to be the most 
significant vectors. The most recent known potential aquatic invasion 
threat comes not from ballast water, but from a combination of 
aquaculture and canals--as the Committee members may know, three 
species of large Asian carp (silver, black, and bighead) that escaped 
from aquaculture sites in our southern states are moving up the 
Mississippi River system and are within striking distance of the Great 
Lakes via the Chicago Sanitary and Ship Canal. An electronic barrier 
has been set up in the canal to try to stop the spread of this 
introduction into the Great Lakes.
    All mainland coasts of the United States--East, West, Gulf, and 
Great Lakes, as well as the coastal waters of Alaska, Hawaii, and the 
Pacific Islands, have felt the effects of an ever increasing number of 
successful aquatic species invasions. I suspect that members of this 
Committee are already familiar with some of the gross statistics--202 
known or possible nonindigenous species in Chesapeake Bay (Smithsonian 
Environmental Research Center, Edgewater, Maryland, Mariner Invasion 
Research Lab website: http://invasions.si.edu/Regional/reg--
chesapeake.htm), over 230 in the San Francisco Bay estuary (National 
Invasive Species Council. 2001. Meeting the Invasive Species Challenge: 
Management Plan. 76 pp), at least 162 in the Great Lakes waters (Mills, 
E. L., J. H. Leach, J. T. Carlton, and C.L. Secor. 1993. Exotic species 
in the Great Lakes: a history biotic crises and anthropogenic 
introductions. J. Great Lakes Res. 19: 1-54.; Ricciardi, A. 2001. 
Facilitative interactions among aquatic invaders: is an ``invasional 
meltdown'' occurring in the Great Lakes? Can. J. Fish Aquat. Sci. 58:1-
13.), at least 544 in the 5-state Gulf of Mexico coastal system (USEPA 
(U.S. Environmental Protection Agency). 2000. An Initial Survey of 
Aquatic Invasive Species Issues in the Gulf of Mexico Region. Version 
4.0. Table 5. EPA 855-R-00-003. September 2000.) and in Pearl Harbor 
and Honolulu, almost half the species are non-native. Prince William 
Sound, Alaska is the recipient of large amounts of ballast water 
originating from the west coast of the U.S., including San Francisco 
Bay, an invasive species hot spot.
    The effects on the invaded ecosystems of many of these foreign 
species have appeared--to the casual human observer--to be minimal. 
However, once established in an ecosystem, an invader, by definition, 
changes that ecosystem. Each new invader will have its own niche, type 
of effect, degree of change it produces, and timing with which its 
impact may become discernable. Losses in one part of an ecosystem can 
reverberate throughout the ecosystem to affect all resources within it. 
Our coastal ecosystems function in finely tuned balance that evolved 
over millennia. When that balance is disrupted, such as by changes in 
the structure and function of the food web through shifts and 
reductions of important native food web components, the services and 
benefits provided by the ecosystem are put at risk, and affect our 
economy through loss of resource value or added expenses to recover, 
restore, and maintain desired resource values.

Some Examples
    First, from my own backyard--the Great Lakes. Great Lakes resource 
managers have been cognizant of this problem, and have been dealing 
with managing invasive species for nearly half a century. The sea 
lamprey and alewife were two of the key invaders into the Great Lakes 
in the 1950's, having reached the upper lakes aided by the 
interconnecting canals. These invaders were costly to the Great Lakes. 
Management efforts have been directed at control either though direct 
means (with the sea lamprey) or through the introduction of a predator, 
the Pacific salmon, for the alewife. The sea lamprey, the Great Lakes' 
oldest documented aquatic invader, caused the collapse of fish species 
that were the economic mainstay of a vibrant Great Lakes fishery. 
Before sea lampreys entered through canals, the United States and 
Canada harvested about 7 million kgs. (15 million lbs.) of lake trout 
in lakes Huron and Superior annually. By the early 1960s, the catch was 
only about 136,000 kgs. (300,000 lbs.). The fishery was devastated, 
with losses in the billions (Great Lakes Fishery Commission web site: 
http://www.glfc.org).
    Extensive scientific research, during which over 6,000 chemicals 
were tested, identified a chemical treatment leading to a program that 
controls, but cannot eradicate, the lamprey. The cost to the United 
States and Canada has increased over time and is now about $14M per 
year. However, I would also point out that for a $14M per year expense, 
lake trout and salmon recreational sport fisheries valued at an 
estimated $4B became possible again and are thriving.
    More recently, the zebra mussel invasion into the Great Lakes has 
captured the attention of the nation on this issue. You are likely 
familiar with the zebra mussel--which we refer to as the ``poster 
child'' for aquatic species invaders. The Great Lakes basin is the 
aquatic gateway to the heartland of America and a hot spot for aquatic 
species introductions to major interior sections of the U.S. While the 
spread of aquatic species introduced in most U.S. coastal ecosystems is 
generally restricted to adjacent contiguous coastal ecosystems, the 
Great Lakes provide a pathway for freshwater-adapted invasive species 
to spread throughout the interior waters of the central and eastern 
United States. One need only examine the spread of zebra mussels to 
understand this--they are now found outside the Great Lakes--St. 
Lawrence River system as far west as eastern Arkansas, as far south as 
the Mississippi delta below New Orleans, Louisiana, and east as far as 
the Hudson River estuary north of New York City. You have probably 
heard of the economic costs attributed to zebra mussels clogging water 
intake pipes. They have fouled industrial and municipal water intakes, 
which must now be chemically treated on a regular basis throughout the 
summer months to keep them flowing. Estimates of the annual cost of 
zebra mussel control and mitigation range from $100 to $400 million per 
year in the Great Lakes basin, but the zebra mussel has already spread 
throughout most of the eastern half of the country.
    Do you know that the zebra mussel is also responsible for the 
repeated reoccurrence of blue-green algae blooms in certain large areas 
of the Great Lakes? These algae produce a toxin known as microcystin. 
These algae also cause water quality taste and odor problems in the 
municipal water supplies in affected areas. Research at the NOAA Great 
Lakes Environmental Research Laboratory has also implicated the zebra 
mussel in the slow, but steady elimination of Diporeia, a shrimp-like 
animal that has been a dominant bottom-dwelling organism in the Great 
Lakes since their formation at the end of the Ice Age. Diporeia are the 
primary food source for lake whitefish, a commercially valuable fish 
species in the Great Lakes. Loss of Diporeia is an example of an 
invasive-species caused food web disruption that can be directly linked 
to declines in the body condition of lake whitefish. As a result, lake 
whitefish are becoming thinner and less marketable for the commercial 
fisheries. For several fish species, including bloater (Coregonus 
hoyi), whitefish (Coregonus clupeaformis), slimy sculpin (Cottus 
cognatus), yellow perch (Perca flavescens), and trout-perch (Percopsis 
omiscomaycus), Diporeia is the principal prey. These fish are, in turn, 
the primary food of the trout and salmon that support most of the Great 
Lakes sports fishery. Research is examining the impact of this 
disappearance on the $4B sports fishery. Moreover, declines in the 
popular yellow perch population in Lake Michigan followed the 
establishment of zebra mussels and are also believed to be directly 
linked to some form of ecosystem or food web disruption. The more we 
know, the better we can mitigate economic losses
    In San Francisco Bay, the introduced clam Potamocorbula amurensis 
is such an efficient filter feeder that it has eliminated phytoplankton 
blooms in the northern portion of the Bay. Since phytoplankton are at 
the very base of the food chain, it is expected that there will be 
cascading impacts throughout the food chain. Studies have also 
demonstrated that populations of zooplankton and mysid shrimp in San 
Francisco Bay have dropped. Although there has been little research on 
the next link in the chain, the fact that juvenile fish feed on 
zooplankton and mysid shrimp should raise concern. In most food chains 
the higher organisms--clams, mussels, and fish, for example- are often 
the basis for economically valuable fisheries, and the implications of 
cascading food web disruption include loss of fishery value, loss of 
recreational (fishing) opportunity, and loss of income and jobs. A 
recent study has raised another issue related to this invasive clam 
species. Researchers have found very high selenium concentrations in 
the clams, which could have an impact on birds and fish that feed on 
them.
    In the Chesapeake Bay, resource managers are very concerned about 
the potential impact on native Bay species of the recent invader, the 
veined rapa whelk (Rapana venosa), a gastropod mollusk originating from 
the Sea of Japan. Since it feeds on bivalve mollusks, the Bay's clams 
and oysters are threatened by the spread of the rapa whelk.
    Also in the Chesapeake Bay, and in Louisiana, coastal wetlands are 
being lost due to the voracious appetite of the introduced nutria.
    A University of Hawaii study estimated the cost of invasive algae 
to be $20 million per year for the island of Maui alone.
    In summary, invasive species are ubiquitous and represent a global 
scale problem, but with impacts and economic costs hitting us at the 
national, regional, and local scales. Aquatic invasive species affect 
virtually every coast of the United States. The invaders range from 
bacteria and human pathogens, to plants, to small and large aquatic 
animals. In aquatic ecosystems, the rate of invasions is accelerating 
as the magnitude of travel and trade increases and as the speed of 
transporting materials increases. There is no doubt that such invasions 
have major economic and environmental consequences and affect each of 
us individually.

Efforts to Prevent, Control or Eradicate
Prevention
    Before touching on control activities, I think that it should be 
emphasized that prevention is our first and most important line of 
defense against species invasions. Control is often much more expensive 
than prevention, and sometimes becomes an ongoing expenditure. The 
example of the sea lamprey provided earlier in this testimony 
illustrates this. An investment made to prevent an introduction is 
quite often the most cost effective method of dealing with a potential 
problem.
    The Members of this Subcommittee are likely familiar with the 
concept of ballast water exchange, its use as an invasive species risk 
reduction method, and its limitations. To address the serious 
limitations to mid-ocean ballast water exchange, Congress initiated a 
competitive research program by adding Sec. 1104 of the National 
Invasive Species Act of 1996, which is administered for the Department 
of Commerce by the NOAA Sea Grant Program Office in partnership with 
the Department of Interior's Fish and Wildlife Service (FWS) and the 
Maritime Administration (MARAD). This program was designed to encourage 
development and demonstrate technologies and practices that will 
prevent nonindigenous aquatic species from being introduced into the 
Great Lakes and other waters of the United States. Projects funded 
under this program are selected through an annual peer-reviewed open 
competition process.
    The Ballast Water Technology Demonstration Program has funded 
projects covering all stages of technology development and 
demonstration, from bench-scale investigations through pilot scale 
demonstrations, including some full-scale field tests on ships engaged 
in commercial activity. Additionally, NOAA invites the submission of 
additional ballast water research proposals through the more general 
aquatic nuisance species competitive grant program administered by the 
National Sea Grant College Program under Sec. 1202(f) of the Act. 
Shipboard tests have occurred for eight of nine ballast treatment 
techniques discussed in the 1996 National Research Council report 
titled, Stemming the Tide: Controlling Introductions of Nonindigenous 
Species by Ships'' Ballast Water, as well as for some newer 
technologies not covered in that report.
    Since 1998, the technologies being investigated have matured so 
that more projects involve full-scale tests of ballast water treatment 
equipment and fewer involve small laboratory scale experiments. These 
shipboard tests have brought us significantly closer to the development 
of mature ballast water treatment technologies, but none is ready for 
widespread use by the maritime fleets of the world. There is general 
consensus that ``there is no currently universal technological 
solution, nor is there likely to be one in the very near future, and 
mid-ocean ballast water exchange is currently the only practical 
ballast water management option...(direct quote from Harmful Aquatic 
Organisms in Ballast Water, submitted by the United States to the 
International Maritime Organization, Marine Environment Protection 
Committee, 48th Session, Agenda Item 2, July 17, 2002).
    The difficulty arises when attempting to move these technologies to 
full-scale shipboard testing under operational conditions. Limitations 
of space and power on commercial vessels, and limitations in the rate 
of ballast water treatment that can be achieved with systems amenable 
to shipboard retrofit, have so far precluded any near-future practical 
application of these technologies on all but a few small vessels in the 
existing commercial fleet. In addition, actual full-scale testing of 
these systems relies of the availability of suitable commercial ships 
as test platforms. While the industry has been generally supportive and 
has made operating vessels available for testing, commercial ships 
operate on very tight, yet changeable schedules, and first and foremost 
they operate to serve their commercial clients. Any experimental 
testing of ballast water treatment systems must be done on a ``not to 
interfere'' basis. This means that the scientists and engineers 
attempting to test and verify their systems at operational scale and 
under operational conditions, do not have full control over the test 
timing or test conditions. Commercial ships cannot readily be delayed 
or diverted to rerun an experiment or to adjust testing conditions.
    NOAA recognizes that continued work is needed in all areas of 
prevention, not just ballast water technology research. NOAA's National 
Sea Grant Program has played a major role in defining the research 
agenda on aquatic nuisance species, including ballast water research. 
The 2000 report, ``Aquatic Nuisance Species Report: An Update on Sea 
Grant Research and Outreach Programs,'' documented work on 22 species 
in 24 states, the largest of its kind. Sea Grant programs have been 
instrumental in the development of state invasive species management 
plans on every coast, and have been leaders in working with the bait 
and aquaculture industries to mitigate inadvertent introductions. Sea 
Grant developed the Hazard Analysis and Critical Control Point (HACCP) 
approach to identify and correct practices that could present a risk of 
invasive species. This HACCP program is now in use in fish hatcheries 
in many states and by the U.S. Fish and Wildlife Service.
    Complementing the broad resources Sea Grant brings to the 
university community, the NOAA Great Lakes Environmental Research 
Laboratory is in the final year of a three-year, multi-institutional 
research program to assess the risk of invasion posed by No-Ballast-On-
Board (``NOBOB'') vessels in the Great Lakes. NOBOB vessels are those 
that do not carry pumpable ballast water as they enter the Lakes fully 
loaded with cargo. However, residual ballast in their tanks have now 
been documented by this research to contain live organisms and dormant 
viable eggs of invertebrate and algal species. These residuals can mix 
with lake waters brought on as ballast when cargo is offloaded at ports 
in the Great Lakes, which may eventually be discharged in other ports. 
The results of the NOBOB research are already being made available and 
should assist the shipping industry and regulators in determining best 
management practices for reducing the amount of residual sediment and 
live organisms in ballast tanks. Another part of that program is 
evaluating the effectiveness of mid-ocean ballast water exchange as a 
barrier to potential invasions, with several experiments being planned 
for this year.
    In recognition of the likely long-term use of ballast water 
exchange as an invasive species management option, GLERL, in 
partnership with the Navy and with the assistance of the shipping 
industry, is just beginning to explore the use of computer modeling and 
computational fluid dynamics to better understand the mechanics and 
dynamics of fluid flow in a ballast tank during exchange. We hope that 
this will help identify ways to improve the consistency and efficiency 
of exchange, thus improving the level of protection ballast water 
exchange may provide for our coastal ecosystems. The proposal for this 
research was competed and funded under the Ballast Water Technology 
Demonstration Program.

Control
    There is a tendency to equate control activities with eradication, 
but they actually encompass a wider range of options. Once an invasive 
species is established and widely distributed, eradication is often not 
possible. Under such circumstances, control activities may include 
reducing the size of populations, containing the invasion, or 
mitigating the impact of a species. Harmful affects can often be 
minimized with early detection, understanding, and prediction of 
potential impacts and adaptive management.
    We can learn much about controlling invasive species from our 
counterparts on the terrestrial side, who, at least in the area of 
agriculture, have been dealing with the issue for more than a century. 
However, there are many ecological, biological, logistical and economic 
issues related to controlling aquatic invaders that have no counterpart 
on the terrestrial side. In these situations, new research must be 
conducted and totally new control tools devised. As an example, two 
summers ago we were confronted with a major bloom of Australian spotted 
jellyfish in the northern Gulf of Mexico. They were so plentiful that 
shrimpers had to stop fishing because they could not cast their nets 
without the jellyfish clogging them. A rapid survey in areas where the 
jellyfish were most abundant showed that they were removing virtually 
100 percent of zooplankton from the water column. We recognized 
immediately that this was a major food web disruption in the making, 
but we were confronted with the fact that no one had ever tried to 
control jellyfish populations in the past, and we had no idea of how to 
accomplish control measures. Although this particular infestation died 
off, we are researching responses for the next time the situation 
occurs.
    We are also having to learn how to conduct biocontrol in ways our 
terrestrial counterparts have never had to consider. Biocontrol is the 
introduction of a predator or pathogen that affects an invasive 
species. It is a well-established technique for control of terrestrial 
invasive species such as weeds. Before such an introduction takes 
place, it is important to determine that the biocontrol agent does not 
cause unintended harm to native species and is safe for humans. The 
Army Corps of Engineers and the Department of Agriculture have been 
successful in finding biocontrol agents for some aquatic plants such as 
alligator weed and purple loosestrife, and there is research directed 
toward other aquatic plant species such as giant Salvinia, Hydrilla, 
and Spartina.
    However, very few biocontrol agents have been developed for aquatic 
animals. With guarded optimism, I would like to report, however, that 
research supported jointly by NOAA Sea Grant and FWS, may have had a 
breakthrough in this area. Pseudomonas bacterium, a pathogen that 
destroys the digestive gland of zebra mussels, has been discovered, and 
it appears not to harm native species of mussels or other animals. The 
scientists who found the Pseudomonas bacterium looked at over 600 
different pathogens. Although early results are promising, it is 
important that further research verify that the agent poses no risk to 
native mussels, the environment, or human health.
    I would also like to mention another important control activity--
education and outreach. Educating user groups can be an especially 
effective tool. This is particularly true in the case of invasive 
aquatic species, and the Aquatic Nuisance Species Task Force is making 
a concerted effort in a couple of areas. One of the most significant 
pathways for the spread of successful invaders such as zebra mussels 
and aquatic plants is recreational users. Such species are often 
carried from one body of water to another by boats. The Aquatic 
Nuisance Species Task Force has made a concerted effort to reduce 
boating as a pathway for introduction. NOAA, FWS, and the Coast Guard 
have all funded efforts to educate boaters. There is evidence that such 
an approach may help contain invasive species. A recent study by 
Minnesota Sea Grant comparing states that had aggressive education 
campaigns with states where very little was being done, showed that 
education can not only increase boater awareness, but also change 
boater behavior. In addition, the 100th Meridian project funded by FWS 
has, so far, prevented the spread of zebra mussels to western states on 
recreational boats. A major challenge looming in the near future may be 
to prevent or respond to the unintentional spread of aquatic invasive 
species, like the zebra mussel, during the Lewis and Clark Bicentennial 
celebration starting this year.

Eradication
    While eradication is usually much more difficult and expensive than 
prevention, it can sometimes be accomplished when the necessary players 
can react quickly and work together. With fingers crossed, I would also 
like to report the apparent successful eradication of a species that 
has received considerable attention recently--Caulerpa taxifolia, the 
so-called ``killer algae of the Mediterranean.'' Caulerpa was found in 
a lagoon just north of San Diego in the summer of 2000. After two and a 
half years work to eradicate a rather small infestation in a 
cooperative effort involving several Federal and State of California 
agencies, we now have gone two consecutive quarters without detecting 
any new growth of the invasive algae.
    The Caulerpa eradication project illustrates two important points. 
First, eradication efforts, even small ones, are expensive. It has cost 
the State of California and other contributors (including NOAA) over $4 
million to eradicate this rather small infestation, and the monitoring 
necessary to ensure that eradication is complete will increase this 
amount. Second, in most instances, control and eradication efforts 
require active partnerships with State governments. Not only do they 
have primary jurisdiction over most areas, but they also have more on-
the-ground resources available.
    Another example of an apparently successful eradication was 
reported in connection with the African sabellid polychaete worm, 
introduced into California coastal abalone farms in the mid- to late-
1980s via an imported South African species. These worms infest and 
weaken the shells of the California abalone, reducing growth rates and 
production, and thus, their value. Sea Grant sponsored researchers 
showed that these worms can also infest many types of native marine 
snails, not just abalone. In the late 1990s researchers completed a 
reportedly successful project to eradicate the sabellid from a coastal 
area where it had been transmitted to native gastropods. However, there 
are recent reports indicating that a few isolated cases may still 
remain or that the pest has reemerged in a few locations. This 
illustrates just how difficult it can be to achieve total eradication 
of an aquatic pest.

Early Detection and Rapid Response
    Early detection is necessary before we can have any hope that rapid 
response may be potentially successful. To this end NOAA's National 
Ocean Service has established a pilot project with the Bishop Museum in 
Hawaii to conduct early detection monitoring for new invaders in key 
Oahu harbors and bays. If successful, NOAA will expand the program to 
other coastal regions as resources permit. However, early detection may 
prove problematic, since it is difficult to know, for any particular 
ecosystem, where to focus monitoring, what to look for, and when to 
look, yet the alternative, a broad an unfocused monitoring program, can 
rapidly become expensive and untenable. As NOAA develops this program 
it will explore these issues through applied research to develop new or 
modified monitoring techniques and tools.
    Rapid response to new species invasions may help managers, 
industries, and researchers establish the nature of a new invasive 
species, its current and potential distributions, vectors of dispersal, 
potential ecological and industrial impacts, and potential control and/
or eradication options. For example, when notified of a new invasive 
species in the U.S., the Animal and Plant Health Inspection Service 
(APHIS) under the U.S. Department of Agriculture, one of the oldest 
invasive species-fighting organizations in the United States, organizes 
a 'New Pest Advisory Group' consisting of government officials and 
appropriate experts. This group meets and acts quickly to discuss the 
known biology of the organism, its potential damage and range, 
mitigation strategies, and possible actions. Based on these 
discussions, the group makes a recommendation to APHIS to either take 
action, or not, on the newly detected exotic pest. This process was 
used to respond to the discovery of the invasive ``pine shoot beetle'' 
in 1992 on a Christmas tree plantation near Cleveland, Ohio. Within a 
few days of being notified, APHIS brought together concerned parties 
from industry, academia, and state and Federal agencies in a ``New Pest 
Advisory Group'' to share information and develop response strategies. 
Through this process, they were able to rapidly establish the extent of 
its distribution and potential impacts on industry, and start the 
process to develop a regulatory response.
    At the present time, no framework exists to support and carry out 
rapid scientific assessment of new aquatic invader populations. Yet 
gathering and verifying information and compiling summary findings and 
recommendations is a necessary precursor to supporting informed and 
effective resource management decisions that do not waste taxpayer 
funds on costly eradication attempts that have little chance of 
success. When a new invasion is reported, a team of appropriate experts 
needs to be quickly assembled to gather and verify information and 
assess whether the invasion is a candidate for attempted eradication or 
control. A framework needs to be developed under which a rapid 
scientific invasion assessment team can be assembled and activated in 
response to reports of new species. Rapid assessment of new AIS 
arrivals can be useful in helping resource managers become aware of new 
demands on the ecosystem and to plan management actions. For example, 
the Fish Health Committee under the Great Lakes Fishery Commission has 
developed a model program and risk assessment guidelines for evaluating 
new fish diseases that may be useful in developing a similar framework 
for aquatic invasive species.

What if We Fail (to Prevent, to Control, to Eradicate)
    Once a species has become established in an ecosystem, the 
ecosystem, by definition has changed, and the species is nearly 
impossible to eradicate. An invader redefines the ecosystem. Unlike 
many chemical contaminants that dissipate through time, invasive 
species do not have a ``half-life'' and they are here to stay. We can 
try to contain the species, but it is very difficult to actually 
control the species in large ecosystems, and there is no silver bullet 
for control because each new invader has its own unique life history 
and place in the ecosystem. Thus, for many invasive species, control 
may entail finding methods of reducing their impact, or, lacking any 
viable control or eradication, humans may have to adaptively manage the 
affected ecosystems and resources. Long-term changes in an ecosystem 
caused by an invader may necessitate adapting our management of water 
quality and economically valuable resources, such as fisheries, to the 
altered conditions. This requires revision of management strategies 
(i.e., adaptive management) that can only be accomplished on the basis 
of scientific understanding of the changes that have occurred. How can 
this be done?
    Of fundamental importance are the following concerns: How does that 
changed ecosystem affect the ecology and economy of the region? What 
will be the extent of the impact? And can we adapt our management 
strategies to accommodate its presence? This requires answers to two 
critical and equally important questions:
    (1) What is the basic biology, life history, and reproductive 
strategy of the invasive species?
    and
    (2) How will this new species fit into and change the ecosystem 
functioning?
    The answer to the second question clearly demands that we know how 
the ecosystem functions to begin with. Fundamental ecosystem 
understanding and long-term data sets will lead to early detection and 
evaluation. Once there is a basic understanding of the ecosystem, 
assessing the role of each new invader is somewhat easier. In contrast, 
once a species enters, it is too late to ask, what was the ecosystem 
like before the invader arrived? A study that lasts only 1-2 years is 
insufficient because the natural year-to-year variability in an 
ecosystem can be high or unknown.
    For example, over the last 15 years the Great Lakes have undergone 
a new wave of species invasions dominated by exotic invertebrates- 
zebra mussels, quagga mussels, the spiny waterflea and the fishhook 
waterflea. Unlike previous invasions in which vertebrates dominated 
(e.g., sea lamprey and alewife), these invertebrates inserted 
themselves in the lower trophic levels and thus disruption percolates 
up through the food web with potentially serious consequences to fish 
communities. This bottom-up effect on the food web eliminates the 
potential application and modification of existing fisheries models to 
make fishery management decisions. Scientists at GLERL, in partnership 
with the Great Lakes Fishery Commission, are conducting research to 
quantify and develop tools for forecasting the rate and extent of food 
web impacts of these four invaders for use in assessing the need to 
revise fishery management plans in the Great Lakes.

Legal Gaps
    One of the action items listed in the National Invasive Species 
Management Plan is for the National Invasive Species Council to conduct 
an evaluation of the current legal authorities relevant to invasive 
species. The evaluation is to include an analysis of whether and how 
existing authorities may be better utilized. Once this review is 
finished, and if warranted, recommendations will be made for changes in 
legal authority.
    The Congress anticipated one emphasis of this Administration in 
1990 when it set up a structure that encouraged coordination and 
cooperation among several Federal agencies. As I have pointed out in 
this testimony, there are significant areas in which agencies on the 
Aquatic Nuisance Species Task Force are establishing priorities 
together, sharing expertise, and jointly funding specific actions. This 
same concept has been carried through in the broader Invasive Species 
Council. This Administration has made more efficient use of resources--
whether human or financial--a priority. Such cooperation and 
coordination is particularly important in the area of invasive species 
where partnerships with other Federal agencies and State governments 
are often necessary. At the urging of the Administration, a pilot 
crosscutting budget on invasive species was prepared for Fiscal Year 
2004, which included interagency cooperative activities. In Fiscal Year 
2005 the plan is to expand the invasive species activities included in 
the crosscut.
    Finally, the invasive species problem is nationwide and is most 
effectively coordinated at the national level. However, implementation 
at the regional (coastal) or ecosystem level is most practical and 
makes the most sense, since different U.S. ecosystems will have 
different invasive species issues and characteristics, i.e., the 
ecological and economic impacts, source regions, mechanisms, and 
pathways for invasion will not be the same, nor of the same importance.

Working to Find Solutions
    We were asked how to solve this vexing problem. It will take time, 
resources, long-term dedication, and the national will. I suspect that 
the problem will never be totally solved. Because species invasions are 
so closely linked to human economic and recreational activities, I can 
guarantee you that there will be new introductions despite our best 
efforts. Control efforts will still be needed both for new 
introductions and for those species already here. We can, however, 
reduce the number of new introductions by interdicting the most 
significant pathways. There is promising new research on genetic 
engineering coming out of Australia that may provide a way to eradicate 
certain invasive species. And, we can reduce the impact of species that 
have been introduced by detecting them and responding quickly, and by 
learning how to best adapt to those that are successful.
    We can also reduce the impact of invasive species by developing new 
tools for control and by more effectively coordinating our utilization 
of resources, not only among the various Federal agencies but also with 
our partners on a State and local level. As demonstrated by the 
eradication of Caulerpa through a joint State, Federal and university 
partnership and by the unparalleled continuing contributions of 
Federally funded programs to advancing invasive species research, and 
providing useful management tools and solutions, preventing and 
controlling invasive species is a task that will only be successful if 
the Federal Government has adequate resources and authority to work 
closely and quickly with the States, universities, and citizens in 
regions affected by aquatic invasions.
    Because the problem will continue into the future, we must 
recognize that a continuing commitment is necessary. Although it is 
certainly ambitious, the National Management Plan prepared by the 
Invasive Species Council does provide a good blueprint for the range of 
activities that will be necessary to fully address the invasive species 
issue.
    Particularly in marine and coastal areas, the science of biological 
invasions is still very young, and we are still learning, yet 
significant progress has been made in some areas. There is, however, 
much more that remains to be accomplished. As a trustee for marine and 
coastal resources, NOAA recognizes the importance of this issue and 
will continue in our efforts to deal with aquatic invaders. To this 
end, I am pleased to report that, under the leadership of Vice Admiral 
Lautenbacher and with the active support and involvement of Deputy 
Assistant Secretary Timothy R.E. Keeney, NOAA has incorporated Aquatic 
Invasive Species as a major theme in its new strategic plan. GLERL and 
the National Sea Grant Program Office have worked together with other 
elements of NOAA towards this end. GLERL is charged with leading the 
development of the NOAA-wide implementation plan. The plan will include 
elements of prevention, monitoring for early detection, rapid response, 
and management (eradication, control, adaptation) of successful 
invaders, as well as international cooperation and information 
exchange, and coordination with external programs under the National 
Sea Grant Program. The plan is being developed in an inclusive cross-
NOAA process, after which it will be distributed to our constituent and 
partner communities for comments and suggestions prior to being 
finalized.
    Underpinning all elements of the NOAA plan will be a broad program 
of coordinated NOAA research, involving NOAA labs such as GLERL and 
their external partners, as well as the National Sea Grant Program 
network. As pointed out in the National Management Plan (National 
Invasive Species Council, 2001), ``Research supports each aspect of the 
Plan. Research assists policy makers in assessing gaps in authority and 
program policy, and it supports invasive species resource optimization, 
prioritization, and public outreach efforts.'' In order to maximize use 
of NOAA's scientific resources and to assure cross-NOAA prioritization 
and coordination of research activities, NOAA is in the process of 
creating a National Center for Aquatic Invasive Species Research, to be 
housed at and administered by GLERL.
    Chairman Gilchrest, Chairman Radanovich, and Members of the 
Subcommittee, this concludes my testimony for today. Thank you for the 
opportunity to testify, and I would be happy to respond to any 
questions that the Subcommittee may have.
                                 ______
                                 
    Mr. Saxton. Thank you very much, Dr. Brandt. Dr. Theriot.

 STATEMENT OF DR. EDWIN THERIOT, MISSISSIPPI VALLEY DIVISION, 
                    ARMY CORPS OF ENGINEERS

    Dr. Theriot. Thank you, Mr. Chairman. I am pleased to be 
here to testify on aquatic invasive species. My testimony will 
focus on invasive aquatic nuisance species, which is what the 
Corps of engineers addresses in the inland waterways and, where 
we have specific authority, focus on those problems.
    Invasive aquatic species such as hydrilla, Eurasian 
watermilfoil, zebra mussels, Chinese mitten crab, mosquitoes 
transporting West Nile virus and others can have a profound 
effect on the function and values of water resources in the 
United States. These species are out of their native habitat 
and have no natural predators and their growth and reproduction 
is prolific.
    The Army Corps of Engineers tries to undertake research 
control and eradicate aquatic nuisance species. We also have 
authority to remove aquatic growth from navigable waters to 
allow for navigation and flood protection. In addition, we have 
through the Aquatic Nuisance Species Prevention and Control Act 
of 1990, and amended in 1996, worked on aquatic nuisance 
animals such as zebra mussels and others.
    The Aquatic Plant Control Program has two primary 
components. The first is a component for undertaking activities 
to control aquatic plants in specific waters that is cost 
shared, 50-50 basis, with non-Federal interests. The second is 
the research component, 100 percent Federal funded, for 
development of cost effective, environmentally compatible 
management technologies. The objective is to develop cost 
effective, environmentally compatible aquatic plant management 
technologies which address national needs and priorities, 
research conducted under this program and research efforts and 
cooperative research efforts with other Federal agencies and 
State agencies, universities, local governments and private 
industry. Research efforts focus on developing capabilities to 
use host specific biological agents, improve technologies for 
oversight, enhance growth for native endemic plants, developing 
integrated management strategies and development of techniques 
to establish desirable aquatic vegetation.
    In Fiscal Year 2004 the budget request was $3 million. 
Since this fiscal year, the Corps' annual aquatic control 
program budget request has been approximately that amount with 
the focus being on the research component. In the invasive 
nonplant species area there are many zebra mussels which clog 
intake structures, reduce hydro power output and colonize 
endangered species. The Corps is responsible for these 
infrastructures.
    The Chinese mitten crab burrows into flood control levees 
and dams, threatening their structural integrity. The failure 
of levee and dam could cause catastrophic economic and human 
loss to the region. Some dredge material disposal areas have 
mosquito breeding habitats located near large population 
centers. We have already had to dispatch scientists to some of 
these areas to investigate whether these mosquitoes harbor the 
West Nile virus.
    We are working with other Federal agencies and the National 
Invasive Species Council to develop a more coherent program for 
prevention, early detection and control of invasive species. To 
date, the research has resulted in development of guidance 
concerning control of zebra mussels, information systems, zebra 
mussel chemical call, control handbooks for facility operators, 
and the results of this research has been available to all 
interested parties and will continue our efforts to find better 
methods to prevent--and inexpensive effective control for 
aquatic invasive species.
    We are working with the National Invasive Species Council 
to develop a uniform method for reporting economic costs of 
invasive species impacts. We are working with NISC to improve 
reporting of interdiction and management costs through invasive 
species interagency costs cut budget. The Fiscal Year 2004 
crosscut contained only one substantive Corps activity. In 
Fiscal Year 2005 efforts we plan to expand the number of 
activities included.
    In general, we believe the existing statutory authority for 
the Army Corps of Engineers program for research and actual 
control of aquatic plant and nuisance species is sufficient. 
However, one of the action items listed in the National 
Invasive Species Management Plan is for the National Invasive 
Species Council to conduct an evaluation of current legal 
authorities relevant to invasive species, and we welcome this.
    We believe the majority of the Americans are not aware of 
the severity of invasive species problems in the United States 
or the damage that occurs to our natural resources and our 
economy. We believe that the coordinated approach and 
interagency cost cutting budget and management plan now under 
the NISC is sound and will lead to national multiagency 
integration of prevention and management strategies.
    In summary, our authorities are limited to inland waterways 
and are limited to control of these species after they have 
arrived. We feel that priority should be placed on preventing 
their introduction; second, to allow us to do rapid response, 
to eradicate species when detected early.
    My time is up. Thank you, sir.
    [The prepared statement of Dr. Theriot follows:]

  Statement of Dr. Edwin Theriot, Director of Management, Mississippi 
 Valley Division, U.S. Army Corps of Engineers, Department of the Army

INTRODUCTION
    Mr. Chairmen and members of the Subcommittees, I am Dr. Edwin 
Theriot, Director of Management in the Mississippi Valley Division, 
United States Army Corps of Engineers. I am pleased to be here today to 
respond to your questions concerning the invasive species affecting 
this Nation and the programs of the Army Corps of Engineers focused on 
addressing these problems. My testimony will focus on invasive aquatic 
nuisance species as that is the area most affecting the Army's Civil 
Works program and where we have specific authorities focused on the 
problems.

SCOPE OF THE INVASIVE SPECIES PROBLEM
    In the broader picture, the introduction of invasive animals and 
plant species into habitats and ecosystems is a major threat to the 
well-being of the Nation. According to the National Invasive Species 
Council, invasive species account for about $137 billion every year in 
economic costs. The strength of this Nation is based on the diversity 
and abundance of our natural resources. Our natural resources provide 
food to feed our nation and others; provide the resources needed by 
industry to strengthen our economy and move goods efficiently and 
cheaply; provide opportunities for our people to enjoy the beauty and 
benefits of these diverse habitats and ecosystems; plays major role in 
the heritage of our country; and, create security for future 
generations. The replacement of these natural habitats and ecosystems 
with large monocultures of non-native species threatens our well-being 
and the strengths that make us a great country.
    Invasive aquatic species, such as hydrilla, Eurasian watermilfoil, 
zebra mussels, Chinese mitten crabs, mosquitoes transporting West Nile 
virus, and others, can have a profound effect on the function and 
values of the water resources of the United States. These species are 
out of their native habitat, have no natural predators and their growth 
and reproduction is prolific. The population of a species can become so 
large that it can: impact the movement of ships and/or barges moving 
goods on our waterways; take up large amounts of space which 
significantly reduces the ability of the water body to store water for 
flood control or irrigation; slow the flow of water causing siltation 
and nutrient loading; clog machinery, valves, water intakes, and pipes 
that support operations affecting navigation, the generation of power 
and water supply; impede or prevent recreational activities such as 
boating, swimming, or fishing; and, can cause oxygen and light 
deprivation that significantly decreases water quality. In cases such 
as the West Nile virus the invasive species can be a direct threat to 
human health.

EFFORTS TO CONTROL OR ERADICATE UNWELCOME INVADERS
    The Army Corps has authorities to undertake research and other 
activities to control and eradicate aquatic nuisance species. They are 
the Aquatic Plant Control Program, authorized by section 104 of the 
River and Harbor Act of 1958, as amended, the Removal of Aquatic Growth 
program, authorized by the River and Harbor Act of 1916, as amended, 
the Non-indigenous Aquatic Nuisance Species Prevention and Control Act 
of 1990 (PL 101-646), and the National Invasive Species Act of 1996 
(Subtitle C, Sec. 1202 (i)(3)(A)). In spite of these efforts and the 
efforts of others, invasive species continue to be introduced and many 
are spreading at an alarming rate. According to a General Accounting 
Office report issued in October 2002, all current efforts by the United 
States and Canada are not adequate to stop the introduction of invasive 
species into the Great Lakes from ballast water alone.

Aquatic Plant Control Program
    The Aquatic Plant Control Program has two primary components. The 
first is a component for undertaking activities to control aquatic 
plants on specific waters that is cost- shared on a 50/50 basis with 
non-Federal interests. The second is a research component (100 percent 
Federal funding) for the development of cost-effective, environmentally 
compatible management technologies.
    The focus of the control component is selective eradication of 
specific types of exotic or nuisance aquatic plant infestations. 
Control actions would be implemented in areas where aquatic plant 
nuisance species threaten the regional economy because of negative 
impacts to navigation, flood control, public health, water quality, 
fish and wildlife, drainage, irrigation, and to a lesser extent, 
recreation. The control component of the program is not applicable to 
Federal agency projects or facilities.
    The Aquatic Plant Control Research Program (APCRP) is the research 
component of this program. The objective of this research is to develop 
cost-effective, environmentally compatible aquatic plant management 
technologies, which address national needs and priorities. Research 
conducted under the APCRP involves Corps of Engineers research efforts 
and cooperative research efforts with other Federal agencies, state 
agencies, universities, local governments, and private industry. 
Research efforts focus on developing capabilities to use host-specific 
biological agents, improved techniques for using herbicides, enhanced 
knowledge of the role of aquatic plants, developing integrated 
management strategies and guidance, and the development of techniques 
for establishing desirable aquatic vegetation. The APCRP provides water 
resources managers with the tools needed to restore aquatic ecosystems 
to achieve sustainable benefits provided by a healthy and diverse 
native aquatic plant communities. The effective use of new technologies 
is ensured through the appropriate transfer of information and 
techniques using a variety of media. Some of the new tools and products 
developed include the approval to release 12 insect biological control 
agents, environmentally compatible and user-safe formulations of 
aquatic herbicides, an ecosystem approach to aquatic plant management, 
techniques for ecosystem restoration, PC-based simulation and plant 
growth models, an automated system for detection and mapping of 
submersed aquatic vegetation, and an Aquatic Plant Information System 
on CD-ROM providing information on the identification and management of 
over 60 plant species.
    The Fiscal Year 2004 budget request is $3 million. Since Fiscal 
Year 1996, the Corps annual Aquatic Plant Control Program budget 
request has been approximately that amount, with the focus being on the 
research component with the maximum return. Due to specific direction 
provided by Congress, much of the funding provided has been directed at 
specific control activities thereby limiting and delaying specific 
research efforts to control new invasive aquatic plants such as Giant 
Salvinia and Arundo donax.

Removal of Aquatic Growth
    In addition, we have activities in Alabama, Florida, Louisiana, 
Mississippi, and Texas. These activities ensure the removal of aquatic 
plant nuisance species in navigation channels that would impede the 
movement of commercial vessels. These activities are supported with 
``Operations and Maintenance'' funding at 100 percent of Federal Cost. 
The average expenditures for these operations are approximately $4 
million per fiscal year.

Invasive Non-plant Species
    In addition, there are many other invasive species that impact or 
have a high potential to impact Corps civil works projects. Zebra 
mussels clog water intake structures, reduce hydropower output, and 
colonize on endangered species. The Chinese mitten crab burrows into 
flood control levees and dams, threatening their structural integrity. 
The failure of a levee or dam could cause catastrophic economic and 
human loss to a region. Some dredged material disposal areas have 
mosquito-breeding habitats located near large population centers. We 
have already had to dispatch scientists to some of those areas to 
investigate whether those mosquitoes harbored the West Nile virus. Carp 
are causing extensive problems in river systems--eating native 
vegetation and disrupting the food chain. The Chicago Sanitation and 
Ship Canal Barrier system was completed last year to interdict carp 
going upstream and round gobys in the Great Lakes from entering the 
Mississippi River system.
    We are working with other Federal agencies and the National 
Invasive Species Council (NISC) to develop a more coherent program for 
prevention, early detection and control of invasive species. Our 
Invasive Species Research Program is currently funded at about $750,000 
annually. To date the research has resulted in the development of 
guidance concerning control options, a Zebra Mussel Information System, 
a Zebra Mussel chemical control guide, a control handbook for facility 
operators, and guidance on dispersal barrier options to prevent the 
spread of aquatic invasive species. The results of this research have 
been made available to all interested parties and we will continue our 
efforts to find better methods for the prevention and inexpensive 
effective control of aquatic invasive species. We are working with the 
NISC to develop a uniform method for reporting economic cost of 
invasive species impacts. We are also working with NISC to improve 
reporting of interdiction and management costs through the invasive 
species interagency ``cross cut'' budget. The Fiscal Year 2004 crosscut 
contained only a subset of Corps activities, in the Fiscal Year 2005 
effort we plan to expand the number activities included.

IS EXISTING STATUTORY AUTHORITY SUFFICIENT?
    In general, we believe that the existing statutory authority for 
Army Corps of Engineers programs for research and actual control of 
aquatic plant and nuisance species is sufficient. One of the action 
items listed in the National Invasive Species Management Plan is for 
the National Invasive Species Council to conduct an evaluation of 
current legal authorities relevant to invasive species. The evaluation 
is to include an analysis of whether and how existing authorities may 
be better utilized. Once this review is finished, and if warranted, 
recommendations will be made for changes in legal authority.
    We believe that the majority of the Americans are not aware of the 
severity of the invasive species problem in the United States or the 
damage that occurs to our natural resources and our economy. We believe 
that the coordinated approach, and the interagency cross cut budget and 
management plan now underway by the NISC is sound and will lead to 
National multi-agency integration of prevention and management 
strategies

CONCLUSION
    We need research to prevent invasive species from degrading our 
locks, dams, and hydropower facilities. We know, for example, that 
zebra mussels accelerate the erosion rates at lock structures but we do 
not have techniques to coat those structures to prevent the zebra 
mussels from becoming attached. Further work needs to be done on 
ballast water to prevent the introduction of new species. Again, we are 
encouraged by the interagency ballast water management proposal between 
the U.S. Geological Survey, the Fish and Wildlife Service, the Coast 
Guard and the National Oceanic and Atmospheric Administration as a part 
of the Fiscal Year 2004 invasive species cross cut budget. We would 
also recommend further herbicide research to examine slow release 
formulations and perform research on target specific types of 
herbicides. Natural biocides also need attention as a natural way of 
controlling some invasive species. Many of the species that are causing 
the greatest economic and ecological impact have natural predators in 
their countries of origin that keep the species populations in balance.
    Finally, we think it is important that all Federal agencies inform 
the public about the economic cost of invasive species and what they 
can do to prevent introductions of new species to areas not infected. 
We cannot overstate the importance of human intervention. We are 
concerned that the U.S. population does not have a true grasp of the 
full impact that invasive species have on their day- to- day lives or 
understand the economic cost that these species represent. Accordingly, 
we think the invasive species public awareness survey proposed by 
agencies of the Department of the Interior and Department of 
Agriculture as part of the invasive species interagency cross cut 
budget will be an important step forward. The survey will increase our 
understanding about what the public knows about invasive species, and 
inform our decisions to target educational activities that address the 
knowledge gaps.
    Thank you for the opportunity to present this information. I would 
be pleased to answer any questions.
                                 ______
                                 
    Mr. Saxton. Thank you. Those buzzers had nothing to do with 
it. Mr. Baughman.

     STATEMENT OF JOHN BAUGHMAN, EXECUTIVE VICE-PRESIDENT, 
    INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Baughman. Thank you, Mr. Chairman, and members of the 
Subcommittee. My name is John Baughman, and I am the Executive 
Vice President of the International Association of Fish and 
Wildlife Agencies. All 50 State wildlife agencies, America 
Samoa and Guam are among our members. I appreciate the 
opportunity to present our perspectives on the topic raised in 
your invitation letter.
    The scope of the invasive species problem is large and 
growing larger and the issues crisscross the Nation. Giant 
salvinias are a significant threat to water conveyance, water 
conservation, fishery resources and water based recreation in 
the Southwest. Zebra mussels have demonstrated their virulence 
with regard to fisheries productivity and diversity in the 
Great Lakes. New Zealand mud snails apparently reduce 
productivity of western trout streams without providing any 
positives, and they have spread to multiple sites in the West, 
including Yellowstone Park and the Grand Canyon.
    The Association and its member State wildlife agencies 
support a comprehensive, coordinated, practical and workable 
national management approach that focuses on these species that 
are truly invasive and deleterious. We believe emphasis should 
be placed upon the prevention and illegal importation and 
release, whether it is intentional or accidental, of invasive 
species. To that end we must better fund and coordinate Federal 
agencies responsible for safeguarding our borders.
    We must also address opportunities for partnerships with 
State and local agencies to assure better coordination of 
preventive accidents. We are concerned about the implementation 
of Federal policy for determining which species will be 
designated, ``invasive'' in the absence of a well-defined 
decisionmaking process that involves the States as appropriate 
partners.
    Invasive species management must recognize that not all 
introduced alien species are deleterious. In fact we 
productively manage many introduced species to the benefit of 
the people of our States and the Nation. Pheasants and brown 
trout are good examples.
    A major jurisdictional concern is the potential assertion 
of Federal authority over Fish and Wildlife that is not within 
Federal purview. A clear process of identifying deleterious 
species must be a collaborative effort with the States and 
affected stakeholders. We are concerned that strategies 
outlined in the National Invasive Species Management Plan may 
proceed with a broader interpretation of, ``invasive'' than the 
National Invasive Species Council intends.
    To adequately protect our borders and effectively respond 
to unwanted invasions, partnerships among Federal, State, 
tribal and local jurisdictions are essential. We can only mount 
effective lines of defense and responses to recognized 
invasions if all partners share similar capabilities and are 
coordinated in their efforts.
    Building the capability and capacity of State and local 
partners to respond is a must. Early detection of deleterious 
species and a real ability to respond rapidly are also 
essential to defend against invasives. We endorse the concept 
of rapid response teams, including State, tribal and local 
entities. This approach with intended Federal support may 
provide the most economical means to eradicate or control 
invasive species.
    States welcome a well orchestrated Federal leadership role 
in addressing invasives that recognizes State authority for 
management of resident fish and wildlife and does not attempt 
to usurp or control the management of those species under State 
jurisdiction. To effectively and appropriately meet the 
objectives of Executive Order 13112 and the National Invasive 
Species Management Plan, greater emphasis should be placed upon 
the partnership and shared authority between the Federal 
Government, tribal interests, the States and other effective 
stakeholders.
    The Association believes that a national approach to 
prevention, control and management of invasive species needs to 
include nonregulatory incentive driven programs that support 
and build capacity at the State and local level and encourage 
voluntary cooperation of affected private entities and 
communities.
    Awareness by the public and industry will be key to 
successful prevention and control efforts. The American public 
is an educated public, and informed awareness is needed to gain 
support for invasive species management coordinated lines of 
defense. We need to work better with existing management and 
legislative mechanisms before seeking out new pervasive Federal 
authorities.
    For example, the Lacey Act has been used, as mentioned 
before, to help control deleterious species. Other existing 
Federal and State laws and regulations should be worked on 
before we seek further authorities. A mechanism for 
coordinating the activities of Federal agencies already exists 
with groups such as the Federal Interagency Committee for the 
Management of Noxious and Exotic Weeds and the Aquatic Nuisance 
Species Task Forces. The Association recommends that 
established interagency Committees such as these should be 
utilized to their fullest potential by the National Invasive 
Species Council.
    In closing, the Association and its members look forward to 
working with Congress and our Federal, State and local partners 
to develop and implement sound national policy for prevention 
control and management of invasive species.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Baughman follows:]

         Statement of John Baughman, Executive Vice-President, 
        International Association of Fish and Wildlife Agencies

    Mr. Chairman, members of the Subcommittees, my name is John 
Baughman. I am the Executive Vice-President of the International 
Association of Fish and Wildlife Agencies. The Association was founded 
in 1902 as a quasi-governmental organization of public agencies charged 
with the protection and management of North America's fish and wildlife 
resources. The Association's governmental members include the fish and 
wildlife agencies of the states, provinces, and Federal Governments of 
the U.S., Canada, and Mexico. All 50 states are members. The 
Association is a key organization in promoting sound resource 
management and strengthening Federal, state, and private cooperation in 
protecting and managing fish and wildlife and their habitats in the 
public interest.
    As you are aware, the State fish and wildlife agencies have broad 
statutory authority and responsibility for the conservation of fish and 
wildlife resources within their borders. The states are thus legal 
trustees of these public resources with a responsibility to ensure 
their vitality and sustainability for present and future citizens of 
their States. State authority for fish and resident wildlife remains 
the comprehensive backdrop applicable in the absence of specific, 
overriding Federal law. The State fish and wildlife agencies thus have 
concurrent jurisdiction with the Federal agencies for migratory birds, 
threatened and endangered species and anadromous fish. Because of our 
responsibility for and vital interest in the conservation of fish and 
wildlife resources, we have a significant vested interest in working to 
address the problem of invasive species and their impact on fish and 
wildlife populations and the terrestrial and aquatic habitats that 
support those populations.
    The Association appreciates this opportunity to present to the 
Subcommittees our perspectives on the four topics raised in you 
invitation letter: 1) scope of the invasive species problem; 2) efforts 
to control or eradicate invasive species; 3) whether existing statutory 
authority is sufficient to stop the expansion; and 4) recommendations 
to solve the problem. Recommendations are offered by the Association 
throughout the testimony in the hope they will contribute to solving 
problems and resolving issues.

Scope of the Problem
    The Scope of the problem is large and growing larger. From giant 
salvinia to zebra mussel, from round goby to yellow star thistle--- the 
issues crisscross the nation. Impacts to fish and wildlife resources 
and wildlife-related recreation are both direct and indirect. Giant 
salvinia is a significant threat in the southwest to water conveyance, 
water conservation, fisheries resources, and water based recreation 
(fishing, hunting, and boating). Zebra mussels have demonstrated their 
virulence with regard to fisheries productivity and diversity in the 
Great Lakes. New Zealand mudsnails apparently reduce productivity of 
western trout streams without providing any positives, and they have 
spread to multiple sites in the west, including the Grand Canyon.
    The numbers provided in your letter of invitation to this hearing 
give an idea of the magnitude of the problem. Estimates of over $100 
billion in annual losses to the U.S. economy and 5,000 acres of public 
wildlife habitat lost each day to noxious weeds underscore the need for 
active management efforts to combat invasive species. The Association 
and its member state wildlife agencies agree with and support a 
comprehensive and coordinated approach to address this issue of 
national importance by working together at the national, state and 
local levels to implement a practical and workable national management 
approach that focuses on those species that are truly invasive and 
deleterious.

Efforts to Control and Eradicate Invasive Species
    We believe that emphasis should be placed upon the prevention of 
illegal importation and release of invasive species into the United 
States and its territories, either intentionally or accidentally. Such 
prevention, in particular at the borders of our nation, is the key to a 
successful national invasive species program. To that end, we must 
better fund and coordinate Federal agencies responsible for 
safeguarding our borders from invasive species. We are very supportive 
of this kind of funding. We must also address opportunities for 
partnerships with state and local agencies to assure better 
coordination of prevention activities.
    Management of pathways (the means and routes by which invasive 
species are imported and introduced into new environments) is the most 
efficient way to address the unintentional introduction of invasive 
species. The Association supports efforts underway to identify high-
risk invasive species pathways and to develop effective technology and 
education programs to reduce the threat of introduction.
    We are concerned about the implementation of invasive species 
policy in the absence of a well-defined process. Although numerous 
attempts have been made to better define and qualify ``invasive 
species,'' the definition is still in question. Invasive species 
management must recognize that not all introduced or alien species are 
invasive. In fact, we productively manage many introduced species to 
the benefit of the people of our states and of the nation. We are 
concerned with the implementation of policy that lacks a clear process 
for determining which species will be designated ``invasive'' and the 
identification of a predictable decision-making framework for making 
this designation. This is particularly important to our member states, 
who have responsibilities for managing resident fish and wildlife. A 
clear jurisdictional concern is the potential assertion of Federal 
authority over wildlife that is clearly not within Federal purview. A 
clear process must be described by which we will identify the ``bad 
actors.'' A clear process, if applied to resident wildlife, must be a 
collaborative process with the States and affected stakeholders. We are 
concerned that strategies outlined in the National Invasive Species 
Management Plan may proceed with a broader and inappropriate 
interpretation of ``invasive'', broader than perhaps even the National 

Invasive Species Council intends.
    To adequately protect our borders and effectively respond to 
invasions, partnerships among Federal, state, tribal, and local 
jurisdictions are essential. A national approach to addressing the 
invasive species problem must include improving expertise and building 
capacity at the State and local level. We can only mount effective 
lines of defense and responses to recognized invasions if allied forces 
share similar capabilities and are coordinated in their efforts. 
Building the capability and capacity of State and local partners to 
respond is essential.
    Prevention is the best defense, but it's difficult because we don't 
always know the ``bad actors.'' Early detection of bad actors once 
introduced is essential to the defense strategy with a real ability to 
respond rapidly. We support the concept of rapid response teams as long 
as their actions are conducted in close cooperation with, and include, 
state, tribal, and local entities. This approach, with attendant 
funding from the Federal Government, may provide the most economical 
approach to eradication or control of established invasive species. 
Federal regulation compliance issues need to be addressed in order to 
permit rapid response teams to battle invasive species aggressively and 
effectively. Existing Federal compliance requirements can delay and 
impede a response to what the National Invasive Species Management Plan 
terms an ``emergency'', thereby rendering the response ineffective.
    The importance of a multi-jurisdictional approach to prevent, 
detect, control, and eradicate invasive species cannot be overstated. 
Because some Federal lands or resources on those lands are managed 
either by or in cooperation with state agencies, potential conflicts 
could occur if a clearly defined process is not established to require 
cooperation between partners. Similarly, where Federal lands are 
adjacent to state or tribal lands, invasive species management plans 
must complement one another to ensure effectiveness.
    We have serious concerns about implications of invasive species 
management on legal jurisdictions and sovereign authorities. State fish 
and wildlife agencies have primary authority and responsibility for 
resident fish and wildlife species and any preemption of state 
authority must, of course, emanate from Congress and not by Executive 
Order. States would welcome a well-orchestrated Federal leadership role 
in addressing invasive species that recognizes state sovereignty and 
does not attempt to usurp or control the management of those species 
under state jurisdiction. To effectively and appropriately meet the 
objectives of Executive Order 13112 and the National Invasive Species 
Management Plan, greater emphasis should be placed upon the partnership 
and shared authorities between the Federal Government, tribal 
interests, the states, and other affected stakeholders. The Association 
supports the adoption by the Invasive Species Advisory Council, an 
advisory committee that supports the National Invasive Species Council, 
of guidelines for successful Federal/State partnerships to combat 
invasive species.
    The Association believes that a national approach to prevention, 
control and management of invasive species needs to include non-
regulatory and incentive driven programs that support and build 
capacity at the State and regional level, and encourage voluntary 
cooperation of affected private entities and communities. Awareness by 
the public and industry will be essential to successful prevention and 
control efforts. The American public is an educated public, and 
informed awareness is essential to gaining their support for invasive 
species management and implementation of coordinated lines of defense. 
Our messages need to be consistent and understandable.

Adequacy of Existing Statutory Authority
    We need to work with existing management and legislative mechanisms 
to effectively implement them before seeking out new and pervasive 
Federal authorities. While we may have ineffectively implemented the 
Lacey Act to date, it does offer a process for making a determination 
that a species is ``injurious.'' Making the Lacey Act and other 
existing Federal and state authorities effective should be the first 
step in closing gaps. During the last Congress, the Association 
supported timely reauthorization and improvement of the Nonindigenous 
Aquatic Nuisance Prevention and Control Act of 1990 as amended by the 
National Invasive Species Act of 1996. We were encouraged by the 
addition of provisions that provided funding to states for early 
detection, pre-screening of intentional introductions, development of 
state or regional rapid response plans, and stronger monitoring 
efforts, which are needed for effective state management actions. We 
understand that substantially similar legislation has been introduced 
in this Congress and the Association will be reviewing the legislation 
with the hope that reauthorization can be accomplished in a timely 
manner.
    A mechanism for coordinating the activities of Federal agencies 
already exists with groups such as the Federal Interagency Committee 
for the Management of Noxious and Exotic Weeds (FICMNEW) and the 
Aquatic Nuisance Species Task Forces (ANS). The Association recommends 
that established interagency committees such as FICMNEW and ANS should 
be utilized to their fullest potential by the National Invasive Species 
Council.
    The Association and its member agencies look forward to working 
with Congress and our Federal state and local partners, including 
private individuals and NGOs to develop a truly collaborative approach 
to implementing sound national policy for invasive species, and a 
predictable process for identification of the species invasions that we 
must address together.
    This concludes my prepared remarks. I am happy to answer any 
questions that you or other Committee members might have.
                                 ______
                                 
    Mr. Saxton. Thank you all for sharing your thoughts with us 
this morning. We obviously appreciate it very much because we 
look at this, as you do, as a very important set of subjects. 
Let me ask this question. As legislators, when we want to solve 
a problem we oftentimes look for a new law or new set of laws 
or new initiatives of some kind, and this subject has been on 
the minds of legislators and others for quite some time. As a 
matter of fact, our staff has compiled a list of legislative 
initiatives which resulted in laws, administrative initiatives 
which resulted in regulations of one kind or another, which we 
have listed here, and we have been able to identify 23 sets of 
efforts to deal with these issues. And I am not sure that we 
have made any significant progress over the broad range of 
issues that face us that we generally refer to as invasive 
species.
    So what do you see as--do we need to kind of start at 
ground zero and review everything that we have done and throw 
out some of the stuff that doesn't work or what is the problem? 
We need money? And I am looking inward. I am not looking 
outward at you. I am trying to identify where it is that we 
need to go, and I would be interested in your thoughts.
    Before I do that, it has been suggested that the folks 
standing in the back and I know there are more folks standing 
in the hallway, if you folks would like to come up and take 
these seats in the U-shaped lower tier here, so to speak. And 
if somebody would like to inform the folks in the hall that 
there is newly available standing room.
    I can name just a few of these 23 items, the Alien Species 
Prevention and Enforcement Act, the Animal Damage Control Act, 
the Endangered Species Act, the Federal Seed Act, the Federal 
Insecticide, Fungicide and Rodenticide Act, the Lacey Act, the 
Nonindigenous Aquatic Nuisance Prevention and Control Act, the 
National Invasive Species Act, the Plant Protection Act, the 
Organic Act, the Water Resources Development Act, the Wild Bird 
Conservation Act, et cetera, et cetera, et cetera. These have 
all been well meaning efforts, and here we are having another 
hearing trying to figure out how to deal with this problem. 
What do we need to do?
    Dr. Theriot. Mr. Chairman, I have been involved in the 
aquatic nuisance species prevention and control activities for 
many years. I think we have plenty authority, but we need to 
coordinate their efforts. There was a study done as part of the 
Aquatic Nuisance Species Prevention and Control Act for 
intentional introductions where it looked at all authorities 
and tried to coordinate and make recommendations to this 
Committee and Congress. And I think that needs to be picked up 
again and looked at and maybe refined. But we do need 
coordination and we need authority to act.
    I think one of the biggest--from my perspective and our 
authority within the Corps of Engineers protecting inland 
waterways, we need some authority, not just the Corps but all 
agencies, to rapidly respond to early detection of newly 
introduced invasive species to allow us to get there quickly 
and eradicate it when it is possible. Often we run into 
obstacles where Federal interest is in conflict with state 
authorities. We need to work in partnership with the States to 
act.
    Mr. Saxton. I am told here that the National Invasive 
Species Council is currently conducting an evaluation on 
current legal authorities relevant to endangered species to 
determine whether existing authorities are sufficient or can be 
better utilized. Tell us about this National Invasive Species 
Council, this initiative, and when their work might be 
completed.
    Dr. Tate. Thank you, Mr. Chairman. The Invasive Species 
Council is one of the things that we are doing right. We need 
to take the Invasive Species Council and expand it to include 
State efforts, tribal efforts and in the name of cooperation 
and coordination, communication, the Secretary's four Cs. The 
existing legislative authorizations are in the management plan 
and this is the management plan which I am sure you have seen 
on other occasions. There is a list here of legislative 
authorities currently extant. We have as one of our tasks to 
look at whether we need more and we need better coordination. 
The Council is the right place to do it, we believe, and it is 
the right place to do it in an expanded fashion.
    Mr. Saxton. I won't push this question from you now but I 
would like to talk maybe in a less formal setting about how we 
might enhance the capabilities of the Council if that is what 
you are saying we need to do. It certainly seems to be a 
logical way to move forward. Let me ask you a question just 
from my personal experience. The question is this: If a species 
from domestic United States from the West Coast, such as salmon 
were introduced on the East Coast, would it be considered an 
invasive species?
    Dr. Tate. A species out of its original normal range and in 
a new range, when it becomes invasive, starts to affect our 
economy and the plant and animal communities, the answer is 
yes.
    Mr. Saxton. Is there a way to control--just take that 
example. Somebody years ago, and that is why I am asking the 
question, somebody years ago decided they wanted to introduce 
some species of salmon in the Delaware River and some of us 
from New Jersey and Pennsylvania were very much concerned that 
it might do something to the balance of nature, if you will, 
and be invasive in the Delaware River. How do we control those 
kinds of introductions of species that may not be native to an 
area.
    Dr. Tate. Putting this in the light of your earlier 
question about legislative authorities, the answer to your 
specific example is we probably don't know how and when it 
might become invasive, or if it would become a useful addition 
to the fish fauna in the Chesapeake or the Delaware Bay. We 
don't know that.
    One of the things you asked about earlier is what 
legislation in that list you have there--for example, there is 
the tamarisk bill that is coming from Colorado right now and we 
do need research on tamarisk. We have to understand how and why 
it became invasive. We need to understand how in your example 
that salmon in the Chesapeake or Delaware Bay would become 
invasive or if it would.
    These are things we simply don't know at this time. But the 
most important thing probably is something I failed to mention 
earlier. We have a handout on our performance-based budget, 
crosscut budget, that I would like to enter into the record if 
I may. What it does is it uses the money that you already are 
providing for this in the most effective possible way. It is 
something I failed to ask you if I could put that in the record 
earlier.
    Mr. Saxton. Thank you very much. My time has expired. Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I appreciate the 
panel's testimonies. I seem to be getting the impression--I 
want to thank you, Mr. Chairman, for giving us an overview, 
given the fact that there are some 23 already statutory 
legislation on the part of the Congress addressing the very 
issue.
    I would be the last person to question your expertise, Dr. 
Tate, as a scientist, but I need your help because I'm getting 
somewhat of a contradictory statement from your remarks to the 
extent that you say that on the one hand we know very little 
about invasive species; at least that is what I seem to get 
from your statement. Then on the other hand you immediately 
say, but we do know it costs $20 to $100 billion a year for 
this problem. I would like to know from your statement if I am 
depicting this in a correct fashion.
    I will say this. I am surprised, if this is the position of 
the Department of the Interior, that you know very little about 
invasive species; but how can we equate that if you are saying 
at the same time it is costing our people $20 to $100 billion 
for losses in economic well-being because of invasive species? 
Can you help me with that?
    Dr. Tate. I will certainly try. You are correct that it 
does cost us at least $100 billion a year--us, the economy of 
the United States, our ability to keep the engines of commerce 
going, to achieve the lifestyle we have achieved here in the 
United States. That cost is to all of us, and one of the points 
I was making is that cost is because of all of us. What we are 
spending, actually spending, is a very, very small percentage 
of that--of public and private dollars, a very small percentage 
is actually being spent.
    How can we spend it effectively? I think one way of getting 
at what is effective in this small amount that we do spend on 
this very large problem is through the crosscut budget effort 
that we are making. Another is to have focused and coordinated 
research on specific things. It is in that context that we 
don't know enough. The best way to manage, for example--
    Mr. Faleomavaega. Let me proceed because of my time, Dr. 
Tate. Maybe you could also respond to this question I have. 
Among all the Federal agencies, USDA, the Department of the 
Interior, the Department of Commerce, the Corps of Engineers, 
and probably even the Department of Defense and even the State 
Department, which Federal agency of all the agencies have more 
application of resources addressing this very issue of invasive 
species?
    Dr. Tate. If you are directing the question to me, we spend 
about $38 million in Interior, which is 5 percent of the total 
Federal investment.
    Mr. Faleomavaega. No, no. I'm saying which--and please 
don't get me wrong, I'm not addressing this to you 
specifically, to all the other gentlemen--which of all the 
Federal agencies have the responsibility of having to deal with 
this issue more than any other? Is the Department of the 
Interior the one that is faced with this issue more so than any 
other agency or what? Maybe Agriculture? I don't know. Could 
you give us your best opinion on this?
    Dr. Lambert. The Department of Agriculture probably has the 
largest share of the budget attributed to invasive species 
management. The range is from weeds to invasive animals to 
diseases, and so it is a broad range of invasives that affect 
not only agriculture but the natural resource base as well.
    Mr. Faleomavaega. Dr. Lambert, maybe you can help me then. 
What resources are at the Department of Agriculture addressing 
this issue of invasive species, since it seems that your agency 
more than any other Federal agency is the one faced with this 
problem? Do you believe that there are enough resources 
committed in addressing the issue of invasive species as far as 
the Department of Agriculture is concerned?
    Dr. Lambert. As always, there are never enough resources, I 
guess is the simple answer. But there are resources there that 
can be brought to play. We have improved our--
    Mr. Faleomavaega. How much are we committing in resources 
moneywise? You can submit that for the record. I'm sorry.
    Dr. Lambert. We'll get back to you.
    Mr. Faleomavaega. My time is getting short. I really enjoy 
this. I want to join the Chairman, gentlemen, that if this is 
really a real, serious issue, if it is costing the American 
people $20 to $100 billion, would you agree that we need to set 
up some kind of national policy through Federal legislation if 
this is the only best possible procedure on how we could 
address this issue? Or do you think we ought to continue 
saying, let's do preventive issues with the least cost as 
suggested by some of you in your statements? How can we do that 
if we are really serious about addressing the issue? Or is the 
issue serious in itself? Is it really a serious national crisis 
that we have to address this? Or are we going to continue 
holding hearings for the next weeks, months, and years, just as 
the Chairman had said?
    We have already put 23 things in place and I don't know if 
we are in sync. Maybe it is our fault. But in developing a 
national policy, should we develop a Federal statute, a Federal 
law to coordinate this? Or are we just going to be adding more 
problems than the problem that now exists? I would like your 
honest opinions on this.
    Dr. Lambert. From our viewpoint, the species that crop up 
are not the ones where we have line item, ongoing budgets to 
address. A year ago we didn't know we were going to have exotic 
Newcastle disease in California. Three years ago we didn't know 
we were going to have the Asian longhorned beetle in New York.
    Mr. Faleomavaega. I know my time is up. Just one question, 
Dr. Lambert, because I think you are the point man here. I 
sense it. You are the point man. We might even be in the wrong 
Committee hearing room, OK? You are the point man. Tell me 
honestly, Dr. Lambert, with all the things we have said and the 
statements that all of you have presented in an excellent way, 
what is your suggestion of how we could develop this national 
policy since, after all, USDA seems to be having the full load 
on this responsibility?
    Dr. Lambert. It still gets back to coordination, 
cooperation, communication.
    Mr. Faleomavaega. I could not agree with you more on that, 
Dr. Lambert. What is the solution?
    Dr. Lambert. Continued vigilance. Addressing these early. 
Vigilance at the ports to stop them from being introduced. If 
possible--
    Mr. Faleomavaega. Like Homeland Security? Let's develop 
Homeland Security. Do you think that this is the level that we 
should develop this serious policy?
    Dr. Lambert. There are roughly 4,000 positions at Homeland 
Security that are dedicated to protecting the ports of entry; 
2,400 of those were at Agriculture. The others came from 
Immigration--INS.
    Mr. Faleomavaega. Mr. Chairman, my time is up and I 
apologize.
    Mr. Saxton. Thank you. It was an interesting line of 
questioning. I just would like to add for the record in case 
somebody may read this later, the Federal activities involving 
obligations of invasive species activities--just let me read 
this real quickly: The Department of Agriculture in the year 
2000 spent $556 million, Interior spent $31 million, Defense 
spent $14 million, State spent $9 million, Commerce spent $5 
million, National Science Foundation spent $5 million, 
Department of Transportation spent $4 million. There are some 
others of lesser amounts. In spite of the fact that it is 
costing us a lot of money in losses, we are making some 
financial commitment to it.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. I would like to 
follow up with the funding here, because I think both the 
Chairman and my colleague from American Samoa have kind of hit 
the nail on the head. You mentioned, some of you, about 
coordination. Does that mean that some agencies are not really 
aware of others, what they are doing? Is that what you are 
saying? Is there a task force or a panel of some kind that 
includes all of your agencies? What is the name of that task 
force or panel where you all sit down at a table and discuss 
these problems?
    Dr. Lambert. The National Invasive Species Council is the 
one that brings the departments and agencies together, and then 
internally we have coordinating mechanisms for the agencies 
within the Department.
    Ms. Bordallo. So then you are coordinated, is that correct?
    Dr. Lambert. Absolutely.
    Ms. Bordallo. The other thing is, I don't know, does 
anybody have--maybe it is the Department of Agriculture that 
would have a handle on the moneys part, the funding for 
different problems? Because I come from a territory. We have 
been inundated with the brown tree snake now for years. We are 
very grateful and thank you very much to the Federal Government 
for the assistance they have given us, but the problem is still 
there. It has a tremendous economic impact on our island 
because we depend on tourism, and nobody is going to come to an 
island where there are brown tree snakes hanging from the 
trees, so they say. But Hawaii and Guam are impacted. I don't 
know about American Samoa as yet, but it is probably only a 
matter of time. Is there going to be additional funding for 
this? Does anybody have a handle on how much money?
    Dr. Lambert. There is $400,000 in the 2003 budget for brown 
tree snake control. APHIS does have people on the ground in 
Guam that can coordinate with the Department of Defense and a 
whole variety of control measures for the brown tree snake.
    Ms. Bordallo. Is that the entire amount, $400,000?
    Dr. Lambert. That is what is in the 2003 budget; yes, 
ma'am.
    Ms. Bordallo. That is what is left over or has it already 
been expended, do you know that? What about the 2004 budget, do 
you have anything set aside? At one time there were millions of 
dollars.
    Dr. Lambert. There is also money in the Department of 
Defense budget, $1 million. This is the USDA APHIS portion.
    Ms. Bordallo. Could any of you just give me some idea of 
what the funding will be, what is left for 2003 and what is 
anticipated for 2004? My office would greatly appreciate that.
    Dr. Tate. We would be happy to provide those numbers for 
you and get back to you with it.
    Dr. Tate. The Department of Interior, the Department of 
Agriculture, the Department of Defense all contribute to that 
effort. We just recently had a typhoon on Guam, if I recall, 
and it was quite devastating. Among the things that happened 
was it took down all the barriers that kept the brown tree 
snakes from getting into the ports, into the airport, into the 
harbor areas. When those things were down, there was another 
effort being made in other places like Hawaii that was very, 
very important and that was the interdiction that my associate 
Dr. Lambert just referred to. That interdiction temporarily 
kept, as far as we know, brown tree snakes out of Hawaii while 
our defenses were down on Guam.
    Those kinds of things are not necessarily budgeted but are 
efforts that are cooperative under the National Invasive 
Species Council's efforts.
    Ms. Bordallo. To set this record straight, we had two 
typhoons, 5 months apart, super typhoons. We are in dire need 
of assistance. I would appreciate if you could give us some 
idea of what is being done, what is going to be done, and the 
funding that is going to be allocated to the territory of Guam. 
Thank you, Mr. Chairman.
    Mr. Saxton. Thank you, Ms. Bordallo. Very good.
    Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. I apologize 
to our witnesses for arriving late and missing most of your 
testimony. I do know that there are probably more resources 
that could be applied in any program over any period of time 
that are needed. There is always room for more resources, no 
matter what program you are in is what I am trying to say.
    My question to you is--and I will just throw this one out 
there--is how do you in the government deal with the 
eradication of the species, whether it be flora, fauna, or 
animal, when that species is cute and cuddly, whether it is the 
coqui frog in California or something like that? How do you 
deal with that? It's an invasive species. Public uproar has 
oftentimes been a wedge between the eradication effort and 
doing nothing. How do you deal with that? I will just let 
anyone who wants to answer that question deal with the public 
effort on that.
    Dr. Brandt. I'll speak, because we deal with things 
underwater and don't really deal with cute and cuddly things. I 
think education is a key component to that. I think the whole 
issue with the zebra mussel and stopping the spread of that 
animal from lake to lake was through extensive education 
efforts, largely through the NOAA Sea Grant Program and others. 
I think you need to educate the public on exactly what that 
animal is doing in the system.
    Mr. Gibbons. Sometimes you get one of these cute and cuddly 
little leopards out there that the public believes is so 
important, so critical to the future of their children's 
happiness that they won't let you get rid of it. No matter what 
you do we can't--I know we had some kind of a pike fish in one 
of the northern California lakes near the district that I 
represent, that the public uproar over killing the fish 
actually brought it to a halt compared to the death and 
destruction that fish was doing to the other native species 
that were in the area in that lake. So that would be an 
underwater species that you deal with.
    You obviously get into the same sort of public opinion 
which makes your life, your goal, your work, your effort, far 
more difficult than it should be and probably spend much of 
your time in lawsuits, in court trying to deal with those 
issues versus actually applying the resources to the 
eradication of the species. I just would like to hear from the 
other agencies, whether it is the Department of Agriculture or 
the Interior, what you do when it gets down to cute and cuddly 
species that are invasive.
    Mr. Baughman. Mr. Chairman, I can't speak of invasives from 
the Federal standpoint, but certainly being a former State 
wildlife director, we dealt with all the cuddly--from grizzly 
bears and mountain lions to squirrels. It is one of those 
things that is a necessity of human/wildlife, of human/plant 
conflicts, that there has to be some control actions at times 
that are not very popular. You usually have people who are 180 
degrees polarized on every one of these issues. Usually the 
agency people end up right between them. We always try not to 
make those spectator sports, act very professionally, very 
directly, and try to keep the people informed but try not to 
make public spectacles of these things.
    I think this brings up an interesting point, though, that 
these programs are largely going to be developed and 
implemented on the ground locally by people that people in your 
communities know. This is why I stressed the need for 
coordination with the States. To be successful we are going to 
be more effective with our money and more popular with our 
programs to have the things delivered locally by the entities 
that already exist, though they do not exist in the 
capabilities and capacities right now to handle some of these 
new emerging problems. I would just strongly recommend that we 
increase those local capabilities and capacities to handle 
those things through the existing mechanism and through the 
people that your people in those communities know right now and 
that we will be far more successful. You won't get away from 
that cuddly aspect, though. It is not a popular thing when you 
are destroying cuddly creatures.
    Mr. Saxton. I would like to thank each of you for your 
participation here this afternoon. We have a lengthy agenda.
    We will move on to the next panel. Actually Mr. Gibbons is 
going to take the chair for the next panel so that I can tend 
to some other things. Thank you again for being here. If the 
members of the second panel would take their places as soon as 
this panel vacates, we would appreciate that. Thank you.
    Mr. Gibbons. [Presiding.] If we could get the next panel 
seated at the table so we could move this hearing along, it 
would be appreciated.
    Ladies and gentlemen, for those of you wishing to carry on 
cordial conversations, we would appreciate you taking those 
conversations out to the hall so we can get the next panel 
seated. I will introduce the next panel while they are being 
seated. It will be Mr. G. Ray Arnett, former Assistant 
Secretary for Fish, Wildlife and Parks from the Department of 
Interior; Mr. Bill Pauli, President, California Farm Bureau 
Federation; Ms. Myra Bradford Hyde, National Cattlemen's Beef 
Association; Mr. John P. Connelly, President, National 
Fisheries Institute; Mr. John T. Shannon, State Forester of 
Arkansas, on behalf of the National Association of State 
Foresters; and Dr. Phyllis N. Windle, Senior Scientist, Union 
of Concerned Scientists.
    I would remind our witnesses that we try to limit your 
remarks to 5 minutes each. Your full and complete statement 
will be entered into the record. So if you want to summarize 
and highlight the more salient aspects of your testimony, I 
would encourage that. As I said, your testimony will be entered 
in its complete written form into the record. I am not sure who 
to begin with here but I would start with Mr. G. Ray Arnett, 
for opening remarks. Mr. Arnett.

STATEMENT OF G. RAY ARNETT, FORMER ASSISTANT SECRETARY FOR FISH 
    AND WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Arnett. Thank you, Mr. Chairman, members of the 
Committee. Due to the time limitation, I would like to have my 
full remarks entered into the record.
    Mr. Gibbons. Without objection.
    Mr. Arnett. Thank you. My name is G. Ray Arnett, and I 
hasten to add that other than sharing the same surname, former 
MSNBC commentator Peter Arnett is not a relation of mine. I 
want to make that clear.
    I reside in Stockton, California and am one of the many 
happy constituents of the Honorable Richard Pombo, Chairman of 
the House Committee on Resources. My almost six-decade career 
in wildlife and national resources issues include serving 
President Ronald Reagan as Assistant Secretary for Fish and 
Wildlife and Parks in the Department of the Interior where the 
two major agencies under my jurisdiction were the National Park 
Service and the U.S. Fish and Wildlife Service.
    Prior to that, former Governor Ronald Reagan appointed me 
the Director of the California Department of Fish and Game, and 
I served in that capacity during both of the Governor's 
administrations, 1968 to 1975. The environmental agendas that 
we implemented during those years encouraged farmers, ranchers, 
and other private landowners to develop, maintain, and enhance 
wildlife habitat on privately owned land. Those benefits 
continue to this day and serve as excellent examples of public 
benefits that flow from private land ownership without 
government intervention or funding.
    Before arriving in Washington, D.C. in 1980, I had 
volunteered 18 years of service to the National Wildlife 
Federation as a member of the board of directors, including two 
terms as the Federation's President-elect. I was a founder of 
the Congressional Sportsmen's Foundation and the Congressional 
Sportsmen's Caucus. I also was a founder and CEO of the U.S. 
Sportsmen Alliance, which was formerly the Wildlife Legislative 
Fund of America, and the Wildlife Conservation Fund of America.
    During World War II it was my privilege to defend America's 
freedoms, including the right to own private property, when 
serving as an enlisted man and as an officer for 4-1/2 years 
with the United States Marine Corps, and another 3 years when 
recalled to active duty during the Korean conflict.
    As Assistant Secretary for Fish and Wildlife and Parks, I 
watched helplessly as the Endangered Species Act, that 
laudable, well-intentioned law, became the victim of mission 
creep by zealots, not only in the Federal bureaucracy but by 
the defenders of wildlife, the Environmental Defense Fund, the 
Humane Society of the United States, the Nature Conservancy, 
the Sierra Club, the Wilderness Society, and a number of other 
environmental and animal rights nongovernmental organizations 
that historically have opposed the consumptive use of renewable 
resources.
    Let us not repeat the mistakes of the Endangered Species 
Act, an Act that history has painfully shown--has been bad for 
wildlife, bad for ranchers, bad for farmers and bad for private 
landowners, and bad for our Nation's economic health.
    I conclude with the following four recommendations:
    The first recommendation is to enact no legislation 
establishing a Federal agency for the control of invasive 
species. Federal and State administrators already have adequate 
authority as some of those Members of the Congress just named 
23 of them. The last one that I can remember was the 
Agricultural Risk Protection Act of 2000.
    If my first recommendation is accepted, to have no invasive 
species act, then the need for my other recommendations are not 
there. But in case my first recommendation is not accepted, my 
second recommendation is that if an invasive species act is 
created, the enabling legislation must include language 
requiring written permission from the landowner before entering 
the landowner's property to conduct a survey, the landowner 
must be provided with a copy of all the data obtained in that 
survey. The United States Constitution demands that individual 
rights of our citizens, which include property rights, must be 
safeguarded. Enabling legislation, therefore, must include 
language ensuring that the constitutional guarantee is 
guaranteed.
    My third recommendation is that the term ``nonindigenous'' 
and another term, ``nonnative,'' not be included in the 
enabling legislation. To avoid any doubt when listing species 
for control or eradication, the appropriate terms to use are 
``harmful'' and ``noxious,'' without specifying whether they 
are indigenous, nonindigenous or nonnative.
    My fourth and final recommendation is the term ``invasive 
species'' must be clearly defined. Under the Endangered Species 
Act, for example, the term ``species'' has become corrupted. 
Did legislators intend the Endangered Species Act to include 
listing subspecies, races, subpopulations, population segments 
and even distinct population segments? I think not.
    To prevent that type of abuse, with invasive species, the 
legislation must specify species only, eliminate the word 
``invasive'' in exchange for the words ``noxious'' and/or 
``harmful''; then include the phrase ``whether native or 
nonnative to any ecosystem.''
    With those modest recommendations, there should be fewer 
objections to and less doubt about the intent of invasive 
species legislation.
    That concludes my remarks, Mr. Chairman. I thank the 
members for their attention and for providing me this 
opportunity to express my opposition to additional Federal 
legislation and/or regulations to control species of harmful 
plants and animals.
    Mr. Gibbons. Thank you very much, Mr. Arnett.
    [The prepared statement of Mr. Arnett follows:]

  Statement of G. Ray Arnett, Stockton, California, former Assistant 
   Secretary for Fish and Wildlife and Parks, U.S. Department of the 
                                Interior

    Mr. Chairmen, thank you for the invitation to testify before you 
today. Your invitation is greatly appreciated.
    My name is G. Ray Arnett, and I hasten to add, other than sharing 
the same surname, former MS/NBC TV news commentator, Peter Arnett, is 
not, and I repeat not, related to me.
    I reside in Stockton, CA, and am a happy constituent of the House 
Committee on Resources Chairman, Richard Pombo, who has earned great 
respect during his years in Congress, and enjoys an enormous following 
of supporters among residents of California's 11th Congressional 
District.
    My almost six-decade career in wildlife and natural resources 
issues, include serving President Ronald Reagan as Assistant Secretary 
for Fish and Wildlife and Parks, Department of the Interior, where the 
two major agencies under my jurisdiction were the National Park Service 
and the U.S. Fish and Wildlife Service.
    Prior to that, former Governor Ronald Reagan appointed me as the 
Director, California's Department of Fish and Game. I served in that 
capacity during both of the governor's administrations--1968 to 1975.
    I am especially pleased with the environmental agenda we were able 
to implement during those years, and the successes we had with programs 
that encourage ranchers, farmers, and other private landowners to 
develop, maintain, and enhance wildlife habitat on privately owned 
land. Those benefits continue to this day, and they serve as excellent 
examples of public benefits that flow from private land ownership 
without government intervention or funding.
    Before coming to Washington, D.C. in 1980 to serve President Reagan 
again, I had given 18 years of volunteer service to the National 
Wildlife Federation (NWF) (1962-1980) as a member of the board of 
directors, including two terms as the Federation's president-elect 
(1976-78). I was a founder of the Congressional Sportsmen's Caucus, and 
the Congressional Sportsmen's Caucus Foundation, and a founder and CEO 
of The U.S. Sportsmen Alliance, (formerly the Wildlife Legislative Fund 
of America, and the Wildlife Conservation Fund of America ) (1978-
1980).
    Prior to my professional career and commitment to wildlife 
resources and the environment it was my privileged to help defend 
America's freedoms, including the right to own private property, when 
serving as an enlisted man and an officer for 4 1/2 years with the U.S. 
Marine Corps during WWII, and another three years when recalled to 
active duty during for the Korean Conflict.
    As Assistant Secretary for Fish and Wildlife and Parks during the 
Reagan Administration, long after the ESA was enacted in 1973, I 
watched helplessly as that laudable, well-intentioned law became the 
victim of ``mission-creep'' by zealots, not only in the Federal 
bureaucracy, but also The Humane Society of the U. S., The Sierra Club, 
The Nature Conservancy, The Wilderness Society, and a number other 
NGO's.
    The Endangered Species Act, as the name implies, was enacted to 
protect species of flora and fauna that were thought to be in danger of 
extinction. Okay, but soon ``mission-creep'' became involved to the 
point that not only was the species listed, but then their subspecies, 
then their races, then their populations, then distinct populations, 
and even population segments.
    Let us not repeat the mistakes of the Endangered Species Act--an 
Act that history painfully shows is bad for wildlife, bad for ranchers, 
bad for farmers, bad for private property landowners, and bad for our 
nation's economic health.
    Generated by extreme environmentalists, ``mission-driven creep'' 
set in, and under mandates of the Endangered Species Act, private 
landowner abuses became the rule rather than the exception. It is 
beyond common sense to entertain a notion to provide Federal agencies 
and mission-oriented NGOs, additional authority to go after flora and 
fauna species that were not known to exist in North America to welcome 
the Pilgrims arriving at Plymouth Rock.
    Legislation or regulations concerning invasive species must be 
devoid of the ``native/non-native'' designation. Non-indigenous species 
should be evaluated on whether they are likely to cause economic or 
environmental harm or be harmful to human health.
    For example, the Noxious Weed Control Act of 2003 (S. 144 ES), 
introduced by Senator Craig, a man who I admire greatly, and a number 
of other bills pending, include in their language the ill-defined term 
``non-native'' to an ecosystem. In other words, pre-Christopher 
Columbus, and this troubles me.
    Many flora and fauna species are non-native and they are 
beneficial. Surely, invasive species legislation must not be intended 
to eradicate beneficial non-native species. Therefore, invasive, or 
non-native, species must be weighed against known beneficial utility 
and desirability
    Federal agencies need no additional authority to control invasive 
species. Such authority already is available. There is no need to 
create another costly, wasteful, dictatorial layer of Federal 
bureaucracy by enacting invasive species legislation, only with the 
hope that it might, someday, prevent or eradicate plant and animal 
invasive species detrimental to our environment.
    Let us not set into motion another system that creates another 
bureaucratic Frankenstein to run roughshod over the Constitutional 
rights of American citizens, while knowing there is strong doubt that 
it could even marginally improve the problems that already exist with 
unwanted harmful species.
    In the eye of the beholder, the term ``invasive species'' is 
mischievously subjective. As mentioned above, not all invasive species 
are unwelcome, nor do all invasive species cause harm. America's 
sportsmen pump billions of dollars into the American economy, 
harvesting and managing desirable non-native (invasive) species such as 
ringneck pheasants that flourish in my state of California and 
throughout the Great Plains; chukar partridges in the Rockies and all 
of our Western states; brown trout virtually anywhere in U.S. inland 
waters; striped bass along the shores of the Pacific Ocean and in the 
rivers and streams of the Sacramento-San Joaquin Delta, and salmon in 
the Great Lakes.
    In California alone, there are many other beneficial species, of 
wildlife that historically are not native to the state, such as the 
wild turkey, whitetail ptarmigan, eastern gray squirrel, rock dove, and 
mute swan, to mention a few. Indeed, carrying the invasive species 
logic to extreme, the horse and beef cattle are invasive species, 
regardless of their benefit to man. The list is extensive, and it 
concerns me that there are no safeguards to prevent an overzealous 
invasive species czar from eradicating these desirable species, because 
they might, someday, be thought to ``endanger'' native, pre-Columbus, 
flora and fauna.
    In closing, the recommendations I have to offer are as follows:
    1) If my first recommendation is accepted then there is no need for 
the others. My recommendation is that no legislation be enacted that 
will establish a Federal agency to focus on invasive species of wild 
animals and plants. Federal and state administrators responsible for 
taking care of problems caused by harmful and noxious species already 
have adequate authority provided in the National Environmental Policy 
Act of 1970, the National Forest and Management Act of 1976, the 
Department of Agriculture Organic Act of 1982, the Clean Water Act 
Amendments of 1987, and The Agricultural Risk Protection Act of 2000 
(Title IV), to name but a few. Additional legislation creating a costly 
and larger Federal bureaucracy, especially one with interagency status, 
to handle harmful, species, is not only wasteful it is unneeded. No new 
law is needed. There are laws and then there is action. What is needed 
is action.
    2) In the event my first recommendation is unaccepted, my next 
recommendation is that enabling legislation must include language 
requiring Federal agencies, private organizations, and/or NGO's, to 
receive written permission from the landowner, not just a renter or 
lessee, before entering the landowner's property to conduct a survey, 
and the landowner is to receive all data obtained in a survey on his or 
her property
    Some who oppose this requirement are sure to claim that it is 
unconstitutional to require landowner written permission. Nevertheless, 
many well-informed scholars, distinguished constitutional lawyers, and 
I disagree. The United States Constitution unmistakably affirms, 
leaving no doubt, that the individual rights of United States citizens 
must be safeguarded.
    Without landowner consent, the rights of private property owners 
have been trampled with impunity. The ESA has given the bureaucracy 
extraordinary power and authority to trespass and impose terms and 
conditions, dictating how an owner may or may not manage his or her 
land. American citizens, hard working, taxpaying individuals, your 
constituents, have been severely restricted in the use of, and denied 
access to, many thousand acres of public land managed and controlled by 
the Federal Government but belonging to the people.
    Private property has been taken without fair and equitable 
compensation. Property owners have been threatened with fines and/or 
imprisonment for not adhering to ESA mandates. To get a fair trial 
requires lengthy lawsuits and attorney expenses the average citizen 
cannot afford, therefore, no contest. Government attorneys are paid by 
the taxpayers; government has time to wait and wear down landowners to 
the point that landowners finally give up or their property is 
condemned. Government wins by default. I feel certain that these abuses 
can be and will be compounded further by invasive species legislation 
creating another Federal agency to enforce actions against private 
property owners.
    3) My third recommendation is based on my belief that the terms 
``non-indigenous'' and ``non-native'' should not to occur in the 
listing of invasive species targeted for special attention. ``Noxious'' 
and/or ``harmful'' are the appropriate words. Even the term 
``invasive,'' for that matter, should not be used due to its ``non-
native,'' nebulous definition in Executive Order No. 13112. Further, to 
ensure the intent of invasive species legislation is not misunderstood 
or abused, intentionally or unintentionally, I recommend that the 
enabling language include the phrase ``whether native or non-native to 
any ecosystem.'' With those changes and the additional phrase, there 
will be fewer objections to and less doubt about the intent of new 
invasive species legislation.
    Before listing any animal or plant, however, a full Risk Assessment 
for any species proposed for any category of regulatory, advisory, or 
``educational'' listing must include an economic and environmental 
assessment of what the negative impact might be when listing species 
currently available commercially and as game animals utilized by sport 
hunters, trappers, and anglers.
    In reference to the Executive Order mentioned above the problem I 
see with the term ``invasive'' is due to its unclear, circular 
definitions in Executive Order No. 13112, Section 1, Definitions, (f). 
``Invasive species'' itself is defined as ``alien'' in that document, 
which in turn refers to ``native'' and ``a particular ecosystem.'' The 
definition in the Executive Order precludes precise meaning.
    My fourth and final recommendation is:
    4) Because a wildlife species is not indigenous, not native, nor 
pre-Christopher Columbus, if you like, that is no criterion for listing 
it for extermination. So, rather than using the term ``invasive 
species,'' I am suggesting it is far better to use the terms ``noxious 
species'' and/or ``harmful species.'' Those two words, ``noxious'' and 
``harmful,'' are the appropriate and preferred terms. They are precise 
in their meaning, leaving no question about what invasive species 
legislation intends Only species that are noxious and harmful, 
regardless of origin, will be listed for control or eradication.
    The problems created by not identifying precisely the intent of 
legislation and the goals to be accomplished became obvious to me as I 
watched the intentional misuse of the Endangered Species Act. For 
example, when ESA was enacted, the term ``species,'' was not 
sufficiently defined to limit flora and fauna for listing. Because of 
that, the Act's intent has become tarnished and abused.
    The ESA, as I am sure you know, was intended to be an effort to 
save species of flora and fauna from extinction. I suspect most 
legislators supporting endangered species legislation had in mind 
saving the Bald Eagle and whales. I emphasize the word ``species'' for 
a purpose. In retrospect, there is doubt that Congressional Members 
suspected the Act would include the listing of subspecies, much less 
races, populations, subpopulations, population segments, and even 
distinct population segments? Nevertheless, that is where the Act has 
taken us today.
    What guarantee do we have that an Invasive Species Act will not be 
abused to such a ridiculous degree, too, unless the intent and language 
of the Act is precise and clearly defined, leaving no room for 
misunderstanding or abuse, unintended or otherwise? At this time, there 
are no guarantees.
    This concludes my remarks, Mr. Chairman. I thank each Member for 
their attention and for providing me the opportunity to express my 
opposition to invasive species legislation and/or additional, unneeded 
regulations to control harmful plant and wildlife species.
    I will be happy to answer your questions if I can.
                                 ______
                                 
    Mr. Gibbons. Mr. Bill Pauli, you are next. I understand 
that you are under a time constraint. We will understand right 
after your remarks if you have to leave. That is fine, but we 
would entertain your remarks at this point.

              STATEMENT OF BILL PAULI, PRESIDENT, 
               CALIFORNIA FARM BUREAU FEDERATION

    Mr. Pauli. It is no problem. Thank you, Mr. Chairman. I did 
submit written comments for the record. Thank you very much for 
having me here this afternoon.
    I am Bill Pauli, representing the American Farm Bureau. I 
am a member of the American Farm Bureau board of directors and 
President of the California Farm Bureau. I am also a rancher in 
northern California and farm a lot of the north coast. I have 
wine grapes, Bartlett pears, and I also raise and grow timber. 
I have seen firsthand the impact of these invasive species on 
our water supply, the impact on our fruit and vegetable 
operations and on our livestock and poultry operations in 
California as well.
    The Farm Bureau is pleased that the Subcommittees are 
holding this joint hearing on a topic that is so critical and 
so important to production agriculture. Invasive plants and 
animals pose an extremely serious problem for agriculture. This 
afternoon I will provide you with just a few of the many 
examples of how invasive species are impacting American 
agriculture and how two bills, if passed, can greatly help to 
eliminate or alleviate some of these impacts.
    First, H.R. 119 would provide funding to the State and 
local community-based partnership programs for the control of 
noxious weeds. In agricultural production, invasive plants 
outcompete crops for soil and water resources, reduce crop 
quality, interfere with harvesting operations and reduce our 
land values. On rangeland, invasive plants crowd out more 
desirable and nutritious forages, cause soil erosion and poison 
some wildlife and livestock species. A couple of examples of 
that in my area are yellow starthistle and gorse.
    Second, H.R. 1080, the National Aquatic Invasive Species 
Act of 2003, will effectively address the problems of aquatic 
organisms entering our waterways through the ballast water of 
ships arriving from other countries. Introduced fish species 
frequently alter the ecology of fish ecosystems by reducing 
natural aquatic vegetation or reducing water quality by 
increasing turbidity. Examples of these are obviously the 
Chinese mitten crab and the zebra mussels.
    Let's identify the problem. It is the cost to our farmers 
and ranchers across the country and the cost and effect on our 
environment. It is estimated that invasive species cost the 
American people $137 billion a year. In agriculture around the 
country, invasive species pose an extremely serious problem. 
Unfortunately, American farmers and ranchers are being 
economically impacted by the importation of exotic pests and 
diseases.
    Obviously two more examples, the Newcastle and the bovine 
TB, are just a couple of those. Invading nonindigenous species 
in the U.S. cause major economic losses in agriculture, 
forestry, and to our public lands. Environmental damage 
includes soil erosion and the degradation of levees and dike 
systems that accelerate wetland loss and the destruction of 
national wetlands and vegetation. Gone unchecked, invasive 
species could have a devastating effect on the environment 
which includes agriculture and many natural resources.
    The good neighbor policy. Management of our public lands. 
Unfortunately our efforts are often hampered by public land 
managers who do not follow the same sound management practices 
as our farmers and ranchers. This is a serious issue in terms 
of how we manage those lands. In my home State of California, 
more than 3,000 plant species have escaped into the natural 
ecosystem, causing damage to both managed and natural 
ecosystems. Publicly owned lands and lands under conservation 
easements must be managed to control or eliminate invasive 
species, not allowing them to spread uncontrolled across public 
lands to our neighboring lands.
    Environmental harm. Invasive species exact a heavy 
environmental toll as well. One study estimates that invasive 
plants and animals have caused or will cause 35 to 46 percent 
of all species being listed under the Endangered Species Act. 
That is really significant; 35 to 46 percent. Both plants and 
animals are at risk primarily because of competition and with 
predation by nonindigenous species. Studies show that at least 
44 native species of fish are threatened or endangered in the 
United States because of nonindigenous fish species and an 
additional 27 species are otherwise negatively impacted by 
these introductions, a significant environmental impact. 
Measures must be taken based on sound science. As urgent as the 
need for dealing with this problem is, inappropriate corrective 
measures that are not based on sound science cannot be 
tolerated or accepted.
    What can be done? The United States needs an effective and 
comprehensive national policy that does not interfere with our 
private lands and private property issues and that protect and 
prevent the introduction of additional species and deal with 
the eradication and control of invasive species.
    In closing, any program to effectively protect the 
environment and economy from invasive species must consist of 
exclusion, detection, and eradication through a concerted 
effort of private and public stakeholders and the various 
agencies. We need a comprehensive national policy addressing 
the introduction and management of invasive species. This 
policy should include adequate funding spent on programs based 
on sound science while protecting our private property rights. 
At this same time, agencies must consider the devastating 
impacts of invasive species if gone unchecked while developing 
environmental regulations.
    Thank you, Mr. Chairman, and members of the joint Committee 
for your efforts. Your concern about invasive species' impact 
on our safe food supply is critical. Impacts on safe trade are 
very important as we enter into homeland security, and impacts 
on our environment must all be considered. You face a 
monumental task. Proceed carefully and diligently. Thank you, 
Mr. Chairman and members of the Committee.
    Mr. Gibbons. Thank you, Mr. Pauli.
    [The prepared statement of Mr. Pauli follows:]

Statement of Bill Pauli, President, California Farm Bureau Federation, 
            on behalf of the American Farm Bureau Federation

    Good afternoon. My name is Bill Pauli, President of the California 
Farm Bureau Federation and a member of the Board of Directors of the 
American Farm Bureau Federation. I am very pleased to be here this 
afternoon to discuss the staggering problems caused by harmful invasive 
species.
    We are pleased that the Subcommittees are holding this joint 
hearing on a topic that is so critically important to agriculture. Both 
Subcommittees represented here today have jurisdiction over major 
aspects of the problem--the Fisheries Conservation, Wildlife and Oceans 
Subcommittee with aquatic invasive species entering the United States 
by sea, and the National Parks, Recreation and Public Lands 
Subcommittee with invasive plants and animals on Federal lands. Both of 
these pathways are of concern to agriculture in California and across 
the United States.
    Invasive plants and animals pose an extremely serious problem for 
agriculture. Harmful plant and animal pests devastate thousands of 
acres of croplands and rangelands. While economic costs to agriculture 
are difficult to pinpoint with any accuracy due to the staggering scope 
of the problem, a recent study estimated that invasive plants and 
animals cost the American people $137 billion every year. (Pimentel et 
al., Environmental and Economic Costs Associated with Non-Indigenous 
Species in the United States, Cornell University, June 12, 1999).
    A 1996 Bureau of Land Management report estimates that invasive 
plants alone infest over 100 million acres across the United States. 
The same report says that these plants spread across another million 
acres each year--an area twice the size of the State of Delaware. It 
further finds that harmful plants negatively impact an additional 4,600 
acres of Federal lands in the western United States PER DAY.
    Invasive weeds also substantially contribute to the threat of 
catastrophic wildfires that have plagued the drought-stricken West for 
the past few years. Invasive flammable weeds such as cheatgrass fuel 
wildfires so that they burn hotter and spread faster.
    Invasive species also exact a heavy environmental toll. Many 
invasive species threaten plant, animal or human health. The recently 
introduced West Nile Virus illustrates the human health risks that 
invasive species can pose. Invasive species alter plant and animal 
habitats and ecology. One study estimates that invasive plants and 
animals have contributed to 35 to 46 percent of all species being 
listed under the Endangered Species Act.
    Invasive species are especially a problem in my home state of 
California. California is extremely diverse in terms of land uses and 
ecosystems. As a result, we produce an extremely wide array of crops 
that include most of the crops grown in the United States. We also 
experience most of the problems with different types of invasive 
species that are encountered elsewhere across the country.
    Invasive species entering California through ballast water from 
ships arriving from other countries is a significant problem. Roughly 
ninety percent of the planktonic and benthic organisms in the San 
Francisco Bay and Delta systems are species that were not present in 
California thirty years ago. Introduced fish species frequently alter 
the ecology of aquatic ecosystems by reducing natural aquatic 
vegetation or reducing water quality by increasing turbidity. The 
Chinese mitten crab and zebra mussel are two examples of an invasive 
species becoming established in California as a result of ballast 
water. Farm Bureau supports H.R. 1080, ``The National Aquatic Invasive 
Species Act of 2003,'' as a way to more effectively address this 
problem.
    Other invasive species significantly imperil California's 
rangelands. It displaces more nutritious plants in rangelands, 
pastures, roadsides, and agricultural areas. Today, yellow starthistle 
infests more than 20 million acres in California alone, with the 
potential to double that number. It severely impacts livestock grazing 
because it is an unpalatable plant that displaces more desirable 
grazing forage. Livestock and wildlife avoid heavily infested areas. It 
also may be lethal to horses.
    Harmful new species enter the United States from various sources 
every day. Some can be carried great distances. Already established 
invasive species spread rapidly into new areas. The costs are mounting.
    Farm Bureau strongly supports an aggressive program at the local, 
state and Federal levels to prevent the introduction of invasive 
species into the United States, and to control or eradicate invasive 
species that are already here. The management plan developed by the 
National Invasive Species Council (NISC) titled ``Meeting the Invasive 
Species Challenge'' provides a framework for addressing these issues.
    Critical elements of a successful program include:

1. A Clear Definition of ``Invasive Species'' Must be Developed.
    In addressing the invasive species issue, it is important to 
understand that many non-native species are beneficial to man and the 
environment and therefore should not be considered ``invasive'' merely 
because they are not native to the areas in which they are found. 
Agriculture depends on a large number of native and non-native plants, 
animals and insects for its viability. Most cultivated crops and many 
domesticated animals originated outside the United States. Corn, wheat, 
potatoes, cattle, soybeans, kiwi plants--all originated outside the 
United States and are ``non-native'' species. In fact, eight of the top 
nine most economically significant U.S. plants came from outside the 
United States.
    Current examples of species considered ``invasive'' but which have 
beneficial effects on agriculture include the black carp and 
crownvetch. Black carp provide a significant benefit to aquaculture 
producers by controlling parasitic snails and mollusks in aquaculture 
facilities. They are used only in controlled settings, and only sterile 
(triploid) carp are used. Properly controlled, these fish can be very 
beneficial to aquaculture facilities, but could be considered 
``invasive'' if they get loose in streams and rivers and multiply. 
Nevertheless, Farm Bureau supports appropriate regulation of black carp 
to ensure that it does not become an invasive species. Such regulation 
includes the use only of triploid (sterile) black carp with adequate 
inspection to ensure that only triploid black carp are used. We also 
support a back-up electric fence in Illinois to guard against black 
carp reaching the Great Lakes area.
    Crownvetch is a non-native plant species that is very useful in 
slope stabilization, beautification and erosion control on highways. It 
is also useful as a living mulch for no-till corn. Yet it is considered 
``invasive.''
    The tendency to consider all non-native species to be harmful must 
be avoided. ``Invasive species'' should not be considered synonymous 
with ``non-native species,'' ``alien species,'' or ``exotic species.''
    ``Non-native species'' might be more appropriate targets at ports 
of entry into the United States, either to prohibit their entry or to 
monitor their entry and subsequent use if intentionally introduced for 
some beneficial purpose. Once a species is established, the principal 
factor for considering a species ``invasive'' is whether the species 
causes economic and environmental harm.
    Because most agricultural crops and livestock are not indigenous to 
the areas in which they are raised, it is of utmost importance for 
agriculture that the definition of ``invasive species'' exclude 
agricultural products.
    The working definition of ``invasive species'' in Executive Order 
13112 and in the NISC management plan is so loosely worded that it 
could be construed to include agricultural products or other beneficial 
non-native species as ``invasive.'' It needs to be changed to reflect 
our concerns expressed above.

2. There Must Be Effective Coordination Among Federal Agencies.
    More than 20 different Federal agencies currently have some 
responsibilities or authority for different aspects of the invasive 
species issue. Many of these programs overlap or operate independently 
of one another. Many address different aspects of the invasive species 
issue, such as prevention at ports of entry or control of pests after 
they have become established. Many of these programs have a different 
focus or emphasis. There is a critical need that these authorities, 
responsibilities and programs be coordinated to achieve maximum 
results.
    The NISC provides the framework for achieving the coordination to 
effectively address invasive species. The Invasive Species Management 
Plan provides direction for achieving the necessary coordination. 
Congress and the Administration must provide the requisite priority and 
funding for coordinating the substantial Federal invasive species 
activities. As an administratively created body, the NISC should look 
to the Executive Branch to provide the priority needed to achieve 
coordinated results. The Council on Environmental Quality (CEQ) can 
also play a vital role to achieve Federal coordination with oversight 
by NISC. Congress can and should provide adequate funding to carry out 
the invasive species management plan.

3. Federal Coordination Should Support State and Local Invasive Species 
        Control Efforts.
    Farm Bureau believes that invasive species issues can be most 
effectively addressed at the state and local levels. States have the 
primary responsibility over invasive plant and animal species within 
their borders, and many states have very active programs to combat 
invasive species.
    Florida is a primary point of entry into the United States. Its 
massive invasive species problem stems in large part from accidental 
introduction. Citrus canker, which has cost more that $240 million and 
resulted in the destruction of thousands of trees, was introduced 
through Miami International Airport. At a recent Florida Agricultural 
Pests and Disease Conference hosted by Florida Farm Bureau, exclusion 
programs were identified as the top priority in Florida for addressing 
the problem. National priorities cannot be developed in a vacuum--they 
must be derived from the priorities of the respective states. Together, 
they form national priorities.
    Local, community based partnerships offer the most promise in 
controlling invasive species within an area. Local partnerships allow 
for control of invasive species across land ownership boundaries that 
is an integral part of achieving control. Federal coordination, 
technical assistance and financial support are necessary to aid these 
efforts.
    An example is the El Dorado County Noxious Weed Group in 
California. The highly invasive spotted knapweed was detected in the 
Sierra Mountains east of Sacramento a few years after a wildfire 
devastated the area. It was first detected on Sierra Pacific Industries 
commercial timberlands in 1999 and was probably brought in on equipment 
and erosion control materials used in the fire suppression and timber 
salvage efforts. This highly invasive weed chokes out native plants and 
agricultural crops and increases soil sedimentation in creeks and 
rivers. Hand-pulling and herbicide treatments have been somewhat 
effective, but due to the steep terrain, heavy fire debris and lack of 
manpower, the weed has not been eradicated on the original 20-acre 
site.
    The El Dorado County Noxious Weed Management Area (WMA) has raised 
this project to emergency status. The project partners include 
representatives from the Eldorado National Forest, Sierra Pacific 
Industries, El Dorado County Department of Agriculture and California 
Department of Food and Agriculture. Other members of the local Weed 
Management Group, including California Native Plant Society--El Dorado 
Chapter, El Dorado County Farm Bureau and private landowners, have 
supported the eradication efforts. Grant funding from the state has 
helped in the eradication efforts over the past three years. Additional 
Federal support and funding is vital to continue the efforts.
    H.R. 119 would provide needed funding through the states to local 
entities for projects such as this. Farm Bureau supports the enactment 
of H.R. 119 as a means of supporting local partnership efforts to 
control invasive species. We urge this Committee to consider this bill 
and provide swift approval.

4. There Must Be Appropriate Tools Available to Combat Invasive 
        Species.
    Pesticides are often the cheapest, most effective way to eliminate 
problem weeds and unwanted plants. There are increasing regulatory 
hurdles to using effective products to deal with invasive species. In 
Headwaters v. Talent, 243 F. 3d 526 (9th Cir. 2001) the Ninth Circuit 
Court of Appeals ruled that aquatic herbicides could not be applied 
without an EPA permit under the Clean Water Act, despite the fact that 
registrants are required to provide extensive data to EPA on impacts to 
water in the registration process. These herbicides are necessary to 
address such invasive weeds as water hyacinth and egeria densa that 
clog canals and burn out irrigation pumps.
    Recently another Ninth Circuit decision extended the scope of 
Talent and posed a threat to the ability to combat invasive species. In 
League of Wilderness Defenders/Blue Mountain Biodiversity Project v. 
Forsgren, No. 01-35729 (9th Cir.) the Court stopped the Forest Service 
from aerially spraying more than 628,000 acres of forest lands to 
control a predicted outbreak of the pest Douglas Fir Tussock Moth 
because the Forest Service failed to obtain a National Pollutant 
Discharge Elimination System (NPDES) permit under the Clean Water Act. 
Such permits are required of point sources of pollution discharging 
pollutants into the waters of the United States. In reaching this 
result, the Court had to conclude that aerial spraying constitutes a 
``point source of pollution,'' ``pesticides are pollutants,'' and 
``exemptions for silvicultural activities did not apply.'' The Court 
held that aerial spraying was a point source because it applied from a 
``discrete conveyance'' (nozzle). More importantly, it found that 
pesticides were ``pollutants.'' Having ruled on these issues, the Court 
held that EPA had no discretion to carve out any exceptions such as the 
one at issue in this case. The United States is considering whether to 
ask the U.S. Supreme Court to hear this case.
    Aerial spraying is an absolutely necessary component of effectively 
controlling large areas of noxious weeds and invasive plants, 
especially in the vast areas of the West. If there is to be any hope of 
containing, much less eradicating, yellow starthistle or other 
widespread weeds such as leafy spurge or spotted knapweed, aerial 
spraying is a must. Imposing a requirement that any aerial application 
must first obtain an NPDES permit will significantly impair our ability 
to control these species. The impediments thrown up by the Forsgren 
decision must be addressed legislatively to control invasive species on 
Federal lands.
    Another court imposed restriction on the ability to address 
invasive species issues involves the interface of the pesticide 
registration statutes and the Endangered Species Act. The Federal 
Insecticide, Fungicide and Rodenticide Act (FIFRA) imposes rigorous 
data requirements on prospective registrants of a pesticide. Included 
within the requirements are studies on the possible impacts of a 
product on plants and wildlife, including species listed under the 
Endangered Species Act. The Endangered Species Act in turn requires 
agencies such as EPA to ``consult'' with the Fish and Wildlife Service 
in cases where an action--such as registering a pesticide--``may 
affect'' a listed species. This results in a duplication of efforts, 
since the product has already undergone rigorous scrutiny by EPA.
    Several cases have been brought seeking to enjoin the use of 
pesticides because they have not undergone the ``consultation'' 
required by the ESA. At least one Federal district court in Washington 
State has ruled that such consultations must occur. EPA recently 
settled a similar case in California. Fortunately, thus far the Federal 
agencies directly impacted by this line of cases are working toward a 
solution.

5. More Effective Partnerships Between Federal, State and Local 
        Agencies and Private Landowners Will More Efficiently Address 
        Invasive Species Problems.
    The invasive species problem in the United States has reached 
epidemic proportions. Success will be achieved only if all affected 
entities work together to control and eradicate invasive species.
    Farmers and ranchers can play an important role in combating 
invasive species. They already spend billions of dollars yearly 
fighting invasive species on their privately owned lands. Since many or 
most invasive species occur to an extent on private lands, farmer and 
rancher cooperation is essential. More effective partnerships with 
private landowners can maximize efforts to bring invasive species under 
control.
    Government agencies should coordinate invasive species treatment 
with private landowners. Especially in the West, ownership patterns 
between state, Federal and private lands are intermingled. Invasive 
species do not respect boundary lines. In many cases, simply 
coordinating the timing and treatment method between private and 
adjoining non-private landowners can achieve significant results.
    Agencies should make better use of farmer and rancher management 
practices to better control invasive species. Livestock grazing can be 
an important tool in managing invasive plant species. It is a valuable 
practice for reducing fuel loads that increase the risk of catastrophic 
wildfire and the resulting emergence of invasive weeds. Stewardship 
contracting for healthy forests and rangelands should recognize the 
benefits of livestock grazing as an environmentally sound method for 
reducing fuel loads and removing invasive species as well.
    There are a number of examples in California to illustrate the 
benefits that grazing can have on control of invasive species. Goats 
are being used near Oakland to manage fuel breaks in East Bay Regional 
Parks and to manage yellow starthistle in nearby areas. In Vasco Caves 
Regional Park, sheep are used to maintain habitat for the endangered 
San Joaquin Kit Fox.
    Landowner conservation programs should focus on control of invasive 
species. Since invasive species cause a number of environmentally 
harmful impacts, almost any approved conservation program could be used 
to address the issue. For example, invasive species are the second 
leading cause for decline of endangered or threatened species. Grants 
under the Private Stewardship Grant Program and the Landowner Incentive 
Program for improvement of habitat have as a component the control or 
removal of any associated invasive species. Similarly, invasive species 
are a leading cause of ``unhealthy forests,'' and grants made from 
stewardship contracts under the Healthy Forest Initiative might be used 
for invasive species control. Conservation funds for the Environmental 
Quality Incentives Program, the Conservation Security Program and other 
programs could also be used for invasive species management.
    Landowner partnerships must be voluntary, cooperative and 
incentive-based. Such programs should not be regulatory in nature but 
cooperative. Farmers and ranchers share a common desire with the 
government to eradicate these destructive pests, so cooperation instead 
of regulation will achieve the best results.

6. Public Outreach and Education Are Essential.
    Public outreach and education are also essential elements of an 
effective invasive species policy. Individual transportation is a major 
pathway for the introduction and spread of invasive species. They may 
be recreational boaters, gardeners, or travelers. In most cases, these 
people are unaware that they are carrying or spreading invasive 
species, and they would take greater precautions or corrective actions 
if they knew the consequences of their actions. Often, the introduction 
or spread of invasive species results from carelessness that is easily 
corrected if the consequences are known. In many cases, corrective 
actions involve nothing more than proper cleaning of boats or fishing 
gear, but the potential benefits may be significant.
    Public education is an important component of any invasive species 
management policy. An effective education and outreach program involves 
more than the creation of educational materials on invasive species. 
The current public outreach effort lacks a sense of importance or even 
urgency to this problem. The general public must be convinced that the 
actions they take to prevent introduction or spread of invasive species 
are important. Affected agencies and Congress must emphasize the 
importance and priority of the invasive species problem in order to 
affect public behavior.

7. Research Needs.
    Because so little is known about the various invasive species, and 
new invasives are entering the United States, research needs are great. 
Research is needed in identifying pathways by which invasive species 
get into the United States so that efforts can be undertaken to prevent 
their entry. This is crucial in order to prevent additional costly 
control and eradication projects. Research is needed to predict which 
species coming into the United States might become economically 
harmful. The U.S. Geological Survey is already undertaking some of this 
research and its efforts should be supported. Biological research into 
life cycles of known invasive species is important in understanding how 
to control them. Coordination with scientists in the country of origin 
would greatly help. Research into the most effective and 
environmentally sound ways to control or eradicate invasive species is 
also necessary.
    We are pleased that the Subcommittee is holding this hearing on 
such an important issue. The American Farm Bureau Federation stands 
ready to assist the Committee in addressing this serious problem.
                                 ______
                                 
    Mr. Gibbons. Now we turn to Ms. Hyde from the National 
Cattlemen's Beef Association. Ms. Hyde.

               STATEMENT OF MYRA BRADFORD HYDE, 
             NATIONAL CATTLEMEN'S BEEF ASSOCIATION

    Ms. Hyde. Thank you, Mr. Chairman. My name is Myra Hyde, I 
am the Director of Environmental Issues for the National 
Cattlemen's Beef Association, and I appreciate the opportunity 
to be here this afternoon to provide comments on behalf of the 
cattle farmers and ranchers across America.
    The National Cattlemen's Beef Association has long been 
aware of the economic and environmental harm caused by invasive 
species and we have urged the Federal Government to recognize 
them as a priority and to develop a national effort to address 
the problem. We support the Executive order on invasive species 
and the National Invasive Species Council. We provided input 
into the preparation of the national management plan developed 
by the National Invasive Species Council and through 
participation in the Invasive Species Advisory Council. We have 
also worked with Congress to direct resources to and focus 
attention on invasive species.
    While the cattle industry recognizes the threats posed by 
all invasive species and supports efforts to manage them, we 
are primarily concerned about the threats posed by invasive 
weeds. Grassland and shrublands or rangelands occupy about 35 
percent of the land area of the lower 48 States, or about 861 
million acres. They are unique ecosystems that provide clean 
water, clean air and wildlife habitat, as well as societal 
benefits such as open space and recreational opportunities. 
They are also the lands that cattle producers primarily rely on 
to feed their cattle, and the health of these lands is a 
critical factor in ensuring a farm or ranch's economic 
viability. But they are severely threatened by harmful 
nonnative terrestrial weed species. Invasive weeds often have 
little or no forage value for native animals or livestock and 
they threaten the health of all rangelands by outcompeting and 
replacing the native vegetation. They can also make areas more 
susceptible to catastrophic fire and can radically impact the 
way an ecosystem functions.
    Next to habitat loss, invasives are the second greatest 
threat to the survival of biological diversity. The economic 
cost of invasives has been estimated to be about $138 billion 
annually--that we have already discussed--but conservative 
estimates to cropland, agriculture alone, have been placed at 
$20 billion each year. Once invasive species are introduced, 
they lack predators and they are almost impossible to contain. 
So really prevention, without question, is the easiest way to 
deal with it and the least costly way to deal with these 
problems. But in order to prevent the introduction of 
invasives, we must establish better education and awareness 
programs to increase understanding of the problem. We need more 
emphasis on research and funding and for technical advisers as 
well.
    I do know that over the last several years, many of the 
research programs for rangelands alone have dramatically 
declined, even though we have got increased demands to find 
solutions for the problems. Once prevention has failed, the 
goal should be to stop the spread of invasives before they 
become economically or environmentally damaging.
    New money needs to be directed to a program that gives 
States maximum flexibility to direct funds where they can be 
utilized by local decisionmakers most effectively. Resources 
can be maximized by diverting these funds to the local level, 
to assist those who know best how to manage the land and treat 
the problem, whether the land is Federal or private. We must 
develop a process for setting priorities, and inasmuch as 
funding will always be a limiting factor for invasive species 
control activities, this priority process I think is critical.
    We believe that our Federal limited dollars should be 
directed to projects that hold the most promise for success, 
whether they are on Federal lands, State lands, or private 
lands or any combination thereof. Most cattle ranchers spend a 
lifetime fighting invasive weeds on their farms and ranches. 
They believe that every effort needs to be made to provide a 
strong foundation for efficient distribution of Federal funds, 
strive to avoid duplication, coordinate activities between 
Federal and State agencies and private landowners and provide 
the flexibility for decisions to be made locally where the 
problems arise.
    There currently is legislation that has been introduced 
before this Committee, and we would like to express our 
appreciation to Mr. Hefley for introducing H.R. 119, the 
Harmful Invasive Weed Control Act. This bill, we do believe, 
does not create any new authority. We know that there are 
already many, many authorities out there. What this bill tries 
to do is coordinate those activities, but is primarily a 
funding source, a Federal funding source to the States so that 
the States can make the decisions where that money can best be 
spent. It is directed to local weed management entities that 
are on the ground, they know what the problems are, they know 
what species are harmful and which aren't, and the local 
stakeholders are involved in these weed management entities so 
they can all get together and decide how that money can most 
efficiently be utilized.
    There is also a Senate bill that has been referred to your 
Committee, S. 144, that would also attempt to do the same 
thing. Both of these bills NCBA does support and we work very 
hard to try and find legislation that will get resources to the 
ground.
    Despite all the authorities that are out there, there is 
not enough money. Most of the funds are directed toward Federal 
lands. Of the $137 billion that they say are the economic 
costs, I am not sure how much of that is actually coming out of 
the back pockets of private landowners, but they do not have a 
source at this time to help them really allay those costs.
    Dr. Lambert spoke earlier about the farm bill. Secretary 
Veneman announced $1.8 billion in conservation funding. The 
primary source of that for landowners to use would be the 
environmental quality incentives program. Almost $700 million 
has been authorized for 2003, but there is a $1.4 billion 
backlog in EQIP contracts. That money is not going to get to 
the ground to fight invasive species.
    In closing, I would like to just say that we do support all 
efforts to get funding and to try and coordinate efforts for 
invasive species but, again, our primary focus is terrestrial 
weeds. That is why we are supporting these two invasive weeds 
bills.
    We would like to express our appreciation to you for this 
opportunity this afternoon. I stand ready to answer any 
questions. Thank you.
    Mr. Gibbons. Thank you very much, Ms. Hyde.
    [The prepared statement of Ms. Hyde follows:]

 Statement of Myra Bradford Hyde, National Cattlemen's Beef Association

    Chairman Gilchrest, Chairman Radanovich and Distinguished Members 
of the Joint Subcommittees on Fisheries Conservation, Wildlife and 
Oceans and National Parks, Recreation and Public Lands:
    On behalf of the National Cattlemen's Beef Association (NCBA), the 
trade association of America's cattle farmers and ranchers, and the 
marketing organization for the largest segment of the nation's food and 
fiber industry, thank you for your interest in my comments concerning 
invasive species.
    NCBA appreciates the attention the Committee has directed to 
invasive species issues and also appreciates the opportunity to speak 
to these Joint Subcommittees on the scope of the invasive species 
problem. We have long been aware of the economic and environmental harm 
caused by invasive species. We have urged the Federal Government to 
recognize invasive species as a priority issue and to develop a 
national effort to address the problem. We support Executive Order 
13112 on Invasive Species. We support the National Invasive Species 
Council (NISC) that was established by the Executive Order and provided 
input into the preparation of ``Meeting the Invasives Species 
Challenge'', the national management plan developed by NISC, through 
participation in the Invasive Species Advisory Council. We have also 
worked with Congress through the appropriations and other legislative 
processes to direct resources to, and focus attention on, invasive 
species issues.
    While the cattle industry recognizes the threats posed by all 
invasive species and support all efforts to manage them, of primary 
concern to us are those threats posed by invasive weeds. Grasslands and 
shrublands, often called rangelands, occupy about 35% of the land area 
of the lower 48 states--861 million acres. These are the lands that 
cattle producers primarily rely on to feed their cattle and the health 
of these lands is a critical factor in ensuring a farm or a ranch's 
economic viability.
    Rangelands provide more than just economic benefits, however. They 
also provide clean water, clean air and wildlife habitat, as well as 
societal benefits such as open space and recreational opportunities. 
Grasslands and shrublands are unique ecosystems that are severely 
threatened by harmful, non-native terrestrial weeds species. Invasive 
weeds often have little or no forage value for native animals and 
livestock, and they threaten the health of all rangelands by out-
competing and replacing the native vegetation. They also can make areas 
more susceptible to catastrophic fire and can radically impact the way 
an ecosystem functions. Cheatgrass is a widespread invasive plant, and 
is much more likely than native plants to catch and spread fire. The 
national management plan developed by NISC states that cheatgrass has 
accelerated the fire cycle in the west by twenty-fold.
    Invasives are the second greatest threat to the survival of 
biological diversity, second only to habitat loss. The NISC management 
plan estimates the economic costs of invasive species at $137 billion 
annually. Whereas, conservative estimates to cropland agriculture alone 
have been placed at $20 billion each year.
    Invasive species are spread intentionally and non-intentionally by 
an almost endless number of sources. And as we become a more global 
society, the pathways increase exponentially as our methods of travel 
get easier, borders open and ports of entry become more numerous. 
Invasives are master hitchhikers, attaching to wildlife, livestock, 
produce, recreationalists, vehicle tires, and ballast water in ships. 
Many invasives have been intentionally introduced as ornamental plants.
    The tropical soda apple arrived in Florida in 1988 from South 
America. Seven years later it was estimated that it had invaded 1 
million acres in five southern states and Puerto Rico. It spreads by 
interstate shipment of cattle, hay, and composted manure from infested 
areas. It replaces edible forage plants and hampers wildlife and 
livestock movement.
    Purple loosestrife, introduced for ornamental and medicinal uses in 
the 1800's now covers about 4 million acres of wetlands nationally and 
costs about $45 million a year in control efforts. It can completely 
take over wetlands where it crowds out native plants and negatively 
impacts native fish and wildlife.
    Examples seem endless and the list continues to grow. And again, 
because most non-native species lack predators, once they are 
introduced they are almost impossible to contain. Prevention, without 
question, is less costly than eradication or long-term control.
    An awareness of the problem and a comprehensive approach to 
protecting ecosystems is necessary to prevent the introduction and/or 
spread of invasives. Public education and awareness programs will 
increase our understanding of the problem and will aid in the 
development of management plans at the Federal, state and local levels. 
Unfortunately, most educational programs for wildlands, rangelands and 
croplands to date have been directed mainly at rural populations. 
Awareness of invasives among the general public is fairly low.
    Interdiction and barriers at entry sites are critical, as are the 
implementation of site-specific management and control measures to 
prevent establishment and spread from sites of initial introduction. 
There must also be greater coordination between private landowners and 
Federal, state and local governments.
    There must be accurate and timely early detection and rapid 
response, which would also require proper training of border 
inspectors, pest management professionals, land managers and 
landowners. There currently is no comprehensive national system in 
place for detecting and responding to invasions of non-native species. 
Rapid response is also hindered by the lack of a centralized 
communications network for reporting and disseminating information.
    Research and funding for experienced technical advisors are 
severely limited. In fact, funding for many rangeland research programs 
has dramatically declined during the past decade, despite the increased 
demands for solutions to the problems created by invasives.
    Once prevention has failed, the goal should be to stop the spread 
of invasives before they become economically or environmentally 
damaging. A long-term management plan that integrates research, best 
management practices, and integrated weed management techniques is 
critical in order to even attempt to contain invasive species. The 
management plan developed by NISC is a good start, but implementation 
has been slow due to funding limitations and other deficiencies that 
Federal officials have recognized and are working to improve.
    New money should be directed to a program that gives states maximum 
flexibility to direct funds where they can be utilized by local 
decision makers most effectively. Federal red tape and administrative 
requirements must be minimized to ensure that the dollars are getting 
to the ground where they are needed most. For Federal lands, a 
programmatic environmental impact statement is needed so the agencies 
can deal with all weeds simultaneously, rather than one at a time.
    The best method of fighting these invasions is to act locally. 
Currently, we have a limited amount of resources. Resources can be 
maximized by diverting funds to the local level to assist those who 
know best how to manage the land and treat the problem--whether the 
land is Federal or private. And because invasive species know no 
boundaries, any Federal program must allow for funds to be directed 
where they are most needed.
    We should develop a process for setting priorities, inasmuch as 
funding will always be a limiting factor for invasive species control 
activities. NCBA believes that our limited Federal dollars should be 
directed to projects that hold the most promise for success, whether 
they are on Federal lands, state lands or private lands, or any 
combination thereof.
    Eradication, like containment, depends on integrated, site-specific 
management techniques, coordination between Federal, state and local 
governments and landowners, research and public awareness programs, and 
adequate funding to have any effectiveness at all. However, where 
invasions are widespread, complete eradication may be impossible.
    Most cattle producers spend a lifetime fighting invasive weeds on 
their farms and ranches. They believe that every effort needs to be 
made to provide a strong foundation for efficient distribution of 
Federal funds, strive to avoid duplication, coordinate activities 
between Federal and state agencies and private landowners, and provide 
the flexibility for decisions to be made locally where the problems 
arise. There currently is legislation before the full Committee that 
NCBA believes would provide a dedicated, coordinated Federal effort to 
help in the fight against invasive weeds. We support S. 144, the 
Noxious Weed Control Act of 2003'' (Craig, R-ID) that was reported by 
the Senate on February 11, 2003 and referred to the House Subcommittee 
on Conservation, Credit, Rural Development and Research. NCBA also 
supports H.R. 119, the Harmful Invasive Weed Control Act'' (Hefley, R-
CO). Both these proposals provide financial assistance through States 
to eligible weed management entities to control or eradicate harmful 
weeds on public and private land. H.R. 119, however, requires that the 
Secretary of Interior consult with the Federal Interagency Committee 
for the Management of Noxious and Exotic Weeds. The original draft of 
this legislation established the consulting body as the National 
Invasive Species Council (NISC). We believe this to be the more 
appropriate consulting body for the Secretary should be NISC, which is 
supported by the Invasive Species Advisory Committee, and would urge 
original draft language be reconsidered.
    We are aware that there currently are other legislative proposals 
that have been offered on invasives beyond these two proposals and we 
do not oppose those efforts. But because the resource and financial 
impacts to our industry are so acute, our number one priority must be 
to focus our attention on efforts to address harmful, invasive weeds.
    The National Cattlemen's Beef Association wishes to express its 
gratitude to Chairman Gilchrest and Chairman Radanovich for holding 
this hearing and for focusing attention on invasive species. We look 
forward to working with the Chairmen and members of this Subcommittee 
on this issue.
                                 ______
                                 
    Mr. Gibbons. We turn now to Mr. John Connelly, President, 
National Fisheries Institute.

           STATEMENT OF JOHN P. CONNELLY, PRESIDENT, 
                  NATIONAL FISHERIES INSTITUTE

    Mr. Connelly. Thank you, Mr. Chairman and members of the 
Subcommittee. I appreciate the opportunity to discuss this 
important issue with you. NFI is the leading trade association 
representing the full range of fish and seafood products from 
``water to table,'' which means we represent fishermen, 
aquaculturists, importers and exporters of fish, processors, 
down through the retailers and the restaurants which eat this 
healthy food.
    Why do we care about invasive species? Invasive species 
impact the essential fish habitat. They have the potential to 
introduce new diseases into the environment. They prey on 
traditional sources of food for the native species and they run 
the risk of altering traditional fishing practices for the 
native fishermen.
    I would like to just relate three anecdotes, three 
examples, some of which you will hear about in more detail in 
the next panel so I will just highlight them. I think you may 
recall in 1991 there was a very severe epidemic of cholera in 
Latin America. At the same time in Mobile Bay, Alabama, there 
was an indication that the ballast water coming from ships that 
had recently been in Latin America contained the same strain of 
cholera that existed in Latin America and caused such 
devastation down in that continent. Our concern is that there 
are 79 million metric tons of ballast water that come into the 
U.S. every year. The Chesapeake Bay alone has 10 billion liters 
of this foreign ballast water each year. The risk is that the 
ballast water contains microorganisms that impact either fish 
or human health and the environment. That is one example of the 
kind of challenge that we face.
    Dr. Mann of the next panel will talk at some length about 
the rapa whelk. Mr. Pallone has already mentioned his concerns 
about this. Rather than going into some of the technical issues 
there, I would just note that rapa whelk can actually be 
harvested and eaten, and some folks have suggested why don't we 
make this a food source. The concern is that you would need to 
develop a market for rapa whelk. There is no market. People 
don't go out and buy this right now. It has a severe impact on 
the ecosystem. Again, Dr. Mann will describe some of the 
technical issues in the next panel.
    The third example or anecdote is the Chinese mitten crab. 
Again you have heard some of this described earlier from 
earlier witnesses. Some folks would ask, a mitten crab, why is 
that different from a blue crab or a green crab or any other 
kind of crab? Why can't we just eat this crab? We have some 
examples of some of the challenges that this crab represents. 
Back in the 1930's, this was inadvertently introduced in 
Germany and caused severe economic harm to the German economy 
and the seaports there and the fish and seafood industry in 
that country.
    One of the earlier witnesses mentioned that not all 
invasive species are bad or not all nonnative species are bad. 
There are cases where ecosystem managers or fishery managers 
will actually introduce a nonnative species into an environment 
in order to help solve a problem. I think most folks are aware 
that the Chesapeake Bay oyster system or fishery is in severe 
straits. Some of that is caused by pollution. Some of it is 
just the fishery is dying out. Why that is important, I think, 
for folks that remember their sophomore year of high school 
biology is that oysters actually clean water. They are actually 
a natural filtration system for water. So what the Chesapeake 
fishery has done is on a test basis introduce Chinese oysters 
into the Chesapeake Bay as a test case to see whether that will 
allow the native oyster population to recover and will 
naturally continue to clean the water within the Chesapeake 
Bay. What is important about that is those Chinese oysters are 
sterile, so they cannot be reproduced and that is part of a 
management technique that would need to be continued to look 
at, is whether the Chinese oysters should actually continue to 
be sterilized or whether the fishery manager in that area would 
actually develop that as a separate fishery outside of a 
nonnative population.
    NFI strongly supports aquaculture as a way to ensure a safe 
and wholesome food supply of fish and seafood. The key for 
aquaculture is ensuring that the management systems are in 
place to prevent the farmed fish from entering into a native 
environment and causing any kind of problems in the native fish 
environment. That is an important part of what our Nation needs 
to do to ensure a safe and healthy food supply of fish.
    As far as new authority, we believe there needs to be 
better coordination among the existing authorities and with key 
stakeholders. I think the Chairman had mentioned that there 
were 23 laws already on the books concerning this issue. We 
believe there needs to be increased funding to implement 
mitigation plans and to ensure that stakeholders from the 
business side and the industry side, the State side and the 
Federal side, coordinate better on this.
    Mr. Chairman, that concludes my remarks. I appreciate the 
opportunity and look forward to answering any questions.
    Mr. Gibbons. Thank you very much, Mr. Connelly.
    [The prepared statement of Mr. Connelly follows:]

  Statement of John Connelly, President, National Fisheries Institute

    Chairmen Gilchrest and Radanovich, Congressman Pallone, 
Congresswoman Christian-Christensen, and distinguished members of the 
Subcommittees, on behalf of the more than 700 members of the National 
Fisheries Institute (NFI), I want to thank you for the opportunity to 
testify before you on the adverse impacts of invasive marine species on 
commercial fisheries. I am John Connelly, President of the NFI.
    The NFI is the nation's leading trade association for the diverse 
commercial fish and seafood industry. We are a ``water to table'' 
organization, representing fishing vessel owners, aquaculture 
operations, processors, importers, exporters, distributors, 
restaurants, and retail establishments. NFI's mission is to ensure an 
ample, safe, and sustainable seafood supply to consumers.
    The introduction of non-native species into marine and coastal 
ecosystems may adversely affect commercial fisheries in a number of 
ways: non-native microorganisms may infect native species with new 
diseases or public health threats, non-native species may alter 
essential fish habitat, or non-native species may compete directly with 
or prey upon traditional commercial fish species. At a minimum these 
affects can force fishermen to alter traditional fishing practices in 
terms of gear or time/area of harvest. In its worst form, these 
invasions may reduce otherwise sustainable harvest opportunities. In 
either situation, invasions by exotic species can cause serious 
economic harm to the commercial fishing sector.
    I would like to focus on three examples of exotic species invasions 
of marine or coastal ecosystems to highlight the impacts these 
invasions may have on commercial fisheries, including:
    <bullet> The introduction of Vibrio cholera into Gulf of Mexico 
oysters via ballast water,
    <bullet> The introduction of rapa whelk into the Chesapeake Bay, 
and
    <bullet> The introduction of Chinese mitten crab into San 
Francisco Bay.

Vibrio cholera and Gulf of Mexico Oysters
    In 1991, a new strain of Vibrio cholera 01 (V.c.), the bacteria the 
causes human cholera, was found in oysters and fish in Mobile Bay, 
Alabama\1\. The strain of V.c. was identical to the strain responsible 
for a cholera epidemic in Latin America at that time. The ballast water 
of ships leaving Latin America and arriving in Mobile Bay, AL tested 
positive for the V.c. bacteria\2\.
    While this infection of Mobile Bay was brought under control and no 
human illnesses occurred as a result, it certainly created considerable 
concern among both the oyster industry and consumers and highlights the 
potential threat of invasive microorganism introductions via ship 
ballast water.
    It is estimated that United States ports receive more than 79 
million metric tons of ballast water from overseas each year\3\. 
Chesapeake Bay alone is reported to receive 10 billion liters of 
foreign ballast water each year\4\. With the United States receiving 
shipments from all over the world, the potential introduction of exotic 
microorganisms is tremendous. In fact, scientists estimate that, given 
the diverse array of microorganisms present in ballast water, various 
animal diseases and human pathogens may be introduced into U.S. coastal 
waters via ballast water discharges.
    The NFI appreciates the efforts of the maritime community to begin 
addressing this issue through open ocean ballast exchange. We look 
forward to working with them to further address the issue in the 
future.

Rapa Whelk in Chesapeake Bay
    In the late 1990s, the rapa whelk was detected in the mouth of the 
St. James River in Chesapeake Bay. The rapa whelk is a mollusk with a 
heavy, short-spired shell. It is native to the Sea of Japan. Since its 
detection, everything that scientists at the Virginia Institute of 
Marine Sciences (VIMS) have learned about the whelk has them concerned 
that this exotic species poses a serious threat to the Chesapeake Bay 
seafood industry.
    The rapa whelk consumes bivalve shellfish such as oysters and 
clams. VIMS scientists believe it has the potential to devastate 
Chesapeake Bay shellfish stocks. A full-grown whelk can consume two 
large chowder clams per week. The presence of egg masses on bridges, 
pilings, and commercial fishing gear indicate the rapa whelk is 
reproducing prolifically in the lower Bay, releasing millions of eggs. 
If unchecked, there is a real risk that the rapa whelk could spread 
throughout the Chesapeake Bay, reeking havoc on shellfish stocks such 
as oysters already struggling against pollution and diseases.
    Interestingly, the rapa whelk has edible meat and its eradication 
may present a new harvest opportunity for Chesapeake Bay watermen. 
However, this should only be seen as a short-term development. Not only 
would consumers need to be educated and a market created for whelk meat 
but this exotic species will require the development of new fishing 
approaches for area watermen before it could be successfully developed 
into a fishery. In addition, the broader ecosystem impacts of this 
exotic species raise serious questions as to its desirability in the 
Chesapeake Bay, even if it presented a serious and potentially 
profitable harvest opportunity.

Chinese Mitten Crab in San Francisco Bay
    The Chinese mitten crab was first detected in Southern San 
Francisco Bay by shrimp trawlers in 1992. Since that time, the Chinese 
mitten crab population in San Francisco Bay has rapidly expanded and it 
appears likely that the distribution of this exotic crab will involve 
most of the state of California, according to the Chinese Mitten Crab 
Control Committee as reported to the Aquatic Nuisance Species Task 
Force.
    The introduction of the Chinese mitten crab in Germany in the 1930s 
caused serious negative impacts on fisheries. The crab proliferated and 
spread so successfully that fisheries suffered significant losses due 
to damaged catch and gear.
    In California, the Chinese mitten crabs are already adversely 
affecting salmon and other fish by interacting with and damaging and/or 
eating juvenile fish being collected to bypass water diversions. The 
economic impact incurred to the salvage operations amounted to over $1 
million. In addition, commercial bay shrimp and crawfish fishermen 
reported large numbers of the crabs in nets and traps in 1998 and 1999, 
decreasing catch efficiency and increasing operational costs. In fact, 
it has been anecdotally reported that these fishermen had to shift 
their time and area of harvests to avoid Chinese mitten crab and some 
fishermen reportedly simply stopped fishing in response to unavoidable 
crab aggregations.
    In addition to exotic species invasions of U.S. marine and coastal 
ecosystems such as those just described, there are other invasive 
species issues I would like to address including the intentional 
introduction of an exotic species to restore a fishery or ecosystem 
function and the accidental release into the wild of a non-native 
aquaculture species.

Intentional Introduction of Non-Native Species
    In some cases, fishery or regional ecosystem managers may wish to 
intentionally introduce a non-native species in order to reestablish a 
key fishery or ecosystem function. The most notable example, of course, 
is the intentional introduction of Chinese oysters into the Chesapeake 
Bay. Native Chesapeake Bay oysters have been decimated by historic 
overharvest and exposure to lethal pollution-based diseases. With the 
persistent presence of these diseases in the Chesapeake Bay for the 
foreseeable future, it will not be possible for the native oyster 
population to restore itself. In the absence of an oyster population, 
the Chesapeake Bay loses not only an important commercial fishery but 
also a critical ecosystem function of water purification by these 
filter-feeding organisms. It has therefore been suggested that managers 
allow the introduction of a Chinese oyster that is immune to the 
pollution-based diseases that plague the Chesapeake Bay to restore 
oyster benefits to the Bay. The current experiment in this regard 
involves sterile individuals and could be considered an aquaculture 
operation more than a restocking of the wild population.
    That said, this could present a powerful new tool for improving the 
health of the Chesapeake Bay and restoring an important fishery. For 
these reasons, the introduction of the Chesapeake oyster seems to make 
sense for the Chesapeake Bay. It may be necessary, however to continue 
to ensure a lack of reproductive capability in these introduced 
oysters, even in the long term. There are concerns that if established 
in the Chesapeake Bay as a reproducing population, this non-native 
species could expand into other U.S. coastal waters and compete with or 
displace other healthy native oyster populations. The benefits as well 
as the costs, therefore, need to be carefully analyzed before a full-
blown stocking effort is implemented.

Non-Native Species Aquaculture
    The NFI strongly supports the development of marine aquaculture as 
an important mechanism to sustainably and affordably increase seafood 
production. The NFI also believes marine aquaculture operations must be 
conducted in a manner that minimizes to the greatest degree practicable 
the potential establishment of a non-native species in a natural 
ecosystem. This should be done by focusing aquaculture projects on 
native species or, where non-native species are used, instituting 
management practices that minimize the chances of an accidental release 
(e.g., net structure and location) as well as the probability of the 
release resulting in the establishment of a viable, reproducing wild 
population of the non-native species (e.g., single gender crops, 
nutrition deficiencies, triploid genes).
    In conclusion, Mr. Chairman, the NFI is concerned that the 
introduction of non-native species into U.S. marine and coastal 
ecosystems presents real challenges that need to be addressed both 
practically and effectively. We welcome the consideration of this 
important issue by these Subcommittees. Thank you.

Citations
    1. DePaulo A, Capers GM, Motes ML, Olsvik O, Fields PI, Wells J et 
al. (1992) Isolation of Latin American epidemic strain of Vibrio 
cholera O1 from U.S. Gulf Coast. Lancet 339:624.
    2. McCarthy SA, McPhearson RM, Guarino AM and Gaines JL (1992) 
Toxigenic Vibrio cholera O1 and cargo ships entering Gulf of Mexico. 
Lancet 339: 624-625.
    3. Carlton JT, Reid D and van Leewen H (1995) The Role of Shipping 
in the Introduction of Nonindigenous Aquatic Organisms to the Coastal 
Waters of the United States (other than the Great Lakes) and an 
Analysis of Control Options. Technical Report No. CG-D11-95, U.S. Coast 
Guard, Washington, DC.
    4. Ruiz GM, Rawlings TK, Dobbs FC, Drake LA, Mullady T, Huq A, and 
Colwell RR. (2000) Global Spread of Microorganisms by Ships. Nature 
408: 49-50.
                                 ______
                                 
    Mr. Gibbons. We turn now to Mr. John Shannon, State 
Forester of Arkansas, on behalf of all State Foresters. Mr. 
Shannon, welcome.

 STATEMENT OF JOHN T. SHANNON, STATE FORESTER OF ARKANSAS, ON 
     BEHALF OF THE NATIONAL ASSOCIATION OF STATE FORESTERS

    Mr. Shannon. Yes, sir. Thank you. I am the State Forester 
of Arkansas. I came here yesterday from Cammack Village, 
Arkansas to visit with the Subcommittees. I represent the State 
Foresters from all 50 States, from all the territories and from 
the District of Columbia. Thank you for inviting us.
    You have heard one clarification already that some 
invasives are exotic and some invasives are native and those 
distinctions may not be very helpful, as Mr. Arnett mentioned. 
One more distinction is that the road for the transport of 
invasives is a two-way street. We certainly receive lots of 
invasives from other countries and we have sent what became 
invasives to other continents.
    Now, for the four issues that were outlined in the 
invitation to the State Foresters. The first was the scope of 
the invasives problem. As the Chairman mentioned earlier, the 
scope is large and I will not repeat the statistics he gave us. 
I would add two more notes. It is not a Federal issue 
exclusively. State and private lands are hit hard by invasive 
species and America's forests have been clobbered by invasive 
species: gypsy moth, sudden oak death, chestnut blight. I have 
been a forester 25 years. I have never seen a chestnut forest. 
They have been obliterated in the United States. Now we have 
something called balsam woolly adelgid. It is an insect that 
most Americans have never heard of and it likely will kill 
every fir tree growing in the Rocky Mountains. So forests have 
been hurt terribly by invasive species.
    Control efforts. One of the members asked earlier, do we 
need to start from scratch on control efforts? My take-home 
point here would be no. I think we ought to use the existing 
experts and the existing authorities. For instance, there is 
that National Invasive Species Council. They had prepared a 
management plan. I think we ought to implement the plan. The 
U.S. Forest Service has a Forest Health Protection Unit staffed 
with incredibly bright, inventive experts, people who are not 
only scientifically sound but they are helpful and they return 
phone calls. The Forest Health Protection Unit needs to be 
involved in any effort to protect our forests from invasives. 
And there is a Cooperative Forestry Assistance Act, Federal 
law, been around for 25 years, has really established a strong 
partnership between the Federal Government and the States and 
tribal governments and local governments. I think that is a 
great platform to start from in continuing those partnerships.
    The third issue that was presented before us, is the 
existing authority adequate? I think there are gaps in the 
authority. One of the gaps, I believe, is insufficient 
promotion of partnerships with the States and perhaps there is 
a need for new Federal legislation to create some overarching 
comprehensive approach.
    Finally, what are the recommendations of the State 
Foresters?
    No. 1, please support active forest management. And if 
forest supervisors in your States or territories suggest that 
to control invasives we need to conduct prescribed burns or use 
pesticides or cut trees, please support them.
    No. 2, the National Association of State Foresters has 
testified before Interior Appropriations. I hope you will 
support our appropriations request. And if it please the Chair, 
I would like to make that written testimony part of the record 
today.
    Mr. Gibbons. Without objection.
    [The statement submitted for the record by James L. Sledge, 
Jr., President, National Association of State Foresters, 
follows:]

 Statement submitted for the record by James L. Sledge, Jr., President 
  of the National Association of State Foresters, on Fiscal Year 2004 
   Appropriations, Before U.S. House Appropriations Subcommittee on 
                     Interior and Related Agencies

INTRODUCTION
    The National Association of State Foresters (NASF) is pleased to 
provide testimony on the U.S. Forest Service (USFS) $4.8 billion budget 
request for Fiscal Year 2004. Representing the directors of state 
forestry agencies from all fifty states, eight U.S. territories, and 
the District of Columbia, our testimony centers around those Deputy 
Areas most relevant to the long term forestry operations of our 
constituents: State and Private Forestry (S&PF), Wildland Fire 
Management, and Research and Development (R&D). We believe the USFS 
budget for Fiscal Year 2004, which offers opportunities for advancing 
the sustainable management of public and private forestland nationwide, 
can be strengthened through our recommendations.

FIRE MANAGEMENT
    The landscape nature of fire calls for cross-boundary management 
programs grounded in interagency cooperation and stakeholder 
collaboration. As a long term, collaborative approach to fire 
management, the National Fire Plan (NFP) brings communities, 
governments, and agencies together to accomplish activities that reduce 
wildfire risk and help burned lands quickly recover. NASF urges the 
Subcommittee to continue its support of the NFP through continued 
financial backing and increased coordination with states and local 
communities.
    We support the $186.6 million increase in Fire Operations, but 
recognize that with rising costs for fire suppression additional 
funding will be needed in the future. With over 85% of fire suppression 
dollars going to control just 2% of all fires, the cut in Fire 
Preparedness funding worries us greatly. NASF recommends funding Fire 
Preparedness at $640.0 million.
    As we were reminded in the aftermath of last summer's wildfires, 
restoration activities following wildfire are critical to reducing soil 
erosion and protecting water quality. Likewise, reducing dangerously 
high fuel loads across the landscape can limit the severity of 
wildfires. NASF recommends funding hazardous fuels reduction at $262.1 
million and rehabilitation and restoration at $63.0 million.
    State Fire Assistance (SFA) and Volunteer Fire Assistance (VFA) 
contribute greatly to fire protection on Federal, state, and private 
lands. State forestry agencies and rural fire districts rely on the 
technical and financial backing of SFA for fuel treatment, hazard 
reduction, fire prevention outreach, and other preparedness and 
protection activities. Local volunteer fire departments, often the 
first to attack wildland-urban interface fires, depend on VFA's 
financial support, technical assistance, and firefighting training. 
When funded adequately, the complementary programs expand state and 
local firefighting capacity to better match and work in concert with 
the USFS to respond to wildfires, other emergencies, and national 
disasters. Our suggested increases in SFA and VFA will ensure that 
communities are prepared to implement the landscape level activities 
needed for effective fire management.
    Community and Private Lands Fire Assistance (CPLFA), which was 
authorized in the 2002 Farm Bill, helps establish defensible space 
around private homes and property and educates homeowners about 
wildfire prevention. By helping communities and landowners reduce their 
own risk, it provides an effective way to implement the NFP, enhance 
steps taken through the Healthy Forests Initiative, and reduce the loss 
of resources and the cost of fighting wildfires. NASF recommends 
authorizing $15 million for CPLFA, emphasizing community planning and 
supplemented with funding from the Healthy Forests Initiative. CPLFA 
provides the connection between the NFP and communities that will 
ensure that implementation of the NFP is sustained.

FOREST STEWARDSHIP
    By encouraging non-industrial private landowners to manage for 
multiple objectives, forest stewardship management plans help spread 
the public benefits of environmentally responsible forest management. 
The Forest Stewardship Program (FSP), which provides the technical 
expertise for stewardship planning, ensures that management plans are 
scientifically sound and provide multiple management objectives. NASF 
applauds the Administration for the $33.6 million increase in funding 
for FSP over last fiscal year for hazardous fuels reduction, invasive 
species management, and the sustainable management of timber and non-
timber resources. A portion of this increase could further the 
Administration's objectives on a broad, national scale through a 
watershed forestry assistance program that provides incentives to 
enhance water quality. NASF supports allocating $20.0 million for 
watershed forestry assistance and $45.6 million for FSP.
    Forest Stewardship provides assistance to landowners to develop 
management plans, while the Forest Land Enhancement Program, authorized 
in the 2002 Farm Bill, provides incentives for landowners to implement 
sound forest management practices on the ground.
    NASF also supports the Forest Legacy Program (FLP), which helps to 
prevent the conversion of private forestland to non-forest uses through 
conservation easements and land acquisition. We support the President's 
increased funding level for FLP of $90.8 million.

ECONOMIC ACTION
    The Economic Action Program (EAP) provides important support for 
forest-based rural development. Forest landscapes are often overloaded 
with fuels and many rural communities are facing economic transitions. 
The financial and technical assistance provided by EAP can help develop 
industries that reduce wildfire risk, restore fire adapted ecosystems, 
and enhance economic and social well-being. The opportunities provided 
by EAP to market underutilized, specialty, and non-traditional forest 
products while working directly with local communities offers a chance 
to simultaneously revitalize rural economies and solve some of our 
forest management issues facing much of the country. NASF is currently 
working with the USFS to restructure the program, and significant 
progress is being made. NASF recommends funding EAP under Cooperative 
Forestry at $28.7 million and under the NFP at $12.5 million.

FOREST INVESTORY AND ANALYSIS
    NASF has long supported the Forest Inventory and Analysis (FIA), an 
invaluable inventory of all the nation's public and private forests. 
Regular forest inventories help foresters and decision-makers adapt 
management plans to changing forest conditions and document 
achievements of management. Administered under R&D, the FIA program is 
also involved with surveys of non-industrial private forest owners, 
assessments of forest health conditions, and other data useful for 
landscape level management, benefiting all Deputy Areas. NASF urges the 
Subcommittee to maintain the Federal responsibility to fund baseline 
forest inventories and other long term forest research.
    The President's request for Fiscal Year 2004, which represents a 
significant decrease in the FIA budget, would severely hamper the 
program. In order to maintain base funding and support annualized 
inventories for each state, NASF recommends funding FIA at $65 million, 
spread across R&D, S&PF, and the National Forest System (NFS). Our 
recommendation would bring FIA almost to its full implementation level 
of $67 million.

URBAN AND COMMUNITY FORESTRY
    The Urban and Community Forestry (UCF) program helps sustain and 
enhance tree cover in metropolitan areas through education, technical 
assistance, and grants that promote trees and other vegetation as 
integral components of cityscapes. With about 80% of the nation's 
population living in urban areas, this is an S&PF program that truly 
reaches most citizens where they live, work, and play. The increased 
coordination of S&PF programs across the country from city centers 
through the urban-wildland interface to rural areas is exemplified by 
UCF. Federal UCF monies are leveraged through state forestry agencies 
with private sector involvement and initiatives. UCF includes a 
competitive grants program, another way that the funds are used to 
effectively reach a variety of organizations and entities to enhance 
urban forestry in America. NASF encourages the Subcommittee to fund UCF 
at $50.0 million to ensure the continued success of the program.

FOREST HEALTH MANAGEMENT (FHM)
    The early detection, control, and prevention of damaging insects 
and disease is critical to the health of forests on all ownerships. 
Through its three program areas--Federal Lands, Cooperative Lands, and 
the proposed Emerging Pest and Pathogen program--FHM provides an 
important foundation for managing insect and disease outbreaks by 
reporting on forest health trends, surveying and monitoring, delivering 
technical assistance, and providing prevention and suppression. NASF 
encourages the Subcommittee to provide $107 million for these programs. 
We also recommend $20.0 million in targeted funding for the Healthy 
Forests Initiative to address the pine beetle infestation reaching 
epidemic proportions in the southern region.

CONCLUSION
    NASF seeks the Subcommittee's support for a Forest Service Fiscal 
Year 2004 budget that will ensure the continued delivery of a broad 
range of public benefits from forests. Collaboration among stakeholders 
across the landscape--federal, state, and local government agencies, 
private landowners, industry, and non-profit organizations--is 
necessary to manage for the wide range of forest resources and values 
found on all ownerships. The S&PF, fire, and R&D programs provide these 
links, and the Federal share leverages private dollars and provides an 
important catalyst for collaboration in order to take the work far 
beyond the usual boundaries of Federal land management. Thank you for 
the opportunity to provide our testimony.
                                 ______
                                 
    [An attachment to Mr. Sledge's statement follows:]

    [GRAPHIC] [TIFF OMITTED] T6708.009
    

    Mr. Shannon. Thank you, sir. That includes recommended 
budget for the forest health protection, forest health 
management work of the Forest Service, and $20 million would be 
for southern pine beetle control. That is a native invasive 
species. We propose that to be part of the President's Healthy 
Forests Initiative.
    Finally, State foresters are pragmatic people. We like 
early detection and rapid response and we like to study things 
only as much as we need to to take intelligent actions. There 
is a great model for early detection and rapid response. That 
is the National Interagency Fire Center in Boise, Idaho. Well 
staffed, trained staff, good facility, good technology, good 
equipment. If we could match a model like that for the fight 
with invasive species, we would be off to a good start. Thank 
you so much.
    Mr. Gibbons. Thank you very much, Mr. Shannon. We 
appreciate your testimony.
    [The prepared statement of Mr. Shannon follows:]

       Statement of John T. Shannon, State Forester of Arkansas, 
        on Behalf of the National Association of State Foresters

INTRODUCTION
    On behalf of the National Association of State Foresters, I am 
pleased that Chairman Gilchrest and Chairman Radanovich have asked us 
to testify on the growing problem of invasive species. NASF is a non-
profit organization that represents the directors of the state forestry 
agencies from all fifty states, eight U.S. territories, and the 
District of Columbia. State Foresters manage and protect state and 
private forests across the U.S., which together encompass two-thirds of 
the nation's forests.
    I am representing NASF in my role as Chairman of the Forest Health 
Protection Committee. Addressing the spread of invasive species is an 
objective of high priority for my committee, as invasive species weeds, 
insects, pathogens, animals, etc. are a growing concern among foresters 
and other natural resource professionals. I hope you find our comments 
instructive as you consider possible Congressional legislation or other 
Federal actions to help get ahead of this ubiquitous problem.
    In this testimony, I will address the topics you raised in your 
invitation to testify: (1) the scope of the invasive species problem; 
(2) current efforts to control or eradicate invasive species; (3) the 
adequacy of existing statutory authority to stop the expansion of 
invasives; and (4) our recommendations on how to stop the problem.

CLARIFICATION
    Before I discuss the topics you raised, I would like to offer a 
point of clarification about what constitutes an invasive species.
    As natural resource managers, our use of the term ``invasive'' is 
often synonymous with ``exotic'' or ``non-native 'species that 
presumably originate from distant corners of the world and are 
transported here. Many exotic insects, plants, and animals have become 
very destructive after entering the U.S. However, it is important to 
remember that several species indigenous to the U.S. are equally 
harmful to our environment and economy, as well as those of other 
countries. In other words, not all invasive species are exotic, and the 
U.S. is both a recipient and a contributor to the problem.
    The red oak borer is a case in point. Populations of the native 
insects recently have skyrocketed in the Ozark Highlands of Arkansas, 
Missouri, and Oklahoma. Aging trees and overcrowded conditions due to 
the long term suppression of fires and the lack of active forest 
management, exasperated by naturally thin soils, heat waves, and 
droughts, have helped to create an environment for the red oak borer to 
thrive. In the Ozark Highlands today, as much as one million acres of 
dead or dying oaks pose severe wildfire hazards to communities, 
drinking water supplies, and the health of forests.

SCOPE OF INVASIVE SPECIES PROBLEM
    As the Subcommittees are acutely aware, the problem of invasive 
species is large and growing. A recent report <SUP>1</SUP> on the 
status of invasive species efforts published by the Congressional 
Research Service (CRS) estimates that 30,000 non-native species exist 
across all the states and U.S. territories. CRS also estimates that 
economic losses due to invasives are estimated to exceed $123 billion 
annually in the U.S. The impact of invasives are tremendous, degrading 
the environment nationwide and affecting a range of industries 
including transportation, agriculture, recreation, fisheries, and 
others.
---------------------------------------------------------------------------
    \1\ Corn, L.M., E.H. Buck, J. Rawson, A. Segarra, and E. Fischer. 
2002. Invasive Non-Native Species: Background and Issues for Congress. 
Congressional Research Service, Library of Congress. Nov. 29.
---------------------------------------------------------------------------
    Forestry is no exception. From coast to coast and north to south, 
forests are suffering from the damaging effects of a long list of 
invasives: Asian longhorned beetle, gypsy moth, hemlock and balsam 
wooly adelgid, and other damaging insects; kudzu, privet, callery pear, 
and other plants; and sudden oak death, apparently caused by a 
pathogen. Insects, diseases, and noxious weeds especially plague 
forests across the nation, and aggressive efforts must be taken to keep 
them under control.
    As an example, the wooly adelgids are wreaking havoc on forestlands 
on both the east and west coasts. The balsam wooly adelgid, a tiny 
sucking insect that was introduced (probably from Europe) to the east 
coast of North America about 1900, was first detected on the west coast 
in about 1930. It infests all true firs (trees in the genus Abies), but 
is most damaging to North American species such as Fraser fir and 
balsam fir in the east, and subalpine fir and Pacific silver fir in the 
west. In some sites, susceptible species have been wiped out. The range 
of subalpine fir will probably be reduced to just the highest 
elevations in its current range. When this insect reaches the extensive 
subalpine fir forests of the Rocky Mountains, it will likely 
dramatically change those landscapes.
    In the east, the hemlock woolly adelgid is destroying streamside 
forests throughout the mid-Atlantic and Appalachian region, threatening 
water quality and sensitive aquatic species and posing a potential 
threat to valuable commercial timber lands in northern New England.
    State Foresters, private landowners, and our partners are 
increasingly spending our limited money and time on controlling 
outbreaks of these and other invasive forest pests.

EFFORTS TO CONTROL OR ERADICATE
    State Foresters are currently involved with several efforts to 
control or eradicate invasives. In this testimony, I would like to 
mention three of the most promising efforts underway: (1) National 
Invasive Species Council; (2) USDA Forest Service programs; and (3) 
2002 Farm Bill Programs.
National Invasive Species Council
    One of the most important steps made in recent years toward 
enhancing the capacity to control or eradicate invasive species was the 
creation of the National Invasive Species Council. Established through 
an executive order signed by President Clinton in 1999, the Council is 
an interagency committee gathered to develop recommendations for 
international cooperation, promote a network to document and monitor 
invasive species impacts, and encourage development of an information 
sharing system on invasives.
    In January of 2001, the National Invasive Species Council released 
Meeting the Invasive Species Challenge, <SUP>2</SUP> a national 
invasive species management plan that represents the first major 
Federal attempt to coordinate invasive species actions across 
government agencies. The plan calls for several areas of emphasis for 
invasive species management that should be part of any comprehensive 
effort to address the problem: (1) prevention; (2) early detection and 
rapid response; and (3) control and management. The plan includes the 
recommendation that draft legislation be developed to authorize 
matching funds for states to manage invasive species and to control 
invasives on state or private lands with the consent of the owner, a 
prospect that NASF highly endorses and hopes the Subcommittees will 
consider.
---------------------------------------------------------------------------
    \2\ Available at http://www.invasivespecies.gov/council/nmp.shtml.
---------------------------------------------------------------------------
USDA Forest Service Programs
    The USDA Forest Service State and Private Forestry (S&PF) Deputy 
Area has several programs that assist landowners with invasive species 
management, especially those within the Forest Health Protection unit. 
As authorized by the Cooperative Forestry Assistance Act of 1978, and 
amended in 1990, the State Foresters deliver S&PF programs to provide 
cost-share funding and technical assistance to private landowners. The 
broad authority of the Cooperative Forestry Assistance Act can provide 
the infrastructure to jumpstart any new invasive species management 
programs that the Subcommittees may propose.
    Through its three program areas (Federal Lands, Cooperative Lands, 
and the proposed Emerging Pest and Pathogen program), Forest Health 
Protection provides an important foundation for managing insect and 
disease outbreaks by reporting on forest health trends, surveying and 
monitoring, supporting the delivery of technical assistance, and 
providing prevention and suppression activities. In our Fiscal Year 
2004 budget recommendations, <SUP>3</SUP> NASF encouraged Congress to 
include targeted funding under Forest Health Protection for the 
President's Healthy Forests Initiative to address the southern pine 
beetle infestation, which is reaching epidemic proportions. Also in 
Fiscal Year 2004, the Forest Stewardship Program has some funding for 
competitive grants for the purpose of improving forest health by 
treating invasive insects, diseases, and plants on state and private 
forestlands.
---------------------------------------------------------------------------
    \3\ Our testimony before the House Appropriations Subcommittee on 
Interior and Related Agencies, which includes our Fiscal Year 2004 
recommendations, can be accessed at http://www.stateforesters.org/
---------------------------------------------------------------------------
    Invasive species management is also important to the Forest 
Service's other Deputy Areas, including the National Forest System and 
Research and Development. These well-established programs need 
sufficient funding to effectively address invasive species over the 
long term. Again I would point you to NASF's House Appropriations 
testimony for our Fiscal Year 2004 budget recommendations.
    The Forest Service also works closely with the Animal and Plant 
Health Inspection Service (APHIS) to detect and rapidly respond to 
exotic pests that threaten agricultural crops and natural habitats. A 
1997 General Accounting Office report <SUP>4</SUP> suggests that 
despite increases in funding, staffing, and the use of technology, 
APHIS is having difficulty keeping up with the increased inspections 
accompanying increases in trade.
---------------------------------------------------------------------------
    \4\ Agricultural Inspection: Improvements Needed to Minimize Threat 
of Foreign Pests and Diseases. GAO/RECD-97-102
---------------------------------------------------------------------------
2002 Farm Bill Programs
    The 2002 Farm Bill made substantial gains for invasive species 
management for forestry through authorizing the Forest Land Enhancement 
Program and the Community and Private Lands Fire Assistance program.
    Replacing the Stewardship Incentives Program and Forestry 
Incentives Program, the Forest Land Enhancement Program (FLEP) provides 
education, technical assistance, and cost-share funding to private 
forest landowners. FLEP is designed to keep priorities flexible at the 
state level as much as possible, with priorities determined with input 
by State Forest Stewardship Committees. The program can be used for a 
variety of forestry assistance purposes, including the control, 
detection, monitoring, and prevention of the spread of invasive species 
and pests, as well as the restoration of ecosystems altered by 
invasives. The State Foresters hold great promise for FLEP in terms of 
landowner assistance, but it must be recognized that invasive species 
management is only one of many activities that the program supports.
    The Community and Private Lands Fire Assistance program, authorized 
but not funded in the 2002 Farm Bill, will also address the need to 
control noxious weeds and other invasive species within areas burned by 
wildfire. Without controlling noxious weeds that invade recently burned 
lands, areas damaged by fire can become significant sources for the 
further dispersal of weeds to other areas.

ADEQUACY OF EXISTING STATUTORY AUTHORITY
    Although numerous existing Federal statutes or authorities address 
invasive species, there remain large gaps in law. The publication, 
Meeting the Invasive Species Challenge, described above, includes a 
partial list of 40 legal authorities of the U.S. Departments of 
Agriculture, Commerce, and the Interior, as well as the Environmental 
Protection Agency and other Federal agencies (see Appendix 3, pp. 62-
70). Although work done under these authorities may limit such 
introductions, many laws do not directly address invasive species 
control and prevention, and those that do generally target one species 
that has become problematic. To my knowledge, the U.S. lacks a 
comprehensive approach to address invasive species, one that makes use 
of effective partnerships between all levels of government in all 
regions to identify and quickly respond to threats early (before they 
become a problem), effectively control outbreaks when they occur, and 
restore damaged ecosystems.
    According to the CRS report mentioned earlier, comprehensive 
legislation on the treatment of non-native species has never been 
enacted, and no single law provides coordination among Federal 
agencies. The National Invasive Species Council may have made some 
headway in regard to coordination, but its management plan also noted 
the need to develop legislative proposals to fill gaps in current law. 
Meeting the Invasive Species Challenge specifically explains that 
current law does not clearly address the prevention of biological 
invasion across foreseeable pathways, nor does it provide explicit 
direction on management during the critical period between the 
introduction of a new non-native species and the time the species 
becomes established, when focus must shift from prevention to control.

RECOMMENDATIONS
    The development of a comprehensive legislative package to help 
State Foresters and other resource managers aggressively tackle 
invasive species issues will be key to addressing invasive species over 
the long term. I hope you will keep the following principles in mind as 
you consider developing any such proposals.

Active Forest Management
    Emphasis must be placed on active forest management. When the 
problem is compelling and the solution is clear, management needs to 
happen as soon as possible. Some research is needed, but the overall 
emphasis should be on doing something on the ground where and when the 
problems occur.

Early Detection and Rapid Response
    The early detection, control, and prevention of damaging invasive 
species is critical to the health of forests on all ownerships. The 
broad range of sectors that contribute to the propagation and spread of 
invasive species hold the promise for innovative and incentive-driven 
solutions. Constituents from these sectors should be at the table in 
developing solutions.
    Existing successful programs may serve as models for early 
detection and rapid response. For example, the CRS publication noted 
above suggests that the National Interagency Fire Center (NIFC), of 
which the State Foresters are a key cooperator, could be a model for 
Congress to consider when developing rapid response programs. Efforts 
to quickly respond to wildfires face many of the same challenges of 
haste, technical needs, and interagency and intergovernmental 
coordination as do rapid responses to invasive species outbreaks.

A Pathways Approach
    Invasive species management should focus on the variety of pathways 
by which invasive species enter the U.S. We need to identify and build 
capacity to respond, such as through early detection at ports or other 
shipping facilities. For example, through early detection measures 
targeting solid wood packing materials at ports, we might have avoided 
the spread of the Asian longhorned beetle to the U.S.

Long-term Investment
    Long-term programs with ongoing funding are needed if we are to 
successfully control, mitigate, and eradicate harmful nonnative species 
on public and private lands. This is due to both the extended survival 
or dormancy of seeds and the continuous threat of new species 
introductions from overseas.

State/Federal Partnerships
    Effective partnerships between various levels of government, 
especially between state and Federal agencies, will be critical to 
promptly dealing with invasive species issues. In guidelines recently 
adopted by the Invasive Species Advisory Committee, an advisory 
committee that supports the National Invasive Species Council, the 
group makes clear that effective partnerships among all levels of 
government are important first steps to building our capacity to 
control and eradicate invasive species across the country. The 
document, Guidelines and Strategies for a Successful State Federal/
State Partnership to Combat Invasive Species, was adopted by the 
committee during its most recent meeting.
    The advisory committee will be recommending that the Council use 
the following guidelines when developing administrative proposals or 
commenting on Congressional legislation for partnerships between 
Federal and state agencies:
    <bullet> Incentive-driven with the voluntary cooperation of the 
private sector
    <bullet> Flexible enough to address agency and community needs at 
the local level
    <bullet> Support the development of state-level invasive species 
management plans
    <bullet> Rapidly respond to priority invasive species that could 
spread
    <bullet> Share successful invasive species management techniques 
among states and regions
    <bullet> Increase public support and understanding of invasive 
species issues

CONCLUSION
    Invasive species management on all lands will be strengthened 
through integrated, results-oriented work. Where program areas overlap, 
limited Federal dollars can be spent most effectively on integrating 
new and existing programs, and making use of the experts who are 
already involved with established authorities. By bolstering existing 
programs as much as developing new ones, a comprehensive package can 
provide an ideal opportunity to effectively address invasive species in 
a multi-ownership landscape.
    NASF looks forward to the opportunity to work with the 
Subcommittees to develop and carry out effective, comprehensive 
programs to address the spread and control of invasive species. We are 
willing to help draft legislation to address these issues.
    I appreciate the opportunity to provide testimony and answer your 
questions today.
                                 ______
                                 
    Mr. Gibbons. We turn now to Dr. Phyllis Windle, Senior 
Scientist, Union of Concerned Scientists. Doctor, welcome. The 
floor is yours.

  STATEMENT OF PHYLLIS N. WINDLE, SENIOR SCIENTIST, UNION OF 
 CONCERNED SCIENTISTS, ON BEHALF OF THE NATIONAL ENVIRONMENTAL 
                 COALITION ON INVASIVE SPECIES

    Dr. Windle. Good afternoon and thank you. I am a Senior 
Scientist at the Union of Concerned Scientists, but today I was 
invited to represent the National Environmental Coalition on 
Invasive Species, so I would ask that you would make that 
correction in the hearing record. Our coalition includes 11 
environmental or conservation groups with nearly 6 million 
individual members and activists. I will also address the four 
topics that you requested.
    First, we feel that the scope of the problem and its 
magnitude are staggering, and both are likely to worsen as 
international trade and travel increase.
    Second, in terms of efforts to control or eradicate 
unwelcome invaders, we know that a number of groups have had 
notable successes and there certainly is cause for optimism in 
some places. But those methods usually apply to a single 
species in a limited area and at high cost. Certainly efforts 
are not keeping pace with the scope of the problem.
    Third, whether statutory authority is sufficient to limit 
problems, we would say no, it is not, especially if we talk 
about gaps in authority as including ones of legislation and 
oversight but also in how Federal agencies implement their 
programs, what their mandates are, and how they fund them. A 
number of authors have examined this issue of authority and 
gaps and they have all come to the same conclusion. Part of 
that conclusion is that those 23 pieces of legislation that you 
mentioned are usually partial and designed for other purposes 
than the problem we are speaking about today. We do not have a 
seamless system that runs through all of the steps of 
preventing new introductions, of responding quickly after 
detecting them early, managing them well, enforcing our 
regulations and laws, doing public education and outreach and 
ensuring that we have the adequate research and monitoring in 
place to prepare for the future.
    Lastly, our recommendations. I would say that we are 
playing a desperate game of catch-up and largely losing. The 
invasive species that are already here are being joined by 
others that are constantly arriving. Preventing new arrivals is 
absolutely key. For this reason, we would recommend that 
Federal agencies' statutory commitments be clarified and 
strengthened. Their aim should be to cut risks of further 
damaging or potentially damaging introductions as close to zero 
as is feasible. We recognize that a rigorous program of 
preimport screening is also essential. We urge that that be put 
in place for all intentionally introduced species as one way 
that Federal agencies could implement a stronger mandate. Of 
course, there will be clearly noninvasive species that could 
quickly be cleared and continued through the process for 
import.
    We would want equally stringent means put in place to 
address the pathways by which inadvertent introductions occur. 
The proposed National Aquatic Invasive Species Act is probably 
the best attempt for doing this for ships' ballast water and we 
would urge quick passage of the two related House bills.
    We also recommend that the Federal agencies explore and 
quickly implement new methods to fund efforts. Relying on 
Federal appropriations is clearly not working. We can tell from 
the Federal backlog that many of the agencies have for 
addressing the problems in front of them.
    Our third recommendation is to take additional steps to 
ensure that international trade is less risky. This means 
strengthening the mechanisms that are in place in relevant 
international bodies and ensuring that the Office of the U.S. 
Trade Representative addresses invasive species issues. 
Specifically we ask that the Congress not support international 
agreements that are less protective than U.S. policy.
    We are rich in potential legislation in this Congress--a 
welcome change from what has been the case at other times.
    We offer our sincere thanks to all of you who have been 
involved in drafting or supporting this legislation and for the 
roles that many of you will take now as these pieces of 
legislation move through this Committee. We are happy to give a 
general endorsement to all of the bills that we see in front of 
us this year, including Mr. Hefley's H.R. 119. We look forward 
to working with you on their passage and urge you to take 
action quickly.
    Thank you very much.
    Mr. Gibbons. Thank you very much, Dr. Windle and ladies and 
gentlemen, thanks to each of you for your very helpful 
testimony.
    [The prepared statement of Dr. Windle follows:]

    Statement of Dr. Phyllis N. Windle, Senior Scientist, Union of 
Concerned Scientists, on behalf of The National Environmental Coalition 
on Invasive Species, American Lands Alliance, Center for International 
   Environmental Law, Defenders of Wildlife, Environmental Defense, 
 Environmental Law Institute, Great Lakes United, International Center 
   for Technology Assessment, National Wildlife Federation, National 
Wildlife Refuge Association, The Nature Conservancy, Union of Concerned 
                               Scientists

    Mr. Chairmen and members of the Committee, the National 
Environmental Coalition on Invasive Species appreciates the opportunity 
to address you today. It is on behalf of the eleven conservation 
organizations that constitute this coalition that I am testifying.
    Together, our member organizations have nearly six million 
individual members and supporters. One member of our coalition has 
protected millions of acres in private preserves and works with over 
1,900 corporate sponsors. Several members have affiliates in at least 
46 states. One coalition member is made up of more than 150 community 
groups as well as groups of conservationists, hunters and anglers, and 
labor unions. Our other members have long provided the scientific, 
economic, and legal analyses and the responsible advocacy that are at 
the heart of what we recommend today. Many of us have been tackling 
issues of invasive species for more than a decade. Thus, we speak from 
considerable experience.
    The threat of invasive species is common ground for all of us here 
today. Whether we are concerned about conservation, about maintaining 
healthy rangelands; about sustainable agriculture, fisheries, and 
forestry, or about trade, invasive species are a threat to our past and 
future accomplishments. We all want equitable, practical, and cost-
effective solutions to this environmental problem.
    You asked that we specifically address four topics today:

    1. The scope of the problem--Both the scope and magnitude of this 
problem are staggering and it is likely to get worse as international 
trade and trade increase;

    2. Efforts to control or eradicate unwelcome invaders--Groups have 
had notable successes but their successes have applied to single 
species, usually in limited areas, and against long odds and high 
costs.

    3. Whether existing statutory authority is sufficient to limit 
problems--No, it is not, especially when we consider here gaps not only 
in congressional law-making and oversight but also in Federal agencies' 
mandates, implementation, and funding.

    4. Our recommendations to solve the problem.

    While our coalition has no magic bullets that can completely 
redress the invasive species problem, we do offer guidance, 
recommendations, and support for some of the proposals before this 
Congress, along with constructive suggestions for improving them. We 
believe these are good ideas that will make a difference.
    First and foremost, we recommend that Federal agencies' statutory 
commitments, their policies, and practices be made more stringent in 
order to better prevent further introductions of invasive species. 
Also, we recommend exploring and quickly implementing new methods to 
adequately fund the efforts that are so urgently needed. We urge that 
invasive species issues be more thoroughly addressed in arenas dealing 
with international trade--a root cause of invasive species problems.

1. The Scope of the Problem
    Picture the South without dogwoods, Vermont without maple trees, 
the Chesapeake Bay without oysters, or the Great Lakes without lake 
trout. Non-native and harmful species are increasingly recognized as a 
severe threat to our nation's economy, natural resources, and health. 
Most non-native organisms in the United States are either beneficial or 
not harmful. A fraction, though, cause damage and, at their worst, the 
environmental and economic costs are staggering.
    Invasive species disrupt the function of ecosystems by altering 
fire cycles, the flow of water and nutrients, or the kinds of organisms 
occupying whole areas. As such alterations multiply, what were once 
unique regional characteristics are beginning to blur. Decades of 
conservation achievements are being undermined. And the health of 
resource-based industries is being jeopardized. For example:
    <bullet> Invasive species are the number one cause of biodiversity 
loss in the Great Lakes and are expected to be the leading cause of 
extinctions in North American freshwater ecosystems this century.
    <bullet> In fact, invasive species represent a primary threat to 
approximately 50% of the U.S.'s threatened and endangered species.
    <bullet> Insects and disease pathogens introduced with trade from 
Europe and Asia have damaged 70% of the 165 million acres of forest in 
the Northeast and Midwest and threaten both commercial and non-
commercial species.
    <bullet> More than one-third of the grasslands and shrublands of 
the Intermountain West have been invaded by non-native plants.
    <bullet> Nearly eight million acres of habitat distributed among 
half the 540 National Wildlife Refuges across the country are infested 
by at least 675 different invasive species.
    <bullet> More than 200 of the 375 National Park Service units have 
flagged invasive species as a significant management concern that 
raises the costs of operation and contributes to their backlog of 
maintenance projects.

Economic Damage
    We have no complete accounting of invasive species' economic costs 
across the nation, although estimates of overall annual losses of many 
tens of billions of dollars have been put forth. Some well-documented 
numbers indicate the magnitude of the economic damage:
    <bullet> Between the late 1980s when the zebra mussel arrived in 
the Great Lakes and 1994, documented cumulative losses to about 50% of 
the Great Lakes' water users were $60.2 million.
    <bullet> In the early 1990s when leafy spurge infested several 
million acres in the upper Great Plains, it caused an estimated 
economic loss of $130 million per year; heavy infestations have reduced 
the value of some ranch land by 90%.
    <bullet> During the 2001-2002 fiscal year, more than $22 million 
in Federal, state, and local funds were spent to manage mostly aquatic 
plants on more than 53,000 acres in Florida alone.
    <bullet> In 2001, $10.7 million in Federal and state funds were 
spent to slow the spread of European gypsy moths across a band of 56 
million acres in nine southeastern and midwestern states.
    <bullet> Tamarisk--a weed of riparian areas--is estimated to have 
extracted water worth an estimated $39-$121 million per year if the 
water had been used instead for irrigation in 12 western and Great 
Plains states.
    <bullet> Mediterranean and Mexican fruit fly outbreaks cost $37 
million in 2002 and are expected to cost $63 million in 2003. If these 
flies become established, losses to crop damage and export markets 
could exceed $821 million per year.
    As the world's largest economy, the introduction of invasive 
species into the United States through trade is of primary concern. For 
example, the vast majority of goods and people arriving in North 
America arrive by way of the United States. Additionally, in 2000, one 
in every two marine vessels in the world's active fleet visited the 
United States, and the United States had 14 of the world's 30 busiest 
airports by cargo volume. Only two percent of incoming shipments are 
inspected, however, and other, more effective strategies for protection 
have not been put in place. The result is a significant gap in our 
frontline defense against preventing both terrestrial and aquatic 
introductions.
    Our concerns transcend regions and ecosystems. There are clear 
risks to the nation's waters, forests, farmlands, rangelands, wetlands, 
natural areas, and public and private property values. While much 
research and management has focused on agricultural systems in the 
past, we now have enough experience in non-agricultural areas to know 
what sorts of policies are needed in these areas--ones that also 
contribute to the nation's economy and quality of life.

2. Efforts to Control or Eradicate Unwelcome Invaders
    With thousands of invasive species in the United States, curtailing 
their continued spread throughout the country is an important aim. 
There are exciting examples of groups successfully doing just that.
    Eradicating populations of invasive species has the advantage of 
providing a long-term solution. In the past, eradication was often 
perceived to be nearly impossible. But recent efforts suggest that, for 
a surprisingly large group of species and under the right conditions, 
eradication holds promise. For example, eradication of mammals, 
especially on islands and especially those that are plant-eaters, often 
works. Eradication of widespread terrestrial plants is more difficult 
but not impossible with persistence and--often--with sizeable budgets 
and a great deal of volunteer help, too. Eradication of aquatic 
invaders is likely the most to difficult to achieve, but may be 
possible in cases where new species are detected early and quickly 
treated.
    These are among recent and anticipated successes of eradication 
campaigns:
    <bullet> The Nature Conservancy staff reclaimed the Coachella 
Valley Preserve in California from tamarisk. The trees were planted as 
a windbreak but spread, out-competed native plants, and used enough 
water to dry up some desert pools. Tamarisk was removed from tens of 
acres of wetlands. Today the vegetation has returned to its native 
composition and a spring flows that had been dry for years--a very 
visible success in a high-value locale.
    <bullet> The National Park Service continues to protect the most 
pristine rain forest remaining in Hawaii. In the late 1970s, an 
invasion of feral pigs threatened a particularly valuable area of 
Haleakala National Park. The University of Hawaii and the National Park 
Service cooperated to study the pigs' impacts along with options for 
their control. In the mid-1980's staff constructed fences and snared 
the pigs inside until the entire population was removed--in about four 
years. Now, snares catch the few pigs that enter the park via 
occasional holes in the still-maintained fences.
    <bullet> Officials expect to eradicate the Asian longhorned beetle 
from Chicago this year. This insect was detected in Chicago in 1998. 
Since then, concerted efforts by Federal, state, and city officials 
have almost succeeded in eradicating the beetle from five outbreak 
areas. Experts expect to find the last active beetles this year. These 
efforts involved the destruction of more than 1,400 trees and a cost of 
tens of millions of dollars. Unfortunately, efforts to eradicate the 
more widespread infestations in New York and New Jersey have not had 
the same success and a previously unknown outbreak was discovered in 
Jersey City last year. Failure to complete eradication of this insect 
could result in damage exceeding $600 billion.
    <bullet> Federal, state, and local partners are preparing to 
eradicate nutria from Maryland's Eastern shore. The nutria, an invasive 
rodent from South America, is destroying thousands of acres of wetlands 
from Maryland to Louisiana by feeding on the roots of wetland plants. A 
team of partners, including the U.S. Fish and Wildlife Service, U.S. 
Geological Survey, Maryland Department of Natural Resources, University 
of Maryland, and local governments, groups, and landowners, is working 
together to control and eradicate this animal on the Eastern Shore of 
Maryland. Researchers are studying the behavior, population dynamics, 
and impacts of nutria; creating models of the system; and then 
evaluating strategies to effectively eliminate this species and to help 
the vegetation recover. Once the best eradication strategy is 
determined, partner groups will implement it.
    When conditions do not permit eradication, a number of 
jurisdictions have adopted a practice called ``maintenance control,'' 
an approach pioneered in Florida. The focus is on keeping invasive 
species' populations at levels low enough for their harm to be 
tolerable.
    There are also notable successes with this approach:
    <bullet> Ongoing efforts have reduced populations of sea lampreys 
by 90% in most areas of the Great Lakes. Sea lampreys reached the Great 
Lakes after shipping canals were built from the Atlantic in the early 
twentieth century. They are parasitic aquatic vertebrates that attach 
to and prey on a wide variety of large fish--and contributed 
significantly to the collapse of the Great Lakes fisheries. For 
example, the U.S. and Canadian harvest of lake trout went from about 15 
million pounds in Lakes Huron and Superior annually to about 300,000 
pounds per year in the 1960s due to lamprey-induced mortality. Now U.S. 
and Canadian officials, along with state experts and other partners, 
use a combination of methods to keep sea lamprey populations low. These 
include population assessments, treatment with chemical lampricides, 
physical barriers, traps, and the release of sterile males, a form of 
biological control.
    <bullet> The National Park Service's Exotic Plant Management Teams 
are cutting weed problems in all parts of the nation. They have 
successfully eradicated local populations of weeds or reduced them to 
manageable levels for 21 plants in 19 national parks, monuments, or 
other Federal properties.
    <bullet> Test treatments of spartina grass have been successful at 
Willapa National Wildlife Refuge in southwestern Washington, the 
largest estuary in the northwest United States region outside Puget 
Sound. Spartina is treated from amphibious tractors equipped with a 
Global Positioning System (GPS) to guide infrared precision spray 
booms. This effort has resulted in immediate benefits for migratory 
shorebirds.
    These examples represent significant successes at controlling or 
eradicating highly damaging invasive species. We know that there are 
others. The time is ripe to share and replicate these successes, many 
times over. Also, we can draw from these examples key lessons for 
making U.S. policy more effective. We've learned that certain, single 
species can have devastating effects. We know that effective management 
often requires a long-term commitment, with stable funding. Relaxing 
efforts for even one year can allow organisms to rebound and set back 
efforts substantially. Public and private groups make such long-term 
commitments because the damage of some invasive species is so high and 
the benefits of their control are so sizeable.
    We must note, however, that the resources we put into managing 
invasive species do not approach being adequate. At present, technology 
allows only localized eradications of widespread invaders. Meanwhile, 
the floodgates remain open to more invaders. Given these challenges, we 
believe it is time for us, as a nation, to reexamine our fundamental 
approach to invasive species. While these eradication and control 
efforts are laudable, ultimately prevention of introductions is the 
most effective measure to protect our natural and other resources. The 
Committee is wise to ask whether the legal authority exists on which to 
base more effective policy.

3. Whether Existing Statutory Authority Is Sufficient
    For U.S. policy and programs to successfully address the large-
scale threats posed by harmful, non-native species, there must be 
authority to effectively carry out several major types of activities:
    <bullet> Prevention--to keep the most damaging invasive species 
from reaching the United States and becoming established here.
    <bullet> Early Detection and Rapid Response--to monitor and detect 
new, potentially damaging species quickly and to respond to them 
rapidly while eradication is still possible.
    <bullet> Control and Management--to coordinate ongoing efforts 
with local, state, regional, Federal, and international authorities to 
minimize impacts of existing invasions and prevent their spread.
    <bullet> Public Outreach and Education--to educate the public 
about the seriousness of the threat and inform individual actions that 
can limit the introduction or spread of harmful, non-native species.
    <bullet> Research and Monitoring--to invest in effective and 
environmentally sound control technologies and other tools, and in the 
biologists and biological research needed to ensure long-term success.
    A number of authors have examined whether adequate authority exists 
and they have come to the same conclusion: current authority is not 
sufficient to solve the problems we face. Existing policies and 
programs typically include some combination of these elements but there 
are many gaps--gaps that result from a number of sources. Agency 
mandates may be confusing or incomplete. Federal agencies may fail to 
fully implement existing statutory authority. Legislatively authorized 
levels of funding may not match actual appropriations. Or there may be 
areas where Federal efforts fall between the cracks of congressional 
jurisdiction.
    As a result, current U.S. policy is a jigsaw puzzle with many 
holes. Most of the missing pieces were identified more than a decade 
ago, yet little has been done to put them in place. These are among the 
most serious gaps:
    <bullet> Federal agencies have no clear legislative mandate to 
fully protect the nation's resources from the worst risks of 
international trade.
    Agencies lack a clear legislative mandate to use their existing 
authority to implement a level of protection as close to zero risk of 
further harmful invasions as is feasible. Too often agencies (and 
especially USDA's Animal and Plant Health Inspection Service, or APHIS) 
act as if they are mandated to promote unfettered free trade rather 
than to limit international trade so as to prevent further harmful 
invasions. This may appear profitable in the short-run but, in the 
long-term, the environmental and economic costs will be high.
    <bullet> Specific gaps in statutory authority remain.
    Where Federal law does exist, there are often major exceptions in 
authority. For example, the Lacey Act is our nation's chief means of 
restricting imports of invasive animals. However, it restricts only a 
limited set of species or species groups and the process by which new 
species are added is slow and cumbersome. Nor does any agency have 
authority for invasive organisms, like the coqui frogs in Hawaii, that 
arrived with plants but are not themselves plant pests.
    In fact, many clearly harmful actions that people would probably 
agree should not be allowable--like dumping water hyacinth into public 
waters--are. And not all of the people either inside or outside of 
government agencies agree on what current law allows their agencies to 
do. Federal agencies report that they are often requested to undertake 
tasks that may not be authorized under current law, like taking 
emergency action. Occasionally, they will fill such gaps on an 
informal, ad hoc, basis because of pressing local needs. But that can 
leave agencies on shaky legal ground.
    <bullet> Federal agencies with existing authority sometimes fail 
to exercise it in important ways, creating a gap in implementation.
    Major problems in implementation are common, e.g., the brevity of 
current ``dirty lists'' under the Lacey Act and the Plant Protection 
Act of 2000 and the time it takes to add organisms to these lists. One 
especially important such gap occurs in the way APHIS is implementing 
the Plant Protection Act. This law clarified that APHIS has 
responsibility to protect wetlands, grasslands, rangelands, and other 
natural systems from pests, including insects, diseases, and weeds. 
With a few exceptions (e.g., the Asian longhorned beetle), APHIS has 
continued to emphasize agricultural systems. We fear this gap in 
implementation will increase now that APHIS' port inspection duties 
have been transferred to the Department of Homeland Security, further 
distancing inspectors from concerns regarding pests of natural systems.
    <bullet> The lack of adequate funding can itself create gaps where 
agencies might otherwise be willing to be innovative and 
entrepreneurial in applying their authority.
    More proactive agencies often move forward on the basis of general 
direction from Congress if their funding is generous enough to 
encourage innovation. Such is not the case regarding invasive species. 
For example, appropriations have never reached the levels authorized by 
the National Aquatic Nuisance Prevention and Control Act of 1990 or its 
1996 amendments, even for the popular cost-sharing grants to states 
where demand far exceeds funds available.
    There is at least one key gap in jurisdiction among the 
congressional committees responsible for oversight of invasive species 
issues.
    If APHIS should undertake the protection of natural resources, as 
the 2000 law requires, it is not clear that the House and Senate 
Agriculture Committees would be the most appropriate groups to conduct 
oversight. No other committee has that jurisdiction now, however, and 
we would support the Resources Committee seeking joint jurisdiction in 
this specific area.
    <bullet> Federal agencies often have competing missions when it 
comes to invasive species.
    It is not unusual to find certain agencies promoting the same 
species that others are attempting to eradicate or control. So far, no 
means have been developed to resolve such differences. The interagency 
National Invasive Species Council (NISC) should be in a position to do 
this and its staff has begun developing a process for competing 
agencies to discuss such conflicts. However, NISC has no statutory 
authority for this task and therefore limited ability to change agency 
practices. The Council on Environmental Quality (CEQ) has 
responsibility for addressing inter-agency conflicts but it has not 
become involved in this issue. However, CEQ and NISC are cooperating to 
provide agencies with guidance on applications of the National 
Environmental Policy Act.
    The sorts of gaps described here in Federal law, policy, and 
practice are often paralleled in states. Increasingly, though, state 
officials are becoming impatient with lax Federal policy or with long 
delays in making improvements. For example, a number of states are 
moving forward with their own standards for managing the ballast water 
of ships, in the absence of strong Federal measures, and establishing 
their own coordinating councils to streamline state action. We expect 
that such efforts will increase as the cumulative numbers of invasive 
species in the country continues to rise and their economic, 
environmental, and health costs are more accurately tallied.

4. Recommendations to Solve the Problem
    Our intent is to strengthen Federal agency mandates, as well as 
their policies and practices. Our long-term goal is to implement a 
level of protection that is as close to a zero risk of further harmful 
introductions as is feasible. We propose to reach this long-term goal 
with a flexible toolkit of economic and other methods. Until we set 
such a goal, we cannot know if our work is succeeding. And failure is 
too costly--for a problem that multiples with delay.
Our top priority: preventing the introduction of additional damaging 
        species.
    Nowhere is it truer that an ounce of prevention is worth a pound of 
cure.
    While the Committee on Resources is responsible for minimizing 
invasive species' damage on lands and waters under Federal 
jurisdiction, this effort will fail unless backed up by more effective 
programs to prevent the entry and establishment of new invaders. The 
current U.S. approach of creating a short list of harmful species to 
regulate often limits the import of species only after extensive 
private investments have been made in it, after injurious species have 
already escaped into the wild, or after eradication is no longer 
possible.
    Therefore, we recommend that all species intentionally imported 
into the United States be effectively evaluated for invasiveness prior 
to import. Those known to be invasive or those highly likely to harm 
native biodiversity and ecosystems and other important resources should 
be kept out. Key legislation being proposed does not include rigorous 
screening and agencies are moving too slowly. We consider careful and 
thorough pre-import screening essential.
    We envision that many clearly safe species would be exempt from 
this process. Large groups of obviously useful species, like cattle, 
crop varieties, and clearly non-invasive organisms could be quickly 
given a green light for continued entry. We believe that such a program 
can be based on science and not impose unnecessary trade barriers or 
protectionism. In fact, such approaches work elsewhere, such as for 
plants in western Australia, and they have been successfully tested in 
Hawaii.
    The Committee on Resources has jurisdiction over two statutes that 
could be used in such a screening system--the Lacey Act and the 
proposed National Aquatic Invasive Species Act. APHIS has chief 
responsibility for controlling entry of plants, weeds, plant pests like 
insects and diseases, and diseases of livestock and poultry; oversight 
falls to the Agriculture Committee. Any comprehensive screening effort 
would also involve agencies which this Committee oversees, e.g., the 
Fish and Wildlife Service.
    The Federal Government must also do a more thorough job of 
preventing inadvertent introductions through major pathways such as 
those that occur in the ballast water of ships or attached to ships; 
those that arrive with solid wood packaging, logs or lumber; those that 
come with living plants or as parasites on imported animals; and the 
fish and mollusk diseases that are carried with aquaculture imports. 
For the past decade, much effort has focused on limiting introductions 
in ballast water. But unfortunately, the rate at which new aquatic 
invasive species are colonizing the Great Lakes has not declined 
despite implementation of Canadian ballast water exchange guidelines in 
1989, followed by mandatory U.S. requirements set in 1993 for ships 
entering the Great Lakes. This suggests we need to redouble our 
efforts, quickly develop and implement ballast water discharge 
standards to protect all national waters, and perhaps consider 
alternate means of moving goods into the Great Lakes region. We support 
these steps. We also support phasing out the use of wood as a packing 
material and ensuring that logs, lumber, and chips imported from 
everywhere except Canada be treated to eliminate invasive species.
Our second priority: adding to available funding
    Relying upon Federal appropriations alone has not provided either 
adequate or sufficiently flexible funding to address growing problems. 
Long backlogs of needed but unfunded efforts are typical of Federal 
land management agencies. For example, in 1998, efforts against 
invasive species cost the National Refuge System $13 million. Today, 
the backlog of known invasive species projects on refuges has increased 
to more than $150 million, fully 15% of the entire operations backlog. 
Likewise, the National Park Service cannot control invasive species on 
93 percent of its affected lands.
    Rapid response programs to manage newly detected invasive species 
when their populations are still small must be one of our highest 
priorities. Yet funds for emergency actions are not available to every 
agency that needs them, when it needs them. Often these resources are 
most needed at the end of the summer and early fall--just when Federal 
agencies tighten contracting and accounting practices in preparation 
for the change in fiscal years. Funding for research is woefully 
scarce. The identification of potential new invaders, better knowledge 
of invasive species life cycles, a more thorough understanding of their 
impact would accelerate our capacity to both prevent and control 
invaders. Funding for enforcement is also scarce yet we know that 
stronger enforcement can enhance measures' effectiveness.
    Knowing the key role that reliable funding plays, we recommend that 
efficient, and effective programs have the long-term commitment of 
resources they need to continue. Examples include the program to 
control sea lampreys in the Great Lakes, the National Park Service's 
Exotic Plant Management Teams, Federal research on forest health, and 
Federal cost-sharing for states to implement their state-wide aquatic 
invasive species management plans. We feel that the first 
responsibility of this committee is curtailing invasive species on 
Federal lands. After that, we support cost-sharing programs with other 
land and water managers.
    Thus NECIS recommends that additional means be explored and 
implemented by which the amount of government funding available to 
address all aspects of invasive species issues can be substantially 
increased or supplemented with other sources for prevention; early 
detection and rapid response; control and management; research and 
monitoring; enforcement; and public outreach and education. 
Appropriations are not enough.
    We support the constructive use of economic policy tools, such as 
incentives, to prevent harmful invasions and to control them when they 
occur. This could include implementation of a fee-based approach, such 
as has been used successfully in the past to create the Oil Spill 
Liability Trust Fund. We suggest that NISC be charged with examining 
the full range of other possible funding options and report back to the 
Committee on its findings by January 1, 2004.
Our third priority: making international trade less risky.
    Finally, we recommend strengthening mechanisms and regulations to 
prevent the import and export of invasive species via trade in North 
America and the broader international community.
    There are several ways to accomplish this. First, the United States 
should make more effective use of multilateral conventions, including 
the Internatonal Plant Protection Convention, the Convention on 
Biological Diversity, and agreements handled by the International 
Maritime Organization. Second, the regulations issued by international 
bodies charged with protecting plant and animal health should be 
strengthened, particularly with regard to managing the major pathways 
by which invasive species are moved. Third, the U.S. Trade 
Representative should be advised to address invasive species' 
movements, impacts, and standards for their regulation within the 
negotiation of bilateral and multilateral free trade agreements. 
Finally, the United States should not become party to international 
agreements intended to protect ecosystems from introductions of 
invasive species if the agreement is not at least as protective as U.S. 
standards.

5. NECIS Positions on Pending Legislation
    In this Congress, there is a wealth of proposed legislation that 
addresses various issues regarding invasive species. We appreciate the 
level of interest and importance the topic is now receiving. Also, we 
congratulate the sponsors who have worked so hard on these bills. In 
general, we support the legislation offered by members of this 
Committee as well as the bills referred to it.
    Here, we highlight just a few of the aspects of various bills that 
we find particularly helpful and also list a few of our concerns. We 
are available to suggest ways to strengthen key provisions, to 
integrate similar aspects of different bills, and to ensure their 
passage.
    <bullet> The Species Protection and Conservation of the 
Environment Act (SPACE)
    <bullet> H.R.119 The Harmful Invasive Weed Control Act
    We applaud efforts to use Federal funding as an incentive to 
encourage local government agencies, private organizations, and 
individuals to be more proactive in managing invasive and invading 
species. The Aldo Leopold Native Heritage Grant Program offered in the 
SPACE bill is commendable not only in that it provides such incentives, 
but also in that it provides additional incentives for innovative 
technologies, early detection, and rapid response. We are particularly 
supportive of the 100 percent Federal funding proposed in SPACE for 
rapid response. There is broad consensus--among organizations, 
scientists, and government representatives--that such rapid action is 
the single most cost-effective way to stop incipient invasions. We 
further appreciate that, in SPACE, successful projects can be renewed. 
Sadly, invasive species control rarely ends completely and the 
accomplishments achieved in these projects will likely need additional, 
although likely less expensive, follow-up management and monitoring.
    As for our concerns, finding efficient ways to manage invasive 
species is a shared goal of all NECIS members. These bills could 
promote such efficiency, not just through the innovative technology 
they already encourage, but by promoting projects and products that can 
serve as models for efficient and effective control. In this regard, we 
encourage the Committee to include language that mandates broad 
publication of the results of good projects so that they can be 
replicated elsewhere. Also, it is our hope that appropriations for 
other important programs not be diverted to fund Federal cost-sharing 
for these grants. Therefore we urge you to enlist the help of your 
colleagues on the Appropriations Committees to provide sources of 
additional funds.
    <bullet> H.R.1080 The National Aquatic Invasive Species Act of 
2003
    <bullet> H.R.1081 The Aquatic Invasive Species Research Act
    These companion bills reauthorize legislation first passed in 1990 
and updated in 1996. We support a great many of these bills' 
provisions. We applaud the broader geographic and taxonomic coverage; 
new efforts to monitor new invaders are important; provisions for rapid 
response, identification and management of high risk pathways; and 
annual updates to the lists of species whose import is limited by the 
Lacey Act or the Plant Protection Act. The bill takes a very modest 
step toward pre-import assessment of species' invasiveness. It aims to 
move the nation away from a primary reliance on ballast water exchange 
to ballast water treatment and also to develop environmentally sound 
methods managing aquatic invaders.
    As for our concerns, the deadlines for setting and implementing new 
ballast water management standards are years away. Likewise, the 
relatively weak provisions for pre-import screening will not apply for 
several years and then a very large group of organisms in trade are 
exempted. There is no requirement that the proposed screening process 
be carefully reviewed by independent and qualified experts. Nor is a 
mechanism included to ensure that funding is adequate. We would not 
support Federal preemption of state ballast water standards, which is 
sometimes discussed as a trade-off against setting additional fees.
    <bullet> H.R.989 The Great Lakes Ecology Protection Act of 2003
    This bill requires that final standards for treating ballast water 
to remove nonindigenous organisms be issued on a strict timeline. We 
support the intent to rapidly implement provisions called for in 1996.
    <bullet> H.R.266 The National Invasive Species Council Act
    <bullet> The Species Protection and Conservation of the 
Environment Act (SPACE)
    The Federal response to invasive species needs to be on firmer 
footing and authorizing the National Invasive Species Council in 
legislation is an easy and important way to achieve that. Therefore we 
support the codification of the full Executive Order that established 
the Council and its Advisory Committee. We believe this will help 
ensure the timely implementation of the Council's first and subsequent 
National Management Plans and provide the public with recourse if 
implementation slows. We believe it is essential to enact that part of 
Section 2 of the Executive Order which Federal agencies have so far 
done little to address--the sections asking them to identify their own 
actions which affect the status of invasive species and not authorize, 
fund, or carry out actions likely to promote or introduce such species 
in the U.S. or elsewhere. This section also gives agencies authority 
for the full range of actions needed to make U.S. policy more 
comprehensive. We consider both areas essential.
    As to our concerns, we are not certain that frequently rotating the 
Council's chair among three Federal agencies will be workable. The 
transition between Presidents delayed the Council's work by more than a 
year; we fear additional time will be lost with each transition to a 
new chair, and with any changes to staff that occur at the same time. 
We recommend placing the Council staff within the Executive Office of 
the President, which would provide a permanent ``home'' for the 
Council's work while also elevating the status of the issue.
    <bullet> H.R.695. The Tamarisk Research and Control Act of 2003
    In the absence of more comprehensive legislation, species-specific 
approaches focus on critical threats to the biological diversity, 
natural resources, and economy of a specific state or region. They also 
provide for improvements to the science of managing the species. In the 
future, we hope to see more comprehensive legislation on terrestrial 
invasive species that includes many of the concepts included in this 
bill, as well as in the new Nutria Eradication and Control Act of 2003 
(P.L. No. 108-16).

6. Conclusion
    In summary, NECIS believes that the problems associated with 
invasive species have very real and practicable solutions. This issue 
is common ground for the farmer, rancher, and the environmentalist; for 
the academic and the policy maker; for the importer and the consumer; 
and for developed and developing countries. Solutions require the 
participation of all of us.
    We look forward to working with the Committee on the tasks before 
us. Thank you for the opportunity to testify. I am pleased to answer 
any questions you might have.
                                 ______
                                 
    Mr. Gibbons. I have just one question which I will throw 
out there and then we will turn to the members for individual 
questions. When there is a conflict between existing statutes 
that this government has created--for example, the Endangered 
Species Act and other species or other acts which would deal 
with invasive species, statutory authority such as an invasive 
species authority which would deal with the tamarask? We have 
heard about the problem with tamarask versus the south willow 
flycatcher which is an endangered species. The south willow 
flycatcher is nesting in the tamarask. How do you deal or how 
do you propose to deal with a conflict of existing statutory 
authorities in the management of an endangered species versus 
the elimination of an invasive species? At what point do you 
draw the line and ask yourself the value of one species versus 
the other?
    Mr. Gibbons. And I will start over here with Mr. Arnett. 
And if you have any suggestions, that would be helpful.
    Mr. Arnett. Thank you, Mr. Chairman. Perhaps the easiest 
answer, perhaps not the most acceptable to many, is to bring 
some common sense back into the legislation both of endangered 
species and the many invasive species bills we have. It has 
become so complex now that it is almost impossible to 
adjudicate between what you were suggesting.
    And we can't use pesticides; there are certain plants they 
want to get rid of that are invasive, but also are a harboring 
ground for an endangered butterfly. Someplace along the line, 
some common sense has to be used, and that should be left in 
the hands of State directors, whether they are agricultural 
directors, fish and game directors or whoever they may be.
    Most of these problems that everybody has talked about or 
that I have heard anyway, I don't think anybody doubts that 
invasive species is a problem and it is a worse problem in the 
West, as far as the flora goes, than it is in other parts of 
the country, and it should be eradicated. But it shouldn't be a 
Federal responsibility to take care of that for the ranchers in 
Nevada or California or wherever they may be. Someplace along 
the line, the jurisdiction has to go back to where it belongs 
at the State level and let them take care of their own 
problems.
    As an example, it should be up to the State whether they 
may want to have an invasive species. In California, we have 
the striped bass, a very fine sport fish. It is not necessarily 
a commercial fish there, but we chose to bring the striped bass 
back there in the 1800's. It is not indigenous to the Pacific 
coast and the inland waters of the State of California, but it 
was up to the people at that time to decide whether they wanted 
that invasive species, and they brought it into the State.
    So I guess my short recommendation is that someplace 
Congress is going to have to look clearly at the Endangered 
Species Act and see where it has gone from where it was 
intended. I think it has gone far beyond its original intent 
and, someplace along the line, that common sense has to be 
brought back, included with the invasive species and the 
endangered species so that some kind of dedicated purpose for 
the benefit of mankind can be brought into play.
    Other than that--
    Mr. Gibbons. Does anybody else have a comment? Dr. Windle, 
would you like to make a comment to that interface, that 
conflict?
    Dr. Windle. The conflict between Federal agencies is 
nothing new and it is probably not unique to this area. When 
the Office of Technology Assessment examined this question back 
in 1993, they found that was frequently the case, that one 
agency would be promoting a species and another agency would be 
trying to get rid of it. I think that is one of the reasons why 
the National Management Plan addresses this question and 
suggests that maybe the National Invasive Species Council could 
be a forum where people with different approaches and the 
different agencies could sort out these issues.
    Mr. Gibbons. In the 2 seconds I have remaining, is there a 
solution in a conflict situation between species with the laws 
that we have on the books? Do you feel that there is a solution 
capable between the willow--south willow fly catcher and the 
tamarisk that would be suitable to all parties, or are we going 
to find ourselves involved in litigation from here till, you 
know, whatever point in the future you want to talk about?
    But is there a possible solution or are we in a position, 
in a situation where we have no alternative?
    Dr. Windle. I don't have a short answer for your question 
about that specific example. I don't believe that the National 
Invasive Species Council has the authority to mediate in 
situations like that. The Council on Environmental Quality has 
as its task resolving some such conflicts, but I don't think 
they are involved now, either.
    So there is not an immediate solution for you and I agree 
that it is going to be difficult.
    Mr. Gibbons. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I have 
certainly been enlightened, and I appreciate your testimony. 
You all have different fields. I think, in listening, what we 
have come up to or come to the conclusion is that the problem 
is staggering and that we need comprehensive legislation to 
address these problems and work closer together.
    I have just a couple of quick questions, and it has to deal 
with science; and maybe Dr. Windle you would be the one to 
answer it. Throughout the hearing it has become clear that 
prevention is the key to our problem in the long run. What kind 
of approaches can be applied and do you need a grant program or 
do you have moneys? Are the scientists working on this? Because 
as someone mentioned here, we have one problem, but before we 
can solve it, we have another problem on hand.
    So are there funds that you are requesting?
    Dr. Windle. My organization is not, nor is the coalition 
that I speak for. I think perhaps when Dr. James Carlton and 
Gregory Ruiz speak to you on the next panel, they may have some 
things that are particularly pertinent to that. One specific 
piece of legislation that would reauthorize the National 
Invasive Species Act is directly about research. That would be 
very helpful, including an element that would provide for 
education of younger scientists.
    Ms. Bordallo. Of course, I am coming back to--and I want to 
thank you for remembering the territories in your comments, 
because many times we forget that we do have some very 
important territories that belong to the United States. And we 
have problems as well.
    From a scientific perspective, Doctor, is there an 
estimated date--or maybe some others can answer--that when we 
can see that there will be an eradication of the brown tree 
snake in our territory? I don't know if any work is being done 
on this. All I know is we are getting money and funding from 
the Federal Government to handle the problem, but what about 
the prevention? What about the eradication?
    Dr. Windle. I don't know any details about that, but I know 
that there is a brown tree snake Committee that works under the 
Aquatic Nuisance Species Task Force, and they could probably 
give you a better answer than I; and I would be happy to refer 
you to them.
    Ms. Bordallo. Is there anyone here on the panel of 
witnesses that belongs to that?
    All right. Thank you very much, Mr. Chairman, and I think 
what we need here and what we are hearing is that we need a 
comprehensive piece of legislation to address some of these 
very important needs. Thank you.
    Mr. Peterson. [Presiding.] Mr. Grijalva?
    Mr. Grijalva. No, thank you.
    Mr. Peterson. We would like to thank the panel; we 
appreciate your coming and educating us.
    We now will bring the next panel forward. We will invite 
Dr. Gregory Ruiz, Mr. Roger Mann, Dr. James Carlton, Mr. Fred 
Grau, Mr. James Beers and Dr. Fred Kraus to now join us.If you 
could take our seats here, we can get started.
    Mr. Peterson. We first would like--if we could have order, 
please. Thank you. We want to thank--I am going to go down in 
the list here to Mr. Fred Grau, President of Grasslyn, from my 
district, from Penn State; and we want to thank him for the 
beautiful bouquet of invasive species on our right over here. 
And he can talk about that, but it is not often that people 
bring us flowers.
    I am an avid gardener. This weekend I was moving my 
perennials around. I guess some of those would be invasive 
species, but I still love them. We want to thank you for 
beautifying our room here; and welcome to Washington and please 
proceed. You have a 5-minute limit.

          STATEMENT OF FRED V. GRAU, JR., PRESIDENT, 
          GRASSLYN, INC., STATE COLLEGE, PENNSYLVANIA

    Mr. Grau. Thank you, Congressman. Thank you, Mr. Chairman 
and Committee members, for the privilege of testifying before 
you here today. My name is Fred Grau and I am the President of 
Grasslyn, Inc., a family owned farming and seed business based 
in Snyder, Colorado, and State College, Pennsylvania.
    The clear water in Slab Cabin Run, a charming brook flowing 
through our Pennsylvania farm, eventually finds its way to the 
Chesapeake Bay. We grow crops such as corn, but our mainstay 
for the last half century has been Penngift crownvetch seed.
    Crownvetch, enacted as the Pennsylvania State conservation 
and beautification plant, is unsurpassed in its ability to 
control erosion on steep, infertile slopes in the central and 
eastern United States. It has saved countless tons of soil and 
pesticides from entering the fisheries of the Chesapeake Bay. 
It smothers out harmful weeds and builds top soil in the 
process. It is clearly beneficial.
    However, crownvetch is not native. It is an invasive 
species according to the Natural Resources Conservation 
Service. It is even a ``noxious weed'' according to the Federal 
Highway Administration.
    Yellow starthistle, the Brown Tree Snake and kudzu are 
known pests. But other invasive species are useful and the 
result of years of government research.
    For example, tall fescue is the most important single turf 
and forage species in America and is also indispensable as a 
permanent slope cover. It is almost certainly a major component 
of your lawn, your kids' athletic field or your local golf 
course. Before you is a strip of top-quality sod composed of 50 
percent tall fescue. It is the one closest to the front of the 
room.
    Why fescue? It requires less water, less fertilizer, less 
pesticides. It is economical, functional, beautiful and 
environmentally friendly.
    But fescue's contributions don't end with turf or animal 
feed. Ask roadside managers from Virginia or Pennsylvania 
departments of transportation what two species are 
indispensable to their mandate for economical, aesthetically 
pleasing slope stabilization. Their response will be crownvetch 
and tall fescue.
    Why then does the United States Department of Agriculture 
specifically term tall fescue an invasive species and prohibit 
its use in the Conservation Reserve Enhancement Program, or 
CREP, in the Chesapeake and Potomac watersheds? The expressed 
purpose of this program is to reduce nutrient and sediment 
loading under the Chesapeake Bay agreement. Simply put, it is 
nonnative and doesn't fit into the artificial, new, ``natives 
are good, nonnatives are bad'' paradigm.
    There is another box of turf. This is a putting green. It 
is 100 percent bent grass. Bent grass is invasive according to 
USDA and Virginia's Department of Conservation and Recreation, 
or DCR. There is a vase of flowers. I purchased this bouquet 
this morning from a local florist. Every flower here displayed 
came from the florist's stockroom. Every flower is or is a 
close relative of an ``invasive species.''
    The daisy: Do we ban members of this family because its 
subspecies cousin, the naturalized ox-eye daisy is considered 
noxious by the Ohio Department of Agriculture?
    Baby's breath: What would prom night be without the lad's 
attempt to pin the corsage on your daughter's gown? But 
California considers this a noxious weed.
    The majestic iris: Do we really want Virginia DCR and their 
partners, the Virginia Native Plant Society, to set the stage 
for elimination of this unique beauty? Both consider a close 
relation, yellow iris, to be an invasive species.
    Finally, the lily: Those who prefer to drive through fly 
over country cannot help but notice the small, isolated clumps 
of orange radiance punctuating the green landscape of a 
Piedmont summer. Maryland's Department of Natural Resources 
names its virtually indistinguishable cousin, the day lily, as 
invasive.
    I believe an invasive species law will replicate the abuses 
of subspecies listings as has occurred under the Endangered 
Species Act. Federal agencies already have the authority to 
control harmful species. They will still have it without the 
trojan horse of a natives-only invasive species bill and the 
massive bureaucratic expansion that will ensue. Harmful species 
need no new law or initiative to be dealt with, as the 
effective eradication of the snakehead fish in Maryland 
recently demonstrates.
    The basic framework of any regulation or legislation should 
be harmful versus beneficial and not a misguided fixation on 
native versus nonnative. If current policy mistakes are 
codified, then 280 million Americans will be senselessly 
shackled by the newest weapon in the extremist arsenal, an 
Invasive Species Act.
    Thank you.
    Mr. Peterson. Thank you very much.
    [The prepared statement of Mr. Grau follows:]

              Statement of Fred V. Grau, Jr., President, 
              Grasslyn, Inc., State College, Pennsylvania

    Thank you Mr. Chairman and Committee members for the privilege of 
testifying here today.
    My name is Fred V. Grau, Jr. and I am the President of Grasslyn, 
Inc., a family-owned farming and seed business based in Snyder, 
Colorado and State College, Pennsylvania. The clear water in Slab Cabin 
Run, a charming brook flowing through our Pennsylvania farm, eventually 
finds its way to the Chesapeake Bay. We grow crops such as corn, but 
our mainstay for the last half-century has been Penngift crownvetch 
seed.
    Crownvetch, enacted as the Pennsylvania State Conservation and 
Beautification Plant, is unsurpassed in its ability to control erosion 
on steep, infertile slopes in the central and eastern United States. It 
has saved countless tons of soil and pesticides from entering the 
fisheries of the Chesapeake Bay. It smothers out harmful weeds and 
builds topsoil in the process. It is clearly beneficial.
    However, crownvetch is not native. It is an ``Invasive Species'' 
according to the Natural Resources Conservation Service (NRCS). It is 
even a ``Noxious Weed'' according to the Federal Highway Administration 
(FHWA).
    Yellow starthistle, the Brown Tree Snake, and kudzu are known 
pests. But other ``Invasive Species'' are useful and the result of 
years of government research.
    For example, tall fescue is the most important single turf and 
forage species in America and is also indispensable as a permanent 
slope cover. It is almost certainly a major component of your lawn, 
your kid's athletic field or your local golf course. Before you is a 
strip of top-quality sod, composed of 50% tall fescue.
    Why fescue? It requires less water. Less fertilizer. Less 
pesticides. It is economical, functional, beautiful and environmentally 
friendly.
    But fescue's contributions don't end with turf or animal feed. Ask 
roadside managers from the Virginia or Pennsylvania Departments of 
Transportation what two species are indispensable to their mandate for 
economical, aesthetically pleasing slope stabilization. Their response 
will be crownvetch and tall fescue.
    Why, then, does the United State Department of Agriculture (USDA) 
specifically term tall fescue an ``Invasive Species'' and prohibit its 
use in the Conservation Reserve Enhancement Program (CREP) in the 
Chesapeake and Potomac Watersheds? The expressed purpose of this 
program is to ``reduce nutrient and sediment loading under the 
Chesapeake Bay Agreement''. Simply put, it is non-native and doesn't 
fit into the artificial, new, natives-are-good, non-natives-are-bad 
paradigm.
    Another box of turf: This is a putting green. It is 100% bentgrass. 
Bentgrass is ``invasive'' according to USDA and Virginia's Department 
of Conservation and Recreation (DCR).
    Here is a vase of flowers. I purchased the bouquet this morning 
from a local florist. Every flower here displayed came from the 
florist's stockroom. Every flower is, or is a close relative of, an 
``Invasive Species''.
    The daisy: Do we ban members of this family because its subspecies 
cousin, the naturalized ox-eye daisy is considered noxious by the Ohio 
Department of Agriculture?
    Babysbreath. What would prom night be without the lad's attempt to 
pin the corsage on your daughter's gown? But California considers this 
a Noxious Weed.
    The majestic iris. Do we really want the Virginia DCR and their 
partners, the Virginia Native Plant Society, to set the stage for 
elimination of this unique beauty? Both consider a close relation, 
yellow iris, to be an ``Invasive Species''.
    The lily. Those who prefer to drive through flyover country cannot 
help but notice the small, isolated clumps of orange radiance 
punctuating the green landscape of a Piedmont summer. Maryland's 
Department of Natural Resources names its virtually indistinguishable 
cousin, the day-lily, as ``invasive''.
    I believe that an ``Invasive Species'' law will replicate the 
abuses of subspecies listings, as has occurred under the Endangered 
Species Act.
    Federal agencies already have the authority to control harmful 
species. They will still have it without the Trojan Horse of a natives-
only ``Invasive Species'' bill and the massive bureaucratic expansion 
that will ensue. Harmful species need no new law or initiative to be 
dealt with, as the effective eradication of the snakehead fish in 
Maryland demonstrates.
    The basic framework of any regulation or legislation should be 
harmful versus beneficial, and not a misguided fixation on native 
versus non-native.
    If current policy mistakes are codified, then 280 million Americans 
will be senselessly shackled by the newest weapon in the extremist's 
arsenal: an ``Invasive Species Act''.
    Thank you.
                                 ______
                                 
    Mr. Peterson. Dr. Gregory Ruiz, Marine Ecologist, 
Smithsonian Environmental Research Center.

STATEMENT OF DR. GREGORY M. RUIZ, MARINE ECOLOGIST, SMITHSONIAN 
       ENVIRONMENTAL RESEARCH CENTER, EDGEWATER, MARYLAND

    Dr. Ruiz. Thank you for the opportunity to be here, and 
good afternoon. I am a senior scientist at the Smithsonian 
Environmental Research Center on the shore of Chesapeake Bay. I 
have studied marine invasions for about 15 years and had the 
Marine Invasion Research Laboratory, which has research staff 
in Chesapeake Bay and San Francisco Bay working truly on a 
national scale. Today, I wish to highlight the current state of 
knowledge and some critical gaps in the science and management 
of marine invasions.
    What do we know? Biological invasions are a major force of 
change in coastal marine ecosystems, driving significant 
ecological changes and impacting many dimensions of society. 
Chesapeake Bay and San Francisco Bay can be used to illustrate 
the status of nonnative species in marine communities. Over 150 
nonnative species are established in tidal waters of each bay.
    In the Chesapeake, the nutria, a South American mammal, is 
destroying salt marshes. The parasite MSX has contributed to 
the demise of the native oyster fishery and undermines recovery 
efforts.
    In San Francisco Bay, multiple species of Spartina, and 
emergent salt marsh plant are crowding out and hybridizing with 
native marsh plants affecting key habitat for many animals. The 
Chinese mitten crab, as we have heard about today, has impacted 
water management by pumping facilities when outbreaks of 
migrating crabs clog associated fish collection screens.
    The rate of newly detected marine invasions has increased 
exponentially for North America and shows no sign of decline 
today. Each year, thousands of nonnative species are still 
transferred to U.S. Waters by human activities. The door is 
open for new invasions and further steps are clearly needed.
    What should we do? One clear priority is prevention of new 
invasions through vector management. Vector management strives 
to interrupt species delivery by human transfer mechanisms or 
vectors. Unlike species base management, vector management 
requires no assumptions about the performance or impact of 
species and can simultaneously prevent the invasion of multiple 
species through interruption of the transfer process.
    Management of the shipping vector is a critical first step 
to reduce the rate of new marine invasions. This recognizes the 
overall dominance of shipping and transfers and invasion of 
marine species. Efforts being advanced for ballast water 
management should reduce the rate of invasions, but there are 
limitations. Among these, the level of reduction and invasions 
expected for various management actions are unknown. This 
results from uncertainty about the dose response relationship, 
where the relationship between the number of organisms released 
and those invasions that result. We simply don't know how low 
to go in reducing species transfer, which complicates 
identifications of the goal or standards for management such as 
ballast water treatment.
    In addition to vector management, considerable enthusiasm 
exists for species-based management, but predictive 
capabilities are extremely limited at the present time, 
especially for aquatic systems. A high level of uncertainty 
often exists about whether a species will become established, 
spread and have severe impacts.
    The current controversy about the introduction of an Asian 
oyster to Chesapeake Bay provides an illustrative example. We 
clearly need to develop the predictive science marine 
invasions, but we are not there yet.
    I wish to focus particular attention on the importance of 
tracking invasion patterns and rates as the fundamental 
building block for invasive science and management. Only 
standardized field-based measures or surveys can inform us 
about this--the spatial patterns and tempo of invasion, the 
where, when and how of invasions. Only standardized surveys 
provide a critical feedback loop to evaluate the effective 
management actions to stem the flow of new invasions.
    Further identifying which species invade is critical to the 
development of predictive capability. More broadly, field-based 
measures are necessary to address many key questions. Are 
invasion rates changing over time? How does invasion pattern or 
risk vary among regions? What factors influence susceptibility 
to invasion? What is the quantitative relationship between 
species transfer and invasion establishment? Is there 
measurable change in the rate of new invasions that corresponds 
to management actions?
    There presently exists no national program designed to 
collect standard, repeated, quantitative measures of marine 
invasions. Without a directive survey program, we are left 
guessing about the status and trends of invasions in the 
country; we cannot adequately address the core questions, 
invasion science or advance predictive capabilities. These 
shortfalls make it difficult to achieve efficient management 
and allocation of limited resources.
    The national strategy for aquatic invasions should focus on 
prevention primarily through vector management. It must also 
include a nationwide, directed survey program providing the 
science both to guide and evaluate management actions.
    Thank you.
    Mr. Peterson. Thank you very much.
    [The prepared statement of Dr. Ruiz follows:]

          Statement of Dr. Gregory M. Ruiz, Marine Ecologist, 
     Smithsonian Environmental Research Center, Edgewater, Maryland

    I am a Senior Scientist at the Smithsonian Environmental Research 
Center (SERC), located on the shore of Chesapeake Bay. I have studied 
invasions for 15 years, and I head the Marine Invasion Research 
Laboratory--the largest research program in the U.S. to focus on the 
invasion of coastal ecosystems by non-native species. This research 
group provides synthesis, analysis, and interpretation of invasion-
related patterns on a national scale (see Appendix 1 for further 
details).
    Today, I wish to highlight briefly the current state of knowledge 
surrounding invasions of marine and aquatic ecosystems. I also wish to 
review some key gaps in our understanding that limit efforts to reduce 
the risk and impacts of invasions. I will focus particular attention on 
the importance of tracking invasion patterns and rates--- as the 
fundamental building block for invasion science and management--- 
without which we are left guessing about (a) the status and trends of 
invasions in the country and (b) the effectiveness of management 
strategies to stem the flow of new invasions.

Current State of Knowledge
    Biological invasions are a major force of change. Invasions occur 
when species establish self-sustaining populations beyond their 
historical range, usually as an unintended consequence of human-aided 
transfer. Once established, these non-native or nonindigenous species 
can spread and achieve high abundances. A subset of invasions has 
strong effects, driving significant ecological changes and impacting 
many dimensions of human society on local, regional, national, and 
global scales.
    Nonindigenous species (NIS) affect myriad aspects of aquatic 
(including freshwater and marine) ecosystems throughout the world. For 
example, we know that over 500 NIS have become established in coastal 
marine habitats of North America, and hundreds of NIS can occur in a 
single estuary. Some coastal communities are now dominated by NIS in 
terms of number of organisms, biomass, and ecological processes. It is 
clear that invasions have caused dramatic shifts in food webs, chemical 
cycling, disease outbreaks, and commercial fisheries. Some invasions 
also directly affect human health.
    Chesapeake Bay and San Francisco Bay illustrate the status of NIS 
in marine communities. Over 150 NIS are established in tidal waters of 
the Chesapeake, based upon our research, and a larger number (>200 NIS) 
are reported for tidal waters of San Francisco Bay. Although the 
impacts of many species are not known, some are well documented, 
underscoring the magnitude and diversity of effects.
    <bullet> In the Chesapeake: The nutria, a South American mammal, 
is destroying salt marshes; the protistan parasite Haplosporidium 
nelsoni (also known as MSX), introduced from the Pacific, has 
contributed to the demise--and undermines recovery efforts for--the 
native oyster fishery; several additional nonindigenous species, 
including submerged plants, hydroids, and clams, have clogged waterways 
and water intakes for power plants.
    <bullet> In San Francisco Bay and Delta: Multiple species of 
Spartina, an emergent salt marsh plant, are crowding out and 
hybridizing with native marsh plants, affecting key habitat for many 
animals; the Asian clam Potamocurbula amurensis has altered the species 
composition and abundance of plankton communities through filter-
feeding; the Chinese mitten crab Eriochir sinensis has impacted water 
management by pumping facilities, when high numbers of migrating crabs 
clog associated fish collection screens.
    The rate of newly detected marine invasions has increased 
exponentially over the past two hundred years for North America, as 
well as each Chesapeake Bay and San Francisco Bay. A similar rate 
increase has been observed across many habitats, taxonomic groups, and 
global regions. This apparent increase in invasion rate--combined with 
observed impacts--has greatly elevated public and scientific concerns 
about invasions in recent years.
    Each year, thousands of nonindigenous species are still transferred 
to U.S. waters by human activities. A variety of mechanisms (vectors) 
contribute to this transfer process, which is the precursor to 
invasions. Among these, transfer of organisms by ships is considered 
responsible for most marine invasions in North America--both 
historically and currently. However, the relative importance of 
different vectors is likely to vary among locations, such as particular 
bays and estuaries.
    Left unchecked, the number, density, and rate of species 
transfers--primary drivers of invasions--are expected to increase. As a 
result of Congressional legislative action in 1990 and 1996, we have 
learned a great deal about the scope of the problem. Several efforts 
have advanced to reduce the likelihood and impacts of further 
invasions--implemented by multiple Federal agencies, the Aquatic 
Nuisance Species Task Force, and a wide range of partnerships with 
state, university, and private entities. However, the problem is 
complex, involving thousands of species and many vectors that interface 
with multiple dimensions of society. The door is still open for new 
invasions to arrive, and further steps are clearly needed.

Vector Management
    One clear priority is prevention of new invasions through vector 
management. Although management and control of established invasions 
can have merit, the approach and success of such efforts are often 
idiosyncratic to the particular invasion. Importantly, it remains 
difficult to predict (a) which NIS will be delivered, of a potential 
species pool of literally thousands of species that can be delivered by 
a vector (e.g., ballast water of ships), and (b) which NIS will become 
``invasive'' and have severe impacts. This latter is particularly 
problematic, due to very limited information about the biology and 
ecology of the majority of marine organisms. In contrast, strategies to 
prevent new invasions can be directed at key transfer mechanisms (or 
vectors), the sources for contemporary invasions. Unlike management of 
established invasions on a species-by-species basis, a strategy of 
vector management can simultaneously prevent many new invasions through 
interruption of the transfer process.
    Vector management involves three fundamental components: Vector 
Strength, Vector Analysis, and Vector Disruption. First, an assessment 
of Vector Strength is required to identify the relative importance of 
various vectors. This is accomplished by analysis of data on the 
patterns and rates of invasion, identifying which vectors are 
responsible for invasions (i.e., the relative importance of different 
vectors in space and time). Second, Vector Analysis is needed to 
describe the operational aspects of how, where, when, and in what 
quantity a vector delivers viable organisms (propagules) to the 
recipient environment. Among other things, this component identifies 
potential targets for management action. Third, some form of Vector 
Disruption is designed and implemented to restrict the flow of 
propagules (i.e., reduce the risk of new invasions) to the recipient 
environment.
    Management of the shipping vector is a critical first step, to 
reduce aquatic invasions and their impacts. This recognizes the overall 
dominance of shipping in the transfer and invasion by NIS. Efforts 
being advanced for ballast water management should reduce the rate of 
invasions but there are limitations and unknowns in this area:
    <bullet> Among these--the reduction in invasions expected for 
various management actions is unknown, resulting from uncertainty about 
the dose-response relationship (see below). We simply don't know ``how 
low to go'' in reducing species transfer--- which complicates 
identification of the goal or ``standards'' for treatment.
    Tracking invasions, through standardized field surveys, is of 
paramount importance to vector management, both to measure Vector 
Strength--- or the source of new invasions---and to assess the long-
term effect of Vector Disruption on invasion rates and patterns. I wish 
to focus my testimony on the role and status of contemporary surveys in 
vector management, and as a source of additional information for rapid 
response and various control measures.

Rationale for Measuring Invasion Patterns and Rates
    Measuring invasion patterns and rates through regular, 
standardized, field-based surveys is the cornerstone of invasion 
science and invasion management. Without this information base, many 
fundamental questions in marine invasion ecology will remain 
unresolved, limiting advances for basic science as well as its ability 
to guide effective management and policy.
    Only contemporary, standardized field measures can inform us about 
(a) the spatial patterns and tempo of invasion--- the where, when, and 
how of invasions---, and (b) the efficacy of Vector Disruption to 
reduce new invasions. Knowledge about contemporary patterns of invasion 
is needed to guide efficiently and effectively our management and 
policy decisions. Identifying which NIS invade and their attributes are 
critical to development of predicative capability. Importantly, 
tracking invasions pattern, and especially long-term changes in 
invasion rate in association with Vector Disruption efforts, is 
essential for adaptive management--- testing for the desired effect of 
management action and whether further adjustments are required.
    More specifically, such field-based measures are necessary to 
address the following questions:
    <bullet> Are invasion rates changing over time?
    <bullet> How does invasion risk (i.e., rates and extent of 
invasion) vary among regions?
    <bullet> Are all regions equally susceptible to invasion?
    <bullet> What factors influence susceptibility and risk of 
invasion?
    <bullet> What characteristics are associated with successful 
invasions?
    <bullet> Using analysis of Vector Strength (above), which vectors 
and geographic regions are responsible for observed invasions? How is 
this changing over time?
    <bullet> Is there measurable change in the rate of new invasions 
that corresponds to management actions (i.e., Vector Disruption, 
above)?
    <bullet> What is the quantitative relationship between species 
transfer ( supply) and invasion rate, and what should the target or 
standard be for Vector Disruption (e.g., ballast water treatment)?
    The latter two questions are particularly relevant to current 
discussion about standards or goals for Vector Disruption, such as 
ballast water treatment. The ``dose-response'' relationship--between 
the number of propagules (organisms) released and invasion success 
(establishment)--remains poorly resolved, yet understanding this 
relationship is key to developing effective standards and Vector 
Disruption. Field-based measures, combined with experiments, are 
necessary to understand this relationship. Moreover, only tracking of 
invasions through field-based measures can confirm the efficacy of 
Vector Disruption to reduce the rate of new invasions.
    Although my primary focus is on use of field-based data for 
prevention, I also note the important role of such data for eradication 
and control efforts of established species. There has been considerable 
discussion in the past 2 years about development of an ``early 
detection, rapid-response'' capability in response to new invasions or 
outbreaks (e.g., see recent report by the General Accounting Office). 
Although the scope of this may vary, focusing only a subset of target 
NIS, any rapid-response system by definition relies upon an effective 
field-based detection system.

Status of Tracking Invasion Patterns and Rates
    Numerous analyses now exist to describe patterns of invasion. These 
analyses result primarily from literature reviews, providing a 
synthesis of published reports. The Smithsonian Environmental Research 
Center (SERC) has developed the National Database of Marine and 
Estuarine Invasions, to summarize existing data on marine invasions. 
The U.S. Geological Survey (USGS) has developed a complementary 
national-level database for freshwater invasions. Under a Cooperative 
Agreement, SERC and USGS are coordinating the further development of 
these databases, along with analyses and electronic access of the 
resulting information.
    Although these existing ``ecological surveys'' have been very 
instructive in highlighting the scope of invasions in aquatic and 
marine habitats, the specific patterns and rates must be viewed with a 
great deal of caution--- because the data include very strong temporal 
and spatial biases. This bias results especially from uneven collection 
effort and taxonomic expertise. In essence, the data used in these 
analyses are ``by-catch'' and have limitations, as they were not 
collected for this purpose. A review of these issues is presented in a 
recent article entitled ``Invasion of Coastal Marine Communities in 
North America: Apparent Patterns, Processes, and Biases'' (Annual 
Review of Ecology and Systematics 2000, Vol. 31: 481-531).
    Although existing syntheses provide useful information and apparent 
patterns, the information quality is insufficient to support robust 
conclusions about actual rates and patterns. This creates a fundamental 
weakness in our ability to guide and evaluate management efforts. In 
essence, we cannot address the questions outlined above with the 
existing data. For example, we cannot now estimate the rate of new 
invasions, or whether more invasions have occurred, at Tampa Bay (FL), 
Juneau (AK), Chesapeake Bay (MD/VA) or Port Arthur (TX).
    The National Invasive Species Act of 1996 called for ``ecological 
surveys'' to better understand the patterns of invasion. Multiple such 
surveys have occurred, and these have provided some important insights 
about the extent of invasions. However, to date, these surveys suffer 
from the same issues as outlined above, because they have been 
primarily literature-based surveys.
    At the present time, there exists no national program designed to 
collect the type of standard, repeated, quantitative, and contemporary 
measures across multiple sites that is needed to measure rates and 
spatial patterns of invasion. Although this has been evident for many 
years, and was the focus of a workshop in 1998 (sponsored by U.S. Fish 
and Wildlife Service and SERC, and presented to the Aquatic Nuisance 
Species Task Force), a program to address this gap has not emerged to 
date. Importantly, piecing together data from existing programs, as has 
been suggested, will likely suffer limitations--- similar to those that 
exist today--- because these programs were not designed explicitly to 
measure invasion patterns.
    Most recently, SERC has initiated a series of quantitative surveys 
across 15-20 different bays in North America, focusing on sessile 
invertebrates. Funded by Department of Defense, National Sea Grant, and 
U.S. Fish and Wildlife Service, this work is intended to compare 
pattern of invasions among sites, using one standardized survey (in one 
year) at each bay. Although this is not presently a sustained effort, 
it moves toward developing a quantitative baseline, and could serve as 
a prototype for repeated, temporal measures.

Approach to Track (Monitor) Invasions
    To effectively measure invasion patterns and rates, as needed to 
address the questions outlined above, requires the use of standardized, 
quantitative surveys that are replicated at many sites and repeated 
regularly over time. Multiple sites are necessary, because significant 
variation exists among sites--- such that one or a few sites cannot 
serve as a proxy for others--- but also because measures of such 
spatial variation is necessary to test for (a) spatial variation in 
invasibility and (b) the relationship between propagule supply and 
invasion. Further, repeated measures are necessary to build statistical 
confidence about the existing assemblage of species (or develop a 
baseline) with which to measure temporal changes.
    Oversight and coordination of the surveys is critical to develop 
standardized protocols, provide continuity in taxonomic identification, 
and manage, analyze, and interpret the resulting cumulative data. 
Without such oversight, as is presently the case, measures of invasion 
patterns and rates will remain uneven and cannot contribute to a larger 
picture (beyond an individual site) or be used to address questions (as 
above) on a national scale.
    Beyond the specifics of survey design and implementation, parallel 
measurements of environmental characteristics of surveyed sites is also 
key to understanding those factors that influence susceptibility (risk) 
to invasion. While direct measures of physical and chemical 
characteristics are necessary to provide standardization across sites, 
there are several existing programs that may prove valuable sources of 
this information. For example, the EPA is characterizing many aspects 
of shoreline habitats, and especially coastal wetlands, in Chesapeake 
Bay. NOAA and EPA have also both developed networks of coastal sites 
that collect data on physical and chemical environmental attributes.

Conclusions
    Understanding invasion patterns and processes depends critically 
upon high-quality empirical measures. Current observation and theory 
have resulted in a conceptual framework for invasion ecology. However, 
the empirical data needed to rigorously test many key hypotheses, 
develop robust predictions, and evaluate the success of management 
actions lag far behind. This gap is especially conspicuous for marine 
systems, existing both in the quality and quantity of descriptive data. 
At the present time, most analyses that evaluate patterns of invasion 
or test specific hypotheses derive data from the existing literature, 
or ``by-catch'' data, which is extremely uneven in space and time. 
Quantitative field surveys, which employ standardized and repeatable 
measures, are critically needed to remove such bias and to 
substantively advance invasion science and management.

                               APPENDIX 1

   ROLE OF THE SMITHSONIAN INSTITUTION IN COASTAL INVASION RESEARCH:
                  MARINE INVASION RESEARCH LABORATORY,
               SMITHSONIAN ENVIRONMENTAL RESEARCH CENTER
                             (AUGUST 2002)

Overview
    The Smithsonian Environmental Research Center (SERC), located on 
the shore of Chesapeake Bay, is a leading national and international 
center for research in the area of non-native species invasions in 
coastal ecosystems.
    SERC has developed the largest research program in the U.S. to 
focus on coastal invasions.
    A primary goal of SERC's Marine Invasion Research Laboratory is to 
provide the fundamental science that is critical to develop effective 
management and policy in this topic area. In short, SERC's invasion 
research bridges the gap between science and policy, to develop a 
scientific understanding that is key to guide and evaluate management 
strategies for invasive species.
    The Marine Invasion Research Laboratory has a staff of 
approximately 30 biologists, who conduct research throughout the 
country and overseas. Since it's inception 10 years ago, the laboratory 
has been a nationwide training center in invasion ecology for roughly 
45 technicians, 4 graduate students, 7 postdoctoral researchers, and 40 
undergraduate summer interns. The students and technicians arrive from 
all over the country, staying for 3 months to many years. Many 
participants in this program have gone on to graduate training and 
academic or government positions in Alabama, California, Connecticut, 
Hawaii, Massachusetts, Tennessee, and Washington, Washington D.C.

Research Program
    As a national center, SERC's Marine Invasion Research Laboratory 
provides synthesis, analysis, and interpretation of invasion-related 
patterns for the country. Under the National Invasive Species Act of 
1996, the U.S. Coast Guard and SERC created the National Ballast Water 
Information Clearinghouse, hereafter Clearinghouse, to collect and 
analyze national data relevant to coastal marine invasions (see Box 1). 
Established at SERC in 1997, the Clearinghouse measures:
    <bullet> Nationwide Patterns of Ballast Water Delivery and 
Management. All commercial ships arriving to all U.S. ports from 
overseas report information about the quantity, origin, and possible 
control measures for their ballast water--a primary mechanism for 
transfer of non-native marine species throughout the world. At present, 
SERC receives roughly 20,000 such reports per year. Every two years, 
SERC provides a detailed analysis and report to U.S. Coast Guard and 
Congress on the patterns of ballast water delivery by coastal state, 
vessel type, port of origin, and season. A key issue is the extent to 
which ships undertake ballast water exchange, a management technique to 
flush potential invaders out of the tanks prior to arrival in U.S. 
waters. SERC's analyses are used by U.S. Coast Guard and Congress to 
assess national needs with respect to ballast water management and to 
track program performance.
    <bullet> Rates and Patterns of U.S. Coastal Invasions. SERC has 
developed and maintains a national database of marine and estuarine 
invasions to assess patterns of invasion in space and time. This 
database compiles a detailed invasion history of approximately 500 
different species of plants, fish, invertebrates, and algae that have 
invaded coastal states of the North America. Among multiple uses, the 
database identifies which species are invading, as well as when, where, 
and how they invaded; it also summarizes any existing information on 
the ecological and economic impacts of each invader. Over the long-
term, this database will help assess the effectiveness of various 
management strategies (such as ballast water management, above) in 
reducing the rate of invasions. More broadly, this information is a 
valuable resource for many user groups--from resource managers and 
scientists to policy-makers and industry groups.

[GRAPHIC] [TIFF OMITTED] T6708.001


    SERC has further expanded the scope of Clearinghouse activities to 
improve the quantity and quality of data on coastal marine invasions 
that are used to (a) assess the rates and patterns of invasion and (b) 
inform key management decisions at national, regional, and local 
levels. Through competitive grants, we have initiated two components in 
this area, including:
    <bullet> Nationwide Field Surveys. SERC has implemented an 
ambitious program of field surveys to detect new invasions, as well as 
measure contemporary patterns and effects of invasions, for 15-20 
different bays throughout the country (see Figure 1). Our intent is to 
expand this program to include additional regions, providing a national 
baseline of information with which to evaluate invasion rates. The 
resulting information will contribute to the national database (above) 
and will be used both to document patterns of invasion and to assess 
the effects of management on invasion rates (as discussed above).
    <bullet> Comprehensive National Database. SERC has established a 
formal agreement (Memorandum of Understanding) with the U.S. Geological 
Survey's Caribbean Research Center to develop a comprehensive database 
of all freshwater and marine invasions in the United States. SERC 
maintains a database of exotic marine species (above), and the U.S.G.S. 
maintains a complementary database for exotic freshwater species. Our 
goal is to functionally link these databases, creating web-based access 
to key information about each species for managers, researchers, 
policy-makers and the public.
    In addition to the Clearinghouse role of analysis and 
interpretation of national data, SERC also conducts research to 
understand underlying mechanisms of species transfer, invasion, and 
ecological effects of invasions. This research serves a dual purpose of 
advancing our fundamental knowledge of invasion processes and using 
this knowledge to improve prediction and management strategies for 
invasions. Some selected examples of our research in these areas, 
funded by external grants and contracts, include:
    <bullet> Measuring the Patterns and Processes of Species Transfer 
Associated with Shipping. The Marine Invasion Research Laboratory has 
measured the density and diversity of organisms in the ballast water of 
approximately 450 different commercial vessels, primarily oil tankers 
and bulk cargo carriers that arrived to Chesapeake Bay and Port Valdez, 
Alaska. This has been a collaborative and cooperative research program 
with the shipping industry, over the past 8 years, to better assess the 
risks of invasion and effectiveness of various management techniques to 
reduce that risk. We are now expanding this research to include 
container ships arriving to San Francisco Bay, expanding existing 
measures to include a different vessel type and geographic region than 
the previous studies.
    <bullet> Assessing the Magnitude and Consequences of Pathogenic 
Microorganism Transfer by Ships. Very little is known about the 
relative risks of pathogens, both for humans and commercially important 
species, which are transferred in ballast water. SERC's invasion 
program is measuring the concentration of microorganisms and human 
pathogens, including Vibrio cholerea (causative agent of epidemic human 
cholera), discharged into U.S. waters with the ballast water of ships. 
In addition, we are conducting experiments to test the viability and 
potential significance of these transfers to result in newly 
established populations, or invasions, of pathogenic organisms.
    <bullet> Measuring the Ecological Impacts of Non-Native Species. 
SERC has implemented a broad range of field-based and experimental 
studies to measure the effects of marine invasions in coastal 
ecosystems, including impacts on commercial fishery resources. Much of 
this work to date has focused on the European green crab (Carcinus 
maenas) impacts in California and New England. We have also implemented 
experiments in California and Virginia to test for effects of 
particular fouling organisms on invaded communities, and the extent to 
which this is exacerbated by human disturbance (e.g., pollutants, 
hypoxia, etc.). The overall goal of work in this area is to understand 
and predict impacts of invasions across a diverse array of coastal 
communities.
    <bullet> Testing Invasibility of Communities. We have just begun 
manipulative laboratory and field experiments to test environmental and 
biological factors that influence invasibility of marine communities. 
Our work in this area focuses on microorganisms and invertebrates. The 
main objective of this research is to measure the dose-response 
relationship between delivery of organisms and subsequent invasion, and 
how this may vary across different environmental and biological 
conditions. This approach has direct bearing on the effect (and target) 
for management strategy to reduce the delivery of non-native organisms 
by ships or other vectors.
    <bullet> Feasibility of Eradication and Control of Established 
Marine Invasions. SERC has also initiated work to test the feasibility 
of eradication and control for a non-native marine snail in San 
Francisco Bay. This is effectively a demonstration project to 
critically examine management strategies, based upon key habitat and 
biological characteristics, and develop the decision process (i.e., 
under what conditions and for which species) and capacity for 
eradication.

Geographic Coverage
    SERC's Marine Invasion Research Laboratory, with staff based at 
Chesapeake Bay and San Francisco Bay, has established research sites 
throughout the U.S. to implement its research programs, in 
collaboration with researchers from approximately 25 different academic 
institutions and Federal or state agencies. For example, active 
projects and collaborations are on-going in the following states: 
Alaska, California, Connecticut, Florida, Maine, Maryland, 
Massachusetts, Michigan, New Jersey, Oregon, Rhode Island, Texas, 
Virginia, Washington, and Washington D.C.
    Internationally, SERC has become increasingly active over the past 
5 years. A primary goal of the international program is to foster 
information exchange and build complementary, comparative, and 
collaborative research programs. For example, the Marine Invasion 
Research Laboratory has active collaborations in many areas of invasion 
ecology with the Centre for Research on Introduced Marine Pests (CSIRO, 
Australia). This includes comparative analyses of invasion patterns and 
effects, as well as development of an international standard for 
databases on marine invasions. Another long-term collaboration exists 
with scientists in Israel, where we have measured changes in the 
ballast water communities during roughly 20 different voyages between 
Israel and Chesapeake Bay. SERC also has been a participant and sponsor 
of international conferences and workshops on marine invasion ecology.
    Although SERC programs are active at the national and international 
scales, a great deal of this effort has also focused on understanding 
invasion issues at the regional scale. In fact, this program has 
conducted research on invasions in nearly every coastal state in the 
country, producing regional understanding as well. Examples include:
    <bullet> Analysis of invasion patterns for Chesapeake Bay over the 
past 400 years, representing the first such analysis for the Chesapeake 
as well as any estuary in the eastern U.S. This documents the invasion 
history of 160 non-native species established in this Bay.
    <bullet> Analysis of extent of invasions for Prince William Sound, 
Alaska, providing the most detailed analysis in the world to assess the 
risks of invasion for a high-latitude system.
    For More Information about the Marine Invasion Research Laboratory 
contact:
    Monaca Noble, Smithsonian Environmental Research Center, P.O. Box 
28, Edgewater, Maryland 21037 USA; Phone: (443)482-2414; FAX: (443)482-
2380; Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b050409070e2b180e1908451802450e0f1e">[email&#160;protected]</a>; website--http://invasions.si.edu/
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6708.002
                                 

    Mr. Peterson. Dr. Roger Mann, Acting Director for Research 
and Advisory Services, VIMS.

   STATEMENT OF ROGER MANN, ACTING DIRECTOR FOR RESEARCH AND 
ADVISORY SERVICES, SCHOOL OF MARINE SCIENCE, VIRGINIA INSTITUTE 
  OF MARINE SCIENCE, COLLEGE OF WILLIAM AND MARY, GLOUCESTER 
                        POINT, VIRGINIA

    Dr. Mann. Mr. Chairman, members of the Committee, it is a 
pleasure to be here. I thank you for the invitation. Your 
invitation requested comments on four subjects, the scope of 
the invasive species problem, efforts to control or eradicate 
unwelcome invaders, the adequacy of existing statutory 
authority, and recommendations to solve the continuing problem. 
I will briefly contribute to each of those questions.
    The scope of the problem is massive on both the national 
and international scale. As mentioned earlier, the Convention 
on Biological Diversity considers invasive species the second 
biggest threat, after environmental loss, to native 
biodiversity. Nonnative species have contributed to the decline 
of 42 percent of U.S. Endangered and threatened species, and 
the substantial annual costs of invasives to the U.S. Economy 
has already been addressed in quite some considerable detail.
    The problem exists and continues because the U.S. Is part 
of a network of international trade that is also the vector to 
facilitating a continuing supply of invading species to our 
shores, mentioned by Dr. Ruiz. This will continue. The problem 
will not go away. We must address it aggressively in terms of 
both eradicating current invaders and preventing future 
invaders.
    Following up from the last panel, a couple of comments here 
about Rapana. Rapa whelk is a quite remarkable softball-size 
welk that originates in the Orient. It was first discovered in 
the Chesapeake Bay in 1998. It is quietly eating its way 
through commercial resources, shellfish resources in the 
southern part of the bay, and over the past 5 years, for every 
year, we have seen an increasing number of these animals. 
Current collections are over 5,000 in total.
    There is an important lesson to be learned not only from 
observing this, but we effect this observation through a 
collaboration with over 150 commercial fishermen. Public 
education is enormously important in following these invasions, 
telling us when they are arriving, how bad they are and what 
their impacts are. The fishermen also point out something very 
important: When things get out of control, they can in fact 
become available as commercial resources, which sets up some 
awkward problems in terms of regulation. But also the data that 
they give us shows that effectively removing this animal will 
also be accompanied by wanton destruction of the environment in 
which it lives, which has other very difficult decisions 
related to it.
    As mentioned by many other panelists today, once the 
invader is here, it is very difficult to get rid of it. Efforts 
to control invasions and existing statutory authority to enable 
control are intimately linked. While the Lacey Act probably 
best defines the principles of control at the Federal level, an 
abundance of Federal statutes illustrates the continuing 
awareness of the invading species for well over half a century.
    Something important: Lacey recognizes the role of State 
statutes and defaults to State statutes where they are written 
into State code. My home State of Virginia has such State code.
    An important Federal statute in this field is the National 
Invasive Species Act that is currently under consideration for 
reauthorization, and in November of last year, I appeared 
before this Committee in this room to provide testimony on the 
draft revision. I recommended modest changes in the included 
ballast water treatment standard, proposing a 100 percent kill 
of all organisms in excess of 50 microns maximum dimension and 
discharge ballast, a standard I believe provides a reasonable 
operating goal for developing technology for treating large 
volumes of water.
    As mentioned by Dr. Ruiz, there is a distinct problem here 
of how far you go and how fast you go in terms of controlling 
discharges. I think, as technology develops, this will become 
more and more within our capabilities, but we shouldn't be 
handcuffed at this point in time. We should move forward with 
that legislation and build into it capabilities for continuing 
revaluation and improvement.
    In general, I urge reauthorization of NISA. Enabling 
legislation plays a central role in solving the continuing 
problem of wanton invasions, but that legislation must be 
soundly based in knowledge of how invaders arrived and why they 
survived. As mentioned, the scientific community has limited 
ability to predict the numbers and variety of invading species 
that will successfully become established. Current levels of 
research and educational--I underscore ``educational''--support 
addressing the threats from invasive species are woefully 
inadequate. We must do better.
    Before concluding, I would like to comment on the subject 
of intentional introduction, intentional introductions of 
nonnative species. Selective nonnative species do provide 
beneficial roles in the ecology and economy of our Nation. 
Sixteen percent of the $9 trillion gross national product of 
the U.S. Comes from agricultural production. European 
settlement of North America included the introduction of wheat, 
barley, rye, cattle, pigs, horses, sheep, goats and more; and 
indeed the majority of the U.S. Agricultural production 
arguably comes from species whose genetic origin was not in 
North America.
    The draft of the National Invasive Species Act addressed 
intentional introductions, and I wholly applaud the inclusion 
in that it both recognizes a continuing pressure for 
introductions for commercial production, pest control and 
environmental restoration, and very, very importantly, it 
underscores the need to carefully examine and control such 
actions in an environment of limited understanding and 
potentially serious, even irreversible, ecological 
impact.Again, the potential introduction of a nonnative oyster 
in the Chesapeake Bay is a classic example of this dilemma.
    However, I urge the final revision of this legislation to 
include text recognizing the role of State's rights in addition 
to the Federal responsibility and debate of this important 
subject.
    Again, I thank you for the opportunity. This concludes my 
testimony.
    Mr. Peterson. Thank you very much.
    [The prepared statement of Dr. Mann follows:]

  Statement of Professor Roger Mann, Acting Director for Research and 
  Advisory Services, School of Marine Science, Virginia Institute of 
Marine Science, College of William and Mary, Gloucester Point, Virginia

    Mr. Chairman, Members of the Committee, it is a pleasure to be here 
today in response to your invitation to provide testimony on problems 
related to non-native, invasive species to the United States of 
America.
    My name is Roger Mann. I am a Professor of Marine Science and 
Acting Director for Research and Advisory Services at the School of 
Marine Science, Virginia Institute of Marine Science, College of 
William and Mary. I have been a researcher in the field of marine 
science for over thirty years. During that period I have maintained an 
active interest in the biology of non-native aquatic species, and 
actively participated in research and policy development related to 
non-native species at the state, regional, national and international 
levels. One of my current research projects describes the increasing 
destructive impacts of an invading predatory marine snail on shellfish 
resources in the Chesapeake Bay. The fact that this recent, unwanted 
invader, together with many others, arrived on our shores through 
ballast water vectors underscores my interest in today's discussion. 
The arrival of non-native species into the United States through 
ballast water and other vectors is widely recognized as a significant 
threat to the integrity of native ecosystems, and hence to the nation's 
economy as well as its recreational and aesthetic resources.
    Your invitation requested comment on four subjects: the scope of 
the invasive species problem, efforts to control or eradicate unwelcome 
invaders, the adequacy of existing statutory authority, and 
recommendations to solve the continuing problem. I will address these 
in order.
    The scope of the problem is massive on both a national and 
international scale. In terms of ecological impact, The Convention on 
Biological Diversity considers invasive species the second biggest 
threat, after environmental loss, to native biodiversity. Non-native 
species have been identified as contributors to the decline of 42% of 
U.S. endangered and threatened species. The financial burden to the 
U.S. economy is illustrated by the $550 million annual budget of just 
one Federal agency, the USDA, for control of unwanted invasive species. 
The magnitude of the problem at the state level is demonstrated by a 
few examples. Hawaii has 956 native plant species compared to 861 
invaders. California has 83 native freshwater fish species, but an 
additional 52 invaders are also resident. Similar evidence of invasions 
is noted at the global level of view. Twenty-one of 49 resident mammal 
species in the United Kingdom are non-native including eight large deer 
or goat species. New Zealand has 1790 native plant species compared to 
1570 invaders. South Africa has 176 native freshwater fish species, but 
is also home to 52 invading species. Even remote island systems are not 
immune to invasion by non-native species. Tristan de Cunha in the South 
Atlantic has 70 native plants but 97 invaders, and South Georgia, 
surrounded by the circumpolar current of the Antarctic, has 26 native 
plants but 54 invaders. The important ``take home message'' is that the 
United States is but a part of the network of international trade that 
historically built this country, and is vital to its continuing social 
and economic wealth, but that network is also the vector facilitating a 
continuing supply of invading species to our shores. In developing 
responses to invaders already in residence, and providing control to 
stop the continuing assault, we must lead the international community 
by example for both our and their benefit. Trade routes work in both 
directions, and the adoption and application of common safeguards to 
all routes of passage that eliminate transport and delivery of invaders 
beyond their native ranges will serve all by reducing this global 
homogenization of species distributions and the subsequent ecological 
and economic stress on receptor systems.
    Efforts to control invasions and existing statutory authority to 
enable control are intimately linked and will be addressed together. 
While the Lacey Act probably best defines the principles of control at 
the Federal level a litany of Federal statutes illustrates the 
continuing and growing awareness of invasive species for well over half 
a century. These landmark actions include the Plant Quarantine Act, 
Animal Damage Control Act, Federal Seed Act, Organic Act of 1944, 
Federal Plant Pest Act, National Environmental Policy Act of 1970 
(NEPA), Endangered Species Act (ESA), Federal Noxious Weed Act, Alien 
Species Prevention and Enforcement Act of 1992, Wild Bird Conservation 
Act of 1992, Hawaii Tropical Forest Recovery Act of 1992, and Executive 
Order 13112. Lacey is worthy of special note in that it recognizes the 
role of state statute and defaults to state level authority where it is 
written in state code. My home state of Virginia is such an example 
with the Code of Virginia designating authority over intentional 
introductions of non-native species to specific state agencies.
    A powerful and important controlling Federal statute is the 
National Invasive Species Act of 1996 that provides a unifying theme to 
extant statutes. It is currently under revision and discussion for 
reauthorization. In November of 2002 I had the pleasure of appearing 
before this Committee to provide testimony of the draft revision in the 
form of House Resolution 5396. While I recommended modest changes to 
wording in HR 5396, I urged the Congress to move forward on 
reauthorization, and in doing so provide standards to reduce continuing 
invasions via ships' ballast water. We must become more aggressively 
proactive in preventing unwanted invasions, but we must do it without 
encumbering the process of international trade. I will briefly 
reiterate comment from that testimony. Innovative technologies are 
currently under development in the private sector for application in 
ballast water control. Interim standards set by this bill must provide 
specific targets for the technology developers, for without these their 
economic investment cannot be targeted at the eventual market in the 
shipping industry. The U.S. has the unquestioned capability to be the 
world leader in ballast water control technologies. I proposed adoption 
of a standard requiring 100% kill of all organisms in excess of 50 
microns maximum dimension in discharged ballast--a standard that is 
both within reach of current technologies for very large volumes and 
that would be successful in retaining all the life history stages, 
including eggs, of the vast majority of aquatic vertebrates, 
invertebrates and macroalgae. While this standard would not insure 
removal of most phytoplankton and toxic dinoflagellates that cause red 
tide blooms--a group that may well represent a very serious challenge 
to any and all of the currently researched control technologies--it 
does represent a significant advancement of current options focused on 
ballast water exchange. We should not be handcuffed by the search for 
ultimate control tools while good, although perhaps not perfect, 
technology is within our grasp to address the ecological problem at 
hand. Incremental common sense dictates employment of the best 
available tools now, and better tools in due course. The draft of HR 
5396 contained provision for continual review and improvement in 
standards as technology improves. I applaud this provision and urge its 
inclusion in the final draft of the reauthorization.
    Identification of the avenues of invasion stimulates definition of 
the technical problem for control. Technical problems stimulate 
innovation in engineering to solve the problem when a defined goal, a 
discharge standard, is set in statute. Economic opportunity drives 
process, with preservation of native ecological complexity being the 
eventual benefactor.
    Enabling legislation plays a central role in solving the continuing 
problem of environmental and economic impact of unwanted invasions. But 
that legislation must be soundly based in knowledge of how invaders 
arrived and why they survived to flourish in a novel environment. 
Despite numerous examples of successful invasions, and probably an even 
greater number of potential invasions that failed to establish, the 
global scientific community has very limited ability to predict with 
any level of certainty both the numbers and variety of invading species 
that will successfully become established in novel receptor 
environments in the near future. Future legislation must address this 
deficiency by providing funds for new and continuing research on a 
broad range of invasive species issues, and enable avenues to deliver 
the associated results to the regulatory process. Current levels of 
research and educational support are inadequate to address this 
expanding problem. Knowledge is a powerful tool that we must pursue and 
share to detect, control, and where possible, eradicate invading 
unwanted non-native species from both terrestrial and aquatic 
ecosystems of the United States. We must do better. With guidance, 
support, and a charge from Congress the scientific community will do 
better.
    Before concluding I will briefly comment on one further subject 
area, that of intentional introductions of non-native species. While 
there is increasing and warranted recognition of the deleterious and 
often highly visible impacts of non-native invasive species in this 
country, it is appropriate to note that selected non-native species do 
provide beneficial roles in the ecology and economy of our nation. For 
example, recent USDA data reports that 16% of the nine trillion-dollar 
GNP of the United States come from agricultural production and 
associated activity. More than 90% of global agricultural production is 
based on 20 plant and six animal species with widespread distribution 
from intentional introductions. Production in the United States 
reflects this focus on non-native species--European settlement of North 
America included the introduction of wheat, barley, rye, cattle, pigs, 
horses, sheep, goats and more. Indeed, the majority of U.S. 
agricultural production arguably comes from species whose genetic 
origin was not in North America and it would be interesting to 
speculate on how colonization of North America would have proceeded had 
settlers been limited to agriculture based exclusively on native 
animals and plants. The draft version of House Resolution 5396 
contained text addressing intentional introductions for beneficial 
uses. I applaud the inclusion of this in that it both recognizes a 
continuing pressure for introductions for commercial production, pest 
control and environmental restoration purposes and the need to 
carefully examine and control such actions in an environment of limited 
understanding and potentially serious, even irreversible ecological 
impact. However, I urge the final version of this legislation to 
include text recognizing the role of state rights, in addition to 
Federal responsibility, in debate of this important subject.
    In conclusion, I again thank the Committee for the opportunity to 
provide testimony. This completes my testimony.
                                 ______
                                 
    Mr. Peterson. Next we will hear from Dr. James Carlton, 
Professor of Marine Science, Williams College. Welcome.

    STATEMENT OF DR. JAMES T. CARLTON, PROFESSOR OF MARINE 
 SCIENCES, WILLIAMS COLLEGE, WILLIAMSTOWN, MASSACHUSETTS, AND 
  DIRECTOR, WILLIAMS-MYSTIC, THE MARITIME STUDIES PROGRAM OF 
    WILLIAMS COLLEGE AND MYSTIC SEAPORT, MYSTIC, CONNECTICUT

    Dr. Carlton. Good afternoon and thank you for the 
opportunity to speak before this joint oversight hearing on 
invasive species in America. My name is James Carlton. I am a 
marine biologist, and I have been working with exotic species 
invasions in coastal waters since 1962. I am also the founding 
Editor-in-Chief of the international scientific journal, 
Biological Invasions.
    My words today are as they were when I spoke here before 
Congress on June 14, 1990; June 19, 1990; October 27, 1993; 
July 11, 1996; July 17, 1996; September 19, 1996 and July 26, 
2001. My words today are the same as in my previous seven 
visits except for one major difference.
    Since I first spoke 13 years ago before the House 
Subcommittee on Fisheries and Wildlife Conservation and the 
Environment, there are now perhaps 500 more exotic species in 
this country--on our lands, in our rivers and lakes and in our 
coastal oceans. The impact of exotic species is not imagined. 
It is not in doubt. It is not xenophobia.
    Every element of the American hamburger--the wheat bun, the 
meat, the lettuce, the tomato, the pickle, the onion--consists 
of nonnative species. Rather, we have a cornucopia of clear, 
abundant, overpowering, simply walloping data that thousands of 
other exotic species in this country have led to vast 
socioeconomic, environmental and industrial impacts costing us 
billions and billions and billions of dollars. It is as simple 
as that.
    We have invasive species laws and they are important ones. 
However, in general, they are tended to by a relatively few 
hard-working people with so little funding that a few kitchen 
ants--which, by the way, are native to Argentina--could carry 
the money away.
    We play ecological roulette, we play economic roulette, we 
play industrial roulette every single minute in America with 
exotic species. Our activities are simply not speeding up or 
repeating natural vectors that transport species, such as winds 
and birds, by bridging all natural barriers; human-mediated 
dispersal transports species that would never naturally arrive 
in America.
    We have to get serious about exotic species. They need to 
be on our radar and not below our radar. We have to get serious 
funding. We have to get serious about enacting invasive species 
legislation before Congress now and not later. We have to be 
willing to be aggressive in addressing this absolutely 
fundamental economic and environmental issue.
    It is clear that Americans support this effort. The annual 
Earth Day Gallup Poll taken 2 weeks ago found that 80 percent 
of the public endorsed immediate action to prevent any further 
major environmental disruption. By the time I come before you 
and we discuss the latest most kick-butt invasions in the Great 
Lakes, in Kansas, in the Chesapeake Bay, in San Francisco Bay, 
it is by and large too late.
    If it is raining, we close the windows and then think about 
mopping up. Ladies and gentlemen, it is raining. It is raining 
exotics in the continental United States. It is raining exotics 
in Hawaii and in our territories and commonwealths such as 
American Samoa, Guam and Puerto Rico. And it is raining exotics 
in our contiguous neighbors and the windows are still open.
    Mr. Peterson. Thank you very much.
    [The prepared statement of Dr. Carlton follows:]

   Statement of Dr. James T. Carlton, Professor of Marine Sciences, 
 Williams College, Williamstown, Massachusetts, and Director, Williams-
  Mystic, The Maritime Studies Program of Williams College and Mystic 
                      Seaport, Mystic, Connecticut

    Good afternoon and thank you very much for the opportunity to speak 
before this joint oversight hearing on invasive species in America. My 
name is James Carlton. I am a marine biologist, and I have been working 
with exotic species invasions in our coastal waters since 1962. I am 
also the founding Editor-in-Chief of the international scientific 
journal, Biological Invasions.
    My words today are as they were when I spoke here before Congress 
on June 14th, 1990; June 19th, 1990; October 27th, 1993; July 11th, 
1996; July 17th, 1996; September 19th, 1996, and July 26th, 2001.
    My words today are the same as in my previous 7 visits, except for 
one major difference: Since I first spoke 13 years ago before the House 
Subcommittee on Fisheries and Wildlife Conservation and the Environment 
there are now perhaps 500 more exotic species in this country--on our 
lands, in our rivers and lakes, and in our coastal oceans.
    The impact of exotic species is not imagined. It is not in doubt. 
It is not xenophobia: every single element of the American hamburger--
the wheat bun, the meat, the lettuce, the tomato, the pickle, the 
onion--consists of non-native species. Rather, we have a cornucopia of 
clear, abundant, overpowering, titanic, and simply walloping--data that 
thousands of accidentally introduced exotic species in this country 
have lead to vast social, economic, environmental, and industrial 
impacts costing us billions and billions and billions of dollars.
    It is that simple.
    We have invasive species laws, and they are important ones. 
However, in general they are tended to by a relatively few hard-working 
people with so little funding that a few kitchen ants--which by the way 
are native to Argentina--could carry the money away.
    We play ecological roulette, we play economic roulette, we play 
industrial roulette every single minute in America with non-native 
animals and plants. Our activities are not simply ``speeding up'' or 
repeating natural vectors that transport species, such as winds or 
birds--by bridging all natural barriers, human-mediated dispersal 
transports species that could never naturally arrive in America.
    We have to get serious about exotic species. They need to be on our 
radar and not below our radar. We have to get serious about serious 
funding. We have to get serious about enacting invasive species 
legislation before Congress--now and not later. We have to be willing 
to be aggressive in addressing this absolutely fundamental economic and 
environmental issue. It is clear that Americans support this effort: 
The annual Earth Day Gallup Poll taken two weeks ago found that 80% of 
the public endorse immediate action to prevent any further major 
environmental disruptions.
    By the time I come before you and announce the latest, most kick-
butt invasions in the Great Lakes, in Kansas, in the Chesapeake Bay, or 
in San Francisco Bay, it is by and large too late. If it's raining we 
close the windows and then think about mopping up.
    Ladies and gentlemen, it is raining:
    <bullet> it is raining exotics in the continental United States,
    <bullet> it is raining exotics in Hawaii, and in our territories 
and commonwealths such as American Samoa, Guam, and Puerto Rico,
    <bullet> it is raining exotics on our contiguous neighbors, and 
the windows are still open.
    Thank you.
                                 ______
                                 
    Mr. Peterson. Next we will here from Mr. James Beers, 
Science Advisor, American Land Rights Association.
    Welcome and please proceed.

  STATEMENT OF JAMES M. BEERS, SCIENCE ADVISOR, AMERICAN LAND 
           RIGHTS ASSOCIATION; CENTREVILLE, VIRGINIA

    Mr. Beers. Thank you, Mr. Chairman. I represent the 
American Land Rights Association, an organization of small 
property owners in all 50 States. I worked for the Fish and 
Wildlife Service for 30 years in four States and Washington, 
D.C., as a wildlife biologist, special agent and refuge 
manager.
    I have enforced injurious wildlife regulations and 
investigated endangered species cases both here and in Europe. 
I have worked on invasive species control programs for nutria 
and purple loosestrife. I have attended U.N. wildlife 
conferences and represented State wildlife agencies fighting a 
threatened European fur embargo. I currently write and speak 
extensively about both endangered and invasive species.
    Mr. Chairman, it is wrong for Congress to consider passage 
of a law to confer Federal jurisdiction over any plant or 
animal occurring within the United States. Such jurisdiction 
was assigned to State governments by the Constitution and can 
only be taken from the States by a treaty or an amendment to 
the Constitution.
    Invasive species jurisdiction seizure is being attempted 
with 14 bills before Congress, Federal agency proposals for new 
programs, and United Nations plans for a proposed treaty to 
either control invasive species or restore native ecosystems, 
which is the same thing.
    Our Founding Fathers placed the jurisdiction over plants 
and animals at the State level for, among other reasons, the 
inherent responsiveness of the lowest level of government to 
citizen concerns.
    The Endangered Species Act verifies repeatedly the wisdom 
of the Fathers in this regard. That Act has eliminated 
businesses', communities' and Fish and Wildlife management 
programs and their financial support. It has justified taking 
without compensation that which was specifically prohibited in 
the Constitution. It has made professors and science responsive 
to government grants and bureaucratic regulation. It has 
changed the emphasis of many Federal agencies from proactive 
natural resource managers to public land locksmiths who 
reintroduce unwanted and harmful native species on private 
lands.
    The proposed Invasive Species program will be worse. It 
will start, like Endangered Species, with a modest list of a 
few noxious plants like leafy spurge and yellow starthistle. 
Then bureaucrats and courts will add species, subspecies, 
populations, et cetera, to the list. Soon a court will affirm a 
lawsuit that claims elimination of ``invasive species'' is a 
Federal responsibility, so its natural goal is the restoration 
of native ecosystems.
    Mr. Chairman, that goal is neither desirable nor 
attainable. The only beneficiaries of such a policy will be 
Federal agency budgets, university grant offices and 
nongovernmental organizations bent on restricting property 
rights and human uses of natural resources. Our ecosystem 
should be managed to reflect the needs, our needs, and our 
Constitution, not the socialist intentions of environmental 
philosophies.
    There is no difference between ``native'' ticks 
transmitting disease and invasive purple loosestrife taking 
over wetlands. Management or eradication should be considered 
equally based on community needs, not the species' arrival 
date.
    Many invasives are highly utilized food and cover for 
desirable wildlife. Others, like zebra mussels, clarified Lake 
Erie waters, which helped to recover a sport and commercial 
fishery. Actually, any species can be alleged by some group or 
scientists to harm something. Innumerable hidden agendas are 
poised to take advantage of Federal invasive species authority 
if it ever materializes.
    The Federal Government should stick to managing the import, 
export, interstate commerce and foreign aspects of the United 
States plant and animal community. Federal land should be 
managed to minimize harmful plants and animals. Research on 
harmful species could be conducted and shared through land 
grant universities and USDA research centers. Excess Federal 
money could be appropriated on a formula basis to the States, 
much like Pittman Robertson excise tax funds that have proven 
so successful in managing and restoring desirable wildlife 
species for 70 years.
    Today, the National Park Service seeks to eliminate highly 
desirable species like lake trout and chukars because they 
weren't where they are today in 1492 A.D. Likewise, the U.S. 
Fish and Wildlife Service is eradicating Russian olive trees 
that have been here over a century despite the fact that they 
are an important food and winter cover for pheasants, 
sharptails and migratory birds. The goal is elimination of the 
invasive pheasants and trout plus the hunters and fishermen and 
even hunting on refuges like Bowdoin in Montana.
    Ask yourself honestly what is sacred about the year 1492. 
Species have been coming and going forever. The ludicrous 
nature of all this is illustrated by the Park Service recently 
forming emergency ``swat teams'' to find invasive plants even 
though they have ignored overabundant native deer herds 
eradicating the plant communities on national parks and 
neighboring lands for decades.
    The Interior Department justifies eradication of invasive 
salt cedar trees in spite of the fact that they are a prime 
nest site for endangered willow flycatchers. They propose this 
eradication based on spurious science and questionable 
interpretation of law, unavailable to private property owners 
who have critical habitat for and endangered species designated 
on their land.
    This is similar to the dumping of toxic sludge on an 
endangered sturgeon spawning area in the Potomac River. This 
practice, presently before the Court, involves the U.S. Army 
Corps of Engineers routinely flushing toxic sludge from the 
D.C. Water Authority under EPA permit through a national park 
for years.
    Giving these agencies more authority over more species only 
invites further abuse. The Founding Fathers wisely crafted our 
Constitution to place that authority at the State level.
    Mr. Chairman, my organization and a growing cross-section 
of citizens plead with you to avoid giving the Federal 
Government any more authority over plants and animals. For the 
sake of property owners, natural resource users and for the 
sake of our American way of life, do not go down this imaginary 
pre-Columbian path. Stay to the course that history and our 
Constitution have proven was well chosen when the United States 
of America was created.
    Thank you.
    [The prepared statement of Mr. Beers follows:]

             Statement of James M. Beers, Science Advisor, 
                    American Land Rights Association

    Thank you Mr. Chairman for inviting me to testify at your hearing 
today.
    I represent the American Land Rights Association, an organization 
of small property owners in all 50 states.
    I worked for the U.S. Fish and Wildlife Service for 30 years in 
four states and Washington, DC as a wildlife biologist, special agent, 
and refuge manager. I have enforced Injurious Wildlife regulations and 
investigated Endangered Species cases both here and in Europe. I have 
worked on Invasive Species control programs for nutria and purple 
loosestrife. I have attended UN Wildlife Conferences and represented 
state wildlife agencies fighting a threatened European fur embargo. I 
currently write and speak extensively about both Endangered and 
Invasive Species.
    Mr. Chairman, it is wrong for Congress to consider passage of a law 
to confer Federal jurisdiction over any plant or animal occurring 
within the United States. Such jurisdiction was assigned to state 
governments by the Constitution and can only be taken from the states 
by a Treaty or an Amendment to the Constitution.
    Invasive Species jurisdiction seizure is being attempted with 14 
bills before Congress; Federal agency proposals for new programs; and 
United Nations plans for a proposed Treaty to either Control Invasive 
Species or Restore Native Ecosystems, which is the same thing.
    Our Founding Fathers placed the jurisdiction over plants and 
animals at the state level for, among other reasons, the inherent 
responsiveness of the lowest level of government to citizen concerns. 
The Endangered Species Act verifies repeatedly the wisdom of the 
Fathers in this regard.
    That Act has eliminated businesses, communities, and fish and 
wildlife management programs and their financial support. It has 
justified taking without compensation that was specifically prohibited 
in the Constitution. It has made professors and science responsive to 
government grants and bureaucratic regulation. It has changed the 
emphasis of many Federal agencies from proactive natural resource 
managers to public land locksmiths who reintroduce unwanted and harmful 
native species on private lands.
    The proposed Invasive Species program will be worse. It will start, 
like Endangered Species, with a modest list of a few noxious plants 
like leafy spurge and yellow starthistle. Then bureaucrats and courts 
will add species, subspecies, populations, etc. to the List. Soon a 
Court will affirm a lawsuit that claims elimination of ``Invasive 
Species'' is a Federal responsibility so its natural goal is the 
restoration of ``Native'' ecosystems.
    Mr. Chairman that goal is neither desirable nor attainable. The 
only beneficiaries of such a policy will be Federal agency budgets, 
University Grant offices, and non-governmental organizations bent on 
restricting property rights and human uses of natural resources. Our 
ecosystem should be managed to reflect our needs and our Constitution, 
not the socialist intentions of environmental philosophies.
    There is no difference between ``native'' ticks transmitting 
disease and ``Invasive'' purple loosestrife taking over wetlands. 
Management or eradication should be considered equally based on 
community needs, not the species arrival date.
    Many ``Invasives'' are highly utilized food and cover for desirable 
wildlife. Others like Zebra mussels clarified Lake Erie waters which 
helped to recover a sport and commercial fishery. Actually, any species 
can be alleged by some group or scientist to ``harm'' something. 
Innumerable hidden agendas are poised to take advantage of Federal 
Invasive Species authority if it ever materializes.
    The Federal Government should stick to managing the import, export, 
interstate commerce, and foreign aspects of the United States plant and 
animal community. Federal lands should be managed to minimize harmful 
plants and animals. Research on harmful species could be conducted and 
shared through Land Grant Universities and USDA Research Centers. 
Excess Federal money could be appropriated on a formula basis to the 
states much like Pittman Robertson excise tax funds that have proven so 
successful in managing and restoring desirable wildlife species for 70 
years.
    Today, the National Park Service seeks to eliminate highly 
desirable species like lake trout and chukars because they weren't 
where they are today in 1492 AD. Likewise the U.S. Fish and Wildlife 
Service is eradicating Russian olive trees that have been here over a 
century despite the fact that they are an important food and winter 
cover for pheasants, sharptails, and migratory birds. The goal is 
elimination of the Invasive pheasants and trout plus the hunters and 
fishermen and even hunting on Refuges like Bowdoin in Montana. Ask 
yourself honestly what is sacred about the year 1492? Species have been 
coming and going forever. The ludicrous nature of this is illustrated 
by the NPS recently forming emergency ``swat teams'' to find 
``Invasive'' plants even though they have ignored overabundant native 
deer herds eradicating the plant communities on National Parks and 
neighboring lands for decades.
    The Interior Department justifies eradication of ``Invasive'' salt 
cedar trees in spite of the fact that they are prime nest sites for 
Endangered willow flycatchers. They propose this eradication based on 
spurious ``science'' and questionable interpretation of law unavailable 
to private property owners who have Critical Habitat for an Endangered 
Species designated on their land.
    This is similar to the dumping of toxic sludge on an Endangered 
sturgeon spawning area in the Potomac River. This practice, presently 
before the Court, involves the U.S. Army Corps of Engineers routinely 
flushing toxic sludge from the DC Water Authority under EPA permit 
through a National Park for years.
    Giving these agencies more authority over more species only invites 
further abuse. The Founding Fathers wisely crafted our Constitution to 
place that authority at the state level.
    Mr. Chairman, my organization and a growing cross section of 
citizens plead with you to avoid giving the Federal Government any more 
authority over plants and animals. For the sake of property owners, 
natural resource users, and for the sake of our American way of life, 
do not go down this imaginary Pre-Columbian path. Stay to the course 
that history and our Constitution have proven was well chosen when the 
United States of America was created.
    Further explanation of these issues may be found on the American 
Land Rights Association website www.landrights.org
    Thank you and I am ready to answer any questions you might have.
                                 ______
                                 
    Mr. Pombo. [Presiding.] Recognize Dr. Kraus.

  STATEMENT OF DR. FRED KRAUS, DEPARTMENT OF NATURAL SCIENCE, 
                     BISHOP MUSEUM, HAWAII

    Dr. Kraus. Thank you. I would like to thank the members of 
the Committee for the opportunity to testify today on the 
invasive species problem in Hawaii, just to give you a broad 
overview.
    Hawaii is unique because of its geographic isolation, and 
topographic and climatic diversity have led to the creation of 
over 10,000 species of plants and animals found nowhere else on 
Earth. Similar processes lead to high diversity on other 
Pacific islands. The problem is that in the last 200 years, 
more than 5,000 alien species have become established in Hawaii 
and probably 300 to 500 of these create serious environmental 
or economic problems.
    Most of the damaging alien species are those that alter 
community structure or ecosystem function, whether those 
ecosystems are natural or man-made agrarian ecosystems. The 
rate of introduction in Hawaii of alien species is greater than 
1 million times the natural rate of colonization of the island, 
and this has led to scores of species becoming extinct, 
hundreds of species becoming endangered, and wholesale 
replacement of native vegetation cover across many of the 
islands. It has also led to wave after wave of damage to 
agricultural interests in the State.
    Current limitations for dealing with the invasive species 
problem in Hawaii and elsewhere in the Pacific are numerous. 
You have heard much already about insufficient personnel, 
insufficient funding, divided and incomplete authorities and, 
sometimes, insufficient scientific knowledge, so I am not going 
to dwell on those. I would like to make remarks though on three 
other limitations that you have probably heard less about.
    The first is what I call the mainland mind-set. This is the 
failure of mainland decisionmakers often to recognize the 
unique biological diversity or unique biological situation and 
heightened susceptibility of Hawaii and other Pacific islands 
to invasive species. As a consequence, oftentimes invasives 
arrive in Hawaii that should have been excluded at the national 
borders, but were not because they were deemed unimportant to 
temperate ecologies.
    The second limitation is the historical reliance on 
blacklists, such as is done in the Lacey Act. Blacklists, a 
listing of those species deemed especially harmful, that are 
banned import into the United States. This approach suffers 
from two limitations.
    One, there are hundreds of thousands or millions of 
potentially invasive species and you cannot list them all. The 
second limitation is that it relies on a doomed logic, which is 
that almost always you need a train wreck, an invasion disaster 
somewhere, before a species will become listed.
    The third limitation that we have in Hawaii, as elsewhere, 
is that historically the costs of alien species invasions have 
been externalized across society as a whole. And I would 
suggest that we need to internalize those costs to the 
industries that benefit from the importing activities.
    A number of successful actions have been taken in the past 
few years for dealing with the invasive species problem in the 
Pacific. In the realm of prevention, there is a highly 
successful program protecting California and the rest of the 
mainland from three species of invasive fruit flies that became 
established in Hawaii a number of years ago. What we need, 
though, is protection of Hawaii from pests on the mainland, 
too, i.e. we need a reciprocal quarantine program.
    In terms of screening, which is the best means of keeping 
out potentially invasive intentional introductions, the best 
screening system devised so far is the weed risk assessment 
devised by the Australia Quarantine and Inspection Service. It 
has been used successfully in that nation and in New Zealand 
for a number of years. It has been tested in Fiji and Hawaii 
and found predictive of invasiveness of plants we already have 
in the State; and it is currently being modified for voluntary 
use in Hawaii.
    In terms of rapid response--that is, what we do with 
species once they escape the prevention system and become 
established already--in Hawaii, we have made considerable 
progress in the last several years with so-called ``invasive 
species Committees'' based on each of the four main islands, 
which identify and target for eradication incipient invasive 
species.
    Interagency coordination is best shown perhaps by the Brown 
Tree Snake program in the Pacific, an interagency cooperative 
effort that has resulted in dramatic declines of Brown Tree 
Snake shipment from Guam to other islands. Long-term management 
has been best done by the National Park Service in the Hawaiian 
Islands and has provided models for jurisdictions elsewhere.
    Resources needed to protect Hawaii in a comprehensive 
fashion from invasives are probably on the order of about 100 
million per year, and that is based on identification of State 
resources needed, done by Coordinating Group on Alien Pest 
Species, an interagency group in Hawaii.
    In addition, as I mentioned earlier, we need Federal 
quarantine of mainland pest species arriving in Hawaii. We need 
screening systems implemented to keep out invasive intentional 
introductions, and we need authorities or incentives to promote 
eradications of incipient invasive species on private lands and 
the ability to tap contingency funds to meet those needs.
    In summary, why does any of this matter? Hawaii and the 
Pacific are among the hardest hit areas in the world by 
invasive species. We have lost scores of species to extinction 
and much of our native lands have been converted to alien 
cover. Many people interpret this as a statement that the 
situation in Hawaii and in the Pacific is lost, but it is not. 
Many thousands of unique species still remain. Many thousands, 
or hundreds of thousands, of additional alien invasive species 
could be established in Hawaii making life for people there 
much worse. Serious efforts to deal with invasive species 
problems in Hawaii and the Pacific have only begun in the past 
few years, but by providing the dedicated support and programs 
needed, the remaining rich patrimony of biological wealth in 
these islands could be preserved for future generations.
    Thank you for your attention.
    Mr. Pombo. Thank you.
    [The prepared statement of Dr. Kraus follows:]

      Statement of Dr. Fred Kraus, Department of Natural Science, 
                         Bishop Museum, Hawaii

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to present testimony today on 
invasive alien species problems in Hawaii and the Pacific.
    I am Dr. Fred Kraus and am employed as a research scientist with 
the Bishop Museum in Honolulu. I have been involved with research and/
or control work with invasive alien species since 1991, when I 
initiated and implemented control work for feral ungulates and invasive 
plants on a privately owned island in the British Virgin Islands. From 
1996 to 2001, I worked on a large variety of invasive-species policy 
and programmatic efforts for the Hawaii Department of Land and Natural 
Resources and was active in coordinating a number of inter-agency 
coalitions dedicated to addressing various aspects of the invasive-
species problem in Hawaii. For the past two years I have worked for the 
Bishop Museum and have continued research into problems involving alien 
vertebrates.
    The uniqueness of Hawaii and other Pacific islands lies in their 
isolation from continental landmasses and their great topographic and 
climatic diversity. As a result, natural colonization of these islands 
has been very infrequent and has often led to the generation of species 
unique to particular islands and archipelagos. In the case of Hawaii, 
this isolation has resulted in the evolution of approximately 10,000 
species found nowhere else on Earth, out of a total biota of 
approximately 18,000 native species. Topographic and soil variability 
have also resulted in a mix of habitats that can place tropical 
rainforests within a few miles of baked desert-like conditions, 
creating climatological transects that would occur over much greater 
distances in continental situations. For these reasons, Hawaii holds a 
significant portion of the United States' patrimony of biological 
wealth.
    However, with the breaking of natural geographic isolation by human 
activities, these native biota and ecosystems have been overwhelmed by 
the establishment of more than 5000 species of alien plants and animals 
in Hawaii in the past 200 years. This represents a rate of successful 
colonization of new species that is more than one million times the 
natural rate. This pattern shows no sign of abatement, and in the past 
five years, the Hawaii Biological Survey has documented an average of 
177 additional alien species in Hawaii each year. Under these 
circumstances Hawaii's ecological meltdown is not unexpected and can be 
represented in a number of ways. As one example, Hawaii has lost 
hundreds of species to extinction, currently has 322 species recognized 
as endangered or threatened by the USFWS (26% of the U.S. total), and 
has hundreds more that are deserving of protection but unlisted. In 
this latter category, at least 50 species have populations smaller than 
50 known individuals. Virtually all of these endangered species, except 
for the marine forms, are endangered primarily or in large part by 
invasive aliens. Alternatively, if one looks at the landscape scale, 
Hawaii has lost a massive percentage of its native habitats (Fig. 1). 
The large majority of this habitat loss is due to replacement of native 
vegetation by invasive plants--often mediated by past human habitat 
clearance--or due to total removal of native plant cover by alien 
ungulates, leaving large expanses of bare soil. Losses elsewhere in the 
Pacific are frequently in the same range, although some islands have 
fared better. Economic effects of invasives have been poorly quantified 
in the Pacific but losses greater than $150 million/yr are ascribed to 
one species of termite in Hawaii alone and economic and health costs of 
brown treesnakes in Guam have been discussed, and Hawaii's agriculture 
has been buffeted by a succession of alien pests. Despite this lack of 
research, economic costs of invasives in the Pacific are likely to be 
large in many cases.
    No well-researched effort has been undertaken to address the 
question, but a reasonable estimate is that approximately 300-500 of 
Hawaii's 5200 established alien species are ecologically damaging. This 
includes approximately 20-40 vertebrates, 150-200 plants, and an 
unknown, but large, number of invertebrates and pathogens. Areas 
invaded by individual species range from a few acres to hundreds of 
thousands of acres and the damage created by them spans a similar 
continuum, with the most damaging forms including many with the largest 
ranges. Generally, taxa that are able to alter ecosystem function or 
community structure have been especially detrimental, and prominent 
examples across the Pacific include trees, grasses, feral ungulates, 
mammalian predators, rats, and social insects like ants and wasps. 
These species are especially notorious because their effects are often 
so great as to be obvious to large segments of society. As just one 
example among many, the Neotropical tree Miconia calvescens has spread 
to cover two-thirds of Tahiti's forests in the past 70 years. As a 
result, landslides have become more common, watershed values are 
degraded, and 40-50 species now face extinction. This tree has large 
populations on the islands of Maui and Hawaii and threatens to inflict 
similar damage there should control efforts falter. Similar examples 
from the Pacific could be multiplied to the point of tedium but I will 
eschew that exercise. It is critical to remember, however, that not all 
damage is created by well-known villains. As one example, the brown 
treesnake, now widely recognized as the reason for Guam's near-total 
loss of native forest birds, was originally rejected by many as the 
cause of this loss because few could imagine a mere snake having such 
devastating ecological consequences. Similarly, concerns raised in 1997 
that coqui frogs would create problems in Hawaii were greeted with 
derision; however, these same problems have blossomed and received 
national media attention in the past few years. In many cases, 
ecological degradation in the Pacific results not from just one or a 
few key species but from the ``death by a thousand cuts'' inflicted by 
the composite magnitude of the invasion.
    The species comprising the alien invasion arrive through a variety 
of pathways, but this variety may be grouped into two major categories: 
intentional and unintentional introductions. Examples of the former 
include released pets, garden escapes, and biocontrol organisms; 
examples of the latter include hull-fouling organisms, ballast water, 
and seed contaminants. The important point to note is that pathway 
importance varies by taxon. Some groups, such as fish, mammals, birds, 
and vascular plants, are primarily introduced purposely because someone 
perceives a value for the species. Others, such as marine algae, 
landsnails, insects, and pathogens are usually unintentional, and 
unwanted, introductions. Efforts to address invasive-species problems 
often focus on only one or a few pathways but a comprehensive program 
will require that all important pathways be addressed.
    A number of factors has limited the effectiveness of our responses 
to invasive aliens in Hawaii and across the Pacific. A few of these, 
such as rugged terrain and small tax bases, are inherent to the region 
and cannot be changed. But most historical limitations are 
theoretically correctable by human action. One of the greatest current 
shortfalls in invasive-species programs in Hawaii is lack of dedicated 
personnel to do the work. Consequently, otherwise promising initiatives 
against invasives continually founder for lack of personnel to carry 
out the tasks. Responsibilities for invasives are often divided among a 
number of agencies, often saddling agencies with insufficient 
authorities and making response coordination among agencies unused to 
cooperation difficult. For example, within the State of Hawaii, 
responsibility for border inspection and quarantine lies with the 
Hawaii Department of Agriculture; responsibility for controlling 
infestations on State lands lies with the Department of Land and 
Natural Resources. But no agency has authority over most pests in the 
urban interface or other private lands, where most alien invasions 
begin. Hence, by the time invasions progress to State lands it is 
usually too late to implement effective control. Identical problems 
plague the Federal agencies. In many cases, even when these hurdles 
have been overcome, we lack the requisite ecological or control-
methodology knowledge to respond effectively. There are a large number 
of invasive species for which we lack even basic knowledge of their 
biological susceptibilities or potentially effective control methods. 
This includes most marine invertebrates, many plants, and a wide array 
of vertebrates. Furthermore, when successful cooperative inter-agency 
control or prevention programs have been implemented, such as the brown 
treesnake control program in Guam, CNMI, and Hawaii, there has been a 
failure to learn from these successes and systematize their approaches 
to address other invasive pest problems. For example, fire ants and 
West Nile virus are poised to invade the Pacific. The success of the 
brown treesnake interdiction program could serve as a model for 
proactively stopping the spread of these pests before they arrive in 
the Pacific but the opportunity is not being grasped. Finally, one 
severe limitation is unique to Hawaii and the Pacific and that is the 
failure of mainland policy-makers to recognize the biological 
uniqueness and heightened susceptibility of this region to pests that 
are no cause for concern on the mainland. As a result, Hawaii has often 
received via the mainland U.S. severely damaging pests that the USDA 
refused to prohibit U.S. entry because the pests were tropical in 
nature and would not affect mainland interests. Under these 
circumstances, it is a simple matter for a tropical country to ship 
goods to the mainland for immediate reshipment to Hawaii--goods that if 
shipped directly to Hawaii would be barred entry by the State. This 
practice has made Hawaii especially liable to decisions appropriate for 
temperate decision-makers but irrelevant to our tropical situation. And 
invasion in Hawaii often leads to pest expansion farther west in the 
Pacific because Hawaii serves as the economic gateway for much of the 
region.
    To stem the flood of invasive species, a multi-tiered approach to 
prevention and control must be implemented so as to capitalize on the 
multiplicative protection afforded by each component. Obviously, the 
most effective and efficient means of mitigating additional alien-
species problems is to prevent their introduction in the first place. 
Hence, comprehensive quarantine and screening systems should form the 
foundation for any alien-species mitigation program. Should alien pest 
species breach the quarantine barrier, the most cost-effective means of 
mitigation is to discover and eradicate newly established alien species 
prior to population entrenchment. If successful, this avoids the large 
costs of perpetual control. Lastly, for those species that have become 
firmly established, long-term control to mitigate their worst effects 
is usually the only remaining option, but this is typically expensive 
and must occur in perpetuity to be effective. Each of these approaches 
ideally should be coordinated with the others to provide a functional 
system of protections. Progress has been made in each of these areas in 
the Pacific region although successful programs have been somewhat ad 
hoc and are not yet united to form a comprehensive system of protection 
at any one locality, except in New Zealand and, to a lesser extent, 
Australia.
    Prevention includes both quarantine efforts to intercept hitch-
hiking pests in cargo and packing materials as well as screening 
systems to evaluate the potential invasiveness of species proposed for 
intentional introduction. The USDA's long-standing inspection service 
at designated ports of entry illustrates one partially successful means 
of conducting a quarantine program, although that program suffers from 
a narrow focus on only agricultural pests. The same agency's quarantine 
and inspection program protecting California agriculture from alien 
fruit flies invasive in Hawaii is a model of how effective protection 
may be afforded by a comprehensive inspection program. In this program, 
all passengers flying from Hawaii to the U.S. mainland must have their 
luggage screened by X-ray machines and certified free of produce. This 
has kept California relatively free of three species of pestiferous 
fruit flies for a number of years. A reciprocal program is needed, 
however, to protect Hawaii from the host of invasive aliens it receives 
from the U.S. mainland.
    The most effective screening system yet developed to halt the 
intentional spread of invasive aliens is the Weed Risk Assessment 
devised by the Australian Quarantine and Inspection Service. This 
quick, transparent evaluation system has been used successfully in that 
country and in New Zealand to exclude importation of invasive plants 
for the past several years. Preliminary tests have shown its efficacy 
at predicting invasiveness of alien plants in Hawaii and Fiji too and 
efforts are underway in Hawaii to get a modification of this system 
implemented on a voluntary basis to reduce the rate of importation of 
new invasive species.
    There has been success in Hawaii at implementing some level of 
rapid-response protection that involves the formation, on each major 
island, of a coalition of interested agency and non-governmental 
personnel dedicated to removing incipient populations of known invasive 
species before they become well-established and ineradicable. These so-
called invasive species committees have had considerable success in 
reducing or eradicating an array of invasive species (mostly plants) 
but efforts to date cannot be viewed as comprehensive because of the 
large standing crop of incipient invasives in Hawaii. Cessation of 
control activities for even a short period could negate many of the 
gains made in recent years. These committees also serve as successful 
local models of cooperation among a variety of agency and private 
partners to address the invasive-species threat in Hawaii. The same is 
true for the Coordinating Group on Alien Pest Species (CGAPS), which 
serves to coordinate policy actions at a statewide scale, again 
involving a wide array of government and non-governmental parties.
    Perhaps the most successful example of an integrated prevention/
rapid-response/research system protecting Hawaii and the Pacific is the 
inter-agency brown treesnake prevention program based on Guam and its 
supportive research program based in Fort Collins, Colorado. This 
program consists of comprehensive inspection on Guam of outbound cargo 
and vessels and population reduction of snake populations in port 
areas. Since implementation in 1995, the incidence of brown treesnake 
appearance in other jurisdictions has declined dramatically. This 
program could serve as a model for other species-specific prevention 
programs throughout the Pacific but despite its demonstrable success it 
continues to struggle for year-to-year funding, making its long-term 
stability uncertain. Despite this lack of base funding, this program 
does indicate one direction that a comprehensive, coordinated response 
to other invasive-species threats could successfully take.
    For the large number of invasive species that are already 
widespread and wreaking ecological havoc in Hawaii, the best model for 
long-term mitigation has been provided by the National Park Service. 
Through efforts extending over the past two decades or so, park 
managers have removed or seriously reduced several of the most 
destructive invasive pests--including ungulates, mammalian predators, 
and a wide array of plants--over large areas of Haleakala and Hawaii 
Volcanoes National Parks. These efforts have served as models used by 
other agencies in Hawaii and elsewhere in the Pacific. However, these 
impressive gains may be mooted in the future if the current trends in 
alien invasion convert these parks to postage stamps of native habitat 
with an ever-larger tide of invasives lapping at their borders. In this 
respect, should miconia, brown treesnakes, fire ants, West Nile virus, 
or other especially severe invasives arrive at park boundaries, there 
would be little hope of sustaining natural resource values within the 
parks themselves. In recognition of this, it makes sense for natural 
resource agencies to become more proactive in addressing invasive 
species threats before they reach their lands.
    Despite these successes, efforts to address invasive-species 
threats in Hawaii and the Pacific in a comprehensive fashion are still 
in the early stages of development and it is clear from experience that 
a number of unsuccessful approaches to the problem need to be avoided. 
First, it is clear that adoption of a ``black list'' approach that bars 
entry to a handful of species deemed especially harmful (an approach 
taken by the Federal Lacey Act) is doomed to failure. This is because 
it is impossible to evaluate and list more than a small percentage of 
the millions of species estimated to inhabit the planet, so large 
numbers of invasives will always pass through a screen having such 
large holes. More importantly, the irreversible nature of alien-species 
invasions logically necessitates adoption of the precautionary 
principle in order to successfully meet a reasonable standard of risk-
aversion. A black list approach does just the opposite, allowing entry 
to any species unless demonstrably shown to be harmful. The problem 
with this approach, of course, is that it logically requires that an 
ecological disaster be in place before action is taken. The screening 
systems used in Australia and New Zealand have successfully taken the 
opposite approach. Second, eradication efforts that fail to secure 
long-term support to ensure completion of the action should not be 
undertaken. Numerous attempts at eradicating incipient pests have 
failed because of underestimation of population resiliency and 
consequent under-commitment of needed resources. The effort to control 
miconia in Hawaii could easily meet this same fate. Third, the 
historically piecemeal approach taken by Federal and state governments 
in the U.S., with authorities uncoordinated among a diversity of 
agencies, cannot successfully meet the challenges posed by the 
magnitude of the invasive-species problems in this country. In Hawaii, 
we have had some success in achieving better coordination among this 
host of agencies but it is not clear if that alone will be sufficient 
to meet the challenge. Serious consideration needs to be given to the 
idea of unifying all invasive-species prevention and control efforts 
under a single biosecurity agency. Lastly, the costs of allowing 
invasive species into the U.S. have, in most instances, been 
externalized across society. These costs need to be internalized so 
that those who benefit by the importation activities have incentives to 
reduce the danger of the activities by which they benefit. The 
invasive-species problem is of such magnitude that government action 
alone, without adoption of some market incentives, will be insufficient 
to provide a complete solution.
    Resources needed to protect Hawaii and the Pacific from further 
invasive-species incursions largely fall into the categories of 
increased capacities and increased authorities. Capacity needs for 
prevention, rapid-response, and long-term control of invasive species 
in Hawaii were comprehensively estimated by CGAPS two years ago to be 
$53 million/yr in State funds (Table 1). Current total State spending 
is perhaps 10% of that. Improving Federal roles in quarantine 
inspection, research, and control would add several tens of millions of 
dollars to this figure. Hawaii and the Pacific need a Federal 
quarantine program--reciprocal to that provided the mainland--to 
protect these islands from mainland goods and passengers, which have 
been the source of innumerable invasive pests over the years. For 
preventing intentional introduction of invasives, we need functional 
plant-screening systems in place as well as research to develop similar 
screening systems for animals. To provide for effective early-detection 
and rapid-response programs we need expanded authorities to facilitate 
operations on private lands and the ability to tap contingency funds to 
eradicate pests before they explode in numbers. For this and long-term 
control programs we also need considerably more research into 
developing effective control methodologies.
    In meeting these requirements, it is important to emphasize that 
money spent earlier in the invasion process is more cost-effective than 
that spent later. Hence, priority should be given to establishing 
effective prevention programs that involve inspection and quarantine 
for unintentional introductions and screening systems for intentional 
introductions. These prevention programs should abandon the black-list 
approach for a more proactive white-list approach and should 
internalize programmatic costs to those benefitting from the 
importation activity.
    Thank you, Mr. Chairman and Members of the Committee.
                                 ______
                                 
    [An attachment to Dr. Kraus' statement follows:]
    [GRAPHIC] [TIFF OMITTED] T6708.003
    

    Mr. Pombo. Dr. Kraus, I would like to start with you. In 
your testimony, you talked about the possibility that there 
were millions of species, invasive species, thousands or 
millions of invasive species.
    If we were to adopt legislation like this, where would you 
draw the line? Where would you say this is invasive and we have 
to stop it because it is nonnative? As previous testimony has 
said, there are a lot of different species that would be 
considered invasive, so where do you draw the line? Where do 
you say this is OK and this is not?
    Dr. Kraus. You have to test for invasiveness. You have to 
distinguish between alien species, those that are not native in 
the area and those that are invasive, which is a small subset 
of alien species that actually create economic or ecological 
problems.
    So far, work to predict which species will become invasive 
has largely been restricted to plants. That is the weed risk 
assessment system. In that case, the system, at least from a 
Pacific perspective, has been sufficiently well worked out as 
to be worth implementing immediately. In the case of animals, 
far less work has been done for predicting invasiveness; and 
so, frankly, to address that aspect of the question, we need to 
invest in further research because we don't know how to predict 
invasiveness in most animal groups yet.
    Mr. Pombo. Let me just follow that up with--I guess the 
question I have in my mind is, invasiveness is somewhat in the 
eye of the beholder, and I think that is the concern that Mr. 
Beers and others have is that you can make a determination that 
the introduction of cattle into a certain ecosystem endangers 
the native plants that exist there. In fact there was a report 
that came out of the State fish and game in California on Mount 
Diablo, which is a State park, and they referred to the 
``nonnative, exotic game species from Europe'' which inhabited 
the park, and they were referring to the cattle that they 
never--anywhere in it, they never said anything about cattle. 
They always referred to them as a nonnative, exotic game 
species. And I think one of the concerns that a lot of people 
have is that we can go--by introducing something like this into 
law, we end up opening up to the bureaucracy and whatever 
agenda they may hold. So I think that is a concern.
    Dr. Kraus. I think it is a valid concern. If you are 
talking about control programs to deal with species that are 
already established, much of that work, perhaps most of it, has 
to be done at a local level and perhaps should be based on 
local desires.
    I think the largest role for the Federal Government has to 
be in preventing new species from getting into the United 
States in the first place. And in that case there are such 
largely opposing current authorities that I think additional 
legislation is needed, additional direction is needed. The 
Federal Government can help with funding because, like in the 
case of the Pacific islands, most of the populations are small, 
tax bases are small and that sort of thing.
    When it comes to actual control work on private property, 
perhaps it is not an appropriate place for the Federal 
Government to get very heavily involved, but I would want them 
as partners because in many States, Federal property often lies 
next door and you do need a coordinated response to deal with 
these problems.
    Mr. Pombo. Dr. Mann, would you like to respond to that as 
well?
    Dr. Mann. I agree there is a role here for the Federal 
Government and the prime role that I see is the prevention of 
new introductions. And as I think was eloquently stated by Dr. 
Ruiz, you have this open corridor of major vectors and they are 
desperately in need of some attention.
    Animal and plant species that are already here represent 
problems that may be insurmountable in terms of their control, 
depending upon the nature of the individual species. But 
stopping everything else at the gate is something I think the 
Federal Government should and can take the lead on.
    Mr. Pombo. Mr. Beers, we have talked a lot about this over 
the years and what role the Federal Government should play or 
can play. In 1993, I authored an amendment on the national 
biological survey bill that required the Federal officials to 
obtain written consent from private landowners before they 
inventory species on private property.
    How far would that go in alleviating what some of your 
fears are in terms of going forward with this?
    Mr. Beers. Mr. Chairman, I don't think it would relieve 
them at all. Most of these species can be seen from the road, 
can be seen on the neighboring lands, and the assumption can be 
that they are there.
    The Federal control, although you may not want it here in 
Congress and although the agencies will say they certainly 
don't want to expand it, will be placed there and caused to be 
created by courts due to lawsuits by people who have other 
agendas in mind. Those agendas are to interfere with the 
private property owner's rights on his own property, as well as 
to take public lands and make them less accessible to people.
    So there is a whole range of agendas there that I really 
don't think telling a Federal Government employee that they 
have to have authorization to go on private land would help. 
Find it in the neighborhood or nearby or something gives you 
carte blanche to say, it must be there, we can see it; and you 
are off to the races again either with the agency claiming they 
have to do something or one of these nongovernmental 
organizations going to court with a suit.
    Mr. Pombo. Well, unfortunately, I think your argument has a 
lot of validity to it and we have seen it over the years with 
the Endangered Species Act and other Federal laws that were 
started with good intentions and general agreement to do 
something, but when that hits the bureaucracy and the courts 
sometimes it gets interpreted very differently from that; and I 
think your argument holds a lot of water in that respect.
    Mr. Beers. Mr. Chairman, I would like to take the 
opportunity, if you have a moment, to answer a question that 
was asked of the other panel, which is, the Chairman at that 
time asked the question, what is--the willow flycatcher nesting 
in the tamarisk or salt cedar, what is the reason or how can 
the Federal Government eradicate or call it an invasive species 
when it is a nesting tree for an endangered species?
    I was at a briefing about a month ago where a high Interior 
official explained that they had looked into the fact that 
possibly those birds would do better in native plants so it is 
OK for the Federal Government to go in and eradicate the tree 
that they now use to nest in. And I would suggest to Congress 
it probably was never your intention nor did anyone ever 
imagine that you might take certain facets of a critical 
habitat and because you wanted to use it--in this case, the 
Federal Government--to eradicate it, that you could say that 
other alternatives are available that they should use.
    I suggest to you that that has never been made available to 
private property owners nor will it ever be. And carrying that 
activity forward in this invasive species area, I think it 
addresses what you just asked, which is the way in which the 
Federal Government may in fact may be doing it 5 or 10 years 
from now.
    Mr. Pombo. Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. If I may, with your 
concurrence, enter into the record a statement of my colleague, 
our colleague, Mr. Ortiz, relative to this meeting.
    Mr. Pombo. Without objection.
    [The prepared statement of Mr. Ortiz follows:]

   Statement of The Honorable Solomon P. Ortiz, a Representative in 
                    Congress from the State of Texas

    Mr. Chairman, I want to thank you for holding this important 
oversight hearing today. As everyone here today knows so well, the 
ever-increasing problem of invasive species hits many of the different 
regions of the country.
    In my congressional district in South Texas, the mighty Rio Grande 
River has failed to reach the Gulf of Mexico and much can be attributed 
to the hydrilla in the river. Along several stretches of the River you 
can see patches of this weed holding up water that many municipalities 
along the border depend on.
    There is lots of work, money, and coordination being done to 
eradicate and control these weeds. But not enough has been done.
    I look forward to hearing from the panel of witnesses as we 
continue to find ways to solve this problem.
                                 ______
                                 
    Mr. Grijalva. And the other request would be if we could 
leave the record open for follow-up questions that might be 
generated at a later time.
    Mr. Pombo. As is customary, the record will be held open 
for questions that would be submitted in writing to the 
panelists and give them enough time to answer those questions 
so it will be included in the record.
    Mr. Grijalva. Just very general questions, Mr. Chairman.
    And if I may, I would like to begin with Dr. Mann, based on 
your comments. But the question is, what is the most pressing 
policy need for managing invasive species? From the statements 
you made previously, I think in the last question, I think it 
would be the issue of prevention.
    But if you could elaborate on that, Dr. Ruiz or Dr. 
Carlton.
    Dr. Mann. I would welcome comments from my colleagues. As I 
see it, we have a broad spectrum of available statutes that are 
available as tools to address this issue. What I think is one 
of the more difficult situations, as you develop and watch 
these pieces evolve, is how you actually enforce them.
    The National Invasive Species Act and the ballast water 
piece of that I think is a classic example of the problem we 
face. We know there is a problem. How do we treat ballast 
water? How do we set a standard? Amongst the academics at this 
table we can debate all day what the appropriate standard 
should be.
    I think out in the real world there are people who are 
working with technologies who can address various options that 
are available. Should we wait until the academics here decide 
on the perfect standard and then develop the perfect 
technology? And the answer is no. But somewhere in the midst of 
it, we need to move forward with getting people who are 
developing technologies into the situation where we can apply. 
And even though they may not be perfect at this point in time 
they will assist in the process of prevention. And prevention 
here is the major issue.
    So we are going to be dealing with continual evolution and 
evaluation and reevaluation of useful pieces of legislation 
that will assist in the prevention cause. That is one part of 
the role that I think the Federal statutes can play a leading 
role in. And even though we may disagree on some details, I 
think that is a consensus all would agree to.
    The other part of that in terms of how we deal with things 
that are perhaps already here, all things that might be 
intended to be brought here--and the reason why I mentioned 
State's rights and Lacey in this--is that there are some clear 
divergent opinions between the panelists who have been here as 
to what the Federal and the State roles are.
    I think the real point is that the Federal, the State, the 
local and the academic communities all have something to 
contribute to this, and that is very important when we look at 
any of the questions of either prevention at the local level, 
or potential threats. Clearly threats in Alaska are different 
from threats in Hawaii and different from threats in Virginia.
    There is a lot of expertise that can help if we can somehow 
round them all up and focus in on the issue. And that is 
something that we need to do no matter whether we are looking 
at prevention of potential introductions, whether we are 
looking at eradication of things that are locally acknowledged 
at this point; and this is why I say education is so important.
    The public citizenry are really our first line of defense. 
If you look at the public education that went along with zebra 
mussel invasions, it was an immense and very important event. 
People became enjoined. I think we need to do that in a broader 
sense because they are our first line of defense in telling us, 
hey, something is wrong out there.
    We need to get those involved and we need to do it at all 
levels. I think if what we are working with at the Federal 
level can try to wrap some arms around what is available at the 
State level and bring them together as a marriage rather than 
as an adversarial potential divorce, I think we will be doing a 
lot of good things. The pieces are there to do that. I'm not 
quite sure how to construct it.
    Mr. Grijalva. Thank you.
    If I may, Mr. Chairman, in your comments, Dr. Carlton, you 
talked about the many times that you have come before Congress 
and as follow-up to that, maybe the question as to what extent 
is the damage we are talking about now in invasive organisms to 
our natural resource base permanent versus restorable?
    Dr. Carlton. It is in general hard to reverse much of what 
we have done in terms of the species that have arrived, that 
have caused some of the most severe economic or industrial or 
social or recreational impacts. By the time that we have 
engaged a lot of our concern, many of these species are 
extraordinarily widespread and would require an investment of 
money that would far exceed anything that we have ever been 
willing so far to attempt. That has all led us, again and again 
and again, to prevention, which is that the history of the 
invasions that we have seen which have changed quality of life 
and many other aspects in this country of environmental and 
social conditions lead us to consider that one of the best 
solutions is to prevent future unwanted invasions in a 
roulette-type manner. That is, species that come in through 
many, many different vectors, which we cannot predict when and 
where they will arrive, nor very often whether or not if they 
are benign in their country of origin, they would have become a 
nuisance species or pestiferous in this country. So with the 
history of exotics, the history of our inability really to 
reverse major damages, that bring us very much to this table of 
wanting to prevent future invasions.
    Mr. Grijalva. Thank you.
    Mr. Chairman, I think for Mr. Grau or Mr. Beers, either/or 
or both, you both made the comments that many introduced 
species have beneficial attributes. The question is how do you 
propose managing the distribution of a species that, say for 
instance, has beneficial attributes in one habitat but 
devastating and harmful attributes in another? How do we manage 
that?
    Mr. Grau. I think one of the key issues there, you 
mentioned devastating effects. Part of the problem here is who 
makes the definitions. Some of these things, I think, like the 
brown tree snake, I don't think you get any opposition to. But 
defining these things is part of the problem. I guess to me it 
is kind of a hard question to answer. However, the free market 
system that has been in effect for as long as we have been 
here, at least for the most part, has pretty much worked. We 
don't really have a whole lot of--and of course my area is more 
terrestrial plants. But when you look at all the importations, 
intentional and unintentional, and look at what American 
agriculture is today, where you are fed by February 2nd now, 
the average person's income, you are fed by February 2nd. So 
largely because of introduced species--yes, you have some 
things like yellow starthistle and nap weed particularly 
affecting the West, but, No. 1, these were unintentional.
    So I think if I understand your question correctly, it is 
the marketing system of these things that could be good in one 
place and devastating in another. And I would have to think 
pretty hard to find a species that is on the commercial market 
today, at least with plants, that would fit your description.
    Mr. Grijalva. Let me just follow up if I may, Mr. Chairman. 
In a partial answer to your question and my question, how do 
you determine? Would developing better--given the importance of 
the State role--State assessment tools for early detection and 
rapid response to help determine whether a plant or animal will 
have different invasive capabilities depending on the 
surrounding ecosystem, to test that benefit or test that harm. 
Therefore, those assessment tools are within the State and that 
empowerment that we talked about.
    Mr. Grau. I don't know. I've seen some of these predictive 
models that just flat wouldn't work. One of the things I have 
thought about is if everybody would agree that food production 
is of primary importance that perhaps the Secretary of 
Agriculture would have veto power. Some of these things get 
pretty bizarre when you get right down to it. I mean, orchard 
grass is one that is on a lot of eastern lists.
    I know I am getting back to terrestrial plants which maybe 
isn't your area, but it is a good example. Here is something 
that is integral in eastern beef and milk production. Yet it is 
on a lot of lists. If the ag sector, maybe under the Secretary 
of Agriculture or something like that could have veto power, 
maybe that would help. Because when you look at the people that 
are making these decisions, it is very weighted toward one 
side. Take any of these State or Federal councils or whatever, 
and just go down who these people are that are on these 
Committees. Often there is not even anybody from the private 
sector. If it is, it is like a 10-to-1 ratio.
    I guess I have probably taken enough time. Sorry.
    Mr. Grijalva. I don't have anything else, Mr. Chairman. 
Thank you.
    Mr. Pombo. Thank you. I want to thank this panel for their 
testimony. Before I excuse you, I want to apologize to those of 
you, I didn't hear all of your oral testimony in the previous 
panels, but I want to tell you, I appreciate your testimony in 
answering the questions as was asked.
    The record will be held open for members to submit written 
questions that will be given to you, and if you could respond 
to those in writing in a timely fashion so that they may be 
included in the hearing record.
    Mr. Pombo. I would also like to ask unanimous consent that 
a statement from Pacific Ballast Water Group also be included 
in the record.
    [The statement from Pacific Ballast Water Group follows:]

    [GRAPHIC] [TIFF OMITTED] T6708.005
    
    [GRAPHIC] [TIFF OMITTED] T6708.006
    
    [GRAPHIC] [TIFF OMITTED] T6708.007
    
    [GRAPHIC] [TIFF OMITTED] T6708.008
    

    Mr. Pombo. Seeing no further business, this hearing is 
adjourned.
    [Whereupon, at 4:05 p.m., the joint Subcommittee was 
adjourned.]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
